<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2020</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


              DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2020

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION

                                __________

                         SUBCOMMITTEE ON DEFENSE

                  PETER J. VISCLOSKY, Indiana, Chairman
                  
  BETTY McCOLLUM, Minnesota		KEN CALVERT, California
  TIM RYAN, Ohio			HAROLD ROGERS, Kentucky
  C. A. DUTCH RUPPERSBERGER, Maryland	TOM COLE, Oklahoma
  MARCY KAPTUR, Ohio			STEVE WOMACK, Arkansas
  HENRY CUELLAR, Texas			ROBERT B. ADERHOLT, Alabama
  DEREK KILMER, Washington		JOHN R. CARTER, Texas
  PETE AGUILAR, California		MARIO DIAZ-BALART, Florida
  CHERI BUSTOS, Illinois
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  
  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

     Rebecca Leggieri, William Adkins, David Bortnick, Matthew Bower,
      Brooke Boyer, Jenifer Chartrand, Walter Hearne, Paul Kilbride,
    Hayden Milberg, Shannon Richter, Jackie Ripke, Ariana Sarar, and 
                            Sherry L. Young
                            Subcommittee Staff

                             _______________

                                  PART 1

                                                                   Page
  United States Military Academies..... ..........................    1                          
                                                                                                            
  Fiscal Year 2020 National Guard Bureau..........................   77
                                                                         
  Fiscal Year 2020 United States Air Force Budget.................  197
                                        
  Fiscal Year 2020 United States Army Budget......................  261
                                        
  Fiscal Year 2020 United States Navy and Marine Corps Budget.....  329
                                        
  Fiscal Year 2020 Department of Defense Budget...................  425
                                        

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                 
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-643                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                  NITA M. LOWEY, New York, Chairwoman

MARCY KAPTUR, Ohio				KAY GRANGER, Texas			
PETER J. VISCLOSKY, Indiana			HAROLD ROGERS, Kentucky
JOSE� E. SERRANO, New York			ROBERT B. ADERHOLT, Alabama
ROSA L. DELAURO, Connecticut			MICHAEL K. SIMPSON, Idaho
DAVID E. PRICE, North Carolina			JOHN R. CARTER, Texas
LUCILLE ROYBAL-ALLARD, California		KEN CALVERT, California
SANFORD D. BISHOP, JR., Georgia			TOM COLE, Oklahoma
BARBARA LEE, California				MARIO DIAZ-BALART, Florida
BETTY MCCOLLUM, Minnesota			TOM GRAVES, Georgia
TIM RYAN, Ohio					STEVE WOMACK, Arkansas
C. A. DUTCH RUPPERSBERGER, Maryland		JEFF FORTENBERRY, Nebraska
DEBBIE WASSERMAN SCHULTZ, Florida		CHUCK FLEISCHMANN, Tennessee
HENRY CUELLAR, Texas				JAIME HERRERA BEUTLER, Washington
CHELLIE PINGREE, Maine				DAVID P. JOYCE, Ohio
MIKE QUIGLEY, Illinois				ANDY HARRIS, Maryland
DEREK KILMER, Washington			MARTHA ROBY, Alabama
MATT CARTWRIGHT, Pennsylvania			MARK E. AMODEI, Nevada
GRACE MENG, New York				CHRIS STEWART, Utah
MARK POCAN, Wisconsin				STEVEN M. PALAZZO, Mississippi
KATHERINE M. CLARK, Massachusetts		DAN NEWHOUSE, Washington
PETE AGUILAR, California			JOHN R. MOOLENAAR, Michigan
LOIS FRANKEL, Florida				JOHN H. RUTHERFORD, Florida
CHERI BUSTOS, Illinois				WILL HURD, Texas
BONNIE WATSON COLEMAN, New Jersey
BRENDA L. LAWRENCE, Michigan
NORMA J. TORRES, California
CHARLIE CRIST, Florida
ANN KIRKPATRICK, Arizona
ED CASE, Hawaii
  
                 Shalanda Young, Clerk and Staff Director

                                   (ii)

 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2020

                              ----------                            

                                      Wednesday, February 13, 2019.

               UNITED STATES MILITARY ACADEMIES OVERVIEW

                               WITNESSES

LIEUTENANT GENERAL DARRYL A. WILLIAMS, SUPERINTENDENT, UNITED STATES 
    MILITARY ACADEMY
VICE ADMIRAL WALTER E. ``TED'' CARTER JR., SUPERINTENDENT, UNITED 
    STATES NAVAL ACADEMY
LIEUTENANT GENERAL JAY B. SILVERIA, SUPERINTENDENT, UNITED STATES AIR 
    FORCE ACADEMY

                Opening Statement of Chairman Visclosky

    Mr. Visclosky. The Subcommittee on Defense will come to 
order. This morning the subcommittee will receive testimony and 
an update on the military service academies.
    We welcome our three witnesses; Lieutenant General Darryl 
Williams, Superintendent of West Point; Vice Admiral Ted 
Carter, Superintendent of the Naval Academy; and Lieutenant 
General Jay Silveria, Superintendent of the Air Force Academy.
    Gentlemen, thank you very much for appearing today. We 
appreciate you being able to share the current state of the 
military academies. Additionally, on behalf of all the members 
I want to thank you for changing the date of your testimony 
given the cancellation of votes yesterday. We do appreciate 
very much you staying over.
    Some of the topics for today's hearing that I hope we can 
hear more about include the mission structure and academics at 
each of the service academies and how our academies are 
reflecting the national defense strategy. A discussion of 
maintenance and restoration efforts of buildings and facilities 
at each location, West Point and the Naval Academy that have 
buildings over 100 years old and the Air Force Academy whose 
buildings are all roughly the same age as the institution. And 
some of the social issues each academy is dealing with, notably 
sexual assault and harassment and what way is forward.
    We also look forward to hearing what more we as members of 
Congress can do to help the service academies in the nomination 
process.
    With that, again, I thank you again for appearing before 
the committee today to discuss these issues, and now I would 
like to recognize my friend and distinguished ranking member, 
Mr. Calvert, for any comments he has.

                     Opening Remarks of Mr. Calvert

    Mr. Calvert. Thank you, Chairman Visclosky, and welcome to 
our witnesses. I look forward to hearing from each of you. As 
you know, every Member of Congress has the ability to nominate 
promising young men and women to each of your academies. It is 
an honor to be accepted to your institutions. Each has a long 
and honorable history of graduates who go on to serve our 
country with distinction.
    I take my responsibility in the nominating process very 
seriously and convene a committee of retired service members to 
interview candidates and assist me in the selection process. 
One of my West Point appointees was First Lieutenant Todd 
Bryant. Todd was from Riverside, California, and was 23 when he 
was killed in action in the Iraq war. He had been there for 
about 2 months. Todd was married shortly before he shipped out 
and also interned in my office. He joked he would run for my 
seat one day. The loss of Todd is a reminder of the solemn duty 
we have in nominating young people to the academies and 
providing for them after they graduate and begin service in 
their respective branch.
    The young men and women who attend your institutions are by 
and large our future leaders. I look forward to hearing about 
the condition of your facilities, your curriculum to ensure we 
are training the next generation of officers to meet the 
national security challenges we face. I also understand we are 
going to hear from you about the recent report on sexual 
assaults. The young men and women at your academies are held to 
high standards, as they should be. I look forward to hearing 
from you about how you plan to address those concerns.
    Again, I appreciate your years of dedicated public service 
to our Nation, and I look forward to your testimony. I yield 
back.
    Mr. Visclosky. Thank you very much. Gentlemen, your full 
written testimonies will be placed in the record, and members 
have copies at their seats. My intention is to allow members 
multiple rounds for possible questions, and therefore, in the 
interest of time, I would strongly encourage each of you to 
keep your summarized statements to about 5 minutes.
    I would also strongly encourage you to be complete in your 
answers but very concise so members can have multiple questions 
per round. With that, we will begin with General Williams and 
move from left to right from your shoulders.

                 Summary Statement of General Williams

    General Williams. Chairman Visclosky, Ranking Member 
Calvert, and distinguished members of the subcommittee. Thank 
you for the opportunity to discuss the state of the United 
States Military Academy, and on behalf of the entire West Point 
team, thank you for your support to the academy and our 
programs.
    West Point continues to develop smart and thoughtful 
leaders of character who will fight and win in the crucible of 
ground combat, and we are prepared to lead in this complex age 
of persistent conflict. We expect our graduates to live 
honorably, lead honorably, and demonstrate excellence.
    To move the academy forward in concert with the Army's 
priorities, we have developed five priorities that focus our 
efforts and enable us to achieve our mission. Developing 
leaders of character, strengthening the culture of character, 
building our team of cadets, staff, faculty, and coaches, 
modernizing, securing, and reforming West Point, and 
strengthening our partnerships with the Army, Department of 
Defense, allies and partners, the civilian sector, academia, 
and of course, the American people. These efforts posture the 
academy to best support Army readiness and modernization and 
enable the long-term development of leaders with the high 
standards our Nation deserves from the profession of arms.
    While the vast majority of our cadets and graduates 
exemplify true leaders of character, recent survey results on 
sexual assault and sexual harassment remind us that our work 
will never truly be completed. I can assure you that we are 
determined, vigilant, and committed to addressing this problem 
and to meeting the American public's expectations for honorable 
service. We must eradicate sexual assault and sexual harassment 
at West Point.
    Critical to our success in achieving these efforts are the 
academy's three greatest strengths: The outstanding young men 
and women who comprise the corps of cadets, the dedicated and 
talented military and civilian professionals who make up our 
team of staff, faculty, and coaches, and most importantly, our 
Army values and the West Point ideals of duty, honor, and 
country.
    We are confident that we are on the right path to best 
support the Army and the national defense strategies by 
graduating the leaders of character who are comfortable with 
complexity and who are ready to deploy, fight, and win when and 
where required. Of course, we continue to measure our success 
in the thousands of West Point graduates who serve and lead 
with distinction in the Army, industry, and government 
throughout the Nation.
    Thank you for the opportunity to speak with you today. I 
invite you to visit West Point to see firsthand our amazing 
cadets, staff, faculty, and coaches. I look forward to your 
questions.
    [The written statement of Lieutenant General Williams 
follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Visclosky. Thank you very much.

                  Summary Statement of Admiral Carter

    Admiral Carter. Chairman Visclosky, Ranking Member Calvert, 
and distinguished members of the subcommittee, thank you for 
the opportunity to appear before you today on behalf of the 
United States Naval Academy. Our mission is to develop 
midshipmen morally, mentally, and physically and to imbue them 
with the highest ideals of duty, honor, and loyalty. I am 
pleased to report to you that the Naval Academy is succeeding 
in its mission and in no small part due to the support of 
Congress.
    This past summer, we graduated over 1,000 members of the 
class of 2018. Seventy-five percent were commissioned into the 
United States Navy as Ensigns where the vast majority will 
serve as surface warfare officers, submariners, aviators, Navy 
SEALs, and explosive ordnance disposal officers. Twenty-five 
percent were commissioned as Second Lieutenants in the Marine 
Corps. Feedback from the fleet as in past years is that the 
Naval Academy is producing junior officers with the skills 
necessary to successfully lead Sailors and Marines.
    Thanks to the dedicated admissions outreach efforts and 
your support, the Brigade consists of midshipmen from every 
state and every district in our union, increasingly 
representing the nation it has sworn to protect and defend. 
Moreover, the Brigade of Midshipmen is comprised of 28 percent 
female and 36 percent minority midshipmen. The Brigade is the 
most diverse it has been in the Naval Academy's 173-year 
history, and they are excelling with a record high 90 percent 
of the original class of 2019 on track to graduate this May.
    The Naval Academy's rigorous academic program ranks as one 
of the best undergraduate programs in the country due largely 
to an incredible faculty that continues to innovate their 
curricula to better prepare our future war fighters. This past 
summer, our two most recently added majors, nuclear engineering 
and cyber operations, were fully accredited, with cyber as one 
of only four accredited programs in the entire Nation.
    While I am proud of the accomplishments of our faculty, 
staff, coaches, and most importantly, the Brigade of 
Midshipmen, I do have concerns. Despite dedicated efforts by 
Naval Academy leadership and the Brigade, we continue to 
experience incidents of unwanted sexual contact within our 
ranks. I and the rest of my leadership team have actively 
sought out professional advice from the experts on the best 
strategies to reduce this scourge within our student body, and 
we have implemented initiatives to drive improvements. We must 
do better.
    I am also troubled with the current state of the Naval 
Academy's infrastructure. Stemming from highly pressurized 
budgets as a result of the 2013 sequestration, the Department 
of the Navy has taken risks by underfunding capital investments 
in installation operations in order to fund other critical war 
fighting readiness and modernization requirements. Fortunately, 
the Naval Academy has recently experienced increased levels of 
funding for infrastructure sustainment and modernization which 
are providing welcome relief.
    While I am concerned with the ability to maintain this 
national historic landmark, I am committed to ensuring that the 
safety, security, and quality of the working, learning, and 
living environment is sustained well into the future. Thank you 
for your time today. I am prepared to address your questions.
    [The written statement of Vice Admiral Carter follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Visclosky. Thank you very much.
    General Silveria, please.

                 Summary Statement of General Silveria

    General Silveria. Chairman Visclosky, Ranking Member 
Calvert, and other distinguished members of the committee, 
thank you for this opportunity to provide updates on the 
current events, successes, and challenges at the United States 
Air Force Academy. I appreciate your interest in the military 
service academies, institutions I am confident all three 
superintendents here would agree play a vital role in 
reinforcing the strength and effectiveness of our services and 
in shaping the future of our military and the modern profession 
of arms.
    As superintendent of the Air Force Academy, I am here on 
behalf of our 4,281 cadets and 203 preparatory school cadet 
candidates as well as the faculty and staff that are developing 
them into the future leaders of our Air Force.
    I tell our cadets that they will soon graduate and stand 
beside me in uniform, and before long, they will replace me. It 
will be their responsibility to guide our Air Force and make it 
their own. We need our cadets to be more creative, innovative, 
and inquisitive than ever before.
    We need them to look at the application of air power 
differently and to broaden that consideration of capability 
with their rapidly advancing knowledge in space, cyber remotely 
piloted aircraft, and beyond. Through that lens, our service 
academies are an incredibly important investment in the future 
of our national security.
    In the more than 33 years I have had the privilege to wear 
this uniform since my graduation, our academy and our military 
have changed quite a bit, but our mission has not, and neither 
has our enduring dedication to our core values. My priority as 
superintendent, reinforce the dedication as we prepare agile 
leaders for a rapidly changing future. To that end, our 
priority must be to develop leaders of airmen who are 
innovative, who are rooted in a warrior ethos, and possess 
impeccable character. A culture of dignity and respect is 
foundational to the priorities I have just mentioned and 
everything we do at our academy.
    In this hearing, we will discuss areas of misconduct that 
demonstrate a severe lack of dignity and respect and have no 
place at our academies and in our military; sexual harassment 
and sexual assault. We are committed to addressing these issues 
head on to be an example for our Air Force, Department of 
Defense, and society. In short, we must do more.
    Our society is changing swiftly, and we must lead these 
developments. Our newest class at the academy included our 
highest percentage of women applicants, and we expect the class 
of 2023 to be even higher. This year we accepted the highest 
number of minorities into the class of 2022 in our history. We 
are not done on this front, and we will continually strive to 
improve these numbers so that our academy more closely reflects 
the society it serves and possesses the greatest strengths of 
the diversity of that society.
    In nearly every interaction I have with our cadets, I am 
struck by their ambition, their intellect, their drive to 
become outstanding leaders. They are participating in a program 
built on four pillars of academics, military training, 
athletics, and character development. This year we have two 
Rhodes Scholars. Our research programs continue to be among the 
top in the country. Our cadets fly airplanes, operate remotely 
piloted aircraft, they operate satellites, and they operate in 
cyberspace.
    Our military training program is a rigorous 47-month 
experience that prepares cadets to be leaders of airmen. Every 
one of our cadets is an athlete. One quarter compete against 
the best in the country in Division I athletics. Through 
character development, they are building a foundation of moral 
excellence that will guide them throughout their careers.
    I can tell you from my personal experience that modern 
combat is rapidly changing and will continue to be more 
complex. But one of the privileges of this role is that I get 
to see the future of our Air Force in our cadets. I encourage 
each of you to visit our academy, and I am confident that you 
will agree that these cadets are nothing short of incredible. 
They are up to this task, and it is our responsibility as 
leaders to ensure they are prepared to actively shape that 
future. The national security of our next generation depends on 
the investment we are making in these promising young leaders 
now. Thank you for the opportunity to speak today, and I look 
forward to your questions.
    [The written statement of Lieutenant General Silveria 
follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    Mr. Visclosky. General, thank you very much. I want to 
thank each of your testimony and also for setting a wonderful 
precedent for all our future witnesses for the next 2 years.
    Before I turn to Mr. Calvert for any questions he may have, 
I will thank Mr. Womack because we are a collegial body, and it 
was Mr. Womack's suggestion that we hold this hearing today, 
and I thank him for that very good idea.
    With that, I will turn to Mr. Calvert.

                       NATIONAL DEFENSE STRATEGY

    Mr. Calvert. Thank you, Mr. Chairman, and thank you for 
giving me the opportunity to make a statement and ask a 
question.
    I would like to say a quick note on the issue of sexual 
harassment, sexual assault at the academies. I know several of 
my colleagues will be covering this topic in their questions, 
and I want to give them the opportunity to do that. I would 
just like to say that we hold our public institutions, 
especially the military, to higher standards. All cadets, 
especially female cadets, must be made to feel safe and free 
from any kind of harassment or assault. And I certainly 
appreciate all of you sharing your thoughts and action plans 
with both myself and Chairman Visclosky prior to these 
hearings.
    For the well being of our young people at the academies, we 
will hold you to your word, to continue to account for the 
problem and find solutions.
    However, the question I would like you to address is how 
the national defense strategy which calls for a shift away from 
counterinsurgency to focus more on China and Russia has 
impacted your training and education curriculum. As our 
adversaries become more adept at operating in the gray zone, 
cyber attacks, proxy wars, information warfare, how are we 
preparing our future leaders to fight and win in this new type 
of conflict?
    General Williams. Ranking Member, thank you very much for 
your question. The defense strategy, and the Secretary of 
Defense asked us to have a more lethal force, and my Army 
leadership has asked me to focus on readiness. So readiness is 
the number one priority of the United States Military Academy, 
and we do that through our leadership development strategy. We 
get at that through living honorably, leading honorably, and 
demonstrate excellence.
    So the cadets--my friends talked about the different 
pillars. Those same pillars exist at West Point. We have an 
academic pillar, a military pillar, a physical pillar, but the 
most importantly piece as was mentioned earlier was character, 
and so all four of those pillars work together. Our cadets in 
their curriculum are allowed to travel and see the environments 
they are potentially going to be in.
    We have an academic enrichment program where cadets can 
travel abroad and understand future environments, understand 
future allies that we are going to partner with. We also have a 
variety of languages that we speak, that we teach at West 
Point, whether that be from Portuguese to Russian where cadets 
are exposed firsthand to the environment they are going to be 
in.
    I would also say that cyber is a very important future 
aspect of this new environment, this multi domain operation 
battlefield that we are going to fight in, so we have a real 
strong effort in cyber operations. We have 25 cadets who will 
branch this year, both male and female cadets, into cyber 
operations.
    Admiral Carter. Sir I will echo some of the comments from 
my colleague from West Point in that we have international 
programs, and we are creating leaders of character that will 
make a difference for our Navy and Marine Corps.
    A couple of additional points. The academic curricula that 
we have at the Naval Academy is developed based on the needs of 
the fleet. Now, when we graduate our young men and women that 
go into the Navy at 75 percent, 25 percent in the Marine Corps, 
as you heard me say in my opening statement, they go into war-
fighting roles.
    Roughly 95 percent of our graduates are in those war 
fighter roles. However, in this developing need, especially in 
the cyber sphere and intelligence, our number of commissioned 
officers have grown in that community. This year we will 
commission 49 Ensigns into the information warfare community, 
24 of whom will be cryptologic warfare or cyber warriors. This 
is a shift based on the needs of the Navy, and it is also 
reflective of the curricula that we have at the Naval Academy.
    I mentioned the development of a cyber operations major, 
the development of a nuclear engineering major, operations 
research, an economics major that had been part of our liberal 
arts portion of our academy, now it is a STEM-based major. So 
with 25 different academic majors to offer, 20 of them are in 
the STEM field, and we feel that is the type of technological 
background and engineering background that our young men and 
women will need to lead, fight, and win in the future.
    General Silveria. Sir, thank you for the question and the 
opportunity. I will add that the Air Force Academy, similar to 
the other two academies, very robust in our international 
programs. We think that that cultural awareness as in the 
national defense strategy, the importance of partnerships and 
alliances, is crucial. And so we all have very robust 
international programs that can develop on that cultural 
awareness and the language awareness.
    I think for us in the area of technology advancement, we 
are consistently among the top research institutions in the 
country, and when you consider that we are an undergrad only 
institution, we recently had six cadets that were awarded 
patents for their work and one recently in the area of cyber. 
We focused a lot of our cadet for seniors in their curriculum 
in the area of research, so they have an experiential program. 
I point that out because that is where we get the innovative 
critical thinking skills to take on the national defense 
strategy and take on future conflicts that we are going to 
need.
    In the area of cyber and artificial intelligence, our 
cadets continue to do research and continue to stretch those 
technologies, but just as my colleagues have mentioned, we also 
this year have the highest number of cadets that are graduating 
into our space field, into our cyber field, and into our 
remotely piloted aircraft field than we have ever had in the 
past. That really shows the leading edge of technology and what 
we will need in modern combat.

                                PATENTS

    Mr. Calvert.  Thank you. Just a real quick follow up 
because you brought that up. When a student files a patent, 
does that accrue to the benefit of the student, or does that 
accrue to the benefit of the institution?
    General Silveria. Sir, the ones we have now are 
intellectual property that the cadets have earned. We had a 
cadet just earn one in the area of cyber, but it is his 
intellectual property.
    Mr. Visclosky. Ms. McCollum.

                             SEXUAL ASSAULT

    Ms. McCollum. Thank you, Mr. Chair. I want to touch on--
because I think we are going to have another round of questions 
on the sexual assault. The report that just came out, and I 
looked at it again last night, and I have it in front of me, 
the Department of Sexual Assault Prevention and Response 
Office, indicated nearly a 50 percent increase in unwanted 
sexual contact across the academies since 2016.
    So I am going to ask you a couple of questions, but I want 
to take a couple of words right out of the report. One thing 
that--and these are not your words, gentlemen. These are from--
I am trying to read and talk at the same time.
    This is from the executive summary of the report. It is 
from page 5. And the second to the last paragraph disturbs me 
with the choosing of the words of the Pentagon in this report. 
Fewer cadets and midshipmen chose, chose, to make sexual 
harassment complaints this year than last. Chose.
    That means they decided to do or not to do. This shouldn't 
be a choice. This should be something that is reported when it 
happens because when I read the word choose, that means someone 
still might be out there worried about a black mark, a stain on 
their record, not being taken seriously and that, but these 
were not your words, gentlemen. These were the words of the 
Pentagon. So I am going to follow up with why they chose that 
word because I find that very interesting, and words are very 
powerful. And when people write executive summaries, to drill 
down on this word again, they choose their words very 
carefully.
    The other thing that is in the report, and we talked about 
it a little bit, and sir, I am sorry I didn't get to hear 
directly from the Air Force. It was no one's fault. It was 
weather. But in our conversations, you touched on alcohol, and 
one of the things in the report says U.S. Military Academy.
    Alcohol is estimated to be involved in over half of the 
unwanted sexual contact events specifically. 52 percent events 
described by female cadets, 59 by male cadets.
    The Naval Academy. Alcohol is estimated to be involved in 
over half of the unwanted sexual contacts, specifically 72 
percent of the described by female shipmen, 49 by male shipmen.
    The Air Force Academy. The same number, same thing again on 
alcohol, 65 percent described by female cadets. I think that is 
supposed to say doolies, or is that just first term.
    General Silveria. That is just the first term.
    Ms. McCollum. That is just the first term cadets and 62 
percent by male cadets. So we did talk a little bit about 
cultural, character, and alcohol, and some of the training that 
is been going on. Seeing the alcohol numbers, especially the 
number for the Navy, I have to say is fairly alarming. And we 
discussed it briefly.
    So I am going to ask you to kind of tell us what tools that 
you need to put in your toolbox or what kind of things that you 
expect will be happening to address these alarming trends and 
reports that continue to have numbers that are fairly active, 
and you know, what are you going to do to address some of the 
root causes?
    We are seeing alcohol is definitely one of them for sexual 
contact and harassment in the academies. You know, I know that 
these are young adults. I know that this happens on our college 
campuses, but we all talked about the character and the future 
leaders that these people are going to be or have expressed an 
interest in become. Could you maybe just give us some thoughts 
on that? Thank you.
    Admiral Carter. Ma'am, I am the longest serving 
superintendent here on this panel, so I will go first. I would 
like to just briefly mention this key word that you hit on 
which is chose in the reporting part. For us at the Naval 
Academy, if we were to look at these surveys that have been 
going on for well over a decade. From 2005 to--excuse me, 2007 
to 2015, our reporting had shown a steady increase which is 
something that we saw as a positive, that we would see more of 
our survivors coming forward. We cannot force them to report. 
It is a voluntary thing that they will report. Our job is to 
set the culture and the conditions so they feel very 
comfortable and safe in reporting without any retaliation or 
any other pressures. We have done a significant amount of work 
to try to ease that burden. We have moved the response 
coordinators and the victim counselors away from the dorm rooms 
or Bancroft Hall where all the midshipmen live so they can feel 
the sense that they can go somewhere to have that talk.
    They also know of other resources on the Naval Academy to 
help advise and assist them from our chaplains to a place that 
is called the Midshipmen Development Center for Mental Health. 
And this is really about getting people to make that report. As 
you know, there are two types of report, a restricted report 
where somebody files that report to get that type of service 
available to them where there is no names involved and then an 
unrestricted report. So these are the DOD rules that we operate 
within, and this is part of the challenge of holding people 
accountable.
    It is difficult to hold anybody accountable when a victim 
chooses not to participate in an investigation or move through 
the entire UCMJ process or file a report at all. As you also 
know, unwanted sexual contact is not always a physical assault. 
It is a wide range of that type of behavior.
    Ms. McCollum. I don't mean to be rude. I know the 
definitions well.
    Admiral Carter. Yes, ma'am.
    Ms. McCollum. My question is especially laying out the case 
for alcohol.
    Admiral Carter. Right.
    Ms. McCollum. What are you going to do?
    Admiral Carter. So alcohol for us at the Naval Academy I 
view as one of the principal root causes of the elements of 
sexual assault. As you mentioned, 72 percent of our unwanted 
sexual contacts had alcohol involved. We have been working on 
this for a year, more so than we ever have in the past. We 
stood up a task force that went after this directly.
    The senior class, the class of 2019, has also taken this on 
in developing a guardian angel program that is out in town with 
the midshipmen. For many of the other Members, you know the 
city of Annapolis and our Naval Academy are cojoined, so 
midshipmen walk directly into town. And getting after this is 
the most important part. We have gone after this with 
significant effort this year. We have seen a 49 percent 
reduction in alcohol related incidents in just this year with 
some of these programs.
    And of course, holding the Naval Academy midshipmen 
accountable for misuse and abuse of alcohol. So all of that is 
part of getting after that, to reduce alcohol use and misuse. 
That is part of the campaign to reduce the scourge.
    General Silveria. Ma'am, I will add from the Air Force 
Academy some specific steps that we have taken in the area of 
alcohol. Watching this last year, we also added some increased 
supervision, and we have also added very similar programs as 
Admiral Carter mentioned, the guardian angels where the cadets 
are responsible and also participating in the supervision. And 
then our AOCs, our commanders that are with the cadets--they 
are also--we have increased the supervision in areas where 
there is alcohol so that it is more visible.
    And then most directly, what we have initiated is an 
education program for all of our third classmen which is the 
second year. As they approach drinking age mostly in that year, 
we initiated an education program that is a lot more focused on 
the prevention aspect and the effects of alcohol on the 
prevention.
    So those are two specific things that we have done directly 
at the Air Force Academy recently.
    General Williams. Ma'am, we have 273 young men and women 
who had the courage to come forward and talk to me and say I 
was sexually abused in this space. We take that seriously. This 
is our family. These are our sons and daughters. And so with 
respect to alcohol, your specific question, we are doing a lot, 
but we have not done enough.
    On the 25th of this month, we are doing a stand down across 
our academy. There will be no classes. There will be no sports. 
The entire community will come together and revisit where we 
are. Right now my Commandant as I am here is reviewing all of 
our policies. We are reviewing how long we keep places where 
cadets can have access to alcohol. Is that too much? My sense 
is that it is, and so we are reviewing everything we are doing 
in this space.
    There are current policies and procedures, but they are not 
working, so we need to fix it, and we will. Starting on the 
25th with a stand down, coaches, instructors, tactical 
officers, cadets will come together and talk about how we are 
going to go forward in this space.
    Ms. McCollum. Well, thank you. Mr. Chair, I think we need 
to request what the alcohol policies and disciplines are for 
all three academies. It should be the same across all three, in 
my opinion. And you know, what really are the consequences 
because all of you also mentioned you are collegiate athletic 
programs too, and we know that our colleges, some of them have 
taken drug and alcohol abuse very, very seriously for 
scholarships.
    So I would like to know what is happening in that realm. 
Thank you, Mr. Chair.
    Mr. Visclosky. Thank you.
    Mr. Womack is next, but if I could, if there is other 
members that have a question on this area, my suggestion is 
that we stay focused, and I would be happy to recognize people 
who have questions in the area. And Steve, if you do. Judge?

                          STANDARD OF CONDUCT

    Mr. Carter of Texas. I am from a time when I went to 
school, men and women didn't live in the same dormitories. We 
had curfews at the school I went to.
    The studies show that the highest consumption of alcohol 
for any age group is college-aged kids. I don't think anybody 
will argue with that. In fact, binge drinking originates in 
colleges and universities.
    You each have an honor system which is something to be 
extremely proud of because part of our military is their honor. 
We as a general public couldn't pledge our lives, our fortunes, 
and our sacred honor because we don't--there is a whole lot of 
us in the civilian world that don't have a sacred honor, but 
you do. That is the standard, I think, we are trying to reach 
is that sacred honor.
    But I also know if anybody knows what the reporting from, 
pick one, the University of Texas at Austin or Texas Tech 
University in Lubbock, I went to both schools, what the 
reporting of sexual assault and sexual abuse and sexual 
violations are at civilian schools versus military schools. So 
the use of the word choose. I can understand the attitude 
should be everybody should be reporting all this stuff, and 
officers should be in charge.
    But out in the real world, I talked to my Army fellow, and 
I am talking about West Point now, but I assume you are all the 
same. You house by company level, right? Men and women are in 
the company, and you have commanders which we have people at 
the Captain level, basically, that oversee these people in the 
Army. But they are not there 24 hours a day. In fact, you don't 
want them there 24 hours a day. But when they are there, cadets 
are not going to behave because it is a military environment 
when the officer is there like they would behave whether the 
officer is not there.
    So you can't be laying it off on the Captain in charge of 
the company. He may be seeing perfect behavior while he is 
there because he is the man in charge or the woman in charge.
    So how do you get around the culture of the military 
because we would assume, like if I was in dorm, we had a--I 
won't use the term we had for the guy who checked on us as a 
freshman and sophomore, and we behaved when he was around, and 
we didn't behave when he was not around, and I will confess to 
that. How do we fix that in the military because you can't lay 
the blame on the officer. He won't see these things happening 
while he is there. They will happen while he is not there.
    So I guess that is confusing, but I just--there is so much 
goes on on college campuses right now, it is unbelievable. But 
yet we are holding you to a standard of honor, and how do we 
reach that? I don't know the answer.
    General Silveria. Sir, thank you. First, I would say that 
all three of us feel the same way, that we don't know the same 
kind of numbers as presented in the report that is referenced 
at other universities. I mean, no one else is taking the time 
to be as open and transparent and is surveying as specifically 
at other universities as we are, and we proudly do that, and we 
want to be open and transparent about it. But at the same time, 
the reason is because we hold ourselves to that higher standard 
that you mentioned.
    So we are not exactly sure what other universities see, but 
frankly, sir, we are going to continue to hold ourselves to the 
highest of standards because the Nation expects that, and you 
expect that of us. Our responsibility that we have to do more 
of is work on that culture of accountability. So that we all 
have leadership laboratories. The idea that that senior, that 
first classmen that is about to be a Lieutenant in the United 
States Air Force is responsible for what is going on in that 
space, in that company, in that squadron so we need to work on 
a culture of accountability.
    And I will give you one specific at the United States Air 
Force Academy that my responsibility, first and foremost, is 
the safety and security of these young men and women, my 
responsibility to you, the Nation, to their parents and to 
them. So we have installed thousands of closed circuit TV 
cameras throughout our dorms for safety and security. As we 
know, there have been a number of incidents at other 
universities, and we need to protect them. So that is one 
direct action that we have taken lately.
    Mr. Carter of Texas. Thank you.
    Admiral Carter. Sir, women have been at the Naval Academy 
since 1976 as they have been at all of our service academies. 
And from day one we are in Bancroft Hall where all the Brigade 
of Midshipmen live. We have been intermingled in other words 
meaning from one room to another, it could be a woman's room or 
a man's room. The culture of how we live inside Bancroft Hall 
today actually through this anonymous survey says that the 
problems of assault are not occurring inside Bancroft Hall. And 
I would like to think that we have created that culture in 
there that is similar to being on a Navy ship which is a very 
enclosed small space where you have men and women now working 
together.
    But this, to your point, keeping the eye on Midshipmen so 
they understand that their life and their daily work when they 
are in uniform which happens, you know, from very early in the 
morning until Taps at night, doesn't end. They are also 
Midshipmen when they are on liberty, they are on overseas 
travel, or doing summer training, and that has been a theme 
that we have to constantly work on because for us at the Naval 
Academy, that is where the majority of these unwanted sexual 
contact events have occurred.
    Mr. Carter of Texas. Thank you.
    General Williams. Congressman, there are two chains of 
command in the barracks, as you accurately depicted. It is the 
company commander who has returned, we send them to a college 
so they get a degree in organizational theory, and they 
practice the skills they learned, both practitioner from being 
a combat infantryman, and then they have the theoretical skills 
to use in action.
    My expectation is that when these company tactical 
officers, and there is also a great non-commissioned officer 
with these company TACs that the cadet chain of command take 
charge at night, and they hold each other accountable in that 
space until that Captain or Sergeant are there.
    So it is two chains of commands that own this. It is just 
not the TACs, as you accurately depicted. I expect the cadets 
to hold each other accountable--it is called stewardship. I 
expect them to own this along with their TACs, and if they have 
questions, that is what I expect out of our cadets.
    Mr. Visclosky. Mr. Ruppersberger.
    Mr. Ruppersberger. Just quickly, it is kind of more of a 
statement. I served on the Naval Academy board for at least 12 
years, and I know that Mr. Womack is on the West Point board, 
and from the time I got on that board, this was always an 
issue. Every year the board would get--and I appreciate the 
openness to the board, but there would be an instance involving 
sexual harassment or sexual assault, and then we would get 
reports on our board meetings about what we were doing about 
it.
    I will say each superintendent tried to do the best, but I 
think Admiral Carter has been extremely aggressive, and it is 
not only about, you know, dealing with it after it happens, it 
is trying to set the culture before it even happens. And I 
think that culture--and you talked about Bancroft Hall where 
you have men and women, the whole--everyone lives in that that 
one hall, and there haven't been that many incidents there.
    So it is something we are going to continue to deal with. 
You have young, immature students that come in in their first 
year, and every college has them, but we are training our 
future leaders of tomorrow. We are the strongest country in the 
world, I believe. One of the reasons is because of our military 
academies, so we have to have honor, we have to have 
discipline, and I think part of it too is not just leadership, 
you doing it, but the people, the 4-year students that go 
through that have to create that culture and work with the 
freshmen, especially, as they come in. I don't need an answer.

                            LIKELY TO REPORT

    Mr. Visclosky. If I could, just two quick points. I want to 
get to Mr. Womack. One, General Silveria, when we talked, you 
mentioned that for cadets who bring forth a complaint, you have 
a personal conversation with them after the fact, and I found 
it interesting that all of you have referred to culture. Of 
course, we have a societal culture.
    You indicated the act itself, obviously, is horrific, but 
it is jokes, it is the innuendo, it is the other stuff that I 
assume as you proceed, that is part of that education. Listen. 
We have got to respect each other. We can't do that any more. I 
appreciate you do that.
    A quick question, just kind of yes and no. In the 
conversations Mr. Calvert and I had with you before, it appears 
that the military academy, sophomore women and men, are more 
likely to report. In the Navy, sophomore women and men more 
likely. Air Force, sophomore and junior women more likely. Is 
there that bulge, and do the complaints recede in that junior 
and senior year from your experience? Just kind of yes or no.
    General Williams. For the sophomore year, the yearling year 
for West Point, yes. Yes, sir. There is more--that is--of the 
4-year experience, the sophomores seem to be reporting more and 
be more at risk in the space, yes.
    Admiral Carter. Same at Navy.
    General Silveria. Sir, that is normally the case. In this 
year's survey at the Air Force Academy, we saw the increase in 
what was then the junior class that was taken when the survey 
was taken which is now our senior class, the class of 2019. So 
when the survey was taken, they were juniors, and that was 
where we saw the biggest increase.
    Mr. Visclosky. Mr. Womack.

                    GENDER AND MINORITY INTEGRATION

    Mr. Womack. Thank you, Mr. Chairman, and thank you for 
holding the hearing. As I have told my colleagues around this 
dais that I think because we have--all of us have vetting 
processes of some type to send our best and brightest young men 
and women to these academies, a very prestigious honor, that it 
deserves to have the superintendents of these institutions down 
here at least on an every other year basis so that we can have 
this interaction.
    And my question is more of a help us help you sort of 
question, and it is related primarily in part to the fact that 
we have had much more gender integration in the last several 
years, and there has been an increasing need to try to match 
the leadership of our institutions with the rank-and-file on 
the enlisted side, and I think we still have a ways to go to be 
able to make sure that we have got that proper mix.
    Now, that doesn't mean that everybody here, all these 
Members of Congress who have an bazillion other things going 
on, have to take time out to roam these halls of these high 
schools to try to figure out who these people are. But General 
Silveria, you said, and I know because of my relationship to 
West Point that this past year, class of 2022, we had I think 
the highest--I will get these mixed up, but either the highest 
percentage of African Americans in that class on one hand and 
maybe the second highest of females, and I may have those 
reversed, but very, very high percentages, and you had 
indicated the same.
    How are we doing, and what can we do better to make sure 
that we are filling the needs of our services from this gender 
and minority integration standpoint? And I will give each one 
of you a chance to respond.
    Admiral Carter. Sir, thank you for the question. The first 
thing I would tell you is in our application process, we are 
seeing a rise in female applications even though we are at the 
highest percentage we have ever been at 28 percent, and 
minority applications. As I mentioned, we are at 36 percent 
minorities at the Naval Academy today, and that happens because 
of our outreach. But there is no question it happens because of 
the work of you and your staffs who help us and direct us to 
those locations within your districts to where we can get into 
the high schools and have our midshipmen visit them which we 
do.
    We touched over 50,000 high schoolers and youths last year 
through our outreach program where we have midshipmen visit 
various high schools. But maybe more to the point is how well 
these cohorts are doing, whether it be through the women being 
at the Naval Academy or the minorities. I have to tell you, we 
are seeing amazing talent that gets to us. This past year, 
minorities graduated at a higher rate than their white 
counterparts for the first time in our 173-year-history.
    This year, women will graduate at 92.4 percent, the highest 
of any cohort of any group within the Naval Academy. With 28 
percent of women being at the Naval Academy, they hold 37 
percent of the brigade leadership positions, so these are 
leading indicators that all of these cohorts are not just 
surviving, they are thriving. And I would just say thank you to 
all the members for bringing this type of talent to our 
academy.
    General Silveria. Sir, thank you for the question. What I 
think that we need to do is that I think we as superintendents 
owe you better partnership with your staffs and better 
partnerships with your district staffs because I think we can 
do better in outreach and working together to expand that 
outreach to women and to minority populations.
    Since we cannot solve how many women and minorities are in 
our population in the final admissions decision, we have to do 
it, as you pointed out, in the outreach. And so we are all 
seeing increases. We saw, as you pointed out, the class of 
2022, highest percentage of women applicants we had ever seen, 
30 percent. And then this year for the class of 2023, over 31 
percent. So we are seeing those numbers increase. But I think 
the answer to your question, sir, is that I think we owe you a 
better partnership to work together in your districts to find 
those areas.
    Some Members, Representative McCollum's district, I know we 
have 20 cadets from her district. Three of them are going to 
graduate this year, but there are districts within the House 
that are not represented near as well, so we need to do that 
better to partner with members.
    Mr. Womack. General Williams.
    General Williams. Thank you, Congressman. 21st century 
operational environments are complex and require diverse 
solution sets. And I believe at the United States Military 
Academy, our current--as you accurately depicted, 24.5 percent 
of our current population are women, 15.4 percent are African 
American which exceed our Army percentages in officers for the 
Army.
    I absolutely think this is critical, and like my partner 
from the Naval Academy, they are highly represented, more 
represented as well in terms of there are only 24.5 percent 
women at the academy, but they hold 33.6 percent of the chain 
of command responsibility, so they are integrated. We have also 
had the opportunity to graduate--11 of the 22 current female 
Rangers in the United States Army have come from the United 
States Military Academy. So gender integration is very 
important to how we are going to solve problems in the future 
battlefield.
    Mr. Womack. I will have other questions, but I yield back 
for the benefit of my colleagues.

                      NUCLEAR ENGINEERING PROGRAM

    Mr. Kilmer. Thanks, Chairman. I am going to try to cover 
two topics, if I can, but I want to start with Admiral Carter. 
I am always amazed whenever I visit the Naval base in my neck 
of the woods just at the level of complexity, the high 
technology, not just on the submarines but on all of the 
platforms that we depend on next generation engineers to work 
on.
    I guess I wanted to get a sense from you how you feel the 
Naval Academy is positioned to recruit and train those next 
generation engineers. I also know or I have heard about the new 
nuclear engineering program, and I thought if you could take a 
second and talk about why you developed that program and how 
those graduates will further the mission into the future.
    Admiral Carter. Thank you, Congressman. As you point out, 
the STEM based academic program at the Naval Academy is what is 
required to go serve in our complex and technical Navy today. 
Our Chief of Naval Operations directs us to produce 65 percent 
of our graduates that go on to be Ensigns in the Navy to come 
from the STEM fields. We have been exceeding that for the last 
5 years across all the Ensigns that graduate. Now, granted, the 
Naval Academy curriculum is liberal arts based, but it is a 
minor in engineering for everyone from English majors to 
Chinese majors to, of course, the mechanical engineers and now 
our new majors in nuclear engineering.
    I would submit that all of our graduates can be ready to go 
into the nuclear engineering field. It is the strength of the 
overall curriculum, but the need to have a detail and what we 
have developed over the last couple of years is not just 
classroom education but now immersive capstone experiential 
based learning programs. These are now turning into projects 
where midshipmen are doing research with faculty members and 
coming up with new ideas for how to do things.
    So we have seen some great success there. I think we are 
very poised to continue to serve on nuclear powered aircraft 
carriers and on nuclear powered submarines based on the 
curriculum that we have. Thank you.

                          INTEREST IN SERVING

    Mr. Kilmer. Thank you. The other thing I wanted to just get 
a sense from any of you interested in weighing in on this is 
just getting a sense of what you are seeing in terms of 
differences between the past generations and the millenial 
generation. You know, if you are seeing any differences in 
terms of what makes millenials interested in serving our 
country, if you observed any differences in what drives a 
millenial to seek an education at one of the academies, and any 
differences in terms of how you teach and train millenials.
    General Silveria. Sir, it is a tough question, but thank 
you. I will give a couple of thoughts of what we see.
    I think what I see among the cadets that I spend time with 
is this remarkable interest in wanting to serve and wanting to 
make a difference. And some other indications are not just that 
these are 17-year-olds that are raising their right hand and 
showing up at the academies. I mean, we have seen highest 
numbers of community service hours in our local community that 
we have ever seen before. They are out and about, really truly 
wanting to make a difference.
    Recently we signed a cadet that is going to show up who 
happens to be a recruited athlete. And in one of those things 
out of a 17-year-old that you just always wonder what makes 
them say that is that this young man was considered to be 
playing at a number of other universities across the country, 
and he said it is not about the next 4 years, it is about the 
next 40 years. I want to serve. And so we see that again and 
again within this generation.
    Admiral Carter. Sir, I would just say as we are finishing 
the end of the millenial generation, we are actually now seeing 
the centennial generation that is in our ranks, and they are 
even slightly different. And I appreciate Jay's answer here, 
but this is a generation that values service. They value 
education. They have never not known anything but the high 
speed internet. So when you think about that, somebody that is 
coming into the Naval Academy, West Point, or the Air Force 
Academy, they are less affected by the events of 9/11 because 
they might have been only 1 or 2 years old, and they have never 
not had high speed internet, so they are used to answers at 
their fingertips. Their thirst for learning and the ability to 
multi-task is unlike anything we have ever seen.
    So regardless of how we want to talk about different 
generations, this new generation that is now coming into our 
ranks is exceptional, and it makes me very excited for the 
future.
    Mr. Kilmer. That is great.
    General Williams. Thank you, Congressman. I have had the 
opportunity to not only be a cadet at West Point, but I went 
back as a Captain. I was walking those halls at 3:00 in the 
morning watching my company. Then I came back as a Lieutenant 
Colonel, and now as a superintendent, and I am not so sure I 
could get in the United States Military Academy now.
    But they are fit, they are smart, they want to serve, and I 
have watched. I have seen changes as was mentioned in an 
earlier question about the demographic. I have watched the 
demographic. The complexion of what West Point looks like right 
now, it looks differently than when I entered there in 1979, 
1980. And I think it is because these cadets want to be part of 
something bigger than themselves, and they want to win.
    Mr. Kilmer. Terrific. Thanks.
    Thank you, Chairman. I yield back.
    Mr. Visclosky. The gentleman from Florida, Mr. Diaz-Balart.

                    COMMUNICATION WITH THE ACADEMIES

    Mr. Diaz-Balart. Chairman, thank you very much. A lot was 
said about the issue of abuse, and I think that is obviously 
something that all of us--and I frankly appreciate the fact 
that you all have shown great commitment to that, and so I 
appreciate that.
    Mr. Chairman, less than a question; really, kind of a 
comment. So we work really hard, and I have a person on my 
staff who works year-round to promote the academies, and she 
goes, and she actually goes into the high schools. And then at 
SouthCom, we have an academy day, and I will tell you that just 
for you all to know, the communication that my office has with 
the academies is phenomenal. I hear that from my folks all the 
time. The folks that--and we have usually again, you know, a 
hundred or more folks that come to academy day. But this is the 
comment I wanted to make.
    So I have had the privilege of having even some interns who 
have then have gone to the academies or folks that I have 
known, and it is an interesting thing to see. And so the 
transformation that occurs from--these are bright men and women 
because for them to get into the academy, they have to have--
frankly, they are pretty impressive human beings to start with, 
but I will just tell you. For you, it is not a surprise, but I 
will tell you that to me, it is still an amazing thing to see.
    When I speak to parents out there as we try to promote the 
academies, I tell them I don't do this to promote the 
academies. I do it to promote--to help these individuals and to 
help the country. But you have these fine, patriotic, good 
students going to the academies as kids, and when they come out 
of there, not only are they highly educated and proficient, but 
you can see the change, and you can see the change immediately 
in that first year.
    So I just wanted to--again, less of a question than a 
comment, just to let you know that some of us, again, and it 
is--there is no better--there are no better institutions of 
learning in the world, but it is beyond just learning. It is 
this character building that you all do.
    So as you heard from Mr. Womack as well, you know, what 
else can we do because obviously we heard about the effects of 
sequester that they have had to the academies, and so I am 
hoping that we have opportunities now to be able to be very, 
very helpful. I don't think that there is a better investment 
in taxpayer money for the future of our country, our military, 
and also, frankly, for these individuals than what you all do. 
So thank you for what you do.
    I yield back, Mr. Chairman.
    Mr. Visclosky. Mr. Ruppersberger.

                            LACK OF FUNDING

    Mr. Ruppersberger. Thank you all for being here. I am going 
to get into some budget issues. I am going to really ask a 
question of Admiral Carter at this point since I have been on 
that board, and we do have briefings, and what I have seen in 
the last maybe 3 or 4 years and probably of lot of it having to 
do with sequestration that your operating budget has stayed 
flat, and yet you continue to have more expenses. And sooner or 
later, something is going to hit, and it is not going to be 
positive.
    And it seems to me--and I am also co-chair of the Army 
Caucus with Judge Carter, so we deal with General Milley on 
budgeting issues as far as West Point is concerned. I am sorry 
I don't deal as much with the Air Force. But getting back to 
the issue. Could you let us know how the increased costs and 
lack of funding are affecting your ability to do your mission 
and train our future leaders of tomorrow?
    Now, I know when you are in the military, it is yes, sir, 
no, sir, no excuses, sir, and it is difficult for you sometimes 
to complain when this is--you get your number and that is it, 
but we are independent. Our job on the board and here is to 
make sure you get your resources. So let us know at this point 
where you are, how this lack of funding is affecting you, and 
how we need to improve it to make sure we continue the 
proficiency of these institutions. Then I am going to get to 
capital after this.
    Admiral Carter. Congressman, thanks for the question. As 
you know, at the Naval Academy, there are kind of two elements 
to this operating and maintenance budget. The first is what it 
costs for us to basically operate the Naval Academy, that is to 
pay for faculty, operate our training craft, and do travel and 
training for midshipmen. As you stated, we have been flat since 
really 2012, and sequestration made it difficult, so that is 
roughly about $141 million operating budget of which now today 
nearly 75 percent of that is to take care of our civilian 
faculty and staff, and that is a workforce of about 2,000 
people, military and civilian, that take care of the 4,400 
midshipmen.
    So these are tough decisions that had to be made, but we 
are operating at about $14 million below where we should be.
    Mr. Ruppersberger. Fourteen million?
    Admiral Carter. Fourteen million below, and that is to take 
care of the day-to-day business. We are, quite honestly, our 
own worst enemy. We have great success in our graduation rate 
and our reputation, but over time that will become problematic 
if we continue on that path.
    Mr. Ruppersberger. And unfortunately, sometimes your budget 
coming from the Pentagon or the Naval office, you are the last 
when you are looking for readiness and all of those issues. How 
has that impacted your ability to do your job?
    Admiral Carter. The impact has been less people and doing 
lab technician work certainly less--for example, our library. 
Our library has become somewhat stagnant. We barely have enough 
money to do magazine subscriptions and hold the type of quality 
library that we should have, but mostly it is in the hiring 
process, you know. We are limited by the number of people we 
can hire, and we are making it fit. We have added extra 
programs within that budget to include the cyber operations 
major which we knew was needed.
    The entire sexual assault, sexual harassment team that we 
have which is a clear priority has also been embedded in that 
budget. So although it has remained flat, we are still able to 
do our mission. We have still been successful, but it is going 
to have further impact down the road. If it is not----
    Mr. Ruppersberger. Which is not a positive impact, and I 
assume the other academies have the same issue and the same 
problem?
    General Silveria. Sir, if I could just add one other piece. 
A lot of times we talk about infrastructure that perhaps that 
doesn't necessarily reflect one element which is our 
information technology, the IT infrastructure. For us to 
deliver higher education in the 21st century, we have had to 
make significant investment in our IT infrastructure, and we 
are still short.
    So a lot of times we do talk about the buildings, and that 
is important in facilities, but the IT infrastructure is how we 
deliver 21st century----

                        INFRASTRUCTURE PROBLEMS

    Mr. Ruppersberger. That is very important. Now, I know at 
the Naval Academy, you know, around 2005 none of the academies 
knew anything about cyber, and I think that is when I was on 
that board, and as a result of at least the Naval Academy, I 
think, you worked with NSA, your leadership realized and you 
built a new building.
    And it is one of the quickest measures that you have put in 
place since you have been there, and I assume the same is going 
on with all three now. But I am going to get into the 
infrastructure issue real quick. Bancroft Hall as an example. 
How old is Bancroft Hall?
    Admiral Carter. So Bancroft Hall was built in 1903 as a 
four-wing dormitory, and it was finished in 1961. An eight-wing 
dormitory covers 33 acres. All 4,400 midshipmen live there and 
eat there.
    Mr. Ruppersberger. Well, on my role on the board, I have 
heard of all sorts of issues, health issues, fungi and you 
know, all those things, and you know, you have got to take care 
of that, and I understand that that is a big issue too, in a 
lot of the buildings, even though we have one new cyber 
building. Could you tell me a little bit about your 
infrastructure problems and how far you are down on that also? 
I know you have gotten a little money in the last couple years, 
but it is not enough. Could you explain that?
    Admiral Carter. Sir, to give you a snapshot quick summary, 
we had a flagship agreement with the Department of the Navy 
that funds us through the Naval Facilities Command budget, and 
that was to fund us for sustainment maintenance as well as 
restoration maintenance for the infrastructure.
    There is another pot of money that takes care of basically 
mowing the grass and trimming the trees as a historical site 
that is visited by over 2 million people a year just do look at 
the Naval Academy.
    But since sequestration, the reduction in those cost levels 
have gone down. Funding since sequestration has been down more 
than 40 percent.
    Mr. Ruppersberger. Forty percent.
    Admiral Carter. Forty percent. So sustainment was reduced 
from $36 million to $26 million, and recapitalization was 
reduced from $35 million to $15 million, and we have gotten 
some relief. The RM or recapitalization money is now at an 
every other year of $15 million, so it gives us some 
predictability. But if you were to ask me right now what do we 
need to be whole, to get the Naval Academy, even though I have 
about $180 million worth of work between new construction and 
recapitalization going on today, so there is some relief.
    But going forward, that budget line will have to be 
adjusted by about $35 million a year to make us okay going 
forward, and that is to include how we do maintenance on at 
least one wing in Bancroft Hall every year.
    Mr. Ruppersberger. Well, leadership is extremely important, 
and I think it is really important for this committee to be 
aware of these numbers and how it seems you are at the end of 
the line when it comes to money recently, and I think it is 
this committee's obligation to really look into these numbers 
at all three of the academies, whether it is operation or 
whether it is capital because if we don't have the leadership 
that is coming out of these academies, we don't take care of 
it, we are going to start to suffer.
    And you know the threats, the world threats we have, 
Russia, China and all of these other issues. Thank you.
    Mr. Visclosky. Mr. Womack.

                     SUSTAINED PREDICTABLE FUNDING

    Mr. Womack. I would argue that if the institutions are so 
incredibly important that people around this dais would 
nominate their best and brightest young men and women to go 
there that they deserve to not be neglected from a 
recapitalization standpoint.
    I just wanted to give a quick moment for General Williams 
because of my relationship to the board there and what I know 
about a place called Camp Buckner, that if you have never been 
there, you need to go. I would argue that that is the place 
where the military component of what we are doing for these 
young men and women at West Point is actually taking place. 
Give us a quick depiction of Camp Buckner and why it needs 
attention?
    General Williams. Congressman, thank you. First, let me 
thank you for all of the support you provided us in the past. I 
work very closely with our Army leadership, and what we require 
is sustained predictable funding over the long haul. That is 
why Camp Buckner--I will tell you that our FSRM, our 
sustainment and renovation and maintenance has been very, very 
well. We have worked very closely with our Army leadership, and 
we feel pretty comfortable in our ability to maintain our 
facilities.
    The West Point military complex, Camp Buckner, is where we 
do our military training. So the sophomore group that we talked 
about earlier, our yearlings, spend their summer training 
there. It really is vital to the M in United States Military 
Academy.
    As I mentioned, the academic pillar, the physical pillar, 
but where the cadets do military things in the summer, after 
their first year as freshmen or plebes, this is their first 
introduction to how we do things in the military and move on 
towards the crucible of ground combat.
    It needs work. We have 410 structures on West Point. Most 
of those structures are Q3 and Q4, and many of those structures 
are out at Camp Buckner. It is Camp Buckner, but equally 
important is Camp Natural Bridge where we bring in real 
soldiers from the Army to come in and partner with the 
yearlings in that summer. So the infrastructure required out 
there needs some work at Camp Buckner.
    Mr. Visclosky. Mr. Aguilar and then Judge Carter.

                            CYBER CURRICULUM

    Mr. Aguilar. Thank you, Mr. Chairman. I want to revisit on 
kind of the curriculum issue that Mr. Kilmer and Mr. 
Ruppersberger mentioned a little bit. Specifically, we have all 
read the open source documents on our threats assessment, and 
you spoke about cyber in your comments as well. But 
specifically related to that, what challenges do we have in 
growing and maintaining, you know, these programs? This is 
something that obviously didn't exist from a curriculum 
standpoint years ago.
    So how do we prepare for that? What types of research and 
extracurricular activities can individuals take related to the 
cyber field?
    Admiral Carter. So we started our journey into cyber 
curriculum dating back prior to 2010 as Congressman 
Ruppersberger alluded to. Today over that period of time, we 
have mandatory courses for our freshmen and our junior. We are 
one of the few, if not the only school in the country, that has 
that because we think everybody baseline, whether they are an 
aviator or Navy SEAL needs to have an understanding in this 
important domain.
    The academic major is only now in its fourth year. It was 
developed over time. As you can imagine, there are not a lot of 
Ph.D.S out there in our country that are educated in cyber, so 
we mostly recruit practitioners from places like the National 
Security Agency to come and teach at the Naval Academy. The 
desire to get into this field is remarkable. I mentioned we 
have 25 academic majors today. Last year's class graduated with 
22 cyber operations majors.
    The sophomore class, the year they pick their majors this 
year, started at 110 cyber operations majors. Roughly one tenth 
of the whole class is in one major. It is the fifth most 
popular major at the Naval Academy, so our midshipmen get it. 
There are a tremendous amount of activities for them to do, 
whether they are a cyber operations major or not.
    The National Security Agency runs a contest every year, a 
war game, if you will, between the service academies to include 
Coast Guard and our Canadian friends, and it is a combination 
of Capture the Flag, moving data around, intruding our 
networks, and the cadets and midshipmen have to identify those 
and put patches on those. It is remarkable work, and sometimes 
we have been asked to go brief the Pentagon on what they have 
learned from those exercises.
    Our midshipmen are also involved in policy contests. NY 
University, New York University has one of the top in the 
country, and they go internationally, and they compete very, 
very well. So this is a big topic at the Naval Academy.
    And to end the conversation, thanks to the Members of 
Congress, in 2016, we received $120 million to build probably 
the last major academic building on our 338-acre campus, Hopper 
Hall. It is just about getting ready to be framed out and be 
operational in 2020. It will be where all the cyber operations 
education will happen, and embedded in this is a sensitive 
compartmented information facility where we can teach at the 
classified level, something we have never had at the Naval 
Academy.
    So this is the cyber field of dreams. This is the future, 
and we are attracting a lot of great talent from all over the 
country because they know that we have this capability to 
teach.
    General Silveria. Sir, I will add that we are also very 
much in this space in that our Cyber Innovation Center will be 
breaking ground on our new facility later this in year. We are 
also uniquely placed in Colorado Springs to have the ability to 
partner with the National Cybersecurity Center Air Force Space 
Command that is in Colorado Springs and U.S. Space Command that 
is standing up, so we benefit from that greatly in the area.
    I will also point out that you mentioned the research, and 
so we have one of the three cyber cities that are in the United 
States where cadets can hack into the cities and to function 
around in cyberspace, to hone their skills and practice their 
skills and work their research. But also, sir, it has to be 
also about getting into the high schools. There are so many 
cyber competitions now that go on around the United States, and 
that is really a growing element. We all went through the years 
as the robotics competitions continued to grow, and we seek out 
those want-to-be engineers.
    Well, now we have an opportunity as the cyber competitions 
are growing to get out and find those want-to-be cyber warriors 
because it is not just about computer science. It is an 
important element here. It is about teaching cadets that are 
ready to fight and defend in cyberspace which is very 
different, and so we are all taking that on up front and 
directly.
    Mr. Aguilar. Thank you.
    General.
    General Williams. It is important that we fight and win in 
this domain. The cyber domain is absolutely critical to the 
land domain, the air, our maritime brothers and sisters. We 
have 25 young men and women, they are hand selected, who are 
going to join the cyber ranks this summer. They will commission 
in a few months. The folks who are responsible, they come to 
West Point. They recruit these folks. They are our best cadets. 
They are physically fit, they are smart, they think critically. 
It is very important they have those skills in this space.
    We also have the opportunity--the Army has been very 
gracious to me. We have got the Army Cyber Institute which is 
right outside of our gate, and the cadets get to practice real-
time the things they learn in the classroom with the Army 
cyber. We hold a big conference every year. Our cadets and 
cadre put that on here in Washington, DC.
    And then finally, I think the linkage to our Futures 
Command which just stood up is an opportunity to link all of 
these domains. As we think about multi domain operations, cyber 
is a critical part of those domains.
    Mr. Aguilar. Thank you. I appreciate the answer. Admiral 
Carter, just a quick followup. You mentioned the cyber 
competition including the Coast Guard and Canadians. Who won 
the last one?
    Admiral Carter. Sir, I am happy to report Navy has won 3 
out of the last 4 years.
    General Silveria. But not the last one.
    Mr. Aguilar. You know what? In Washington he did just an 
amazing job with that answer, right? Thank you so much.
    If the Canadians win, you can expect to be called up for a 
hearing right afterwards.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Carter.

                       REFURBISHING OF BUILDINGS

    Mr. Carter of Texas. Thank you, Mr. Chairman. I represent 
Fort Hood, and for the last 4 or 5 years I have been 
refurbishing barracks and building new barracks at Fort Hood. 
Blessed by the support of this group and MILCON, we are getting 
that done, but I have had to go through some pretty horrible 
spaces where soldiers were living. And Admiral, I read your 
letter that you sent out.
    Admiral Carter. Yes, sir.
    Mr. Carter of Texas. It feels just like a flashback to all 
the bad things I have seen in our barracks at Fort Hood, the 
stachybotrys mold growing on the walls, and I am very familiar 
with that having been put out of my home for an whole year 
because of that mold. And it shocked me because Annapolis is 
one of the prime tourist areas in this area. Everybody that 
comes up here wants to go at least take a look at Annapolis 
because it is close to Washington.
    So I asked General Williams about how things were. Do they 
have those kinds of problems? He said to some extent, yes. I 
recognize the Air Force was created, your academy was created 
in my lifetime, but it is still got to be 50 years or 
something, I don't know. It is got to be a good while ago when 
it was. We have got to address that. We can't have that kind of 
working and living environment in our academies. It is just--it 
shouldn't happen. I am one that is going to be working on that 
because I think that is extremely important, and some of that 
stuff is a health issue, a real, legitimate health issue. But 
in looking at this, also, where you have a historical building 
and you are going to try fix it, holy cow. It costs a lot more 
money. Now, I don't know whether the Air Force would be 
designated historical yet, but I know the two schools that you 
have, everything there is historical buildings.
    Does that cost you more when you start going in to fix the 
types of things that you described in your letter? Does that 
enhance that? It is all an historical--everybody gets 
designations, and there are ways to get that waived, at least 
at the State level. And if you have to deal with that at the 
Federal level, then it doubles your cost. Maybe we can figure 
out a way to waive those--some of that materials replacement at 
the Federal level. Do you understand what I am talking about?
    Admiral Carter. Yes, sir, I completely do, and I would tell 
you that we are very respectful of the historic nature of many 
of our buildings, most of them built between 1900 and 1920, 
Bancroft Hall being, I would argue, the most important because 
it does house the Brigade of Midshipmen.
    There are challenges because you are not going to change 
the concrete structure of it. The roof is a challenge. I don't 
have the luxury of shutting down Bancroft Hall completely and 
gutting it because it is the only place we house midshipmen, so 
it is really important that we do it carefully, plan it. The 
ability to repair a wing or so a year is optimal. It should be 
on an every 30-year recapitalization or remodernization for its 
life, for it to sustain its life. The way we are funded right 
now, we don't have that type of money.
    I have $4 million right now that I am doing repairs to make 
sure that the rooms are safe, that there is no mold, and that 
we are reducing the amount of leaks that sometimes come through 
an aging roof. But this is part of the challenge, and we won't 
ever end it because of the nature of where we live, the 
humidity levels. So we understand that, but we are not planning 
on going anywhere, so we will continue to fight for it.
    General Silveria. Sir, at Air Force we are an historical 
registered site. Our challenge is that all of the facilities at 
Air Force were all built around the same time, late 1950s and 
early 1960s, so subsequently, they are all aging out at the 
same time, so we need that same support for the continued 
recapitalization.
    To delay sustainment and maintenance to repair such as 
dormitories only costs more later at those facilities. And just 
as Admiral Carter says, none of us have the space that we can 
afford to empty facilities and then remodel them. We have to do 
them in phases over years. So we have two main dormitories. Our 
Sijan Hall named after Lance Sijan is also something that next 
year, we will be looking to begin a multi-phase program because 
it houses 2,300 cadets.
    General Williams. Congressman, we are halfway through our 
nine barracks. We call it the Cadet Barracks Upgrade Program or 
CBUP. And then we have an academic building upgrade program 
which we are also executing at this time.
    Working very closely, we have a plan both interim and then 
mid term and then long term. With your great support over time, 
we will be able to execute that, so we are halfway through 
where our cadets live, revitalizing, updating all of the 
barracks area, and the academic buildings, That work is just 
beginning.
    Mr. Carter of Texas. You are all creating American heroes, 
the best of the best, and we owe it to you. I think we ought to 
seriously consider taking a look at setting aside funding for 
this capitalization and taking into mind that they have got to 
continue to operate while they do that, and that allows them to 
shut down completely.
    I don't know where we are on something like that, but I 
would sure like to talk about it.
    Mr. Visclosky. Judge, I want to follow up on your line of 
questioning later, and I would point out you make a very solid 
point, and I am very concerned about some of the academies' 
ability to plan that work, and I am very happy to have a 
hearing going to follow up on that.
    Ms. McCollum.

                             CLIMATE CHANGE

    Ms. McCollum. Mr. Chair, I am not too far out of what you 
and Judge Carter were talking about.
    Admiral Carter, if I remember correctly from our 
conversation, the Air Force and the Army, West Point, they each 
have their own dedicated line item for the academies in the 
budget line, and the Navy is working to address to make sure 
you get a line yourself now. For the first time, we will see 
that in this budget. Am I remembering that conversation 
correctly?
    Admiral Carter. You are. Currently my up to 2019 budget 
goes through the Chief of Naval Personnel. They are our support 
sponsor for our budget line.
    Ms. McCollum. So I think that will help us do better 
oversight on that. We had a conversation about the size of the 
different facilities. Is the Navy facility 338 acres?
    Admiral Carter. Yes, ma'am. It is 338 acres.
    Ms. McCollum. And West Point is over 16,000 acres, and the 
Air Force Academy is over 18,000 acres?
    General Silveria. Actually, over 19.
    Ms. McCollum. Over 19. Well we will get that fixed on the 
internet. The reason why I bring this up is I am going to ask 
about climate change, and ground zero is the Naval Academy.
    So as you are talking about all your infrastructure needs, 
I think this committee needs to be mindful in talking to the 
Navy and the Pentagon about what they are going to do separate 
and above what needs to happen with the structures at Annapolis 
and how they are going to plan for and implement what needs to 
happen with climate change. If you would just take a minute 
because we will dig into this deeper and then have more 
discussions with you at a later date, but we need to talk 
about--let's use a Naval term sea level rise, if people are not 
comfortable with climate change on here.
    So just what are some of the things that you want to put on 
this committee's radar screen because that has to be separate. 
It cannot be competing with what needs to happen with the other 
facilities on campus.
    Admiral Carter. Thank you, ma'am. And it is an important 
issue for not just the Naval Academy but really many of our 
Naval installations that reside on the Chesapeake. We at the 
top of the Chesapeake see the significance. In the month of 
September, we had 16 nuisance floodings in the month alone, so 
this is a real issue for us. To give you an idea of how we are 
attacking this, we have a sea level rise----
    Mr. Visclosky. I am sorry. I didn't hear that. What did you 
just say?
    Admiral Carter. Sixteen nuisance floodings in September, 
this past September alone. So we have a Sea Level Rise Advisory 
Committee. We have considered how other nations have dealt with 
sea level rise, especially the Scandinavian countries. We are 
looking through the science of where the sea level will be 50 
years from now and 100 years from now when we are still going 
to be on the Severn River.
    Data shows us that the Naval Academy will see a one to one 
and a half foot rise by 2050 and 4.3 feet by 2100. There are 
certain sea walls that we are already planning to raise up to 
be ready for that. The strategy for how to deal with sea level 
rise is really pretty simple. You either block it, you move it, 
or you abandon it. And for the benefit of the committee here, 
the Naval Academy reclaimed about 55 acres from the Severn 
River to create our boundary fields in the 1950s. We would like 
to not give them back.
    So this is an important issue for us and one that will 
continue, and as Congresswoman McCollum pointed out, this is 
above and beyond the budgetary things that we have planned. So 
this is a concern for the Navy and the Naval Academy.
    Ms. McCollum. Thank you.
    Mr. Visclosky. Mr. Calvert.

                       OVERRELIANCE ON TECHNOLOGY

    Mr. Calvert. Thank you, Mr. Chairman. I would like to 
discuss on the curriculum front. Admiral, when you were by the 
other day we were talking about overreliance on technology, the 
problems we have been having with ship collision. Part of the 
problem is navigational age, overreliance on technology, and 
the move away from maps, charts to determine where we are at.
    And it used to be that you go on a Navy ship, there was 
always navigational charts on the bridge. We moved away from 
that, moved away from celestial navigation being even taught at 
the Naval Academy. The same thing, I would--for the Air Force. 
If we didn't have GPS, I wonder, you know, how these planes are 
going to land nowadays.
    And even the Army and the Marine Corps using iPads instead 
of maps and charts. I understand they are going back to maps 
and charts in the field for obvious reasons. You never know 
when these things are just going to shut down, and this goes on 
throughout, I would expect, the military enterprise, that we 
have become so used to technology that we forget how we 
navigate, how we operate without those aids. Are we training 
these young people to be able to not rely on technology if 
things go wrong?
    Admiral Carter. Well, I will start off by saying when you 
come to the Naval Academy, the first thing you do in plebe 
summer is you learn how to sail. So there isn't a whole lot of 
technology involved when you are learning how to sail. You are 
learning the elements of the seas and the wind. That is a good 
baseline for how to transition to how to operate a Navy vessel.
    We have 18 yard patrol craft at the Naval Academy. They are 
basic trainers, and it is about seamanship and navigation. But 
at the end of the day, as you point out, we have to continue to 
remind our people that one of the most important things to do 
when you are operating on the seas is to look outside. You 
can't just look at an instrument or look at an electronic 
chart. You have to continue to look outside. I couldn't agree 
with you more.
    I personally in my 37 years of being in the Navy have 
experienced loss of connections to the GPS satellites, so it is 
a real thing. It does happen. We have taken a hard look at our 
curriculum and what we do in seamanship and navigation. We have 
not brought back a full celestial navigation course as I took 
in 1978, but we do touch on that so midshipmen understand the 
complexity, and the fleet has now brought it back as a standard 
requirement.
    So we continue to make sure that we are preparing these 
young men and women to go out and not just operate high tech 
equipment but be able to do the basics when all that stuff 
might not work as well as it should.
    Mr. Calvert. Thank you.
    General Silveria. Sir, for an Air Force Academy cadet, one 
of the very first things they do is fly in a glider and fly in 
a sail plane, so there is very little technology involved in a 
glider. And they are towed up to space, up to the airspace, and 
learn those basic principles of flight so from the very 
beginning. We have a very robust glider program that is one of 
the most unique in the world. Our cadets, our junior and senior 
cadets teach the first year cadets the soaring program.
    And we know consistently those cadets that are instructors 
in our glider program which speaks directly to your point, 
those instructors perform remarkably well in pilot training and 
beyond when they go out and join the force.
    And I will add, sir, that prior to being the superintendent 
at the academy, I was deployed to the Middle East and conducted 
at the operational level operations in Afghanistan, Iraq, and 
Syria and very much handled every day the training and the 
recognition that we always needed to know that at any moment, 
some element of our technology would not be available.
    And so the forces, all forces train that way operationally, 
and all forces function that way recognizing that at times, we 
may lose that technology.
    General Williams. And I wanted to mention Congressman, it 
is very important that they understand the tenacity and the 
grit and the determination required to win in that dimension. 
And so from day one of the as new cadets or plebes, they are on 
their feet a lot and they are walking. And they are walking up 
and down hills, and they don't have any technology with them. 
In their sophomore year, their yearling year, if you will, they 
get exposed to more of the military skills required of being a 
logistician or an infantryman or artilleryman.
    I will tell you as an artilleryman, that is one of the 
things we teach is that do not rely on the technology. You have 
to understand the charts and darts, if you will. What are the 
physics of how you make a round go from point A to point B? And 
not only in the summer as a practition, but also in the 
classroom.
    Our Department of Military Instruction does a great job of 
teaching the history. And they talk about leaders of past and 
the operational environments they had to dominate and win in 
the past. And these are the same immutable characteristics of 
our current operating environment, so it is important that they 
understand the toughness, the grit, and determination to fight 
and win in those environments.
    Mr. Calvert. Yeah. I just bring that up because I think the 
first thing our adversaries will do in case we get into a real 
war is you are not going to have the technology you think you 
are going to have, so I appreciate that.
    Thank you.
    Mr. Visclosky. I am going to turn to Ms. Kaptur in a 
moment. I would simply note that Mr. Ryan, who could not be 
with us today, has three questions for the record, and 
gentleman, if you could have those answered for us, I would 
appreciate it. Two of them deal with dietary habits and the 
food environment. I must tell you. I have a special interest 
too. As I describe my life when I am in Indiana, I eat happy 
food. When I am here with my wife, I eat healthy.
    Ms. Kaptur.

                           MEDICAL PROFESSION

    Ms. Kaptur. Thank you for sharing that, Mr. Chairman.
    Welcome, and I apologize for being late. I had another 
committee I was required to be at. We thank you for your 
service to our country and for shaping the next generation.
    I was very interested in your testimony. You used the word 
character, developing character. I would like to ask a whole 
lot of questions about that, but in my brief time, let me just 
say I am interested in each of the academies. How many of those 
who are being educated ultimately move into a medical 
profession, either as a doctor or a physician assistant? Do you 
have those numbers available, or do you have a sense of that?
    Admiral Carter. At the Naval Academy, it is roughly 12 of 
our thousand graduates go into the Naval medical corps which 
supports the Navy and the Marine Corps and the largest enlisted 
force of any rating for the United States Navy.
    Ms. Kaptur. Twelve of each?
    Admiral Carter. Twelve per year.
    Ms. Kaptur. Per year.
    General Williams. Ma'am, for West Point, we will graduate 
in this class, 20 will be doctors, medical doctors. It averages 
about 20 from year to year is our average.
    Ms. Kaptur. Thank you.
    General Silveria. And ma'am, we are right between those 
two; typically to 15 to 18.
    Ms. Kaptur. Do you think that is too low a number?
    Admiral Carter. I will just answer for the Naval Academy. 
We take a look at this, and of course, we fill the requirements 
that are given to us by higher Navy through the Chief of Naval 
Personnel. It is one of the few communities that is not a 
direct war-fighting role that we do provide graduates, but we 
find that our graduates that go into the doctor roles from the 
Naval Academy have a very high retention rate and do very well.
    So I am happy that we provide some, and I think personally, 
this is my view, the number is about right.
    Ms. Kaptur. Well, I would ask this, if you could, to think 
about this question and provide for the record a reply.
    The U.S. military finished 2018 with the highest suicide 
rate among active duty personnel in at least 6 years. We lost 
321, including the Admiral of the Fifth Fleet, whom we had met 
in Tampa not long ago. In our society, if we look at what is 
going on, with the mass murders from coast to coast, the 
majority of those who are perpetrating these crimes are young 
people who have severe mental issues that have not been 
sufficiently addressed. I have been struggling myself with what 
do we do as a country, and one of the facts that I have learned 
is that we are about 100,000 doctors short in our country of 
those who can diagnose either at the pediatric level or at the 
adult level, and we have time bombs just waiting to go off all 
over this country.
    So being 100,000 physicians short, I say to myself is there 
a way we can invent a program to produce more doctors who would 
have these skills? We learned from Special Forces that when 
they embedded behavioral specialists, not necessarily doctors 
but behavioral specialists in units, the suicide rate went down 
to the military average. The average isn't good, but in any 
case. So I thought to myself how do we produce doctors in this 
field? Could there be a combined public program that links to 
the private sector? I don't if the military could have a role 
in that, but my goodness. We need more people adequately 
qualified.
    I can guarantee you that at the veterans--when folks come 
home and they rotate out and they come to our clinics and so 
forth, we don't have enough personnel in our veterans hospitals 
and clinics to accommodate those who are demonstrating a much 
higher level of suicide than in past generations.
    So I wanted to ask you. Have you ever given any thought to 
this? Is there some way that we could fund additional students 
who could go on in the medical fields that our society so 
desperately needs? Even if we could create a program that would 
partly be funded by their service to the country both 
militarily and on the civilian side when they would rotate out, 
perhaps? Have you ever given any thought to this?
    Admiral Carter. Ma'am, the numbers of Naval Academy Ensigns 
that go into the medical corps is a very small percentage of 
the Navy doctors that are produced for the U.S. Navy and the 
Marine Corps. The great majority of them are produced through 
an Officer Candidate School program that is specifically 
designated to take those civilians that are already in medical 
school or have finished medical school and then transition in 
the Navy.
    It is also one of the few ranks where you can come in after 
being a full-fledged doctor in whatever your specialty is and 
come in at a mid grade level. So this is a Navy challenge more 
than a Naval Academy challenge. However, to your point, I would 
submit that as great as our young men and women are, they are 
not immune from these challenges. We have a Midshipmen 
Development Center which is specifically designed to help 
midshipmen with mental health, and our appointments are full. I 
have seen the appointment level triple over my 5 years as 
superintendent. And as much as that might sound like it may be 
not necessarily a good thing, what I would tell you is the 
stigma of going to see somebody and say I am having a bad day 
is not there at the Naval Academy.
    I think I could say on behalf of all of our programs here, 
it is a busy time when you are a midshipman or a cadet. There 
is not a lot of time to get away and just take a couple days 
off, so it is a tough program. The Midshipmen Development 
Center is a great need for us and helps build the resiliency of 
our midshipmen.
    General Silveria. Ma'am, I would like to add that as the 
Navy, as Admiral Carter mentioned, we are also responsive to 
the needs of the Air Force, but we are one source of the 
commissioned officers that come into the United States Air 
Force. So the Reserve Officer Training Corps as well as our 
OTS, our Officer Training School, they provide commissioned 
officers.
    In a similar way that the Navy does, commissioned officers 
have a way of getting into the United States Air Force through 
other universities. So our physicians, our cadets that graduate 
and go to medical school are one part of the entire picture for 
the rest of the Air Force, for those that are going into 
medical school. And similar to Navy, we all have programs that 
are very robust in cadet counseling, that are available to the 
cadets. There is very much a network of care that surrounds 
them where they can go if they just need to talk to somebody, 
if they just need to get away for a moment, to try to determine 
if they have--even to try to determine if they have a larger 
problem.
    So we have a counseling center. We have family life 
counselors. We have chaplains that are available, a consistent 
network of care that is around the cadets.
    Ms. Kaptur. General, have you ever had cadets who developed 
mental illness onsets in the academy?
    General Silveria. Yes, ma'am, we have. Over time, we have 
had cadets that have developed mental illness at the academy, 
and in addition to our counseling center, we have medical 
professionals that are mental health professionals that are 
able to provide the health and care of those cadets through the 
time.
    Ms. Kaptur. Is there any way each of you could estimate for 
the record because most of these illnesses onset in the late 
teens and 20s, what percentage of those who are admitted do 
develop these conditions, and what happens to them? Are they 
discharged, then? And if they are discharged, are they 
discharged to care, or are they just discharged to the street?
    General Silveria. Ma'am, I will continue to answer. I will 
have to get for the record the numbers of those that we have 
had, but we have a number of ways that we care for young men 
and women. We provide that care to them directly, and they have 
ways that they can take time away from the academy. We have an 
opportunity for them to take six months away or a year away so 
that they can go and heal and get the care that they need and 
then return to the academy. So that is one avenue that they 
have to receive the care.
    Ms. Kaptur. General, thank you.
    General Williams. Congresswoman, we have the same similar 
construct. The medical leave of absence if we find a cadet over 
their 4 years who develops some sort of mental health issue and 
need help, they can leave the academy. I am the one that 
authorizes the leave. And if they need to stay longer, they 
will stay longer so they can get that care.
    But like my teammates here, while they are at West Point, 
we have a host of professionals that can help them, whether it 
be our Center for Enhanced Performance, we are talking about 
resilience. How do you increase or ensure that mental and 
spiritual and physical resilience is maintained over our 47-
month experience. We have lots of coaches. We have a Center for 
Enhanced Performance. We have a Cadet Professional Development 
Center. We have chaplains as others have mentioned. We have a 
military family life counselor, so there is a network of folks 
who are standing by to nurture and coach and make sure the 
cadets graduate in their 47-month experience.
    Ms. Kaptur. Have the academies experienced any suicides 
this year or in prior years?
    Admiral Carter. We have not had one this year. We have had, 
on occasion, suicides in past years. They are rare, but we 
have. And to answer your question for the record, I don't have 
the exact numbers of those that develop mental illness and the 
details of how we handled them, so I would like to provide that 
separately, ma'am.
    Ms. Kaptur. Thank you. General, did you wish to say 
something?
    General Silveria. Ma'am, I was going to say we have not had 
any suicides in the past few years. We have had cadets with 
suicide ideations that we provide care for and allow them to 
receive mental health support.
    General Williams. At West Point, we have had no suicides 
this year. We have had some in the past, ma'am.
    Ms. Kaptur. All right. Well, you know, I am not going to 
leave anybody who has a budget off the hook. We need doctors in 
this country. We have needed them for a long time. We have to 
figure out how to train them and get them out serving both in 
the military and in civilian society. I hope you give that some 
consideration as you plan your programming for next year, and I 
would love to hear from you for the record on that.
    Thank you, Mr. Chairman. I yield back.
    Mr. Visclosky. Mr. Womack.
    Mr. Crist.

                             SEA LEVEL RISE

    Mr. Crist. Thank you, Mr. Chairman, and Ranking Member 
Calvert. Thanks to all of you for being here today. It is a 
privilege. I apologize for having run late. I was in another 
committee meeting too, so we all have lots of duties around 
here. Admiral Carter, I was curious. The Naval Academy, like my 
home in Pinellas County, Florida, is on the front lines of 
climate change as you addressed earlier. Like my district, you 
are surrounded by water, and when there is flooding, the water 
often has nowhere to go. So I was wondering what is the Naval 
Academy doing to respond to rising sea level and increased 
flooding?
    Admiral Carter. So thank you for the question. We have put 
together a committee to go after and study sea level rise at 
the Naval Academy. As I had mentioned earlier, we predict that 
sea level rise will go up a foot to a foot and a half by 2050 
and 4.3 feet by 2100. So this is something that being right on 
the Severn River, we are going to have to deal with, and we 
will have to build funding to support how we protect the Naval 
Academy from the rising sea level.
    The month of September was the highest number of nuisance 
floodings we have seen in our history, 16 in the month of 
September alone. So this is a challenge, but of course, we are 
the Navy. We do live by and operate by the sea, so we are going 
to have to learn how to do this. The Naval Academy is not 
planning on moving. We will change our very small 338-acre 
campus somewhat if we need to, but this is a real issue for us, 
and there will be some cost as to how we maintain and sustain 
the Naval Academy in years going forward.

                 MAINTAINING HIGH ACADEMIC ACHIEVEMENT

    Mr. Crist. Thank you, Admiral. And this is for any one of 
the panelists. The service academies rival any university in 
the country in terms of academic achievement, certainly. 
However, unlike other universities, the service academies have 
another purpose, training high quality officers and members of 
our Armed Forces. Can you highlight some of the unique programs 
or requirements placed on cadets or midshipmen and some of the 
challenges this causes in maintaining high academic 
achievement?
    Admiral Carter. I will make a couple of key points. One 
that is the same for all of us, that makes us unique from any 
other college or university, we are a 4-year program, so there 
really isn't a 5 or a 6-year program. You come to the Naval 
Academy, you are intended to graduate in 4 years. We are now a 
developmental program, meaning that if you are good enough to 
get into the Naval Academy, we have every expectation that if 
you do the standard and you meet the standard which is moral, 
mental, and physical, that you will be prepared as a whole 
person ready to lead and graduate. We have seen some remarkable 
numbers in achievement and academic success.
    Long ago when I was a midshipman, our attrition rate 
usually was around you 30 percent, easily 10 percent overall 
due to just academic deficiency. We developed a Center for 
Academic Excellence, a different place for tutoring as well as 
the extra instruction that is given by our world class faculty. 
We have now reduced academic attrition, non-voluntary at the 
Naval Academy, to less than one and a half percent over the 
last few years.
    So what that equates to is we are now sitting at about 90 
percent graduation rates, and if I can just put out a really 
great statistic about the Naval Academy. For any schools in our 
country that have more than 50 percent of their academic majors 
are STEM based that have more than 100 students, the Naval 
Academy has the highest graduation rate now going back 6 years. 
So we are very proud of that, and I think those are some of the 
things that make us unique and make us a unique challenge.
    One other very interesting statistic. I know all three of 
us have very high accept rates or in higher academia known as 
yield meaning the number of freshmen that say yes to your 
offer. The Naval Academy is number one in the country at 88 
percent over the last 2 years, 88 percent of prospective 
students that said yes to a Naval Academy offer.
    Mr. Crist. Thank you, sir.
    General Silveria. Sir, I think I will use an example that 
we have cadets who designed and built satellites, and right 
now, they are controlling a satellite that passes over the 
academy every 90 minutes in our Satellite Operations Center. We 
have another one that we are going to launch soon, and then a 
third one that is ready. We don't have a rocket for it yet, and 
we don't have a space on that. That will be three satellites.
    There are countries that don't have three satellites on 
orbit. But the same cadets that design and build and operate 
that satellite, just as the other two academies, are also 
participating in a rigorous military developmental program 
where they are learning leadership principles through those 
years, and they are also, in many cases, athletes that are on 
some of the varsity teams, or they are also participating in 
some athletic program.
    So regardless of the depth that they are in in some element 
of the curriculum, we expect them to participate in all 
elements of the military, the academic, and the athletic parts 
of the program, all underpinned by the character development 
that is required of all of the cadets.
    General Williams. Thank you, Congressman. I think what 
makes us unique is, first and foremost, our code, the idea of 
character. We have the four pillars that I mentioned, the 
academic, military, physical, but character is what binds us. 
That is what makes the academies, all of us, unique. We all 
have codes, and our young men and women at the end of their 
sophomore year, right before they begin their junior year, have 
to affirm. They essentially join our services at the start of 
their junior year.
    What also makes us unique is our requirement to be a 
warrior, that you have to be--we have a saying that every cadet 
is an athlete. Whether you compete at the Division I level, and 
we have a thousand. A quarter of our cadets participate at the 
Division I level at West Point, and I think the others are 
close, the same as well. And then also I would say the military 
training that we do in the summer is very, very unique. Our 
cadets get to jump out of airplanes. They get to assault out of 
helicopters. They get to walk a lot. They get to carry heavy 
things on their back and learn how to persevere, and they learn 
a lot in that 47-month experience.
    They are fundamentally different at 47 months over the 
period of challenging experience. They learn a lot about 
themselves, and they grow in ways that they never thought when 
they came into the United States Military Academy.
    Mr. Crist. Thank you all very much, and I appreciate your 
service to our country.
    Mr. Visclosky. Mr. Womack.

                         CADET LIFE EXPERIENCE

    Mr. Womack. Yes. Just a couple of things, one on cadet 
life. The organizations, the institutions that are before us 
today have kind of a time-honored interesting cadet life mix 
unlike any other institution of higher learning where there are 
requirements across the spectrum, the mental, the physical, the 
military component.
    How has the cadet life experience changed over time 
recently, and is it constantly under evaluation to make sure 
that it is not a discriminator to get the best and brightest to 
come to the institution but can't be watered down so that we 
are not producing the highest quality junior officer that kind 
of separates us from the rest of our global peers?
    General Silveria. Sir, I will say that as a 1985 graduate 
of the academy, when I look at the academy now today that I 
stepped into 32 years later, the level of sophistication is 
truly unbelievable. You know, I have mentioned our research and 
some of our other programs that the cadets are involved in, but 
the level of sophistication and the depth and the breadth of 
the program.
    Cadets are involved in so many different clubs and so many 
different elements of the curriculum and so many different 
aspects of athleticism. That broad base that I see that the 
cadets experience, it really truly is remarkable. But you 
mentioned about the best and brightest. As I am with these 
young men and women, I think it is an important point to 
realize that we talk about all those elements. There are four 
elements in our military.
    As we have all laid out, that is what they asked for. That 
is what they want. They consistently revel in the fact that 
yes, they are on an intercollegiate team and they are taking a 
difficult major and they are squadron commander, but they want 
to do something else in some other part of the academy. That is 
the kind of young men and women that we have that are trying to 
do more and more.
    Mr. Womack. Admiral.
    Admiral Carter. Sir, I would echo the same things that my 
colleague, Jay, just said. What is lost on a lot of the folks 
is what happens to Midshipmen and cadets after the academic 
year. The summer program for us is broken into four distinct 
blocks, three principal ones, that are a month long and a 
shorter block zero.
    And again, I go back to my time when I was a Naval Academy 
Midshipman from 1977 to 1981. I might go on one summer event, 
maybe do a cruise on a Navy vessel, be part of a leadership 
program. Our midshipmen are typically involved in two, 
sometimes three of the blocks doing everything from taking more 
classes, even though they may not need to, to do a professional 
development element, whether it be go operate with a Navy SEAL 
unit, be on a ship or a submarine, get exposed to all of the 
elements of the Navy and the Marine Corps, so they are engaged 
in this development to become a professional year-round.
    And I think the other thing that is very different, and I 
think we would all agree and we have been talking about it is 
just the demographics of who is in the Brigade of Midshipmen. 
We have shifted significantly. We are not a perfect cross-
section of what is society in the United States today in terms 
of the demographics, but we are getting closer.
    And again, that is thanks to you and your staffs that are 
picking not just the best and brightest but the most 
representative of our United States. So it is a much, much 
different place, even just in even the last 5 to 10 years, at 
the Naval Academy.
    General Williams.  Sir, your sons and daughters that you 
ask us to take up and look after for 47 months, we ask you to 
evaluate their academic potential, their leadership potential, 
and their physical potential, and we look at that over that 47 
months.
    So to your question, it is important to continue to 
evaluate and reassess what is needed. I was speaking of the 
land domain in terms of being a leader in ground combat 
operations. I mean, we need folks that are Marshall Scholars 
and Truman Scholars but also can dominate in the physical and 
show the true grit, tenacity, and determination to dominate and 
win in those sorts of environments.
    So the scholar athlete warrior is very important, and I 
think it requires a constant reevaluation over time as our 
environment changes. Our environment is complex. It is 
ambiguous. You have got to make it and you don't get a lot of 
sleep, and it is tough.
    So your young men and women that come here, they learn that 
at all of our academies, and they certainly learn at West Point 
to be leaders of character in this space.

            NOTIFICATION OF ACCEPTANCE TO A SERVICE ACADEMY

    Mr. Womack. I just have one last question, and then I am 
finished. A couple of weeks ago--I have a policy in my staff 
that whenever we have a notification that a young man or a 
young woman from my district is going to be going to a service 
academy that I get the privilege of being able to contact that 
individual before the academy does and make the notification. I 
highly recommend that to all of my colleagues. If you are not 
doing that, you should be doing that. You will not find any 
greater joy than that.
    So a couple of weeks ago I called Isaiah Ballew at 
Greenwood High School in Arkansas in my district. I have been 
working with this kid now for a number of years, and it just so 
happens he wanted to go to the Naval Academy, his number one 
choice, and that is where he has had his heart set for--since I 
have known him. And I called him to tell him about this 
appointment, and he broke down on the phone. And it took him a 
while to regain his composure, and he apologized to me. And 
after talking to the young man, then I always ask them if they 
want me to contact their parents. Some do. Some would like for 
me to make the notification. So he told me to call his mom. I 
called his mom, and there was dead silence. And she too had to 
regain her composure.
    Now, I am not saying for a minute that when a--you pick the 
university, calls a young man and says hey or sends them a 
letter, you are going to be admitted to our school, that there 
is not an emotional connection there. But only in the case of 
the military academies, and it is just not just Navy.
    I picked Navy because it is recent. It is Air Force. It is 
West Point. It is Merchant Marines, even in the Coast Guard 
Academy. There is something about those that goes right to the 
heart and soul of who we are as a country unlike any other 
thing. And so I am going to give each one of the gentleman an 
opportunity. I know you have your own stories, but this is 
probably my layup question of the day for you, and that is how 
does that make you feel as the superintendent of an academic 
and military institution that gets such a response from the 
people that we are sending to you?
    Admiral Carter. Sir, thank you for sharing that story, and 
we get that it is an emotional thing when somebody is given a 
seat in a freshman class at any of our service academies. What 
is remarkable to me is--I have been now in my fifth admission 
cycle at the Naval Academy is not just the quality of who we 
get, the diversity, and not just in the demographics, 11 
percent first generation American, 13 percent first in their 
family to ever attend college. We all understand how impactful 
that is.
    It might surprise people to know that one in five of our 
midshipmen who show up are fluent in another language, so these 
are just some of the attributes. Oh. And, you know, 93 percent 
of them are already, you know, varsity letter winners in their 
high school.
    And there are two significant days in the life of a 4-year, 
47-month journey. And I think the induction day, that day that 
they come in as a civilian and put on a uniform for the first 
time, learn how to salute, stand at attention, and take an oath 
as a midshipman, it is remarkably emotional. Most parents go to 
that now. Of course, graduation which you can imagine when you 
see the hats get thrown in the air. It is the end of their 
midshipmen journey but the beginning of their career.
    So I say thank you for sharing that story and reminding us 
why we do what we do and why it is so important.
    Mr. Visclosky. If I could accept that as an answer for the 
panel so we can move on, that would be terrific.
    Ms. Kaptur. I just have one small question, Mr. Chairman. 
Did anyone ask about the aircraft-related crashes today?
    Mr. Visclosky. No.

                          AIR-RELATED CRASHES

    Ms. Kaptur. If not, I would ask this question, General. 
Aircraft-related crashes are up nearly 40 percent since 2013, 
and my question is have budgets driven the academies to 
substitute simulated virtual computer training rather than real 
world training? Is that the reason for these crashes?
    General Silveria. Ma'am, my role at the Air Force Academy 
is to inspire and to begin to teach these young men and women 
to take on careers as operational aviators in the United States 
Air Force. So we have a glider program, we have a parachute 
training program, and we also have T-53s which is a military 
version of a low wing general aviation small single engine 
propeller aircraft, and so I use those three elements to 
introduce the cadets into aviation.
    We supplement all of that with training devices that 
include the simulators, but also now we have ones that include 
the virtual reality, and we are showing outstanding results 
where cadets that were able to solo in a certain amount of time 
in a glider, we can reduce that amount of time by, in some 
cases, 5 or 10 percent because of their performance after they 
have used the virtual reality goggles.
    So budgets have not driven us to use those elements at the 
Air Force Academy. Those have been a real opportunity for us. 
In many cases, someone puts on a virtual reality goggle, and 
they can perform a function in the air 20 times with those 
goggles on when if they were in the air, they would only be 
able to do it one time.
    Ms. Kaptur. To what do you attribute, sir, the crashes?
    General Silveria. Ma'am, as an aviator myself, 
traditionally the crashes that we attribute to, they always 
come from various reasons.
    There is maintenance in aircraft, but there is also 
training that the airmen have and continue. So without review 
of the specific crashes that you are talking about, ma'am, but 
it is always various reasons for crashes in aviation.
    Ms. Kaptur. We have--and I will put this in the record--
destroyers colliding with commercial vessels in the western 
Pacific. A Harrier jump jet crashed in Djibouti, and all the 
services are continually experiencing negligent discharges from 
weapons.
    Ms. Kaptur. Thank you, Mr. Chairman.

      FACILITIES, SUSTAINMENT, RESTORATION AND MAINTENANCE ACCOUNT

    Mr. Visclosky. Well, I have three areas I would like to 
cover before we adjourn, and gentlemen, the first deals with 
Facilities, Sustainment, Restoration and Maintenance account. 
My understanding is for the military academy at West Point, the 
Training and Doctrine Command works with the academy to ensure 
that funding is included in your budgeting for this account for 
projects for the academy, and that funding would be assured you 
so you can plan for those out years barring some major 
unforeseen circumstance.
    Am I basically correct? I am on the right track? Okay.
    General Williams. Mr. Chairman, let me say it is not--it 
wouldn't be Training and Doctrine Command. It would be my Army 
leadership that work the FSRM.
    Mr. Visclosky. I am sorry. I didn't hear you.
    General Williams. You said the Training and Doctrine 
Command.
    Mr. Visclosky. Yes.
    General Williams. So our Army leadership is how it would 
work my FSRM budget. That is senior Army leadership.
    Mr. Visclosky. I am completely confused now. Let me put it 
another way. The academy for facilities, the sustainment, 
restoration, and maintenance, you are in the overall budget 
request.
    General Williams. That is right.
    Mr. Visclosky. You are part of that budget.
    General Williams. That is right, Mr. Chair.
    Mr. Visclosky. You also can't anticipate, in the palm, the 
next 4 years barring, again, some significant change.
    General Williams. That is right, Mr. Chair.
    Mr. Visclosky. You will plan your work when we finish our 
appropriations----
    General Williams. Yes, sir.
    Mr. Visclosky. For the Naval Academy, my understanding is 
that as of this moment, there is no major command to ensure 
that type of predictability both for a current fiscal year or 
the next four.
    Although literally yesterday the Secretary of the Navy 
announced plans to create a 3-star position to work to ensure 
that each of the major Naval educational institutions, 
yourself, I believe, the War College and the Naval post 
graduate will be in a similar situation that West Point is in 
today where there is predictability for the current fiscal year 
and the out years.
    Admiral Carter. That is correct.
    Mr. Visclosky. For the Air Force, my understanding is that 
the Air Force Installations Management Support Center budgets 
for the activities, but that they are centrally controlled, and 
no installation commander, including yourself, would know in 
advance for sure in a fiscal year how much money you are going 
to get. Is that basically correct, General?
    General Silveria. Sir, one correction I would make is that 
in some cases, I do get money, that I know for sure that I will 
get some FSRM, but then in other projects, I have to wait and 
see if it will be funded.
    Mr. Visclosky. And when you say for some of it, is that 
within the facility sustainment account?
    General Silveria. Yes, sir. Yes, sir. There is some that I 
get funded and then some that are not funded that I have to 
wait and see for funding later.
    Mr. Visclosky. The request for 2019 was $174.2 million. 
Just for perspective, and if you have a ballpark figure, what 
percentage of that money could you count on in the current 
year, 2019?
    General Silveria. Sir, I think I will have to get that to 
you for the record.
    Mr. Visclosky. And the follow-up question would then would 
be----
    General Silveria. Because you want specifically within 
FSRM, yes, sir? You want specifically within FSRM?
    Mr. Visclosky. Yes.
    General Silveria. Yes, sir.
    Mr. Visclosky. But that you would not necessarily know what 
that figure would be, either the portion you know you are going 
to get, or maybe I am wrong----
    General Silveria. Well, sir, I do know.
    Mr. Visclosky [continuing]. For the out years?
    General Silveria. Right. For the out years, I don't know 
that, yes, sir. Sir, we did talk to your staff a little bit 
that there is an amount that I know I still need for 2019 and 
for 2020, so I do know where my shortfall is for 2019 and for 
2020.
    Mr. Visclosky. Could I ask Admiral, first of all, with the 
potential position being created, and again, it was announced 
yesterday, we will be receiving the 2020 budget on March 18th.
    Would you anticipate your circumstances would change with 
the fiscal year budget request for 2020 so that again, you 
would be in a more comparable situation such as West Point 
where you would know for 2020, and you would have a fairly 
accurate prediction for the next 4 years.
    Do you anticipate that is going to happen to you in 2020?
    Admiral Carter. Sir, I am aware of the recommendation by 
the Secretary to stand up a three star position for the Chief 
of Naval Operations staff. I think it will be a number of 
months before that position is created and flag levels have 
probably adjusted.
    Mr. Visclosky. I thought the Navy does stuff like that.
    Admiral Carter. Yes, sir. So I think our budget line for 
our operations and maintenance budget will go the same method 
to the Chief of Naval Personnel as you described.
    I do want to make one adjustment to your earlier comment. 
My restoration and sustainment funding for the installation 
actually comes through Naval Facilities Command who works for 
the Chief of Naval Installations Command. So that is a separate 
operating budget line that supports that part of the Naval 
Academy. The other operations budget that I testified to 
earlier was to support civilian pay, ship maintenance, ship 
control, and midshipmen travel on some of those things.
    Mr. Visclosky. It would be my anticipation if you had 
greater certainty for the current fiscal year and then those 
follow on years, it would facilitate some of the investments 
you have go to make so you can plan to a greater degree.
    Admiral Carter. Yes, sir. I am very optimistic about this 
plan that the Secretary put forward yesterday. I think it will 
help support our needs in having a direct representative at the 
budgeting table to speak for what we call the flagship 
institutions, the Naval War College, the Naval Academy and the 
Naval Postgraduate School.
    Mr. Visclosky. General Silveria, the Navy made the 
announcement literally yesterday. At this point I am not aware 
that the Air Force is in a position to, if you would, emulate 
the way the Army budgets for West Point. Just your opinion, I 
am assuming, from a budgetary standpoint and again renovations, 
and again you have got a problem where everything is kind of 
the same age. It would facilitate and make it more effective 
for you, and efficient if there was more dependability in that 
budgeting sequence?
    General Silveria. Sir, I think there would be some 
possibility that it would probably be a little more efficient. 
But I have to tell you that my secretary, and my chief, and my 
manpower and readiness as Secretary of the Air Force are 
directly involved and know my needs consistently. They are 
working on some of the projects and discussing them openly with 
me directly. So I feel well supported and that they are aware 
of those facilities sustainment moneys that we need.
    Mr. Visclosky. I don't doubt they are aware of your need. 
And I don't doubt their intent knowing both individuals, but if 
you had it in the budget, that it was an identifiable amount 
and you could plan, I assume there would be some improvement in 
your circumstances.
    General Silveria. Oh, yes, sir. Yes, sir. If it was a 
separate budget like that, yes, sir. And it wasn't through 
another command as we all have. Yes, sir, it would be much more 
efficient.

                               ENDOWMENTS

    Mr. Visclosky. We would be delighted as--we are done at 
2019 obviously, but with the budget submissions in 2020 not 
knowing exactly what is going it to happen, would suggest on 
behalf of the subcommittee and would love to work with the 
services to make sure that predictability is forthcoming. I 
really think that would be a good idea.
    Second area is the endowments, we have all gone to schools, 
we are all proud of our schools, maybe not so proud, it 
depends. You all have endowments from your graduates, and my 
understanding is in ballpark average at West Point it is about 
$33 million, Air Force, because they are more frugal is about 
$12 million, obviously different circumstances in Annapolis is 
about $26 million. I must tell you because you are Federal 
facilities, I understand the impulse of graduates to support 
their universities.
    I am concerned that someone who does your budgets, not 
yourselves, are figuring that your graduates are going to fill 
part of the hole that we as a government ought to be paying 
for. Just very briefly, do you end up in the middle of the year 
and you are filling holes with the endowments? Do you have any 
sense, is there some assumptions that they got an endowment and 
they can take care of this themselves?
    And I don't want to put anybody on the spot here. And I am 
not opposed to the endowment and I am not opposed to the 
investment. You are running Federal facilities here.
    General Williams. Mr. Chair, you fund us to be able to do 
our core mission, which is to graduate roughly 1,000 cadets 
every year. This endowment we all have different pieces of it, 
is what we call margin of excellence and they add on to. I 
create a needs statement that would be nice to have, but you 
fund us to what we need to graduate, to commission a second 
lieutenant and that they have a 4-year degree and move on. I 
meet my core requirements of what you provide us.
    And this endowment provides additional, margin of 
excellence kind of quality. It allows us to compete with other 
tier 1 institutions. There is enrichment done. They enable 
enrichment in our academic programs, that is an example of what 
they are able to do on travel, and they also do some 
construction as well.
    Mr. Visclosky. Certainly that is true for the other two?
    General Silveria. Yes, sir, very much true.

                               RETENTIONS

    Mr. Visclosky. But I just make sure we are not shifting 
burdens here.
    The final question I have is on retentions and I do not 
know if the academies track, I do not know if the individual 
departments track. But my understanding is you become an 
officer any number of ways.
    One is you attend the academy's incredible education. You 
may end up by not being so fortunate in going to the University 
of Southern California and participate--oh, I am sorry. My 
son's a graduate, I can make fun--and do ROTC.
    You can also go to officer candidate school. Are there any 
matrices as far as 5 years out if I have done ROTC, if I have 
done officer candidate, I have done the academy? About the same 
percentages, different percentages of people as far as 
retention and continuing in the military? I am just curious.
    Admiral Carter. Sir, we track our Naval Academy graduates 
as alumni and follow their career path in detail. We do 
comparison data to ROTC and OCS. Our last look at those 
categories is all three were retaining at slightly higher 
levels, the Naval Academy a little more so, much deeper into a 
career.
    So again, rough numbers in recent data is 95 percent of 
Naval Academy graduates are still serving beyond the 5-year 
point, which is usually, generally just getting to their first 
commitment about 55 percent beyond the 10-year point and about 
one-third beyond the 20-year point. And if you look at the 
Naval flag ranks, and especially as you get to the four star 
level, we are near 85 to 90 percent of the four stars are Naval 
Academy graduates.
    Mr. Visclosky. Do you know how that compares to the other 
two paths by chance, Admiral?
    Admiral Carter. I am sorry, sir, how they?
    General Silveria. ROTC or officer candidate, do you know 
how that might compare with those two paths?
    Admiral Carter. So they are a little bit less. I think at 
the 5-year point they are probably almost exactly the same. And 
this is only for the unrestricted line community.
    So for ships, surface warfare, submarine warfare, aviation, 
Navy SEAL, EOD, and elements within the Marine Corps, because 
that is where most of our graduates go.
    So officer candidate school produces the vast majority of 
the support officer core, medical, dental, legal, chaplains, 
public affairs and that sort of thing. So that is not included 
in that comparative data.
    So this is in what we call the unrestrictive line warfare 
communities. So part of this is to make sure that we are doing 
the right things right, and that our graduates who obviously 
put a tremendous investment in are not just being retained, but 
they are being promoted and they are doing well.
    General Williams. Mr. Chairman, I need to state that for 
the record. I know that my senior Army leadership is very 
concerned in this space about the return on investment in terms 
of the different commissioning sources. As I mentioned, West 
Point commissions about 1,000 second lieutenants a year, the 
ROTC around 6,000, and the Officer Candidate School slighting 
south of 1,000 each year. But I need to come back and state 
that for the record.
    General Silveria. Sir, I would also like to take that for 
the record for the exact numbers, but I do know a sense that 
the retention rate overall over years, over years is roughly 
the same, but the promotion rates tend to be better for our Air 
Force Academy grads than the other commissioning sources.
    And I know that among our senior officers among our general 
officers similar to the Navy there is a higher percentage, a 
disproportionate percentage of those who achieve our senior 
general officer ranks.
    Mr. Visclosky. Thank you very much gentlemen.
    Thank you very much one for your service, again changing 
your schedules and for your testimony today. Look forward to 
working with you.
    We are adjourned.
    [Clerk's note.--The questions and answers for Chairman 
Visclosky follow.]

    Question. The request for 2019 was $174.2 million. Just for 
perspective, and if you have a ballpark figure, what percentage of that 
money could you count on in the current year, 2019?
    Answer. Currently we have $158M in requirements at Installation 
Mission Support Center (IMSC) for Facility, Sustainment, Restoration 
and Modernization (FSRM)/Construction Tasking Order (CTO) projects. We 
have received $10.4M in funding and are awaiting additional funding for 
our requirements. We continuously work with IMSC to advocate for our 
projects. While our requirements may change if the Cadet Chapel is 
deferred to 2020 (as it currently falls below the AFIMSC funding line 
for 2019), the chart below depicts our current requirements:

----------------------------------------------------------------------------------------------------------------
                  FY                        Project Title          Acquisition Status         $ Requirement
----------------------------------------------------------------------------------------------------------------
 2019................................   Sustain/Repair           Approved/Funded.......              $294,215.00
                                        Sanitary Sewer-Service
                                        Supply.
 2019................................   Sustain/Repair 188       Approved/Funded.......              $970,000.00
                                        Manholes-San Sewer.
 2019................................   Sustain/Repair           Approved/Funded.......            $1,244,000.00
                                        Sanitary Sewer-Cadet
                                        Area 5.
 2019................................   Sustain/Repair           Approved/Funded.......            $6,081,000.00
                                        Elevators-Basewide
                                        FY18.
 2019................................   Repair Storm Drainage-   Approved/Funded.......              $106,099.00
                                        Stadium Blvd.
 2019................................   Sustain/Repair Roof-     Approved/Funded.......               $63,881.00
                                        Hangar Bldg 9209.
 2019................................   Repair Aeronautics Lab   Partially Funded (rcvd            $1,245,000.00
                                                                 $450K).
 2019................................   Repair Enlisted          Awaiting Funding......            $1,500,000.00
                                        Dormitory 5223.
 2019................................   Sustain/Repair Roof      Awaiting Funding......            $1,335,262.00
                                        Plaza-Mitchell Annex.
 2019................................   Sustain/Repair NCAA      Awaiting Funding......              $850,000.00
                                        Competition Baseball
                                        Field.
 2019................................   Repair Cadet Chapel...   Awaiting Funding......          $144,000,000.00
 2019................................   Sustain/Repair Runways/  Awaiting Funding......            $1,180,150.00
                                        Taxiways FY19.
----------------------------------------------------------------------------------------------------------------

    Question. The final question I have is on retentions and I do not 
know if the academies track, I do not know if the individual 
departments track. But my understanding is you become an officer any 
number of ways. One is you attend the academy's incredible education . 
. . You can also go to officer candidate school. Are there any matrices 
as far as 5 years out if I have done ROTC, if I have done officer 
candidate, I have done the academy. About the same percentages, 
different percentages of people as far as retention and continuing in 
the military, I am just curious.
    Answer. USAFA graduates incur a 5-year Active Duty Service 
Commitment (ADSC) upon commissioning, while OTS and ROTC incur 4-year 
ADSCs. Those different initial ADSCs impact differences seen in overall 
retention rates for Air Force officers during their first few years on 
active duty. However, after the initial commitment has been met, all 
commissioning sources retain at approximately the same rate. After the 
initial commitments are complete, the Air Force has a variety of 
situations in which officers may incur additional commitment 
obligations: Pilots incur a 10-12 year commitment based on flight 
training requirements, while non-rated officers who attend Air Force-
sponsored graduate schools, professional schools, or other schools that 
may accrue multi-year ADSCs upon completion of those programs. All of 
these additional commitments may impact what we see for overall 
retention rates.
    Because typically about half of the USAFA graduates from each year 
are Rated, we expect the majority of USAFA graduates to remain in the 
Air Force beyond an initial 5-year obligation. This is borne out in the 
data, where we see more than half (55%) of USAFA graduates remaining in 
the Air Force longer than 12 years.

                         Retention of Officers

    Question. The final question I have is on retentions and I do not 
know if the academies track, I do not know if the individual 
departments track. But my understanding is you become an officer any 
number of ways. One is you attend the academy's incredible education. 
You may end up by not being so fortunate in going to the University of 
Southern California and participate--oh I am sorry. My son's a 
graduate, I can make fun--and do ROTC. You can also go to officer 
candidate school. Are there any matrices as far as 5 years out if I 
have done ROTC, if I have done officer candidate, I have done the 
academy. About the same percentages, difference percentages of people 
as far as retention and continuing in the military. I am just curious.
    Answer. There are three sources of commission in the United States 
Army, the United States Military Academy (USMA), the Reserve Officer 
Training Corps (ROTC), and Officer Candidate School (OCS). Cadets from 
different commissioning sources incur different Active Duty Service 
Obligations (ADSO) that range from 3 years for ROTC (non-scholarship) 
cadets to 5 years for USMA cadets. The fact that USMA cadets must serve 
to the 5-year mark makes comparing retention rates at this point 
uninformative. We instead provide 8-year retention rates below:
          USMA-56%
          ROTC (4yr scholarship)-52%
          ROTC (3yr scholarship)-54%
          ROTC (2yr scholarship)-64%
          ROTC (non-scholarship)-65%
          OCS (In-Service Option)-70%
          OCS (Enlistment Option)-53%
Retention rates among USMA and ROTC 3-year and 4-year scholarship 
recipients are similar because of the rigorous selection and screening 
criteria of these cadet populations.

                          FSRM for West Point

    Question: My understanding is for the military academy at West 
Point, the Training and Doctrine Command works with the academy to 
ensure that funding is included in your budgeting for this account for 
projects for the academy, and that funding would be assured so you can 
plan for those out years barring some major unforeseen circumstances. 
Am I basically correct? I am on the right track? I am completely 
confused now. Let me put it another way. The academy for facilities, 
the sustainment, restoration, and maintenance, you are in the overall 
budget request.
    Answer. For Non-FSRM, Academy operations, USMA is designated as a 
direct reporting unit by the Secretary of the Army and reports directly 
to the Chief of Staff, Army. Funding is distributed directly by the 
Army to the Academy like Army Commands. We fully participate in all 
aspects of the budget and programming process to address the Academy's 
resourcing needs.
    FSRM, Sustainment, Restoration and Modernization funding is 
distributed by the Installation Management Command (IMCOM) to the U.S. 
Army Garrison--West Point. Sustainment is generated by an approved HQDA 
facilities sustainment model. IMCOM leads all aspects of the budget and 
programming process to address Garrison specific facility resourcing 
needs for West Point with Academy input.

    [Clerk's note.--The questions and answers for Mr. Ryan 
follow:]

                        Healthy Army Communities

    Question: First, let me congratulate the Army and Air Force on 
their Healthy Army Communities and Air Force Smart fueling efforts. 
These initiatives are critical to ensuring the readiness and resilience 
of our soldiers and airmen. The obesity epidemic in the United States 
has hit the military the same as the rest of society and the services 
have testified previously to the challenges that DoD has faced with 
both recruitment and retention. For USMA, is your installation included 
in the Healthy Army Communities initiative? Can you provide details on 
how you are improving the food environment and encouraging smart eating 
for the cadet?
    Answer. USMA is part of the Healthy Army Community (HAC) 
initiative, and we provide healthy food options in all our food service 
organizations, activities, and Child and Youth Services (CYS) programs. 
Also, we host numerous fitness activities and competitions on West 
Point as part of HAC. In support of the United States Corps of Cadets 
(USCC) we have a Dietitian on the USCC staff, that provides individual 
counseling and nutrition-related briefings to companies and sports 
teams. Health initiatives in the Cadet Mess (CM) have evolved over the 
years to include:
          --An extensive salad bar at lunch and dinner that contains a 
        variety of vegetables, lean proteins, plant-based proteins and 
        healthy fats.
          --The Dietitian and CM work with food vendors to purchase 
        high quality food products. This includes grass fed beef, free 
        range eggs and organic products.
          --To maintain nutritional quality, food preparation methods 
        minimize added fats and optimize nutrient content by not frying 
        food and not overcooking vegetables.
          --The Dietitian and CM started creating videos highlighting 
        healthy foods and food safety while in the CM. These are posted 
        on the CM Facebook page.
          --Healthy fueling options are available in a CM Grab-N-Go 
        station for all Cadets, while sports teams are training at West 
        Point, and while Cadets are travelling for events.
          --Cadets also receive nutritional education as part of the 
        mandatory curriculum.

                        Smart Fueling Initiative

    Question. We have heard great things about what you are doing at 
the US Air Force Academy under the Smart Fueling Initiative, including 
applying best practices in college and university campus style dining 
and transforming your base food environment to provide more healthy 
options. What specific actions are you taking and do you have any 
metrics on the impacts these changes have had?
    Answer. We have initiated Smart Fueling efforts across USAFA 
(Dining Facilities, NAF operations, AAFES and DECA). Our current 
primary focus is transforming the cadet dining facility. Falcon 
Express, a Grab-and-Go program modeled after other campus dining 
programs, was launched this February and provides dietitian-sourced 
items for cadets daily following the evening meal. Since its launch, 
this program has provided 16,173 entrees and averaged $16,250 per week 
to support an average of 420 cadets per night and the cadet dining 
facility has seen a 6% increase in the meal utilization rate. Cadet 
feedback has been overwhelmingly positive. We have implemented a 
similar program at our USAFA Preparatory School, with similarly 
positive feedback.
    Future plans for the cadet dining facility include ``Pure Bars''' 
(enhanced salad bars) for lunch and dinner and additional healthier-
focused hot/cold Falcon Express items. We also plan to place pop-up 
kiosks with healthier meal/snack choices across the campus to further 
expand options.
    To reach the base population with Smart Fueling choices, we have 
launched a healthier menu at the base bowling center that includes Go-
For-Green options. In the near future, we plan to expand Smart Fueling 
practices targeting the base dining facility, coffee shop, golf course 
and Falcon Club to increase healthier choice options across the 
installation. To that end, we have submitted a $500K unfunded request 
to expand the base dining facility hours of operation and allow access 
to permanent party (currently only active duty airmen and USAFA 
Preparatory School cadet candidates can dine there) in order to provide 
healthier dining options throughout the day for personnel.

    [Clerk's note.--The questions and answers for Ms. Kaptur 
follow:]

                  Future Army Medical Service Officers

    Question. How many of those who are being educated ultimately move 
into a medical profession, either as a doctor or a physician assistant, 
do you have those numbers available, or do you have a sense of that? Do 
you think that is too low a number? I would ask you, if you could, to 
think about [if this is too low a number] and provide for the record a 
reply.
    Answer. By Army regulation, up to two percent of cadets may go 
directly to medical school. The Medical Personnel Advisory Council 
meets annually to interview, select, and provide an order of merit list 
for cadets that would like to apply to medical school. The Class of 
2018 had 16 cadets go through the selection process, and 13 went to 
medical school. The Class of 2019 is still working through the process. 
There were initially 28 applicants for 22 slots. The Class of 2020 has 
28 applicants for 24 slots.
    There is not a path for a West Point graduate to become a PA 
directly after graduation. All West Point graduates, except for those 
selected to attend medical school, are assigned to serve in one of the 
Army's basic combat, combat support, or combat service support 
branches. Some West Point graduates, later in their military careers, 
may transition into a medical profession. There are 246 doctors, 
specialists, or dentists currently serving on active duty who are West 
Point graduates of classes 2000 through 2009, which is about 25 per 
class. Though we don't have specific estimates, it is also likely that 
some graduates from each year group transition to being medical 
professionals after leaving active or reserve military service.
    For the classes that graduated between 2008 and 2019, an average of 
29 officers were assigned to serve as Medical Service Corps officers. 
These officers serve as administrative, operational, logistical, 
technical, scientific, or preventive medicine specialists. They also 
provide command and control of medical service units, and they 
coordinate the employment of medical service soldiers in support of 
operational units.
    We make occupation-specific placements using our Talent Based 
Branching process which helps cadets understand their unique skills, 
talents, interests, and abilities and then attempts to match cadets to 
occupations in which their skills, talents, interests, and abilities 
will help the Army meet its requirements and priorities. We have great 
confidence in our process that graduates are getting the opportunity to 
serve in Army occupations that will be professionally rewarding as well 
as skill and career enhancing.

                                           Tuesday, March 26, 2019.

                 FISCAL YEAR 2020 NATIONAL GUARD BUREAU

                                WITNESS

GENERAL JOSEPH L. LENGYEL, CHIEF OF THE NATIONAL GUARD BUREAU

                Opening Statement of Chairman Visclosky

    Mr. Visclosky. The Subcommittee on Defense will come to 
order. This morning, the committee will receive testimony on 
the posture of the National Guard and Reserve Components and 
their fiscal year 2020 budget request.
    This will be a two-panel hearing. Panel one recognizes the 
Chief of the National Guard Bureau. Panel two will recognize 
Reserve Component Chiefs from the Army, Navy, Marine Corps, and 
Air Force Reserves. I would encourage all members to stay for 
both panels.
    Our witness for panel one is General Joseph Lengyel, Chief 
of the National Guard Bureau.
    General, we are very pleased to have you here with us 
today, a member of the Joint Chiefs of Staff.
    This subcommittee has provided the Reserve Component with 
significant resources through the National Guard and Reserve 
equipment account, an appropriation which is not included in 
the President's budget request, as well as additional funding 
for counterdrug operations, Humveemodernization, helicopters, 
fixed-wing aircraft, and more.
    However, we would like to cover all aspects of funding for 
the Guard and Reserve today, to include your request for 
funding in the military personnel and operations and 
maintenance accounts.
    With that, I thank you again for appearing before the 
committee today to discuss these important issues. We will ask 
you to present your summarized statement in a moment, but first 
I would recognize my good friend and colleague, Mr. Calvert, 
for his opening statement.

                     Opening Remarks of Mr. Calvert

    Mr. Calvert. Thank you, Chairman Visclosky.
    And, General Lengyel, welcome. While our National Defense 
Strategy is now focused on great power competition, we must 
remain mindful of the important role our National Guard members 
play in fulfilling these critical national security challenges. 
Meeting the challenges posed by adversaries, such as Russia and 
China, will also require that the National Guard is fully 
engaged, trained, and equipped so that they may be fully 
compatible with the Active Components.
    We have relied heavily on the men and women of the Guard, 
more than 850,000 deployments since 9/11, and they performed 
admirably as they have been called upon time and time again in 
the fight against counterinsurgencies.
    I look forward to hearing from you today about how you have 
been involved in the National Defense Strategy and the key 
roles that the Guard plays with respect to the warfight, 
defending and securing our homeland, building enduring 
partnerships. Thank you again for your service, and we look 
forward to your testimony.
    Mr. Visclosky. Thank you very much.
    General, your full written testimony will be placed in the 
record, and members have copies. There will be one round of 
questions for each member present. In the interest of time, I 
strongly encourage you to keep your summarized statement to 5 
minutes or less and to be complete, obviously, as you have 
always been in your answers, but as succinct as possible in 
responding.
    General, the floor is yours.

                  Summary Statement of General Lengyel

    General Lengyel. Thank you, Chairman.
    Thank you, Chairman Visclosky, Ranking Member Calvert, and 
distinguished members of this committee. It is a pleasure to be 
here today.
    And, Mr. Chairman, at this time, I would like to submit my 
full written statement for the record.
    The National Guard consists of nearly 450,000 citizen 
soldiers and airmen of the Army and Air National Guard. They 
represent the finest National Guard force in our history, and I 
am honored here today to represent them, along with their 
families, their communities, their employers, who all support 
them.
    The National Defense Strategy outlines the priorities for 
our military to deter war, and protect the security of our 
Nation. My focus remains on the three primary missions, which 
are the warfight; defending and securing the homeland; and 
building enduring partnerships. Each one of these missions 
directly supports the National Defense Strategy.
    In the warfight, on any given day, approximately 30,000 men 
and women of our National Guard support every combatant command 
around the globe. Our soldiers and airmen work with allies and 
partners to compete against adversaries below the threshold of 
armed conflict, to expand our Nation's competitive space, and 
to ensure we have and maintain an advantage.
    We are poised in regions where our men and women are 
postured to delay, deter, and deny adversarial aggression. The 
National Guard is prepared to surge and expand its support in 
times of war, and we are always ready and always there to 
defend the Homeland. As the space domain increasingly becomes a 
war domain, our Air and Army Guard space units are vital to the 
space mission, as this domain becomes ever encompassing. As 
with our units in the Army and Air National Guard, it is 
imperative our space units remain aligned with their parent 
services, including any future potential Space Force.
    In the homeland, the National Guard has, on average, about 
10,000 guardsmen, men and women, soldiers and airmen, 
conducting homeland operations every single day. Your Air 
National Guard fighter wings are protecting our Nation's skies 
in 15 aerospace control alert sites, including the skies over 
the Capitol here today.
    Our cyber units continue to protect our networks from 
malicious cyber attacks. Twenty-seven of our States' National 
Guards were on duty and provided support in State Active Duty 
during the most recent elections, ensuring their integrity. The 
National Guard is also crucial to our Nation's ballistic 
missile defense, as proliferation of missile technology 
continues to expand.
    On top of all this, the National Guard is ready to respond 
to emergencies, such as hurricanes, wildfires and flooding, as 
well as assist law enforcement during times of civil unrest, 
missions that the National Guard performs with little or no 
notice. Last year, the National Guard was called up 195 times 
to respond to homeland emergencies. Our presence in communities 
around the Nation uniquely posture us to respond when our 
communities need us. The National Guard's success in 
warfighting and homeland operations is a direct result of the 
enduring partnerships we build with international, Federal, 
State, and local partners.
    The National Guard, through the State Partnership Program, 
now partners with 83 nations. This low-cost, high-return 
program builds enduring partnerships based on mutual trust and 
generates security cooperation around the globe. To date, the 
National Guard has codeployed 80 different times with our 
partner nations. On the Federal, State, and local levels, our 
deep partnerships and National Guard's unique authorities 
ensure a speedy response with unity of effort during times of 
domestic crisis.
    To ensure the readiness of the National Guard to be 
deployable, sustainable, and interoperable with our Active 
Components, we require such things as appropriate levels of 
full-time support and replacing and upgrading old and worn-out 
facilities. We also require parity in equipping our force, 
through concurrent and balanced modernization and 
recapitalization of our force.
    Mr. Chairman, I offer my sincere thanks and deep gratitude 
to this committee for the long history of support for the 
National Guard. During my time as Chief of the National Guard 
Bureau, the National Guard has seen increases in critical 
modernization and recapitalization that include C-130Js, 
Apaches, Black Hawks, Humvees, and C-130 propulsion 
modernization. This committee's support for these programs has 
provided and will provide for increased lethality of our 
National Guard and its readiness.
    Mr. Chairman, I thank this committee for the continued 
support of the National Guard and Reserve Equipment Account. 
For decades, this account has enabled the National Guard to 
field a ready force that can both defend the Nation and respond 
to emergencies in every community, district, territory and 
State across our country.
    To all the members of this committee, thank you for taking 
the lead in support of your men and women in the National Guard 
and their families. I am honored to be here representing them 
today, and I look forward to your questions. Thank you very 
much.
    [The written statement of General Lengyel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Ryan [presiding]. Thank you, General.
    We will begin the questions. Mr. Calvert.

                         EQUIPMENT REQUIREMENTS

    Mr. Calvert. Thank you, Mr. Chairman.
    Thank you again, General. I appreciate your being here 
today. This subcommittee has placed a great deal of emphasis on 
modernization of the total force to ensure that the Guard and 
the Reserve have equipment compatible with the Active Force.
    Can you discuss the impact that this has had on the 
National Guard with respect to deployments alongside the Active 
Component and with respect to fulfilling your homeland defense 
missions? Recently, the Guard was called to help fight 
wildfires in California. And so, as a side note, I want to know 
if we have adequate equipment to address those needs.
    General Lengyel. Well, yes, sir. Thank you very much, sir, 
for that question. And this operational force that the National 
Guard has become has caused us more than ever before to have to 
be deployable, sustainable, and interoperable with our service 
components, with the Army and with the Air Force.
    In my view, that means that the old ways, the old days of 
where you would buy new equipment and you would put it into the 
Active Component and you would cascade the older equipment into 
the Reserve Component I believe is really no longer a relevant 
model. I mean, in any conceivable scenario where the United 
States is going to have to go to war with a near peer 
competitor, it is pretty much agreed that everyone is going to 
have to fight. The Active Component, the Guard, the Reserve, 
everyone will be there.
    Whether you deploy on day 20 or whether you deploy on day 
50 or whether you deploy on day 120, all of the components of 
the services are going to have to go to war. And when you get 
there, you are going to have to be able to plug in, you are 
going to have to be able to communicate, you are going to have 
to be able to sustain all of those warfighting functions that 
we have, which means we are going to have to have the same 
equipment as the Active Component.
    So, over time, you know--and we do have some older 
equipment in the National Guard, just by nature of the 
modernization process. Some of the older C-130s, and some of 
the Apaches are being modified. Some of the tanks are being 
modified. And I believe that it is incredibly important that 
the service--and to a large degree they are--modernize our 
force structure in accordance with the Active Component as we 
go forward.
    Whenever we are modernized and ready to go here in the 
homeland, that equipment makes us more ready to do what we need 
to do in any respect, whether it is fighting fires with new 
helicopters, like new Black Hawks that we have in California 
that are used to extinguish fires with fire extinguishers, as 
we saw many times last year. So it is incredibly important that 
we maintain a modern Reserve Component and National Guard.
    Mr. Calvert. Unfortunately, we have had our fair share of 
fires in California, and the Guard has been very helpful in 
that. So we certainly appreciate that. And I know they got some 
new Black Hawks to help combat that. So we are grateful that 
they have them. So thank you.
    General Lengyel. We are grateful to you, sir, for getting 
them for us. Thank you very much.
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Ryan. Mr. Ruppersberger.

                 ADVANCED ELECTRONICALLY SCANNED ARRAY

    Mr. Ruppersberger. General, first, thanks for the meeting 
in our office, and based on that meeting, I have a question I 
am going to ask you. The first thing, in 2015, there was a 
Joint Emergent Operational Need, you call it JEON, for 72 
advanced electronically scanned array, which is AESA, radars 
for the National Guard. These systems significantly improved 
air-to-air detect and risk in support of the Aerospace Control 
Act mission in the defense of the homeland. Did you get all 
that?
    General Lengyel. I did, yes, sir.
    Mr. Ruppersberger. Okay, fine. I believe that there are a 
hundred of the F-16s still in service for the Air Force, 
National Guard, and Reserve, and some of these platforms are 
expected to be in operation in 2040. It is essential that these 
aircraft remain operationally viable against the increasing 
sophisticated threats.
    Two questions: Would additional Air National Guard 
squadrons benefit from these AESA radar upgrades; and, two, 
what benefits would these new radars provide?
    General Lengyel. Well, yes, sir. I mean, without a doubt, 
the defense of the homeland is one of the things that we do in 
manning the alert sites, as I mentioned in my opening remarks. 
And the acquisition of the active electronically scanned array 
radar will allow us to better identify, detect, target and 
defeat potentially weapons that could be used against the 
homeland. So the 72 platforms that we have, the 72 AESA radars 
that are coming, will be a big help, and they will be stationed 
eight each at the S-16 locations at those alert sites.
    That does create some problems for us in that we will now 
have a mixed fleet of different kinds of radars in these 
squadrons, which makes it difficult because these squadrons do 
more than just protect the homeland. We deploy in support of 
other combatant commands around the world, and it makes 
logistics more difficult. So, without question, we would like 
to see that eventually the entire fleet of F-16s begin 
modernization with the AESA radars. We have an additional 261 
F-16s that will not, under the current program, be upgraded 
with the AESA radars.
    So I think it is important that we consider that, you know, 
should funds become available, that the Air Force consider 
modernizing more than just the 72 that are currently in the 
plan for the National Guard.
    Mr. Ruppersberger. Would this be a high priority for you 
and your National Guard and Reserve?
    General Lengyel. I believe it would. I believe it would 
make it a more capable platform. It does more than just detect 
threats. I mean, it is an enhanced new generation sensor that 
makes the aircraft actually more survivable. In a combat 
environment, there are many reasons that we would want to 
have----
    Mr. Ruppersberger. Give me an example of how it would work.
    General Lengyel. Well, I mean, the radar, it functions 
differently than the old phased array radars that actually have 
moving parts. It is easier to maintain once it is on the 
platform. It functions differently in terms of how it emits 
energy and how it returns and receives energy to identify its 
targets. It can see smaller targets. It can see cruise missiles 
perhaps that may be shot, you know, at the United States. So 
that is one way it would see as it would target incoming 
threats.
    The other thing it can do is actually act as a sensor, 
where it can actually find other types of electromagnetic 
energy that may be targeting that platform itself so that it 
can then become a more survivable platform in combat.
    Mr. Ruppersberger. Okay.
    I yield back.
    General Lengyel. Thank you.

                 ADVANCED ELECTRONICALLY SCANNED ARRAY

    Mr. Ryan. Thank you, General. I just have a quick followup. 
So you are talking about 72 platforms, new. That will be the 
new radar. How many total?
    General Lengyel. Well, there are----
    Mr. Ryan. You say there is a mixed fleet and you got to 
figure out how to get everything working together. How many old 
radars will still be online?
    General Lengyel. There will be an additional 261 radars 
that are still out there.
    Mr. Ryan. Okay. So there are 261 old ones.
    General Lengyel. On top of the 72 new AESA radars. That is 
correct.
    Mr. Ryan. And how long does it take to get all those 
working together?
    General Lengyel. Well, I think--I don't know exactly. I 
mean, it is relatively--it is not a hugely long time to install 
a radar, but, I mean, we have to acquire the radars and have 
them installed. It would be a matter of years. Fifty airplanes 
would cost about $110 million. If we did 50 a year, it would 
take, you know, 5 years essentially time, about $600 million to 
do the whole fleet.
    Mr. Ryan. Okay.
    [The information follows:]

    Question. How many F-16s will be left without AESA radar? What is a 
realistic time line to get all additional F-16s upgraded with AESA? How 
much money does that equate to per year and overall?
    Answer: 261 of the ANG's 333 F-16's will remain equipped with a 
legacy radar, reducing the fleet's overall lethality. With $682.5M, 
estimated completion for all ANG F-16's would be 2029. As future units 
recapitalize to new fighters, the number of radars, cost and time to 
complete the upgrades should reduce accordingly.

    Mr. Rogers.

                              C-130 FLEET

    Mr. Rogers. Thank you, Mr. Chairman.
    General, welcome back. Good to see you again. Thank you for 
visiting in my district last year----
    General Lengyel. Yes, sir.
    Mr. Rogers [continuing]. To observe the counterdrug 
program, which is very, very effective, by the way. So thank 
you for being there for that and for our recent visit.
    The Kentucky Guard State Partnership Program is working 
very well. Thank you. Djibouti and Ecuador. And that is a very 
beneficial program for the country, especially for the Guard. 
As you know, it has been one of my priorities to ensure that 
the Air National Guard modernizes its C-130 fleet, their C-130H 
models, now some of the oldest in the Air Force, and they need 
both upgrades and new planes.
    Tell us what the Air National Guard is doing to keep these 
aging aircraft viable and to meet warfighting and domestic 
response missions.
    General Lengyel. Yes, Chairman, sir, thank you very much 
for the question. In our C-130 fleet, obviously we have a lot 
of old or older model C-130Hs in the National Guard. We have I 
believe it is 14 units and about 133 C-130H models in our 
fleets.
    And the C-130H model is getting older. So we have a program 
to modernize it. The Avionics Modernization Program 1 and 2, 
which are currently ongoing and there is money in the program 
to modernize these platforms. And then the additional 
modifications that we are doing to try and make the aircraft 
more viable for a longer term is we are actually doing some 
propeller and engine modifications to the C-130 fleet.
    Right now, there is no additional money in this year's 
budget to modify the propulsion systems and the engines of our 
C-130H models. But over long term, as you may have read, we 
have had some issues with some of the older C-130s and their 
propeller blades, and for a while this year, some of the fleets 
were grounded as these older blades were unflyable.
    So we believe that we have to do two things: You know, 
predominantly continue some of the modernization efforts with 
the Avionics Modernization Program, continue that, and 
additionally, we think it is necessary to continue the 
propellers and propulsion modernizations as well for some of 
these platforms.
    Conversely it is always a choice. As you know, the Air 
Force hasn't put any more money against the C-130J model for 
our fleet, the recapitalization of that program. But I believe 
that at some point we are going to probably consider wanting to 
do both as in terms--I thank the committee for adding eight C-
130Js last year and six the year before that and two the year 
before that, which allowed us to begin to actually recapitalize 
an older C-130 fleet.
    I believe over time, as we continue the modernization 
process, it will be a consideration to consider buying more J 
models at some point in the future to continue the fleet such 
that it is just going to get older and it is going to need to 
be modernized.
    Mr. Rogers. Well, as you are well aware, this committee 
provided funding for 16 new----
    General Lengyel. You did.

                                C-130JS

    Mr. Rogers [continuing]. Js between fiscal 2017 and 2019. 
Where will these aircraft be based and on what timeline for 
those 16?
    General Lengyel. So there is a process inside the Air 
Force, a basing process that the Air Force uses and the Air 
National Guard participates in. The Air Force sometime later 
this fall, probably fall of 2019, will determine the preferred 
locations and potential alternates on where these aircraft 
might be based. And then when they become available to bed 
down--I believe in 2022 is I think when we get the first 
aircraft--we will have selected places where we can bed down 
the new C-130Js. But those decisions of alternative locations, 
primary alternate locations won't be determined until later 
this year, sir.
    Mr. Rogers. Do you expect future Presidential budget 
requests for more 130Js for the Air Guard?
    General Lengyel. Well, I am not aware of there being a plan 
to buy more, but I would recommend that we consider that. The 
flying hour cost for the C-130J models are lower. The sustain 
maintenance costs over time are lower. And like any old 
platform, the longer you have a platform there, the C-130H will 
progressively get more and more expensive to maintain and to 
fly so that it can be deployable, sustainable, and 
interoperable.
    And as you know, we rely heavily on that aircraft in the 
homeland as well for all sorts of disaster response. So it is a 
very important platform to the National Guard and to the Air 
Force.
    Mr. Rogers. Thanks, General.
    General Lengyel. Yes, sir.

                           ELECTION SECURITY

    Mr. Ryan. Thank you, General. I have a couple questions. 
You mentioned in your opening statement you had about 10,000 
guardsmen operating around the homeland. Can you talk to us a 
little bit about the elections process? I think that is 
something we are all very interested in. Can you give us some 
detail on what the role of the Guard has been around elections?
    General Lengyel. I can tell you that if you are referring 
to the cyber activity during the recent elections, we did. I 
mean, I believe that, you know, this year coming into the 
election season this past election year, there was a concern of 
the security of our networks. And so the Commander of U.S. 
Cyber Command and myself at U.S. Northern Command brought all 
the adjutant generals in to Colorado Springs, and we gave them 
a brief on here is how we view the threat that international 
actors may portray to our networks, to driving changes in the 
narrative, to swaying the political process in the U.S.
    So at least all of the States had awareness of what may be 
happening in and around their States with respect to 
manipulating information via the networks or the like.

                     RUSSIAN ELECTION INTERFERENCE

    Mr. Ryan. So, when you say that, can you be clear as to 
what you mean? Foreign actors trying to influence----
    General Lengyel. Absolutely. Where there were Russians 
playing on our networks or, as you widely read in the press, 
people trying to manipulate the narrative, political narratives 
here in the United States.
    Mr. Ryan. So what exactly did they do? There is an issue 
that comes up. Here is the election. It is a polarizing issue 
in the country. What do they do?
    General Lengyel. Well, I believe that they--you know, we 
were discussing how perhaps they use social media and various 
bots and things to create a political narrative that may sway 
one way or the other an election campaign. I think that there 
were people that were concerned about manipulation of networks 
and vote totals and those kinds of things.
    I think with respect to the National Guard and what were 
they doing, on election day, they were trying to monitor the 
security of networks in State.gov networks, not DOD networks, 
State.gov networks. And on election day and during election 
season, we had 27 States that had some cyber capacity, State 
capacity, State Active Duty monitoring the security of 
State.gov networks.
    And, you know, I think we continue to learn how to do this 
better. We continue to learn how to stay connected with, you 
know, what may be a security issue with respect to our 
networks, which is not a DOD issue. Perhaps it is going to be a 
DHS issue or some other capacity, but we are involved in it.

                        SECURITY OF THE NETWORKS

    Mr. Ryan. I am going to take some liberties because I am 
the chairman right now. This will not happen again for a long, 
long time, I think.
    So these--and we are not in a classified setting either, so 
obviously you want to be careful. But these foreign countries 
are coming in here. They find a rift in our social media 
platforms and conversations that we are having. They actually 
create content, right? Like, if there is an issue that is 
polarizing and there is--one party is on one side and one is on 
the other side, they like the fact that there is this conflict 
within our country, and then they try to throw gasoline on it, 
right?
    General Lengyel. Yeah. I mean, that is possible. But, I 
mean, from how the National Guard played in this thing, they 
were strictly monitoring the security of the networks. They 
were not doing anything with respect to monitoring narratives 
or information.
    Mr. Ryan. So what do we do if we find these bots that are 
kicking out content? What is our response to that? We shut them 
down?
    General Lengyel. You know, I think that there would be some 
other DHS Cyber Command, some other entity besides the National 
Guard would take an issue with that. I think an awareness--I 
think, you know, in general, the society's need to validate 
data before what you believe what you read on the internet or 
social media. It is a foundational issue that we need to deal 
with. But that has really nothing to do with the National Guard 
Cyber Enterprise.

                               READINESS

    Mr. Ryan. That is why I bring it up because I think this is 
one of the fundamental issues in the country right now is that 
our adversaries are intentionally trying to keep us divided in 
the country. And it is not a political statement. It is a 
statement of security and our ability to move forward as a 
country. So I wanted to just highlight that.
    One last question before we move on. Readiness has 
obviously been a huge issue, going back to Iraq and Afghanistan 
and then sequestration. Can you just talk to us a little bit 
about your feelings on the Guard's readiness at this point and 
how your budget that you are submitting is trying to fill some 
of those gaps?
    General Lengyel. Yes, sir. I think--obviously, readiness is 
the number one priority, readiness and lethality for the 
National Defense Strategy. It is the Army's number one 
priority. It is the National Guard's number one priority.
    I think that, from a readiness perspective, the National 
Guard is as ready, really, as it has ever been. We have a 
cycle, a disciplined training program that fits into a model 
that supports the utilization of the operational force. Because 
of that, we have--the Army has invested in us and given us more 
Combat Training Center rotations. We have four Combat Training 
Center rotations in this year's budget. They have slightly 
increased the number of flying hours for our Army aviation 
helicopter pilots. We have increased, you know, some 
sustainment programs inside the Air Force, to maintain and 
increase the readiness on the Air National Guard side as well.
    We have continuously worked on our medical readiness. The 
Army National Guard readiness is at 89 percent. It is the 
highest component individual medical readiness inside the Army. 
So we have worked very, very hard to become a force that is 
accessible and ready and able to be mobilized quickly if the 
Nation needs us.
    We do have issues that we continue to see that could 
enhance our readiness. The one program that remains at risk, I 
believe at a high level of risk for the Army National Guard, is 
the level of full-time support that we are manned at. We are 
manned at 64 percent of what the Army requirement says we need 
to maintain our readiness. It is the lowest readiness account. 
When you look at training and medical and sustainment, it is 
the only account, really, that we man at such a low sustainment 
rate.
    So I would like to see over time us continue to work on 
improving, perhaps reducing the risk of our full-time support 
inside the Army National Guard, but overall, the readiness of 
the Reserve Component is good. We generally are at a lower 
level of readiness than the Active Component anyway on the air 
side. The same on--I mean, on the Army side. The same on the 
air side. I think it is a relatively good news story inside 
this budget for readiness. It maintained a high priority 
throughout the budget.
    Mr. Ryan. Mr. Cuellar.

                            PERSONNEL QUOTAS

    Mr. Cuellar. Thank you, Mr. Chairman.
    Thank you, General for what you all do.
    I know there are some States that have not been able to 
meet any of their personnel quotas for the National Guard 
units. And then you have a State like Texas that has over 
21,000 personnel. And I think, you know, if they are given the 
opportunity to grow with the additional manpower slots or 
associated funding, I think it would help the overall cost.
    Are there any discussions? Is there any way we can help you 
on those discussions about the possibility of realignment of 
manpower slots from those States that can't achieve their 
quotas and move them to States like Texas that have the 
capacity? And I don't want to take anything away from anybody, 
but if they are not able to do it, then don't penalize a State 
like Texas that is willing to step up.
    General Lengyel. Well, yes, sir. We have a project ongoing 
right now inside, again, the Army National Guard to look across 
the Nation, where do we have units that are not able to recruit 
to full manning levels inside the Army National Guard. And as 
this ongoes, it will go on over the summer, we will look to 
reposture underrecruited force structure from a State that 
simply can't recruit to it anymore into other States--Texas is 
one who obviously has the ability to recruit over and above its 
current force structure. There are other States that can do 
that. But there is a project undergoing right now inside the 
Army National Guard to look at perhaps restationing structure 
that can't be recruited in other States.
    [The information follows:]

    Question. What is the current status of the ARNG force structure 
realignment project that will realign billets between States? What is 
the goal of the program? When will the program provide its 
recommendations?
    Answer: States and Territories have until 1 April 2019 to provide 
force structure adjustments required to balance their personnel 
strength with their authorized force structure allowance. The goal of 
the program is to more efficiently distribute force structure across 
the 54 States and Territories in order to improve end-strength and unit 
readiness. States that have historically failed to meet end-strength 
requirements potentially reduce force structure, while States that have 
historically exceeded end-strength requirements potentially gain force 
structure. Final re-balance recommendations will be provided to Chief, 
National Guard Bureau by 1 June 2019. Approved re-stationing actions 
will be executed beginning in FY22 and completed NLT FY26.

                          COUNTERDRUG PROGRAMS

    Mr. Cuellar. I am sure Mr. Carter and I would be very 
interested in this. So, if you can keep us posted on this, we 
would appreciate it. Again, nothing to take away from any 
States, but if they are given the opportunity and they can't do 
it, then give them to States who are willing to do that. So I 
appreciate it if you can give us something in writing and just 
keep us posted on that.
    The other thing is I know that the National Guard has been 
dealing with counterdrug programs for many years. I think more 
than 30 years. A GAO report, as you know, found out that the 
DOD strategy is out of date and doesn't reflect current drug 
threats. And, as you know, the bad guys have the money, have 
the resources to be constantly changing. And then, in 2014, the 
National Guard rescinded the guidance for States on how to 
operate and administer the program and hasn't replaced it yet 
unless if you all have done that since the GAO report. And then 
DOD has funded State counterdrug activities without first 
approving their plan.
    So can you tell me how the National Guard and DOD are 
addressing these issues?
    General Lengyel. Yes, sir. I am aware of the GAO report 
that came out in January. It made five recommendations. You 
mentioned three, I think, three of them right there. We are in 
the process of putting out new guidance so that the current 
National Guard's Chief National Guard Bureau instruction will 
be on the street here very quickly. I am also aware of the 
discussion of aligning the State plans and making sure that the 
State plans were submitted and approved before we disburse 
funding. We have already got mechanisms put in place to make 
sure that that happens.
    The other two issues, the aligning the threat-based 
resource model or how we allocate the specific funding in 
accordance with the strategy, and the general officer group 
that decides and helps us craft the appropriate threat-based 
resource model is meeting next week to begin going over 
aligning the threat-based resource model with the National 
Counterdrug Strategy, to make sure that they are aligned. So I 
am aware of them. There are four things specific to me and the 
National Guard Bureau. We have addressed two of them so far and 
two more to go, and I am happy to update that to you soon.

                       STATE PARTNERSHIP PROGRAM

    Mr. Cuellar. And then just to finish one last thought, the 
State Partnership Program is a great program. I see where you 
are at. I know Texas is involved and, too, many other States, 
and I appreciate what they are doing. Why is Mexico not 
included? I mean, there is so much emphasis by the President 
and other folks on Mexico. Do you all need some help meeting 
some people down there?
    General Lengyel. No, sir. I think, you know, every nation--
--
    Mr. Cuellar. You know, they are working on their own 
National Guard.
    General Lengyel. I know. That is good.
    Mr. Cuellar. I want to be helpful. I know my time is up, 
but I would love to follow up, but if you need to meet some 
folks, I will be happy to introduce you and move the process. 
And I know there is a sensitivity between the U.S. and Mexico; 
I understand all that. But I would be happy to work with you to 
find a State that is willing to work with Mexico. I mean, there 
is so much emphasis. I mean, if we can't do something with our 
own next-door neighbor, I think we are missing something here.
    General Lengyel. Yes, sir. And, as you know, the nation 
that is going to be partnered has to request a partnership. And 
thus far, Mexico has not requested to be a partner. And this 
has happened before. There are some nations who believe 
sometimes that they don't want to partner with a State; they 
want to partner with a Nation. They are a full Nation; they 
want to partner with the United States, not any particular 
State.
    That has changed over time. Brazil used to have the same 
thought. We just signed a partnership last week between Brazil 
and the State of New York. So I think that, you know, we would 
be obviously more than willing to supply a partner to the 
nation of Mexico if they desired one and the combatant 
commander supported it. I think it would be a great plan.
    Mr. Cuellar. I will work with you.
    Thank you, Mr. Chairman.
    Mr. Visclosky [presiding]. Judge Carter.

                     CHILDREN OF MILITARY PERSONNEL

    Mr. Carter. Thank you, Mr. Chairman.
    Welcome. Thank you for being here. I am going to ask you a 
question that is kind of peculiar to my office right now. Right 
now, it is a national policy for all 50 States that Active Duty 
military personnel's children are flagged by the schools so 
that teachers, counselors, and administrators know that these 
are military children because military children generally can 
have special needs, with dad or mom being deployed and that 
type of thing.
    The issue has been raised to me, which I agree with, that 
we are deploying the Guard and the Reserve at historic levels. 
And I think those children should be flagged also for special 
counseling needs and so forth. And it is just a matter really 
of put in the computer and flag them. But it brings that so if 
a child is acting out, they can see, hey, their dad or mom may 
be deployed, and they may need some help.
    Do you agree that would be a good addition? Or if you 
don't, tell me why.
    General Lengyel. No, I think it would be a fine addition. 
Sir, I think that, you know, the National Guard, the business 
model usually means that people stay in the same community for 
many, many years. So they will go through an entire school 
system, and they won't move. But I think that identifying them 
as military members with parents who deploy and parents that 
may have stress, I think it would be a good thing.

                            SOUTHWEST BORDER

    Mr. Carter. I think so too. Let's talk about the southern 
border, which we have quite an interest in in our State. 
According to this, 6,000 Defense Department personnel are down 
there, of which about 2,100 are National Guard troops, and they 
have assisted in 23,000 arrests and helped seize 35,000 pounds 
of illegal drugs.
    Can you tell us about your deployments along the southwest 
border and highlight any successes you have and give us your 
opinion about long-term needs for National Guard troops on the 
border to assist DHS?
    General Lengyel. Sir, I can. I was on the southwest border 
this past weekend. I was actually in Arizona. I went to 
Nogales. And I have been to Texas on that southwest border as 
well. We have been on the southwest border this time--as you 
know, we have been on the border many other previous times. 
This time, we have been on there since April 10th of last year.
    And we have been on a mission in direct support of the 
Department of Homeland Security to assist them with security on 
the border. We are not doing any law enforcement activities. We 
are not doing any detainee or immigration operations. We are 
doing simple tasks that allow Customs and Border Patrol and 
Customs and Border Protection officers to be more available to 
do the law enforcement and hands-on business of securing the 
border.
    Without a doubt, the National Guard forces are making a big 
difference, enabling the Department of Homeland Security to 
help secure the border. They were effusive in their praise, and 
they are doing everything from helping keep vehicles working to 
helping clear brush so that they can actually see and secure 
the border to aviation activity to monitoring security video 
cameras of issues on the border and calling out when technology 
has indicated that somebody has breached the border, such that 
a Customs and Border Patrol agent could be dispatched, if 
required, to go interdict and engage perhaps an immigrant going 
down there.
    So I can tell you that, without a doubt, they relayed to 
me, the Customs and Border Patrol, that they are overwhelmed; 
that without having the National Guard forces on the border, at 
least now they don't see being able to secure the border to the 
degree that they need to without the assistance of the 
continued National Guard.
    I don't know how much longer we are going to be down there, 
certainly through the end of this year. The current Operation 
Guardian Support that we do is ongoing. And we are starting to 
look at this mission as if it may be an enduring mission in 
terms of 2 or 3 years long.
    So I believe that they are making a difference. They are 
helping secure the border for DHS and their responsibility. And 
everyone who is down there is a volunteer. They enjoy the 
mission, and they are getting a lot out of it. They want to be 
there, and I suspect that we will be there for some time.
    Mr. Carter. I suspect you will be too.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Thank you very much.
    Mrs. Kirkpatrick.

                       OPERATION GUARDIAN SUPPORT

    Mrs. Kirkpatrick. Thank you, General, for being here. I 
represent a southern Arizona district. Where were you in 
Arizona last week?
    General Lengyel. I was in Nogales.
    Mrs. Kirkpatrick. Oh, you were? Okay.
    General Lengyel. Yes, ma'am.
    Mrs. Kirkpatrick. So I have Tucson and then Cochise County, 
which is sort of southeast of there.
    General Lengyel. Yes.
    Mrs. Kirkpatrick. Well, great. I am glad you were there. It 
was a beautiful week in Arizona.
    General Lengyel. It was.
    Mrs. Kirkpatrick. You know, as of March 4th, there were 
2,362 Guard personnel supporting Operation Guardian Support 
along the southwest border. I know that you are supporting DHS 
and border protection administrative tasks and aviation 
support. You are not doing any law enforcement missions.
    But I understand that some Governors have started pulling 
support for the border mission. How do you effectively plan for 
Guard personnel to execute the mission if the Governors do not 
approve their deployment?
    General Lengyel. Well, there are multiple ways you can use 
the National Guard. One way is under title 32, which is under--
federally funded but State control, which is how we are doing 
it right now. And there are 21 States currently providing 
support to the now two border States: Texas and Arizona.
    New Mexico's Governor has decided to limit Guard support. 
There are still a few on the border, but they are winding down. 
California is also, their numbers are--they were at 350, and 
they are on their way down to a much smaller number and have 
said they don't want any other States there. So, when you are 
using the Guard in a title 32 status, the accepting State must 
approve the Guard to come in. So that is one way we are doing 
it.
    Should the Nation, the Department of Defense, want to use 
the Guard in a title 10 mobilized status, they certainly could 
do that, and then they would use them like any other part of 
the force. I know of no intent to do that at this particular 
point.
    And as I was there this past weekend in Texas and in 
Arizona this weekend, I believe that it is time to bring the 
providing States together and say, how can we best do this? 
Arizona eventually will get tired. Their folks have other 
ongoing global deployments and other jobs and schools and such 
that they may need additional assistance. But so far, I believe 
that the current level of support that we are providing is 
sustainable for the long term in both Texas and Arizona, as is 
National Guard title 32 support.
    Mrs. Kirkpatrick. And I just want to say how much we 
appreciate your work in Arizona and welcome that. And if my 
office can be of any assistance, please don't hesitate to call 
on me.
    General Lengyel. Yes, ma'am.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Aderholt.

                                 F-35S

    Mr. Aderholt. Thank you. Thanks, Mr. Chairman.
    I want to just ask about the F-35s and about the delivery 
to the National Guard units in Montgomery, Alabama, and just 
want to ask about, is that still on track for 2023, and also 
all the MILCON needs included in that as well?
    General Lengyel. Yes, sir, it is still on track. 
Congratulations to Alabama. I am sure they are very pleased 
with the acceptance of the F-35s there. And, to my knowledge, 
they should all be on track to accept those in about the 2023 
timeframe. I know of no issues with respect to MILCON, 
environmental issues that would inhibit that.

                       ENVIRONMENTAL IMPACT STUDY

    Mr. Aderholt. What about, what is being done to ensure that 
the environmental impact study is completed in a timely 
fashion?
    General Lengyel. You know what I would like to do? I am not 
aware of any issues with the environmental impact study, but I 
will check on that and report back to you as soon as I find 
out.

                          GRAY EAGLE CAPACITY

    Mr. Aderholt. Okay. And it is my understanding that the 
Army originally planned to have Gray Eagle companies in all the 
eight Reserve Component divisions, but my understanding, no 
aircraft has been assigned to the Army National Guard. Are 
there plans to establish a National Guard in MQ-1C capacity--
capability, rather?
    General Lengyel. So, sir, I think that, again, I would like 
to get back with you on that particular question. I am not 
aware of any issues or the Army considering establishing 
additional Gray Eagle capacity in the Army National Guard 
although if we could recruit to it and have it, we would--
obviously, Alabama is a large National Guard State. You know, I 
think I would like to look at that and also get back to you and 
give you specifics about the Gray Eagle.
    Mr. Aderholt. Okay. All right. Thank you.
    [The information follows:]

    Question. Are there plans to establish a National Guard MQ1C 
capability?
    Answer: The Army National Guard has no plan to establish MQ-1C 
within its existing force structure. Headquarters Army has not 
validated a requirement to implement MQ-1C structure into the Army 
National Guard.

    Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Kilmer.

               CYBER MISSION ASSURANCE TEAM PILOT PROGRAM

    Mr. Kilmer. Thanks, Mr. Chair.
    And thanks, General, for being with us. I had the 
opportunity to sit down with some of the folks from the Guard 
in the State of Washington just last week and got an update on 
the Cyber Mission Assurance Team pilot program, which is a 
mouthful.
    But one of the things I came away with was the notion that 
States definitely need reinforcements when it comes to 
addressing some of these cybersecurity issues. If there is an 
attack on critical infrastructure, that can very well be a 
national security issue. If there are attacks on our election 
security, that is an issue of national security as well. And 
having that cost and that risk basically be borne by just the 
States on their own I think would be very challenging. And I 
appreciate that the Guard, through this pilot program, seems to 
be appreciating that reality.
    I was hoping you could just give a little bit of--tell us a 
little bit about the program, if you have any insights into its 
progress, what we have learned from it so far.
    General Lengyel. So, yes, sir. Thanks for the question. I 
think, you know, the cyber domain, we are under attack every 
single day. And what we have come to realize is many of our 
Federal installations are relying heavily on non-Federal 
utilities and power plants and other things on the grid that 
enable it to continue to do its work. So the Cyber Mission 
Assurance Teams are designed to help make sure that, you know, 
the critical infrastructure that is really not related to the 
installation could be made to be mission assurance, such that 
the mission of the Federal installations could still be 
executed.
    We picked three States for the initial test, and these 
States, Washington State being one, Ohio being one, Hawaii 
being the third. It is early in the program. The program is 
designed to--it was designed to be about a 2-year test, so it 
won't end until 2020. About the springtime of 2020, we will be 
able to assess what kind of impact they are able to have. But 
in the pilot program, we allowed each State to kind of come in 
with their own concept of operations on how they best would do 
this. We didn't want to define for them how it is. They will 
use commercial off-the-shelf software to maintain and check 
utilities and secure other critical infrastructure that could 
impact the operations of the installations. And then we will 
make an assessment: Is this something that we should invest in 
more broadly across the Nation?
    So I am hopeful. I am hopeful that, particularly a State 
like Washington that is on the high end side of cyber 
capability with lots and lots of civilian expertise that can 
help us identify these risks, I am hopeful that these will be 
seen as value-added.
    Mr. Kilmer. Is your gut right now--and I know that Mr. Ryan 
touched on this issue too. Is the gut right now to it sounds 
like at least to extend it an additional year, the pilot, and 
then potentially to stand up a program in this regard or----
    General Lengyel. Well, right now, the test goes until 2020. 
And so, you know, we haven't had to come to a decision yet 
where we would extend it, by any means. But we will see what it 
says, and we will show to this committee and to others here is 
what these teams were able to do, here is what they are able to 
find. We will see if there is value in that, and if there is 
value--they are relatively small teams, about 10 people. And 
only three of them, people on that team, are full time. So it 
is not--a big footprint, in terms of manpower. But, you know, 
we will see what they provide, and then we will make a 
recommendation as to whether this is something that we want to 
go nationwide.
    Mr. Kilmer. I was really compelled by it, for what it is 
worth. I mean, these were men and women who, you know, spend 
their day at Microsoft and Amazon and core tech companies and 
then take that knowledge with them to try to protect our 
national security from within the cyber domain in particular.
    General Lengyel. Yes, sir.
    Mr. Kilmer. I found it very compelling.
    I want to respect the time, so I am happy to yield back.
    Mr. Visclosky. Mr. Aguilar, you have been a very active 
member this morning.

                             CYBER SECURITY

    Mr. Aguilar. Thank you, Mr. Chairman.
    Thank you, General. If I could fill in a little bit, I am 
not from the distinguished State of Washington, but if I could 
piggyback on my colleague's question, how long does it take to 
stand up personnel in the cyber domain, would be my first 
question? And do your units receive sufficient training for 
military cyber schools, and to what extent do we use civilian 
organizations to help provide that training?
    General Lengyel. So, you know, our cyber capacity and the 
units inside the National Guard are reaching some level now 
after 6 years of really building them hard of some level of 
maturity. So we have 11 cyber protection teams in the Army 
Guard. We have 12 cyber protection teams in the Air Guard. We 
have additional cyber units that do cyber intelligence, and 
those kinds of things that are growing, and now they are 
maturing.
    This emergence of this Cyber Mission Assurance Team, as we 
were just discussing, is a new part of it. But, you know, it 
takes a while, and it is quite technical. And to be a cyber 
warrior, there is a rigorous joint school process that you have 
to go through. It is still a challenge for us to find school 
seats and to get the right people that can go and do those 
kinds of things. And that is why we tend to want to stay in big 
States with big cyber industry presence. We have experts that 
are good at this and can get through the school systems and the 
training slots to do it.
    You know, I think that, as far as using civilian training 
activities, I am not aware of any case where we are doing that. 
We are going to military schools and trying to find cases where 
we can give people with civilian-acquired skill sets credit for 
having been trained in cyber techniques before, but they still 
have a pretty rigorous joint training process that they have to 
go through, which is in the military.

                     RETENTION OF SKILLED PERSONNEL

    Mr. Aguilar. Should we use more incentives to get the right 
folks in these hard-to-fill positions?
    General Lengyel. Well, I think in any of these skill sets--
cyber being one, space will soon be another--that have a high 
dollar draw for these skill sets in the civilian world, we are 
going to need incentives and bonuses to retain them to do a 
military job in the National Guard, which I think we do and 
will continue to do.
    Mr. Aguilar. Thank you, General.
    Thank you, Mr. Chairman.

                  CONTAMINATION AT VARIOUS FACILITIES

    Mr. Visclosky. Thank you very much.
    General, I would like to touch upon two areas. The first 
deals with contamination at various facilities. And if I could 
just refer to the two chemicals and the problem as PFOs to 
simplify this conversation, I would appreciate your indulgence.
    It is my understanding that it is the responsibility of EPA 
to set a maximum contamination level for these chemicals. Am I 
correct on that?
    General Lengyel. Sir, I believe that is correct. It is 
EPA's responsibility to do that.
    Mr. Visclosky. I also understand and am disappointed--and 
this isn't directed at you personally--that the Department of 
Defense writ large is privately pushing EPA to adopt a weaker 
standard. And when we are talking about the toxicity of water 
for lifetime health advisory for human drinking water, I think 
that is inappropriate, and I think it is wrong. I don't think 
we should shirk our responsibility, whether it is DOD or any 
civilian agency, from cleaning up our mess.
    I also, because we have had this conversation in different 
permutations over the last couple years, am disappointed by 
what appears to be a lack of seriousness and speed and 
deliberateness about the negotiations to determine liability at 
the sites that are located with civilian airports.
    I live in Gary, Indiana. I have spent my life and continue 
trying to clean up Superfund sites, brownfield sites, and 
everything in between. So I do not diminish the difficulty of 
this problem, which is why I am emphasizing it. Because it is 
my understanding if a standard is ultimately set to end up at a 
cleanup, we are talking about preliminary assessment and 
inspections up to 3 years, then a remedial investigation 
feasibility study up to 4 years, then a proposed plan for 
another year. Then we need an agreement on record for a 
decision for a year. Then we need design and construction for 
up to 3 years, and then we can start.
    And we are talking about human health. So my first concern 
is the issue of we ought to have appropriate standards, and 
whether or not DOD is pushing to have a lower standard so maybe 
the difficulty and expense is not so great. And as far as 
negotiations, I also realize, because many of these are shared 
facilities, and each would be unique as to who shares what 
portion of the responsibility.
    And, again, I am not diminishing any of this. But with all 
of the steps that need to take place, I am wondering how we are 
doing. And I am looking at the budget for the last couple of 
years, and it is my impression that in fiscal year 2018 we had 
$20.6 million set aside. In fiscal year 2019, we had $12.7 
million set aside. The request by the administration for $24.5 
million.
    So my sense is if there is also a fiscal indication as to 
the importance the administration attaches to it, it has gone 
down to zero. So, generally, I would like to have your 
impression, and what can be done about this? I think it is a 
very serious problem.
    General Lengyel. Yes, sir. Chairman, honestly, I am not 
aware of any attempt by the DOD to lower the standards or deal 
with the EPA to change the numbers. I am not aware of that. I 
am very aware of the issue, PFOS, PFOA. I am very aware that 
widely it is going to be indicated at some level in many 
installations across the Nation, not just Air but Army National 
Guard, from my perspective.
    Broadly speaking, clearly, we have to do the right thing by 
the communities we live in. We have to protect the water 
systems. We have to make sure that we analyze it, we find it, 
we determine how it got there. The speed in which all of that 
happens, the assessment to the investigations to ultimate 
ending with some sort of remediation does take time. And I 
don't know how to make that happen faster, other than I can 
tell you that, from my concern in the National Guard, I am very 
concerned that the funds required to investigate it, the funds 
required to remediate it currently, for the most part, are not 
available to us like the rest of DOD. We are not able to access 
the Defense Environmental Restoration Account to fix these 
issues when we do find the problems.
    So my concern is, as you are aware, the Office of General 
Counsel has opined that the National Guard and State facilities 
are not authorized to use that account. We have to use training 
dollars from our O&M accounts to investigate these things and 
to provide any remediation. Over time, I would like to consider 
that we change that back.

                         ENVIRONMENTAL CLEAN-UP

    Mr. Calvert. Would the gentleman yield on this for a 
second?
    I used to, back in my prior chairmanship, have EPA under my 
jurisdiction. So I am somewhat familiar with this problem in 
all the military bases around the country, especially this PFOS 
issue and the cleanup issue. But it is mostly the EPA's fault 
because of their slow bureaucracy that they move at. But there 
are new technologies that can totally clean up these sites, and 
EPA refuses, and the military establishment. They go through 
these old pump and treat operations, which seems like it never 
ends. And these new enzymal technologies that they have 
completely cleans up these sites, the brownfield sites, 
Superfund sites, and gets them back in the economy.
    So I hope we can take a look at that and encourage the 
military, EPA, and others to start looking at these new 
technologies to actually clean the sites up entirely and get 
them back into the economy, which would help especially these 
poor areas.
    Mr. Visclosky. General, if I could go back to your comment, 
for fiscal year 2019, there is $12.7 million set aside in an 
account. So what happens to that $12.7 million if the Guard 
can't use it? Is anybody using it for anything?
    [The information follows:]

    Question. Will the NGB execute the full $12.7M of O&M environmental 
restoration funds from FY19 appropriation's bill. If not, where will 
the funds be re-appropriated to?
    Answer. The ANG was appropriated $11M in ANG O&M for ANG 
restoration in FY 19 and will execute the full amount. We are unsure of 
the quoted $12.7M of O&M environmental restoration funds.

    General Lengyel. Sir, I would imagine we would be able to 
use it, you know, to do the investigations or clean it up. If 
that money was allocated to us I think maybe to repay some 
states who had already spent dollars to clean up sites--they 
had found it and needed some remediation. They were actually 
able to come back to us and get some money to pay them back. I 
believe that is what that $12.7 million is supposed to pay for.
    Mr. Visclosky. Do you know--and I mentioned the steps in 
the process and the first one is assessment--whether or not the 
Guard--and, again, I understand the uniqueness of each one of 
these sites, I agree with Mr. Calvert. Have they all been 
assessed?
    General Lengyel. Not all of them, no. They are in the 
process of being assessed now.
    Mr. Visclosky. Could you provide the subcommittee with a 
list----
    General Lengyel. Yes, sir.
    [The information follows:]

    Question. Provide a list of all 77 bases that have undergone PFOS 
preliminary assessment and their status in the CERCLA process.
    Answer. All PFOS/PFOA Preliminary Assessments for ANG are 
completed. The ANG site inspections for PFOS/PFOA are currently in 
various stages of completion and the current status is as follows:

------------------------------------------------------------------------
          Installation                   State          SI Report Final
------------------------------------------------------------------------
Alpena CRTC.....................  MI................  Yes
Atlantic City...................  NJ................  No
Bangor International Airport....  ME................  Yes
Barnes Municipal................  MA................  Yes
Birmingham International Airport  AL................  Yes
Boise IAP.......................  ID................  Yes
Bradley IAP.....................  CT................  Yes
Burlington ANGB.................  VT................  Yes
Capital Municipal (Springfield).  IL................  Yes
Channel Islands.................  CA................  Yes
Charlotte Douglas International   NC................  No
 Airport.
Cheyenne Municipal Airport......  WY................  Yes
Des Moines International........  IA................  Yes
Duluth IAP......................  MN................  No
Ellington Field (Houston).......  TX................  Yes
Forbes Field....................  KS................  No
Fort Smith......................  AR................  Yes
Fort Wayne IAP..................  IN................  Yes
Francis Gabreski................  NY................  Yes
Fresno Yosemite IAP.............  CA................  No
General Mitchell................  WI................  No
Great Falls International.......  MT................  Yes
Greater Peoria..................  IL................  Yes
Gulfport Biloxi Regional Airport  MS................  Yes
Harrisburg IAP..................  PA................  Yes
Hector Field IAP................  ND................  Yes
Horsham.........................  PA................  Yes
Jackson International Airport...  MS................  Yes
Jacksonville IAP................  FL................  Yes
JB Cape Cod.....................  MA................  Yes
Joe Foss Field (Sioux Falls)....  SD................  Yes
Joint Base Fort Worth...........  TX................  No
Key Field.......................  MS................  Yes
Klamath Falls (Kingsley Field)..  OR................  Yes
Lambert St. Louis IAP...........  MO................  Yes
Lincoln Municipal Airport.......  NE................  No
Louisville IAP--Standiford Field  KY................  No
Mansfield International Airport.  OH................  No
Martin State....................  MD................  Yes
Martinsburg (EWVRA Shepherd       WV................  Yes
 Field).
McEntire Joint National Guard     SC................  No
 Base.
McGhee-Tyson Airport............  TN................  Yes
McLaughlin (Yeager Charleston)..  WV................  Yes
Memphis International Airport...  TN................  Yes
Minneapolis-St. Paul............  MN................  No
Moffett Field...................  CA................  No
Montgomery Regional (Dannelly     AL................  No
 Field).
NAS New Orleans.................  LA................  No
Nashville Metro Airport.........  TN................  Yes
New Castle......................  DE................  Yes
Pittsburgh IAP..................  PA................  Yes
Pease AFB.......................  NH................  Yes
Portland IAP....................  OR................  Yes
Puerto Rico--Muniz IAP..........  PR................  No
Quonset State Airport...........  RI................  Yes
Reno Tahoe IAP..................  NV................  Yes
Richmond IAP Byrd Field.........  VA................  No
Rickenbacker AGB................  OH................  No
Rosecrans Memorial Airport......  MO................  Yes
Salt Lake City..................  UT................  No
Savannah Hilton Head IAP........  GA................  Yes
Schenectady Airport.............  NY................  No
Selfridge ANGB..................  MI................  Yes
Sioux Gateway Municipal Airport   IA................  Yes
 (Sioux City).
Sky Harbor International          AZ................  No
 (Phoenix).
Springfield-Beckley Municipal     OH................  No
 Airport.
Stanly County/Badin AGS.........  NC................  No
Stewart International Airport...  NY................  Yes
Syracuse Hancock IAP............  NY................  Yes
Terre Haute IAP--Hulman Field...  IN................  Yes
Toledo Express Airport..........  OH................  Yes
Truax Field.....................  WI................  No
Tucson International............  AZ................  No
Tulsa IAP.......................  OK................  Yes
Volk Field ANGB.................  WI................  Yes
Will Rogers IAP.................  OK................  Yes
WK Kellogg Airport (Battle        MI................  Yes
 Creek).
------------------------------------------------------------------------
Site Inspections Expected to be Completed by Sept 2019


    Mr. Visclosky [continuing]. Please. And as to whether at 
least the assessments have been completed; if not, what the 
status of each one of those sites is. I would appreciate that.
    General Lengyel. Yes, Mr. Chairman.
    Mr. Visclosky. I would ask also, kind of following up with 
Mr. Calvert, we don't have jurisdiction over EPA, but 
obviously, it is within the jurisdiction of the full committee. 
If you could also provide for the record the person responsible 
at the Department of Defense for these negotiations with EPA to 
have a standard set, so that we could have the responsible 
person in the same room with the responsible person at EPA and 
have a reasonable meeting.
    [The information follows:]

    Question. Who in the DoD is responsible for discussing PFOS/PFOA 
related issues with the EPA?
    Answer. The ANG does not discuss PFOS/PFOA related issues with the 
EPA unless they are directly related to ANG-specific restoration 
activities. The ANG recommends that any questions regarding DoD 
liabilities or responsibilities should be addressed to Deputy Assistant 
Secretary of Defense For Environment in the Office of the Assistant 
Secretary of Defense (Sustainment) and the Secretary of Defense 
Associate General Counsel (Environment & Installations).

    The second area I want to cover is your operation of 
maintenance facilities for the Facilities Sustainment, 
Restoration, and Maintenance Account, there is an increase of 
$219 million, and for the base operation support an increase of 
$63 million, both increases for fiscal year 2020. The usual 
activity would be for the base operations support to be doing 
the engineering activity and for it to be executed. With the 
additional moneys, do you have the necessary engineering 
personnel to perform those responsibilities?
    General Lengyel. Well, sir, yes, I would say we normally 
do. But I am going to go look. I will look at this money and 
see the specific projects that you are talking about and make 
sure that we have the engineering capacity to look at it. But I 
would think we do.
    [The information follows:]

    Question. Do you have enough engineering personnel to perform their 
assessments prior to the execution of the additional SRM funds? If not, 
will you need to contract services? Will this add to the cost?
    Answer. Yes, the majority of States have in-house capability to 
address the needed assessments. Some States will contract their 
assessments. This will not add to the cost because the contracted 
assessment is included in the project cost estimate.

    Mr. Visclosky. Okay. And would it be the anticipation, 
because of the $219 million increase, that given that 
engineering designed during fiscal year 2020, that there would 
be time remaining in the fiscal year to obligate those 
additional funds for the Facilities Sustainment, Restoration 
Account?
    General Lengyel. Chairman, I will have to get back to you 
on that. I will have to provide that for the record.
    Mr. Visclosky. Okay.
    [The information follows:]

    Question. Will you have enough time to execute the FSRM funds in 
FY20 or should FY20 handle the assessments with follow on funds in FY21 
for the actual maintenance and repairs that must be executed?
    Answer. Yes, depending on time of receipt of funds (e.g., end of 
3QFY20), ARNG could execute up to an additional $700M in Sustainment 
(repair), Restoration, and Modernization within FY20. Any further 
funding in SRM would be better executed in FY21.

    I yield to Mr. Calvert.

                              SPACE FORCE

    Mr. Calvert. One comment, Mr. Chairman.
    As we move forward with this new Space Force that the 
administration obviously is promoting, I would like if we can 
stay informed about what the Guard is going to be doing as we 
move forward on this proposal, what role do you think the Guard 
is going to be involved in. There are a lot of rumors going 
around about where things are going, how things are being 
plugged in. This committee needs to be informed of that because 
there are dollars attached to that. These various commands, you 
know, will this be a combatant command, how we are going to 
work this out.
    So any information that affects that, we would appreciate 
having.
    General Lengyel. Yes, sir. I will be happy to pass that to 
you. I have been an advocate and made the recommendation that 
should they decide to create a Space Force, that the 
capabilities that are in the Air National Guard and Army 
National Guard become part of that Space Force as a Space 
National Guard, but that is yet to be determined. Those are 
details to be worked out should this Congress decide they want 
to create a Space Force.

                         LIABILITY AT EACH SITE

    Mr. Visclosky. General, I am over my brain lock now. The 
second question I had to follow up is for the negotiations on 
liability at each site.
    General Lengyel. Sir.
    Mr. Visclosky. For the liability at each site.
    General Lengyel. Yes, sir.
    Mr. Visclosky. Is there a separate individual doing those 
negotiations, or is there an office with a director in DOD that 
is supervising all those negotiations at these sites as to how 
are we going to apportion responsibility? Because, again, I 
would understand we shouldn't pay for something that is not a 
Federal responsibility.
    On the other hand--again, I hate to beat my district to 
death--we take 7 years looking for a shell corporation that 
went bankrupt and is now offshore to help pay for something. 
Seven years later, we haven't done a thing. So that 
negotiations on responsibility are important too.
    Is there an office at DOD that is supervising all of these, 
or is this a base-by-base issue?
    General Lengyel. No, sir. I am sure there is a process that 
determines each individual site that, as we analyze them at 
each particular one, there would be a method--and I can't tell 
you what that office is--to negotiate, investigate, litigate, 
to determine what the appropriate percentage of liability were 
to be for the Department of Defense or Federal liability and 
State liability. But I can't tell you exactly who that is.
    Mr. Visclosky. If you could for the record, that would be 
terrific.
    General Lengyel. I will put that also in my report.
    [The information follows:]

    Question. How is the proportion of responsibility/liability 
determined between the state, federal government, and local entities 
where PFOS is found? Who at the DOD negotiates responsibility?
    Answer. The issue of how liability is assessed is actually a 
complicated one. The CERCLA process is as follows: 1) Preliminary 
Assessment/Site Inspection; 2) Remedial Investigation/Feasibility 
Study; 3) Proposed Plan/Record of Decision; and 4) Remediation. ANG 
remediation process starts with releases that took place on DoD 
property. The DoD (OSD, Air Force and National Guard Bureau) follow 
releases off of the installation until we know the extent of the 
contamination and then remediate. The short answer is that DoD (OSD, 
Air Force and National Guard Bureau) may apportion percentages anywhere 
within this process. But here are some basic guidelines:
    Step 1. Preliminary Assessment/Site Inspections are accomplished 
primarily on-base and DoD (OSD, Air Force and National Guard Bureau) 
will take responsibility unless there is reason to believe that what we 
are seeing on-base is coming from an off-base site. If we deem the 
contamination not to be a DoD release, we then stop the CERCLA cleanup 
process, assuming there is not imminent threat to human health and the 
environment, and will turn over our results to the state regulator or 
EPA to take action against the polluter. If we believe that the 
contamination is mixed, i.e. some of it is ours and some of it belongs 
to a third-party, we will then continue through the CERCLA phases and 
complete the Remedial Investigation. We then go on to Step 3 or 4 
below.
    Step 2. If contamination flows off-site and co-mingles with 
contamination from a third-party DoD (OSD, Air Force and National Guard 
Bureau) will either seek help to complete the Remedial Investigation 
and go to Step 3 below, or complete the Remedial Investigation or 
Remedial Investigation/Feasibility Study and then go to Step 3 or 4 
below.
    Step 3. If during the Remedial Investigation or after the Remedial 
Investigation it is apparent that there is mixed contamination, DoD 
(OSD, Air Force and National Guard Bureau) will approach the state 
regulator, EPA, or the Department of Justice. The state regulator, the 
EPA, or DOJ may seek to set up a potentially responsible party 
committee to remediate a site and the parties will negotiate 
percentages. The DOJ also has the option of going to court to seek 
immediate apportionment. It is not uncommon for the parties to get to 
the Proposed Plan/Record of Decision point and then have to go to court 
to have the court decide apportionment. DoD (OSD, Air Force and 
National Guard Bureau) may also turn over the remediation process 
(during the Remedial Investigation or after) and allow the regulator to 
take over and simply fund whatever our apportioned share is determined 
to be.
    Step 4. DoD (OSD, Air Force and National Guard Bureau) also has the 
option of simply finishing up with the CERCLA process through 
remediation and then turning to the DOJ for DOJ to obtain 
reimbursement. This is normally done when the majority of the 
contamination is from DoD activities or there is a potential threat to 
human health and DoD will continue with the restoration process so as 
to not slow down the restoration process.

    Mr. Visclosky. We have a second panel, but if there is a 
quick question from any of the members?
    Mr. Ryan. Mr. Chairman, I would just like to add my support 
to the discussion you were just having that Mr. Calvert jumped 
into, that I think in northern Ohio, southeast Ohio, southwest, 
I mean, the industrial Midwest we have been dealing with this. 
You just want to bang your head against the wall because these 
communities continue to fall further and further behind.
    So, if we can find some kind of leadership within Defense, 
which obviously the history of the military has always been on 
the cutting-edge of solving some really big problems for us, I 
just want to publicly say I am all into that.
    General Lengyel. Yes, sir.
    Mr. Visclosky. General, thank you very much for your 
service and your time today.
    General Lengyel. Thank you, Chairman. Thank you, members of 
the committee. Thank you.
                                           Tuesday, March 26, 2019.

                  FISCAL YEAR 2020 RESERVE COMPONENTS


                               WITNESSES

LIEUTENANT GENERAL CHARLES LUCKEY, CHIEF OF THE ARMY RESERVE
VICE ADMIRAL LUKE McCOLLUM, CHIEF OF THE NAVY RESERVE
MAJOR GENERAL BRADLEY S. JAMES, COMMANDER, MARINE FORCES RESERVE
LIEUTENANT GENERAL RICHARD W. SCOBEE, CHIEF OF THE AIR FORCE RESERVE

                Opening Statement of Chairman Visclosky

    Mr. Visclosky. I would like to welcome panel two, the Army, 
Navy, Marine Corps and Air Force Reserves. I would encourage 
members to continue to participate.
    I want to welcome Lieutenant General Charles Luckey, Chief 
of the Army Reserve; Vice Admiral Luke McCollum, Chief of the 
Navy Reserve; Major General Bradley James, Commander Marine 
Corps Reserve; and Lieutenant General Richard Scobee, Chief of 
the Air Force Reserve.
    Gentlemen, we are pleased to have you before us today as 
witnesses. We thank you for your service and your testimony 
today. Please proceed with your testimony. Your full written 
testimony will be placed in the record. Given the size of the 
panel, brevity would be appreciated. Obviously, in your 
answers, completeness would be appreciated along with, again, 
succinctness. I would leave it to you to begin. Thank you very 
much.
    General Luckey. Chairman, Ranking Member, it is great to be 
back here.
    Mr. Visclosky. Excuse me, I did not recognize Mr. Calvert.

                         Remarks of Mr. Calvert

    Mr. Calvert. Mr. Chairman, in the interest of time, I just 
want to thank the chairman for having this hearing, and for all 
of you, I look forward to your testimony.
    And, with that, without wasting any additional time.

                  Summary Statement of General Luckey

    General Luckey. Chairman, again, and Ranking Member, it is 
great to be back in front of you this afternoon on behalf of 
the 200-some-odd thousand soldiers in America's Army Reserve, 
their families, and the employers across the Nation and across 
20 time zones that support this force. I appreciate you. I 
appreciate your interest, and I appreciate all your support for 
our soldiers, their families, and the employers that are 
supporting all of us.
    In preparing to meet the challenges of new and evolving 
threats around the world, the Army Reserve continues to train 
and organize and posture itself to identify early-deploying 
formations, aggregate additional capabilities and move quickly 
to accomplish post-mobilization training tasks in order to meet 
the warfighter's time-sensitive requirements. This construct, 
Ready Force X, remains, as you know, the way in which we focus 
energy, optimize our processes, and prioritize our resources to 
deliver capabilities at the speed of relevance for a major war.
    Early-deploying RFX capabilities need to be able to move 
quickly, in some cases in days or weeks, in order to support 
the Joint Force in any significant conflict or demonstration of 
national resolve. We do not call this fighting tonight. I do 
call it fighting fast. Readiness is what we are building. We 
continue to do it. We have expanded upon the RFX construct, and 
we are more ready than ever.
    While we fully acknowledge that our first responsibility is 
to bring our unique capabilities to the fight as part of the 
total Army in winning the Nation's wars, we also embrace our 
opportunity and our mandate to respond at no notice to 
disasters in the homeland to take care of our fellow citizens 
at their time of greatest need. Our soldiers and facilities and 
capabilities postured in thousands of communities across the 
Nation stand ready to deploy at very short notice pursuant to 
immediate response authority, as needed by our fellow citizens.
    Our key responsive capabilities include search-and-rescue 
units, aviation assets, route clearance engineers, medical 
units, water supply and water purification operations. And we 
have provided assistance, as you well know, during many major 
events, including Hurricanes Harvey, Irma, Maria, Florence, and 
a variety of other disasters, to include work we did just last 
week in Nebraska in response to flooding.
    For the past 2 years, America's Army Reserve has been on 
the path to seize digital key terrain. As many of you know 
well, this journey presses the Army Reserve's Innovation 
Command, headquartered in Houston, Texas, and now in direct 
support of Army Futures Command, to assess and develop emerging 
outpost and technology hubs across the country.
    The command serves as a link for operational innovation and 
development of concepts and capabilities to enhance the 
readiness of future force by capitalizing on extensive civilian 
acquired or retained skills, knowledge and experience. We are 
uniquely positioned as your Federal force to provide the Army 
with an array and staying on pace with rapidly emerging trends 
and opportunities in the private sector. We are also providing 
the potential pool of on-demand talent for the Army's Futures 
Command.
    As it pertains to cyberspace operations, we remain steadily 
on glide path to establishing the 10 Cyber Protection Teams, 
which I know is of some concern to the committee here this 
morning, at locations around the country such as San Antonio, 
Boston, Pittsburgh, and the Bay area in California. Army 
Reserve cyber soldiers bring unique skills and experience to 
the force from their civilian occupations, drawn from over 40 
corporations, financial institutions, and Academic Centers of 
Excellence, and will provide direct support to Army Cyber 
Command and other governmental agencies.
    We remain grateful to Congress for passing the fiscal year 
2019 Defense Appropriation bill and for ensuring consistent and 
predictable funding, which will build Army Reserve readiness 
and support into the future.
    Finally, we have been able to leverage the congressionally 
provided National Guard and Reserve Equipment Account, NGREA, 
to purchase key systems, both from the modernization 
perspective and from the dual-purpose perspective, including 
the Joint Light Tactical Vehicle in a very small quantity, 
weapons fire assimilators, wet gap crossing equipment, and a 
wide variety of dual-purpose capabilities that can be used 
either to support the warfighter or our fellow citizens in time 
of response to a disaster.
    As I previously testified, there is an inherent challenge 
in a part-time force. This team needs to be ready enough to be 
relevant but not so ready that our soldiers cannot maintain 
good meaningful civilian employment and healthy sustaining 
family lives.
    This nimble and efficient part-time force would not be 
possible without our civilian employers around the globe and 
our families. They are essential partners in national security, 
sharing the best talent of the world with us. And they continue 
the commitment and sacrifice which allows our soldiers to serve 
the Nation while maintaining rewarding civil employment and 
sustaining family lives. We have a deep appreciation for 
employers who share their workplace talent with America's Army 
Reserve.
    I appreciate again your sustained support. I appreciate 
your interest in the readiness of the force, and I also 
appreciate what I know all of you share with me, which is your 
concern about balancing readiness of our soldiers with their 
ability to maintain their civilian employment and sustain the 
support of their employers and also of their families. I 
appreciate this committee, and I appreciate your support. I 
look forward to your questions.
    [The written statement of General Luckey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Visclosky. Thank you very much.
    Admiral McCollum.

                 Summary Statement of Admiral McCollum

    Admiral McCollum. Well, good morning, Chairman Visclosky 
and Ranking Member Calvert, and distinguished members of the 
subcommittee. It is my distinct honor to report on the status 
of America's Navy Reserve, which is a highly skilled and 
integral part of the Navy's enduring and worldwide fighting 
force.
    This morning, we have over 3,045 Reserve sailors serving in 
some of the most austere locations around the globe. Without 
the unwavering support of employers and loving families and 
this committee, the Reserve fighters would not be the force 
multipliers that they are today. I believe I speak for all my 
colleagues sitting here with me today as I offer our most 
sincere thanks for your support.
    Focused on the objectives of the National Defense Strategy 
of warfighting readiness, we are building a more lethal Navy 
Reserve. PB-20 is the mechanism that will allow the Navy 
Reserve to continue to focus on strategic depth. The Navy 
Reserve utilizes two key enablers, which we are very thankful 
for, which is our discretionary RPN and flexible NGREA, and 
they fund to generate both capability and interoperability with 
our force of the Active side as well. Your continued support to 
ensure these accounts remain robust and consistent and 
predictable is critical to our success.
    Similar to the Active Component, the Navy Reserve seeks 
funding amongst readiness, wholeness, and investment. PB-20 is 
prioritized accordingly. Your support of the C-130 avionics 
upgrade to extend its service life is very much appreciated. 
PB-20 brings also the Navy's maritime patrol inventory to 117 
aircraft, and should additional resources become available, the 
Navy included P-8s in its unfunded priority list that supports 
the recapitalization of the Reserve force toward the 
requirement of the warfighting requirement of 138. It also 
allows the Navy Reserve squadrons in Whidbey Island and 
Jacksonville to continue to operate beyond 2023.
    Similar to aviation, recapitalization of the expeditionary 
forces within the Navy Reserve is very important. Your support 
of the four 40-foot patrol boats in PB-20 will accelerate a 
more lethal Navy Reserve. Additionally, the force is growing 
its focus in cyber and extended its Joint Reserve Intelligence 
commanders to provide more capability as well.
    In closing, I would just say I could not be prouder of our 
Navy Reserve force. And every time I set foot around the globe 
to visit our sailors who are forward deployed in our Reserve 
Centers, in our aviation squadrons, I come away extremely 
inspired by their dedication and their motivation to apply both 
their military skills and their civilian skills toward 
warfighting lethality within the total force.
    On behalf of the Navy and Navy Reserve, I thank you for 
your support and the time here today, and I look forward to 
your questions.
    [The written statement of Admiral McCollum follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Visclosky. Thank you.
    General James.

                   Summary Statement of General James

    General James. Good afternoon, Chairman Visclosky, and 
Ranking Member Calvert, and all the distinguished members of 
the subcommittee. Thank you for the opportunity to appear 
before you today to testify on behalf of the Commandant of the 
Marine Corps about your Marine Corps Reserve. I am honored to 
be here with my fellow Reserve Component service chiefs.
    The mission of the Marine Corps Reserve is to stand ready 
to augment, reinforce, and sustain the Active Component. Along 
with the Active Component, we have Reserve forces forward 
deployed supporting combatant commands' requirements.
    Over the past year, more than 2,100 Reserve Marines were 
mobilized, supporting 35 operational requirements in each of 
the six geographic combatant commands. Additionally, 754 
Reserve Marines have volunteered as individual augments, which 
filled 63 percent of the services' requirements.
    I am pleased to inform you that the morale of the Marine 
Corps Reserve remains high, as evidenced by the Reserve 
Component end strength maintaining 99 percent of the total 
requirement. I am consistently, constantly impressed by the 
professionalism, the competence, the dedication to duty and the 
motivation of our Reserve Marines. Like their Active Duty 
sisters and brothers, they serve selflessly to protect our 
great Nation. The way they balance family responsibilities, 
civilian lives, jobs, schools, careers, is nothing short of 
extraordinary.
    At any given time, Marine Forces Reserve stands ready to 
provide a brigade-size element of Reserve Marines and sailors 
fully trained for combat operations, while the remainder of our 
force is poised to augment and reinforce, given appropriate 
amounts of predeployment training based upon their wartime 
mission assignments.
    I would like to leave this distinguished body with two 
thoughts on how continued support from Congress can result in a 
more ready and lethal Marine Reserve force. Number one, I want 
to extend my gratitude for your continued support of the 
National Guard and Reserve equipment appropriation. I would 
appreciate a greater spending flexibility within this 
appropriation in order to procure critical shortfall items and 
modernize equipment and systems.
    Number two, I would like to thank you for this year's 
appropriations. On average, the Marine Corps Reserves only have 
38 training days a year. That places an increased importance on 
the adequate and timely appropriation. With your continued 
support, I can assure the Reserves predictable and 
uninterrupted training schedules to maximize personnel, 
material, and training readiness. I appreciate the opportunity 
to be here today and look forward to your questions.
    [The written statement of General James follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Visclosky. Thank you very much.
    General Scobee.

                  Summary Statement of General Scobee

    General Scobee. Chairman Visclosky, Ranking Member Calvert, 
and distinguished members of the subcommittee, thank you for 
the opportunity to report on the readiness of America's Air 
Force Reserve. I am joined today by Chief Master Sergeant Tim 
White. He is the Command Chief for the Air Force Reserve 
Command.
    As a critical component of the total force, the Air Force 
Reserve provides cost-effective strategic depth, rapid surge 
capability, and operational support to our Joint Force. Our 
70,000 citizen airmen are both interchangeable and integrated 
with their Active Component counterparts. We fly as one. We 
train as one. And we fight as one.
    The Air Force Reserve's current objective is to prepare to 
operate in tomorrow's battle space, while providing excellent 
support to our airmen and their families. To ensure alignment 
with the National Defense Strategy, we are focused on 
prioritizing our strategic depth, accelerating our readiness, 
developing resilient leaders who can generate combat power, and 
we want to reform our organization to optimize our warfighting 
capabilities.
    The on-time allocation of fiscal year 2019 budget greatly 
bolstered the Air Force Reserve readiness, and we know you are 
working hard to ensure the timely allocation for fiscal year 
2020 budget. We thank you for your continual support and your 
diligent efforts to ensure we receive the predictable funding 
we require to defend this great Nation.
    The Air Force Reserve has improved our overall readiness 
during the past year. We are better prepared at the unit level 
and our individual readiness has also increased. Our nuclear 
deterrence forces are mission ready, and we have expanded our 
mission capabilities by activating our first cyber wing and our 
first intelligence surveillance and reconnaissance wing. 
Additionally, we are aligning our space units to meet the 
future space mission force requirements of our Nation.
    We have improved our lethality by modernizing our weapon 
systems with the National Guard Reserve equipment 
appropriations, and we thank you for these funds, which we have 
used to also purchase much-needed support equipment. We remain 
focused on our personnel programs and reaching our end 
strength. We are targeting full-time manpower shortage with a 
variety of initiatives, including converting approximately 
1,200 full-time authorizations from Air Reserve technicians to 
Air Guard and Reserve positions.
    The Air Force Reserve has built our success on the hard 
work of our airmen. Therefore, it is imperative that we ensure 
our Reserve citizen airmen and their families have the support, 
resources, and care they need. This committee can help improve 
the quality of life for our airmen by supporting legislation to 
authorize our dual-status technicians the ability to receive 
medical coverage under TRICARE Reserve Select healthcare plan. 
This initiative would improve healthcare access for our Air 
Reserve technicians and their families, and it would 
significantly increase the retention of our Air Reserve 
technician, which is my most challenging status.
    The Air Force Reserve will continue to increase readiness 
as we posture our force to meet future operational 
requirements. I thank you for the opportunity to appear before 
you today and for your unwavering support as we ensure the Air 
Force Reserve remains prepared to defend our Nation. I look 
forward to answering your questions.
    [The written statement of General Scobee follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Visclosky. Thank you very much.
    Mr. Calvert.

                             SEQUESTRATION

    Mr. Calvert. Thank you, Mr. Chairman.
    I hate to ask this question, but we need an answer for the 
record. If the Congress fails to reach an agreement on the 
budget, what impact will a second round of sequestration have 
on your ability to meet your mission requirements? If we could 
just get an answer from each one of you.
    General Luckey. So, Ranking Member, as you well know, it 
would have significant impact, obviously, just to the extent 
that we have been focusing a lot of our energy over the last 
several years on the readiness of this force, in terms of 
additional training days for critical training activities. I 
know you are familiar with the Cold Steel Program that we 
instituted a couple years ago. That has been an additive 
requirement, both from the standpoint of purchasing additional 
ammunition but also additional training days to get our 
soldiers trained and proficient, frankly, in some skills that 
they hadn't exercised in a long period of time. So that is just 
one example of where I would see a significant impact to the 
readiness of this force over time.
    Admiral McCollum. Congressman, thank you for that question. 
Reservists are at their best, as you know, when they are in a 
good predictable place with both their family, their employer, 
and their military obligations. Introducing a lack of 
predictability causes significant churn in the Reserve force.
    The programs that we focus on for building warfighting 
readiness are those additional training days. The ability to 
build strategic depth would be affected as well. So there would 
be a significant impact should that occur.
    Mr. Calvert. Thank you.
    General James. Congressman, I will parrot the same as my 
two colleagues have said. So it is readiness. It is 
predictability for us, as we continue to train to larger level 
command and control. I think we would step back a little in 
just more of an individual--from a perspective of readiness to 
more of an individual training.
    Mr. Calvert. Training.
    General Scobee. Ranking member, I would agree with my 
colleagues, but I also say that I can put a fine point on this. 
A return to sequestration would erase the gains we have made 
over the last 3 years in the Reserve Command.
    Mr. Calvert. Thank you.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Ryan.

                           SUICIDE PREVENTION

    Mr. Ryan. Thank you, Mr. Chairman.
    General Luckey, we spent a little time together yesterday, 
and you were talking about something I found very interesting 
along the lines of suicide prevention. And I would love for you 
to share with the committee what you talked about with regard 
to being underemployed, unemployed or underemployed, and the 
connection that you saw.
    General Luckey. So thank you for the question, Congressman. 
As you know, I am pretty passionate about this, and we are 
working pretty hard in the Army Reserve, as I know all my 
colleagues are in all of the services across the Department.
    I will just say we have done a pretty good job of trying to 
figure out where we can find common threads of concern so we 
can I will use the term focus our energies on some of the 
soldiers who may be more challenged. I look at a couple 
different factors, but the one that is probably the most 
pronounced is about 50 percent, as I think I shared with you, 
of our soldiers who either effectively commit suicide or 
attempt it in a very determined fashion, our analysis tells us 
are either completely unemployed or what I would regard as 
significantly underemployed.
    We have targeted our private-public partnership program in 
the Army Reserve, as it is essentially a tool to help those 
soldiers who are underemployed once we have identified them, 
which, frankly, is part of the key, helping make sure that we 
are giving them additional energy, additional attention, 
additional resources to find good, meaningful jobs.
    The reason that I raise the issue, as you well know, is I 
remain concerned, as I said in my opening statement, about life 
balance for our soldiers and particularly those that are 
financially stressed because I see it as an accelerant to other 
stressors in their lives which can lead to self-destructive 
behavior.

            SUFFICIENT TRAINING HOURS FOR SPECIALIZED UNITS

    Mr. Ryan. I appreciate that, and I appreciate your focus on 
it. Thank you.
    General Scobee, I want to just read--we had some language 
put in the report last year encouraging the Chief of the Air 
Force Reserve to review requirements to ensure the specialized 
units are allocated sufficient training hours to successfully 
perform both their specialized and tactical missions and are 
allocated equipment upgrades necessary to address safety 
concerns associated with these missions.
    When deciding which specialized missions to target for 
equipment upgrades, the committee urges that strong 
consideration be given to those missions utilizing the oldest 
equipment. In Youngstown, at the Air Reserve station there, we 
have the aerial spray unit, as you know. Can you talk to us a 
little bit about the plans to recapitalize the existing C-130Hs 
as they age and the maintenance costs escalate?
    General Scobee. Congressman Ryan, our plan in the Air Force 
is right now we have a certain--in the Air Force Reserve, we 
have two units that have J model C-130s. The rest of our units 
are all H model C-130s, as is Youngstown.
    Our plan right now is to go through the upgrades, both the 
avionics upgrades, AMP 1 and 2 for our C-130Hs as we improve 
those. If the Air Force has money and they are going to 
additionally recap H model C-130s, my plan is the same as my 
predecessor and is we are going to go through our basing 
process to see where those airplanes would go in.
    But our fundamental basis is going to be that we put those 
aircraft in our special missions, which include the 
firefighters and the aerial spray at Youngstown. And then we 
will look to the corporate process to determine where those 
aircraft would best be needed. Aerial spray is one of our most 
interesting missions because it also has a combat-related 
mission as well with spray, and I think it is vitally 
important.
    Mr. Ryan. I appreciate that.
    Mr. Chairman, I yield back.
    Mr. Visclosky. Judge Carter.

           ENHANCING EMPLOYMENT OPPORTUNITIES FOR RESERVISTS

    Mr. Carter. Thank you, Mr. Chairman.
    Welcome all of you. We are glad to see you here. I tried to 
get one question that might fit everybody, but I can't do it 
so----
    General Luckey, we talked about this when you visited. We 
visited several times, and I enjoy it every time we do. The 
full-time support for employment, you just briefly mentioned 
it, has anybody got any--and I am sure all of you have an issue 
with keeping your people employed back home while they are 
serving their country in the Reserve.
    Are there ideas out there to enhancing the employment 
opportunities for our reservists in any of the services? That 
is one question you can all answer. We want everybody to be 
gainfully employed while they are serving in the Reserve, and I 
know that is a challenge sometimes. We don't want to put any 
more burden on people's families than we have to. Are there any 
ideas or programs that people are using to help them become 
more gainfully employed?
    General Luckey. So I touched on it a minute ago, 
Congressman, briefly, but so internal to the Army Reserve, we 
do have this private-public partnership, which is essentially a 
series of relationships, hundreds of them in fact, with 
employers across the Nation to enable us to sort of leverage 
that connection, leverage that foot in the door, so to speak, 
to help our soldiers find meaningful employment. And we have a 
number of facilitators out there helping our soldiers build 
resumes and that sort of thing. So there are things we are 
doing to get after it.
    But my point earlier to Congressman Ryan's question really 
is, from a concern that I have as a leader of this force, I am 
particularly focusing those energies on those soldiers that we 
have identified as either underemployed or unemployed 
altogether.
    The other thing I would say, and I have mentioned this 
before, I do think there is some goodness in at least thinking 
about as a matter of sort of national resolve some way for us 
to essentially acknowledge what I regard as a strategic 
partnership as part of the national security fabric of the 
United States of America between the employers of America and 
the Reserve Components, all represented here at this table, 
where employers across America get a very strong sense that the 
patriotism they are exhibiting by continuing to share this 
talent with us. And I would leave that to the senior elected 
leadership of the United States to sort of sort through what 
that might look like. I don't have any silver bullet there, 
Congressman. But I do think that we should be messaging to this 
force and to the employers that support this force how critical 
that partnership remains for national security.
    Admiral McCollum. Congressman, certainly we feel in the 
Navy and the Navy Reserve that leveraging industry, public and 
private partnership is so key to making this successful. When I 
do engagements around the country to see our sailors, we will 
parse off engagements with cities and organizations, such as 
Navy League and people that the ESGR recommend that we contact.
    Executive visits with cities. Recently, I was in St. Louis, 
in Detroit, in San Antonio, and I engaged with the employers 
and talked about this very thing. As a matter of fact, while I 
was in Michigan, the Governor's Council there said: If you can 
help articulate the equivalent of the qualifications that the 
Navy Reserve, your reservists have, we will create a match with 
what we see in industry in our organization, again, a pursuit 
to that join-up.
    Finally, I certainly believe in point engagement. I will 
host about a hundred employers to come out to San Diego in June 
and will allow them to come and see what their sailors are 
doing. We will have them on the ships and the aircraft 
squadrons and Navy special warfare, and I will host a reception 
just to talk about the importance. Previous times we have done 
this, they have always come back and said: Now we really 
understand this importance, and we will continue to do more.
    Mr. Carter. Some great ideas.
    General James. Congressman, from the Marine Corps, we do a 
few things. We have a Yellow Ribbon Program that we put on for 
our inactive Reserves and then our units, Reserve units that 
are deploying pre and then post. And that is an opportunity for 
headhunters or employers to come in. We are tied into those 
local communities.
    We also have the Marine for Life Program, which is run by 
the Reserves, and those are reservists that are out there that 
are in those communities. And so they can be found on the 
website, and they reach out and help with connections in the 
private and the public for employment and also just mentorship.
    We also have the Former Marines Network. I don't think it 
is a surprise that we are a very proud service and we are a 
Marine for life unless you do really something bad, right? So 
wherever you go in employment, and I have seen that, is that we 
know who those Marines are and we take care of each other 
throughout.
    And just from the aviation side, we have contract 
maintenance. About 50 percent of our Marines are in on a full-
time basis. Most of them are down in the barn, as we call it, 
turning wrenches. And so when we can hire those contract 
maintenance support teams, we bring them in, and it is a win-
win for us or the Reserves when they come in. And we can put 
them on full time and getting their touch time on their 
platforms. And then, if we have to use them, put them in the 
uniform and they go.
    General Scobee. Congressman Carter, no surprise, all of the 
Reserve Components, we talk on a regular basis. And the same 
thing in the Air Force Reserve, all three of my colleagues have 
talked about, with the exception of the Marine Network. We 
don't have that. But the rest of the things we are all in 
lockstep on.
    But what is interesting to me as we travel around to our 
different communities is the strength of the communities that 
we have our Reserve Components in. That is really where we have 
been able to find employment for our reservists. And that has 
been one of the strong things that I have seen.
    So reservists who are successful in what they do, 
organizations that understand what the commitment of the 
Reserve Component is, we find them very amenable to bringing on 
an additional reservists. So underemployment, it is not 
something traditionally we suffer from, but when we do, we have 
a good network of our local constituents that really want to 
help.
    Mr. Carter. You know, these people that employ reservists, 
it is a certain amount of, I don't know, irritation factor to 
have them, these people be deployed. It seems like there ought 
to be something that could be posted, you know, the Army 
Reserve, the Marine Corps Reserve thanks this employer for 
sharing with our military.
    Because in Texas, we see a lot of people have a sign on 
their window when you go in or they advertise in their ads we 
hire veterans. I think that we ought to have some 
acknowledgement this employer--recognize the employer--hires 
reservists and cooperates with reservists. Because, I don't 
know, it just seems like to me they ought to get some kind of 
recognition because, you know, deployments are getting pretty 
regular for everybody. And the employers need to be kind of--
give them an atta boy once in a while. Thank you.
    General Luckey. Congressman, so I will just say I think the 
services do that, but I would acknowledge your point. We 
probably, from a scale perspective, don't do it as aggressively 
or as often as perhaps we should. So I take that.
    Mr. Carter. Thank you.
    Mr. Ryan. Pete, I just want to use an opportunity here to 
plug a bill for myself.

   RESERVE COMPONENT EMPLOYER INCENTIVE, COMPENSATION AND RELIEF ACT

    Mr. Visclosky. You got it.
    Mr. Ryan. Thank you. To share with the committee, H.R. 801, 
Congressman Palazzo and I have the Reserve Component Employer 
Incentive, Compensation, and Relief Act, which is a tax credit 
for employers who hire Guard and Reserve. And General Luckey 
and I spoke about this yesterday. I think it is one opportunity 
for us to talk about how we can show some appreciation----
    Mr. Carter. Good idea.
    Mr. Ryan [continuing]. For these employers who make a lot 
of sacrifices to their own businesses, as we all know. So I 
wanted to share that with the committee.
    And, Dutch, I am sure you want to sign onto that 
immediately.

                             SEQUESTRATION

    Mr. Ruppersberger. That sounds good. You got me. Okay.
    I am going to yield my time to Congressman Kilmer, but 
before I do that, I want to acknowledge Congressman Calvert for 
his question about sequestration. I think sequestration is one 
of the most destructive laws this Congress has passed. It cuts 
everything across the board. As we know, budgeting is about 
priorities. For years, when we passed it, I have asked all the 
panels about the impact of sequestration and how it makes us 
weaker.
    And once our military gets their budget, they can't come 
back and defend it. We have to. So it is still the law. We have 
to do whatever we can to make our country stronger to do away 
with sequestration.
    I yield to Congressman Kilmer.

               MARITIME PATROL AND RECONNAISSANCE MISSION

    Mr. Kilmer. Thank you to my colleague.
    And thank you, Mr. Chair. I am supposed to be chairing a 
meeting downstairs, so I went from owing Dutch a glass of wine 
to now two bottles.
    Vice Admiral McCollum, I wanted to follow up on something 
you referenced in your opening remarks regarding the P3C Orion 
aircraft. I recognize the Naval Reserves operate some aging 
aircraft over 35 years old at the Naval Air Station in 
Jacksonville and also in Whidbey Island, which is not in my 
district but is up north of me.
    As far as I know, there is no plan to extend the service 
life of that. In that case, these commissions, as you pointed 
out, would--these squadrons would be decommissioned in 2023. 
The recapitalization of these Reserve squadrons is the top 
priority for the Navy Reserve and your unfunded list for fiscal 
year 2020.
    I was hoping you could just take a few minutes to explain 
how the Navy Reserve complement the Navy Active Duty maritime 
patrol and reconnaissance mission. Could you tell us why 
recapitalization of these squadrons is the top funding priority 
in your unfunded list for 2020? How is readiness affected if 
these Navy Reserve squadrons go away in 2023, and why is the P-
8A the right choice going forward for recapitalization?
    Admiral McCollum. Congressman, thank you for that question.
    As the Navy Reserve focuses on strategic depth, it is part 
of the overall equation of the total force of the fighting 
Navy. The maritime patrol capability of the Navy, in terms of 
its requirement, warfighting requirement, sits right about 138. 
And PB 20 brings that total number to 117.
    The AC and the RC are interoperable. They work together. 
They train together, and the standards are the same. When we 
look at a more lethal Navy Reserve and we look at our defense 
strategy and then the named competitors with China and Russia, 
we know that this capability is very important to our 
capability. And, as I mentioned, that the Navy has established 
in its unfunded priorities list as its number one lethality 
requirement in the UPL for this recap.
    So 2023 is a line which, just because of the service life 
of those P3s, that they would sunset. And so the idea is if 
there are additional resources available, that the 
recapitalization of these aircraft can begin. A key point about 
this, above the aircraft itself, and that is leveraging the 
skill sets of these pilots, who many of them fly in the 
airline, and their ability. And most of the airframes they fly 
in the airline are the same airframe as the P8. So there is a 
return on investment capture of the pilots. And, you know, 
pilots have a career path, and they have a place to sit and fly 
and they have flight hours. So, usually, if we can maintain 
those, they want to stay viable. But we need all that 
capability in the strategic depth capability of the Navy for 
the overall warfighting lethality focus in GPC.
    Mr. Kilmer. Super. Thank you.
    And thank the chairman. I yield back.
    Mr. Visclosky. Mr. Crist.

                           DISASTER RESPONSE

    Mr. Crist. Thank you, Mr. Chairman.
    And this is for any of you. While the main roles of the 
Reserve and Guard Components falls under the Defense 
Department, you are all frequently called upon to help out 
during natural disasters, especially my home State of Florida 
not infrequently. How do your exercises, trainings, and 
leadership structure translate to disaster response?
    General Luckey. So let me take that first, if I may, 
Congressman. Thank you for the question.
    So, from a training perspective, as you well know, inside 
the larger national response framework, the Reserve Components 
of the military do, in fact, train to support on the Army side 
Army North, which falls under NORTHCOM for the purposes of 
supporting sort of writ large disasters in the homeland and, 
therefore, trains to those standards in a series of different 
exercises.
    More discretely, to your question about sort of what are we 
doing internal to the Army Reserve and to the other services to 
sort of prepare ourselves and organize ourselves, I would just 
tell you I go back to the comment that I made earlier in my 
opening statement about the investment strategy that we have 
largely leveraging, frankly, the financial support we get from 
this committee and from the Senate.
    From an equipping perspective, the Army Reserve, I will 
give you just one example. So, between Maria primarily and Irma 
and then Harvey, so there were three storms in fairly close 
succession. As you know, one passed right over the State of 
Florida. A lot of our resources were immediately committed in 
an immediate response authority, and then some of them 
continued on to provide support pursuant to requests from FEMA.
    We can assume many different things, whether it was filters 
for our water purification systems or equipment that was 
consumed in the course of providing relief for our fellow 
citizens. So part of the investment strategy that we have in 
the Army Reserve is to essentially recapitalize some of those 
capabilities so that we are immediately reset for the next 
season to be able to respond again when the call comes. And as 
I said, we were recently conducting operations last week in 
Nebraska. So this is something that is an ongoing challenge for 
us, and frankly, we are honored to do it.
    Admiral McCollum. Congressman, the Navy Reserve focuses 
their response in its capability when events do happen. We do 
it via exercises. We have what we call HUREX, hurricane 
exercise responses. And we measure the Navy Reserve's response 
to the locations where we would expect through our, we call it 
the EPLO Program, the emergency preparedness liaison officers, 
who then connect with the larger defense support to civil 
authorities construct.
    Additionally, there is an authority that we have to 
mobilize short-term reservists for homeland defense scenarios 
in the 12304 Bravo mechanism or the 12304 mechanism, which 
there are several variants. So the ability to have an 
authority. We exercise it, and then we select a cadre of 
officers to be able to respond to that.
    Mr. Crist. Thank you.
    General Scobee. Congressman Crist, I would just like to 
echo what my colleagues have said, the great capability that 
resides in the Reserve Components. Specifically in the Air 
Force Reserve, we have two capabilities that don't exist 
anywhere else. One is the aerial spray, which we talked about 
before, which we use for especially after the hurricanes, 
mosquito mitigation and things like that. And the other is our 
firefighters. They exist in the Air National Guard and in the 
Reserve Component and the Air Force Reserve. Those are great 
capabilities that we practice and use on a regular basis in 
order to help protect our citizens.
    General James. And, Congressman, for me, for Marine Corps, 
nothing too far stretched out from what my other colleagues 
have said, but as our also dual-hatted Marine Forces North, and 
we run tabletop exercises, computer-based exercises with 
Northern Command. We have those MEPLOs--we call them MEPLOs--
out there. They are liaisons that are tied in with the 
interagency.
    We also bring, you know, water-based with our Navy Brethren 
back to, you know, Hurricane Katrina. We have aviation assets 
for the SAR logistics, and we also can provide this past year 
in Florida a forward arming our refuel capability there when 
the fuel is suspect.
    We are out in the community. We are Marine Reserves, and so 
we have been able to utilize our Marines that live in those 
communities that have been impacted, and they have jumped right 
in to help within that.
    Mr. Crist. Thank you very much.
    Thank you, Chairman.

               C-40 AIRCRAFT FOR THE MARINE CORPS RESERVE

    Mr. Visclosky. Thank you very much.
    General James, in the Fiscal Year 2018 Appropriation Act, 
$207 million were included for two C40 aircraft for the Marine 
Corps Reserve. My first question is: I assume there is still a 
need for that capability for the Marine Reserve.
    General James. Yes, sir, I would agree with that. We need 
that capability.
    Mr. Visclosky. And it is my understanding that if you 
would, the Department is looking at procuring two aircraft, 
potentially of a different make, for less money.
    Would that still, from your perspective with the Marines, 
meet your requirement, and if so, is there a concern or what 
would be your timeframe as to when you absolutely need these 
aircraft?
    General James. Sir, the requirement is still there for the 
Marine Corps. The Secretary of the Navy has asked us to look at 
more economical alternatives. I will say the utilitarian nature 
of the airplane is a concern. We need that, not only--it is the 
passenger side of it.

                   SAVINGS WITHIN THE RESERVE BUDGET

    Mr. Visclosky. General Luckey, in the Reserve budget, there 
is an amount of $29.7 million of savings. I think people assume 
none of you would ever come in with savings. It is described as 
savings because of better alignment of resources, business 
process improvements, divestment and specific policy reforms.
    In the budget materials, they talk about business process 
improvements, better alignment of resources. Could you in some 
detail explain for the subcommittee what those savings are, 
what some of those programs, if I am looking at it, what would 
I see?
    General Luckey. So I am going to go out on a limb here and 
tell you sort of what we have done. And the reason I say I am 
on a limb is because I am going to talk to you a little bit 
about some of the reforms and some of the places we have looked 
at cost-saving measures to become more efficient and more 
effective. Whether that adds up in the totality to the number 
you just cited, Chairman, I am not going to say that it does. I 
don't know that it does.
    I will tell you, first of all, we have taken a very hard 
look from a contracting perspective at everything that we are 
spending money on in the Army Reserve, in terms of, is this a 
capability that we still need? Do we need it in the same scale 
or scope? Do we need it 10 years ago? As you well know, some of 
the things that we were doing 10, 15 years ago inside the 
Reserve Components of the military, at least from the Army's 
perspective, were at a scale that in some cases is larger than 
what we are doing today.
    So we have looked at the efficiency of our contracting 
processes. I would submit that the RFX design, the RFX 
construct that I talked about, again, in my opening statement, 
I have discussed with this committee before, puts us in the 
place where we are targeting our resources, both from a 
modernization perspective, from a training perspective, and 
from a full-time support perspective, if those formations and 
capability sets would need to deploy quickly on very short 
notice into harm's way, into combat. That gives us, 
essentially, an ability to look at those things that we have to 
do first and tailor and target our resourcing strategy to those 
early quick deploying requirements.
    I would also say we have taken a pretty hard look at where 
we have failed to in time deobligate commitments and then be 
able to reallocate those funds essentially to reinvest in 
readiness.
    I am not going to sit here today, Chairman, and tell you 
that we are perfect at that, but I can tell you we take a very, 
very aggressive approach to making sure we put standards and 
discipline into the Army Reserve. So we see where we have 
opportunities to deobligate, we deobligate in a timely fashion, 
and then we reallocate resources to get after readiness. And we 
are making significant progress in that regard, sir.

                           MEDICAL READINESS

    Mr. Visclosky. General Scobee, in the fiscal year 2019 
bill, the Air Force Reserve request was given $9 million 
because of problems they are experiencing with medical 
readiness. How is that going in this fiscal year? Would we see 
some additional or do we see some additional requests in 2020 
to solve the problems you are facing?
    General Scobee. Chairman Visclosky, I will tell you that is 
one of the things that has been the biggest successes that we 
have had this year. So, with the money that you have allocated 
to us in order to get after medical readiness, two things were 
causing us problems. One was a huge backlog of getting 
narrative summaries done for our airmen that had some 
underlying kind of problem, either from an injury or an 
underlying issue with their health. I am happy to say that we 
have cleared that entire backlog out. And so now all of our 
airmen are getting the care they need immediately. And that was 
a huge, huge win for us in just 1 year.
    So what the money went to was we put additional doctors on 
our rolls in order to be able to write those summaries and get 
our airmen characterized in the right care capacity that they 
were going to need. And that is what we used all that readiness 
money for.
    So, if you look at our readiness from a personnel 
perspective, on the medical side, we have made huge strides 
this year, more so than anyplace else. And that is directly a 
result of the additional moneys that we were given.
    Mr. Visclosky. Would some of those positions have to be 
made permanent to make sure you don't slide into a backlog 
again? I mean, that is a very good story.
    General Scobee. Mr. Chairman, you are exactly right. My 
plan is to continue to do that. So right now with the money you 
have given me, I have been able to fund that for a 5-year 
program going forward, and we plan on doing that in perpetuity. 
But yes, sir.
    Mr. Visclosky. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. I just want to say I 
appreciate all of your attendance. And we appreciate you at 
March Air Reserve base. I think all of you are represented at 
that base. And the Reserves do a fabulous job not only for our 
country but for the community. Thank you.
    Mr. Visclosky. And I simply would thank you for your 
service too. And your offices have been very good to deal with 
with the committee. And I also do thank you for your time, for 
your preparation and testimony today.
    We are adjourned.
    [Clerk's note.--Questions submitted by Chairman Visclosky 
and the answers thereto follow:]

    Question. What was the funding from FY18-PB20 for O&M environmental 
restoration funding PFOS/PFOA? How much was POM'd for in FY18-PB20?
    Answer: In FY18, the Air National Guard (ANG) executed $2.4M of O&M 
funds for PFOS/PFOA requirements. The ANG was appropriated $11M in FY 
19 for ANG installation restoration requirements, not specifically for 
PFOS/PFOA. The FY2OPB request includes $4.5M for ANG restoration to 
fund the highest priority ANG installation restoration requirements and 
does not specifically include ANG PFOS/PFOA.
    How much was POM'd for in FY18-PB20?
    The Assistant Secretary of Defense, Office of Installations, 
Energy, and Environment issued a policy memo dated 28 Nov 2017 which 
effectively made National Guard locations ineligible for Defense 
Environmental Restoration Account funding effective 1 Oct 2017 until a 
funding eligibility determination is made by the Office of the 
Secretary of Defense. Due to the timing of the change in funding 
eligibility, the ANG was unable to request O&M funding for 
environmental restoration requirements during the FY18 POM. Our FY18 
environmental restoration requirements were included in the Air Force's 
Defense Environmental Restoration Program's funding request, as it has 
for the past 30+ years.
    In FY19, the ANG was unable to POM for O&M funded requirements 
because the AF FY 19 POM was already finalized when the OSD policy 
became effective. Congress provided an $11M mark and appropriated as a 
Congressional Add for ANG O&M environmental restoration requirements.
    For the FY 20 POM the AF included $4.5M for ANG O&M for restoration 
requirements, not specifically for PFOS/PFOA.

    [Clerk's note.--End of questions submitted by Chairman 
Visclosky. Question submitted by Mr. Ruppersberger and the 
answer thereto follows:]

    Question. How many F-16 currently have AESA installed? What is the 
timeline for AESA to be installed on all 72 F-16s in the Guard?
    Answer. None. Install of first 72 starts with the D.C. ANG around 
September 2019. Should be done by the beginning of 2021.

    [Clerk's note.--End of questions submitted by Mr. 
Ruppersberger. Question submitted by Mr. Rogers and the answer 
thereto follows:]

    Question. Provide a timeline for the basing decision for the C-
130Js.
    Answer. All C-130J basing decisions flow through the USAF Strategic 
Basing Process. Currently, the enterprise definition and basing 
criteria are being vetted by HQ AF staff. We expect SecAF approval of 
the enterprise and basing criteria by the end of Summer 2019.

    [Clerk's note.--End of question submitted by Mr. Rogers. 
Questions submitted by Mr. Aderholt and the answers thereto 
follow:]

    Question. When is the F-35 scheduled to arrive at Montgomery, AL? 
Please provide a detailed timeline of all activities including MilCon 
and EIS.
    Answer:
    Aircraft Delivery: First aircraft arrival is scheduled for December 
2023 with 2 aircraft planned. The last aircraft is scheduled to arrive 
in June 2024.
    MILCON Schedule:
          <bullet> Construct AMU Mx--Design Estimated Completion Date 
        summer-2020
          <bullet> F-35 Flight Simulator Facility--Design Estimated 
        Completion Date summer-2020;
          <bullet> F-35 Weapons Load Trainer--Awaiting design contract; 
        design Estimated Completion Date late-2020
          <bullet> F-35 Engine shop--Approved for design; design 
        Estimated Completion Date mid-2021
    Question. Are there any issues that will cause delays in the 
delivery of the F-35 at Montgomery, AL?
    Answer: Although many variables may impact the delivery of F-35s to 
Alabama, there are currently no known issues that will cause delays in 
F-35 delivery. Lessons learned during the fielding of F-35s to 
Burlington, Vermont (Ops 2) in 2019, should streamline subsequent 
aircraft deliveries.
    Question. When is the Environmental Impact Study scheduled to be 
complete? Is the EIS currently on schedule?
    Answer: The F-35 Ops 5 and 6 Draft Environment Impact Study is 
scheduled to be released for public comment in late summer 2019 and 
will be followed by Public hearings. The Final Environment Impact Study 
and Record of Decision are anticipated to be provided for SecAF 
signature by early 2020. The Environment Impact Study schedule 
experienced about a 4 month delay due to operational data and air 
quality analysis issues raised during Government review of the draft 
document. A detailed schedule can be provided as soon as the contract 
is officially modified.

    [Clerk's note.--End of questions submitted by Mr. 
Aderholt.]

                                            Tuesday, April 2, 2019.

        FISCAL YEAR 2020 UNITED STATES AIR FORCE BUDGET OVERVIEW

                               WITNESSES

HON. HEATHER WILSON, SECRETARY, U.S. AIR FORCE
GENERAL DAVID L. GOLDFEIN, CHIEF OF STAFF, U.S. AIR FORCE

                Opening Statement of Chairman Visclosky

    Mr. Visclosky. The subcommittee will come to order.
    Good afternoon to everyone, and thank you for attending. 
This afternoon, we will receive testimony on the fiscal year 
2020 budget request for the United States Air Force.
    Before I begin, I do want in particular to thank both of 
our witnesses for changing your schedule today to move the time 
of the hearing up, as well as all of the membership.
    I would also mention that we anticipate votes will start 
somewhere between 3:30 to 3:45. It will be the intent until we 
finish just to have members go to and fro from the House floor 
and we will continue in that vein. But, again, appreciate 
people's flexibility.
    I would like to introduce our witnesses, Dr. Heather 
Wilson, Secretary of the Air Force, and General David Goldfein, 
Air Force Chief of Staff.
    Madam Secretary, General, welcome back to the subcommittee.
    Secretary Wilson, I regret that this will be our last 
hearing with you sincerely. I understand happily that you were 
confirmed this morning as president of the University of Texas-
El Paso. Congratulations to you. I think I speak for everyone 
when I say that your leadership will be missed, as well as the 
friendship and colleagues you leave behind in the United States 
Congress.
    General, you, of course, are no stranger to the 
subcommittee. Welcome back as well. We will appreciate your 
views as we begin to shape the fiscal year 2020 defense bill.
    Secretary Wilson, General Goldfein, you have made it clear 
in your submitted testimony that you believe that the Air Force 
is too small and underresourced to carry out its mission 
requirements under the National Defense Strategy with 
acceptable risk. Taking into account your concerns with 
readiness, capacity, and capability, the subcommittee is 
prepared to review your fiscal year 2020 budget request with 
the scope of the resources that will be provided to the 
Department.
    With that, I would turn to my ranking member, Mr. Calvert, 
for any opening remarks he would like to make.

                     Opening Remarks of Mr. Calvert

    Mr. Calvert. Thank you, Mr. Chairman.
    Secretary Wilson, General Goldfein, welcome back to the 
committee.
    As the chairman pointed out, Madam Secretary, this is your 
last appearance before the subcommittee before you head off to 
the academic world. We have known each other for a long time, 
back to the days we used to sit together on the Armed Services 
Committee when I was an authorizer. I don't want you to be 
shocked by that, but some things are more important than 
partisanship here.
    But I know you will do wonderful there, and I know that 
this will not be our last time to work together. So I certainly 
wish you well. And let me thank you for your hard work. I 
appreciate your commitment to this Nation and helping our 
military be a force for peace around the globe.
    Likewise, I appreciate your service, General Goldfein. 
Further, I am going to ask you about the Space Force and the 
vision for how that will protect our space assets. Not to 
become overly bureaucratic, I am skeptical of what I have heard 
so far.
    I am also looking forward to hearing more about the Space 
Development Agency. I would like you to explain how this entity 
will coordinate with existing space and missile development 
programs already in existence throughout the Department.
    Finally, I am going to ask you about the launch services 
agreement and the future of the national security space 
launches.
    So we have a lot of topics to cover, so I would like to 
thank you both for your service. I look forward to your 
testimony.
    And, Mr. Chairman, I yield back.
    Mr. Visclosky. Thank you very much.

                     Opening Remarks of Ms. Granger

    Ms. Granger, we will be happy to recognize you for any 
opening statement you would like to make.
    Ms. Granger. Thank you. Thank you, Chairman Visclosky.
    Secretary Wilson, General Goldfein, welcome back to the 
committee.
    Secretary Wilson, this will be your last appearance. I want 
to thank you for your service and for your commitment to this 
Nation and to the military. You will be missed. The University 
of Texas is getting a true professional. From a family that 
went to A&M, I will say that they need those professional 
people. Thank you for all you have done to assist the Congress 
and to keep the Air Force focused on the future.
    Likewise, I appreciate your dedication, General Goldfein. I 
value your counsel and plan to maintain an open dialogue as we 
build the fiscal year 2020 budget.
    I look forward to hearing from both of you about how your 
budget addresses the near-peer threats outlined in the National 
Defense Strategy. I also want to hear from you about how you 
intend to address the pilot shortage.
    Finally, I am going to ask that you outline for the 
committee the current status of Offutt and Tyndall Air Force 
Bases that have been negatively impacted by natural disasters.
    I would like to thank you both for your service. I look 
forward to your testimony. Thank you for being here.
    Mr. Visclosky. Madam Secretary.

                 Summary Statement of Secretary Wilson

    Secretary Wilson. Thank you, Mr. Chairman. I would like to 
put our entire statement in the record if I could and just 
summarize.
    Mr. Visclosky. We have to caution you, brevity will be 
shorter and it will get you lots of questions. Thank you so 
much.
    Secretary Wilson. Thank you, sir. I will just summarize a 
few key points.
    The budget that we have submitted for fiscal year 2020 
aligns with the National Defense Strategy. That is the guidance 
that the Chief and I gave to the team when they began 
developing the budget, and we have been consistent about that 
all the way through.
    There are a few things that I would like to highlight with 
respect to this budget.
    Last year when we testified, it was only a few months after 
the promulgation of the new Defense Strategy, and one of the 
committees asked us: Well, you know, you always come up here 
and tell us what is the force that you can afford for the 
budget you have been given, but what is the Air Force you need 
to execute the National Defense Strategy? And we didn't know 
the answer to that question, and we should know the answer to 
that question.
    In the last year's defense authorization bill, the Congress 
directed us to do the study and the work to assess what is it 
that we would need to execute the National Defense Strategy to 
a moderate level of risk and to be able to report that to the 
Congress. We did that in a classified forum with an 
unclassified summary on the 1st of March.
    It is no surprise probably to those of you in this room 
that the Air Force we have is smaller than the Air Force that 
we need. We currently have 312 operational squadrons, the 
clenched fist of American air power, and in the 2025-2030 
timeframe, the Air Force we need to meet the threats that we 
face and execute the strategy that we have been given has 386 
operational squadrons.
    So it is not more of the same. It is a number of iterations 
and force concepts that we modeled and simulated several 
thousand times to look to what we need to do to meet the threat 
that we see. We need to evolve and incorporate advanced 
technology in new ways. But there is no question that the Air 
Force will be in the forefront regardless of where the next 
conflict occurs.
    Second, this budget also reflects that America is building 
a more ready and lethal Air Force. We are more ready today than 
we were 2 years ago because of the resources and the certainty 
that the United States Congress has given us.
    For us, readiness is first and foremost about people. It is 
also about their training. It is about the maintenance of their 
equipment and the spare parts and the munitions and the 
logistics to be able to support an Air Force to meet the 
threats of the 21st century. We are more lethal and more ready 
today than we were 2 years ago.
    And third, we are fielding tomorrow's Air Force faster and 
smarter. We just released and just delivered to the Hill our 
2018 acquisition report card to all of you, which tries to put 
in plain language exactly how we are doing with respect to 
acquisition.
    One of the things that you will find is that we have taken 
advantage of the authorities that you all have given us in 2016 
and 2017 to accelerate acquisition. The Air Force set a goal 
for itself to strip 100 years out of Air Force acquisition in 
our first year of effort. We are now 10 months into that effort 
and we have taken 78-\1/2\ years out of schedules for Air Force 
programs.
    We are taking advantage of the authorities that you have 
given us to prototype and experiment so that we can move things 
faster and get capability from the lab bench to the warfighter 
faster so that we can win.
    Finally, I would like to thank all of you for the on-time 
budget that we have this year. But I also have to say that one 
of the most important things for the continued readiness of 
this force is that we must have a supplemental to recover from 
the devastating storm that hit Tyndall Air Force Base. That 
storm hit on the 11th of October, and we still have not had any 
funds in a supplemental to recover from it.
    Last week, I had to take initial action, because we are 
cash flowing this effort out of the rest of the Air Force 
budget. We had to stop 61 facility projects in 18 States 
because we don't have a supplemental to recover from this 
devastating storm, and we just had another storm that hit 
Offutt Air Force Base.
    It doesn't end here. We will have a series of decisions 
that have to be rolled out over May and June and July all the 
way through September. If we don't have supplemental funding, 
the advances that we have made on readiness and the restoration 
of readiness will be significantly damaged. And I would ask for 
your help with respect to that.
    Chief.

                 Summary Statement of General Goldfein

    General Goldfein. Thanks, Madam Secretary.
    Chairman Visclosky, Ranking Member Calvert, distinguished 
members of the committee, what an honor it is to represent your 
Air Force, Active, Guard, Reserve, and civilian airmen who 
stand the watch and provide top cover for the Nation and our 
joint and allied teammates.
    This hearing is among the first official forums since 
Secretary Wilson announced her pending departure from the Air 
Force. And I want to say publicly, on behalf of all airmen and 
their families, what an honor it has been to work with her 
every day to make our Air Force more ready and more lethal.
    And this budget represents the culmination of our work 
together to build the Air Force we need to compete and deter, 
and if deterrence fails, to fight and win. So I want to state 
for the record that we are a better Air Force because of the 
leadership and the vision of our Secretary, Dr. Heather Wilson.
    Thank you, ma'am.
    Chairman, Ranking Member, I went to war for the first time 
as a young captain flying F-16s out of Shaw Air Force Base in 
South Carolina just days after Saddam Hussein invaded his 
neighbor in Kuwait. At the time, we had 401 operational 
squadrons and 945,000 Active, Guard, Reserve, and civilian 
airmen in an Air Force that landed our Nation's initial punch, 
401 operational squadrons to defeat a middleweight, non-nuclear 
power who threatened his neighbor in the region, but who posed 
little threat to our homeland and our way of life.
    Today, we have 312 operational squadrons, down from 401; 
and we have 685,000 airmen, down from 945,000. We are not the 
Air Force of Desert Storm.
    When General Tony McPeak was the Chief of Staff in 1991, he 
and his fellow Joint Chiefs were focused on supporting a single 
combatant commander, General Norm Schwarzkopf, the commander of 
U.S. Central Command.
    Today, should deterrence fail and we find ourselves 
defending our Nation against a major nuclear power, as the 
Chief, I will be simultaneously supporting at least three 
combatant commanders, who will be demanding air, space, and 
cyber power.
    The geographic combatant commander will request forces to 
support his campaign, which will include backfill for any 
fighters or tankers or command and control forces he places on 
nuclear alert.
    The next call I will get will be from the U.S. Strategic 
Command commander, who will tell me how many bombers, tankers, 
command and control forces he needs to execute his nuclear 
mission, protecting not only our homeland but also our allies 
and partners.
    And the third call will be from U.S. Northern Command, who 
will tell me how many fighters, tankers, ISR, and C2 aircraft 
he needs to execute his plan to defend the U.S.
    The Air Force will support these missions simultaneously, 
not sequentially, while at the same time standing shoulder to 
shoulder with our joint teammates, maintaining a global 
presence to deter any rogue nation who might choose to take 
advantage of our situation while simultaneously maintaining 
campaign pressure against violent extremism.
    This is the stark difference between fighting a 
middleweight rogue nation without nuclear weapons versus 
competing, deterring, and, if deterrence fails, fighting and 
winning a peer fight.
    It is why Secretary Wilson and I continue to articulate in 
every forum that the Air Force is too small for what the Nation 
is asking us to do.
    It is why we reported to this committee that the Air Force 
we need to execute the National Defense Strategy requires 386 
operational squadrons.
    And it is why the National Defense Strategy Commission 
stated, and I quote: ``Regardless of where the next conflict 
occurs or which adversary it features, the Air Force will be at 
the forefront.''
    With your support of this budget request, we will continue 
to rebuild the readiness and lethality of this force, which you 
supported last year with an on-time appropriation following a 
damaging sequester and years of budget uncertainty, and for 
that we thank you.
    Chairman, Ranking Member, history doesn't always repeat, 
but it does rhyme now and then. My father fought as a young F-4 
pilot in Vietnam, and he and many of his peers stayed in and 
rebuilt the Air Force his son needed to fight and win in Desert 
Storm, followed by 28 years of continual combat operations, 
including 10 years of Operations Northern and Southern Watch, 
air campaigns in Bosnia and Kosovo and Serbia, and continuing 
through the past 17 years, fighting violent extremism in 
Afghanistan and Iraq and Syria and across North Africa.
    My daughter and my nephews are young airmen today. And with 
your continued support of on-time budgets, we will build the 
Air Force they will need to fight and win side by side with our 
incredible joint teammates in this era of great power 
competition.
    So thank you for the opportunity to testify, and we look 
forward to your questions.
    Mr. Visclosky. Thank you very much.
    [The joint written statement of Secretary Wilson and 
General Goldfein follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    Mr. Calvert.

                        SPACE DEVELOPMENT AGENCY

    Mr. Calvert. Thank you, Mr. Chairman.
    And first let me just say, when it comes to Tyndall and 
Offutt and let's not forget Camp Lejeune, we need to get this 
supplemental done, hopefully as soon as possible, and relieve 
the pressure on those military bases. So hopefully we can do 
that.
    But my question is really about the Space Development 
Agency, which, as you know, is a new endeavor that would report 
to Under Secretary Griffin. So you may not be able to answer my 
questions, but I am going to try to see if we can get some 
answers anyway. Any information you can provide to enlighten 
this subcommittee on this new agency would certainly be 
appreciated.
    First, do you have any idea on the missions and authorities 
of the Space Development Agency?
    Secretary Wilson. Congressman, there are some initial 
concepts.
    Let me first say that the Space Development Agency is not 
part of the President's proposal, but the Acting Secretary of 
Defense has full authority to be able to organize/acquisition 
as he sees fit.
    I would say that from an Air Force point of view, there are 
some things that matter to us.
    Number one is to keep acquisition tightly connected to the 
warfighter, because it is the warfighter that needs to drive 
the requirements. And I am a little bit concerned that the 
Space Development Agency is separated from the warfighter.
    Number two is that we want to have acquisition excellence. 
The primary project that has been highlighted for the Space 
Development Agency to start out with is one that the Air Force 
is funding through DARPA, a low Earth orbit satellite 
constellation based off commercial technology. We are very 
satisfied with DARPA's management of that project, and there is 
always a certain risk if it is given to another group or 
another agency.
    And third, we believe that threat should drive strategy. 
Strategy drives force posture and concepts of operations. We 
have done extensive work leading up to the fiscal year 2019 
budget on what should be the strategy for a contested domain 
and prioritized our programs accordingly.
    Some of the ideas in the initial concepts being floated by 
those who are interested in the Space Development Agency are 
not well aligned with that strategy. My view is that we should 
push those strategies, explain them, and then prioritize 
accordingly, and I worry that that kind of testing really has 
not been done.
    Mr. Calvert. By the way, do you have any idea where the 
location of this new place may be?
    Secretary Wilson. No.
    Mr. Calvert. It is my understanding that the agency will be 
charged with, like you mentioned, developing, acquiring, 
fielding next-gen space capabilities, which sounds very 
familiar to what SMC already does.
    Secretary Wilson. Sir, Space and Missile Systems Center, 
and, of course, the Congress directed us to stand up the Space 
Rapid Capabilities Office, which we did in September, and they 
have their first three classified projects.
    I would say at SMC, you know, SMC has just gone through a 
major reorganization to speed up acquisition, with the help of 
McKinsey. We stripped out three layers of bureaucracy in the 
Space and Missile Systems Center.
    We have also established something called the Space 
Enterprise Consortium that has over 200 companies engaged in 
it, many of them nontraditional companies. And we are going 90 
days in that consortium, 90 days between requests for proposal 
and contract award.
    Of the 78.5 years that the Air Force has taken out of 
acquisition, 21 years came out of space programs alone. So that 
is one of our highest performing program executive offices. I 
am very proud of the work that they have been doing and I have 
confidence in them.
    Mr. Calvert. I don't want to sound overly parochial, but, 
as you know, the SMC has been in California for some time, and 
the contractors that surround SMC in the Los Angeles area have 
been there for a long time.
    And, obviously, there is a lot of concern about this 
reorganization and whether--you know, just changing the 
location doesn't necessarily mean things are going to get 
better or more efficient.
    So I am trying to get some answers, which we are not 
really--and I know that this is the purview of Mike Griffin. 
But do you think just changing the locations of things like 
this is going to make things better?
    Secretary Wilson. As I said, the primary project that is 
being discussed is a commercially based low Earth orbit 
satellite system. And the Air Force has actually funded through 
DARPA the initial testing of that system, and we are very happy 
with DARPA and the way it has been managing that.
    I think there is some risk if you start to move major 
programs around, because people generally don't move with the 
program that way. But my other concerns are more having to do 
with what is the strategy to win in a contested domain. And 
while we rely to some extent on commercial satellite technology 
for the things that have to survive in combat, a proliferated, 
unprotected low Earth orbit system is quite vulnerable.
    Mr. Calvert. Thank you.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Ms. McCollum.

                             CLIMATE CHANGE

    Ms. McCollum. Thank you both for being here today. 
Everybody, thank you for your service.
    But, Secretary Wilson, I mean it when I say I wish you all 
the best as you move on from the Air Force. When I was first 
here, you were one of the people that I looked up to and I 
could always have a conversation with, sitting on any of the 
defense committees, about what was going on. You probably don't 
remember talking to a first term Member, but I really, really 
appreciate your kindness and your professionalism to me.
    I wanted to ask you both about climate change. And this 
probably comes not as much of a shock to Secretary Wilson as we 
had a breakfast back a while ago. Senator Murkowski was there, 
some of us were there, and we were talking about what was 
happening actually in Alaska, and then it was a little broader 
in topic.
    But I am disturbed, troubled, dismayed, I don't know what 
word to use, when Secretary of State Pompeo said he wouldn't 
rank climate change as a top national security threat. And I am 
going to lay out to you why I think it is, beyond our borders, 
yes, but even within our borders I think it is becoming a 
national security threat.
    Just this year alone, we saw 900 buildings at the Marine 
base at Camp Lejeune flooded by Hurricane Florence at a cost of 
$3.6 billion. Catastrophe, destruction at Tyndall Air Force 
Base from Hurricane Michael, a cost of over $3 billion. By the 
way, I had a conversation with Annapolis when they were here, 
the academies were testifying, and they are going to have to 
build a seawall to protect their asset.
    But back to the Air Force, devastating floods across the 
Midwest, including Offutt Air Force Base in Nebraska, a third 
of which is under water. No doubt, that is going to turn into 
the billions.
    And just today we are seeing the footage of an ice cap in 
Iceland where tourists are scrambling. So that it was such a 
shock that this huge piece of ice broke off that tourists were 
literally filming, thinking nothing was going to happen, only 
to find out that they started scrambling for the high ground.
    A report from Canada says Canada is warming up two times 
and in northern Canada three times faster than they thought 
with climate change. And as I mentioned, we had the discussion 
about some of the things that are happening with permafrost and 
that in Alaska.
    So we are going to be asking to spend billions of dollars 
repairing vulnerable bases like Tyndall, but there is no 
guarantee that the Pentagon can develop which will guarantee 
another hurricane will not come along this year or next year 
and cause further destruction.
    So when the Air Force considers whether to move F-22 
training out of Tyndall and it also considers basing F-35 units 
there, I sure hope that climate change is figuring into your 
calculus.
    So I would like to ask you both your thoughts on whether or 
not you think climate change is a national security threat even 
here at home for our military. What is the Air Force going to 
do, in a budgetary standpoint, to start accounting for some of 
the things that you are going to have to move or some of the 
preparedness you are going to have to do? Because, quite 
frankly, I don't see it in any of the budgets.
    So can you describe to me where this decisionmaking is 
taking place, if it is. And if it is not, we just can't keep 
moving assets, like fifth-generation fighters, out of a 
disaster zone only to put them back in their place again.
    Secretary Wilson. Congresswoman, let me make a couple of 
points, and then I will ask the Chief to fill in on some 
things.
    We actually take a look at our infrastructure from a 
perspective of resilience for a lot of different things, and it 
may be a little bit different for us because the Air Force 
fights from its bases. They are our platforms for power 
projection. The Navy fights from its ships. The Army deploys 
forward and goes other places. But for us, they are our power 
projection platform.
    So when we plan our bases and look at things, the 
resilience of the bases, the duplication of power sources, the 
hardening of our assets is an important thing in the way in 
which we plan infrastructure. I think, as some of you know, we 
just released an infrastructure investment strategy to change 
the way in which we approach our infrastructure and to try to 
get more value out of every dollar that we spend and to be 
planning more long term.
    The second thing that I would say is that in the wake of a 
number of adverse weather events over the last 24 months, the 
Chief and I stood up a team to look at weather and think about 
it almost the same way as we think about other kinds of 
adversaries.
    The Air Force is responsible for weather forecasting, and I 
think part of that is because we are the force that has to look 
at the weather every day. Before you go fly, one of the things 
you do is check the weather. We are very dependent and 
vulnerable to it. And we operate globally, everywhere from the 
South Pole to the North Pole and everywhere in between. So we 
did set up a special task force to look at weather, weather 
forecasting and modeling and the science behind it.
    Chief.
    General Goldfein. Yes, ma'am.
    And as this team went out and looked at all the bases where 
we exist, the Secretary has it exactly right. I mean, we are a 
land-based force that does global vigilance, reach, and power. 
And so we are globally present any given time.
    We also do weather for the joint team. Many don't know that 
in Army units the embedded weather capability, our airmen do 
that, and that we do that for Special Operations Command as 
well. So keeping an eye on and understanding the impacts of 
weather is essential to who we are.
    Ms. McCollum. Well, keeping an eye on the weather is great. 
Glad you do it. I knew what ceiling meant as a kid growing up 
around air bases. But I want to know where the ceiling is in 
your budget accounting for this, because just with the storms 
here, with the figures I have, I have $6 billion worth of 
repair. We can't keep affording to do this. And there are 
probably other things out there that you know you need to move 
or the permafrost or things are happening, and where is that 
accounted for in your budget?
    I don't care if you call it sea level rise. I don't care 
what it is. But we need to start pulling that out, because to 
not start accounting for that is going to catch up with us in 
the long run with all the other needs that you have to do what 
you described in your testimony.
    So if it is accounted for someplace in the budget, would 
you please get back to the staff? If it is not, you do what 
your Commander in Chief asks you to do. Then it is up to us to 
figure out how we start accounting for that and working with 
you.
    But it is something I am asking all the branches. And it 
was very enlightening, Mr. Chair, when we found out the 
challenges that our Naval Academy at Annapolis was going to be 
facing, because they are literally built on land that was 
reclaimed from the ocean.
    Thank you, Mr. Chair.
    Mr. Visclosky. Ms. Granger.

                   RECRUITMENT AND TALENT DEVELOPMENT

    Ms. Granger. Thank you.
    I have two questions, but they are related, General 
Goldfein. You talked about--both of you talked about a larger 
Air Force. So I would ask you what kind of recruitment and what 
kind of retention strategies are you going to use to attract 
the more and most capable workforce? And what kind of reforms 
or programs are you going to institute to manage the talent and 
the capabilities and make sure that we have a diverse and 
lethal force?
    I would also say, specifically for pilots and looking at 
the foreseeable gap in pilot production, how are you going to 
leverage our industry partners to address that pilot, that 
increase? Does your budget show that?
    But just give us an understanding of how we get to the Air 
Force that you say and we all know that we need.
    Secretary Wilson. Congresswoman, I will take the 
recruitment and talent development piece, and then I will ask 
the Chief to talk about pilot production and where we are 
there.
    With respect to the recruitment, the Air Force met its 
goals last year for recruitment overall, although we did have 
some holes in specialties like cyber and linguists and a few 
others. So recruitment is going well.
    This year's budget proposal for fiscal year 2020 proposes 
another end strength increase of 4,400 people and a hiring of 
about a little over 5,000 civilians, mostly in the depots, to 
really focus on our depot-level maintenance. So recruiting is 
going well. We now have to season all those young people who 
are just coming in.
    We are changing a number of the ways in which we manage our 
talent and the way we assign our people, and there will be even 
more changes in the coming months. We are shifting to a talent 
marketplace that matches people to assignments, to give 
military members more control and more input and more 
probability of getting what really works for them and their 
families and much more transparent.
    We are also for the first time since the 1980s changing the 
way in which we assess--the way we evaluate officers. So a new 
officer performance report will be coming out this summer.
    And we are also changing what we call the categories for 
promotion. The Air Force, unlike the other services, has one 
really broad category called Line of the Air Force. About 87 
percent of officers are in that. And then there are JAGs and 
Medical Corps and a handful of others on top of it.
    But it does mean that we often have shortages in some 
professions while we have overages in others at different 
ranks. We have been doing mock boards and coming up with a plan 
to break that into smaller categories. For example, one of them 
will be the future force, where acquisition, science, 
technologists, test and evaluation officers in that group, so 
that we can have enough all the way through a career and 
promote to need rather than relying on kind of a lottery to 
hope that we have enough that get through the screens.
    Chief, do you want to talk about pilots?
    General Goldfein. Yes. Thanks, ma'am.
    First of all, ma'am, you called it exactly right. This is a 
national-level challenge broader than the Air Force. The 
problem statement for the Nation is we are not producing enough 
pilots to adequately service the demand for military, civilian, 
and business aviation.
    So we are working with industry, we are working with 
academic institutions to provide incentives, and we are working 
with Congress on incentives to get more young people flying, 
because we need to produce more pilots to service the demand.
    Within the Air Force, we are focused on three areas--how 
many we produce, how many we experience, and then how many we 
are able to retain over time--because the investment we make in 
them, as you know, ma'am, is significant.
    We are producing more and we are producing them in 
different ways. We are going to be up to 1,400--in this budget, 
if approved, we will be up to 1,480 pilots. That is up from 
just over 1,100.
    So we are producing more pilots and we are looking at 
different ways of training them, because I grew up in the 
business of you learn by repetition. And you would sit in your 
room at night and you would think through the sortie the next 
day. And it was normally we would call it chair flying, where 
you went to Target and you got two plungers, and you just sort 
of close your eyes and you do what we call chair flying.
    Today's young pilot puts on a Google or whatever headset, 
and it is all programmed, and he or she flies the mission 10 
times before they go do it the next day. They are learning 
differently. And so we are able to produce more by not only 
increasing the numbers, but also increasing the way we do 
business.
    The second is an experience, how do we experience them, 
which is the number of cockpits, and that is why you see us 
trying to grow.
    And the third business is retention, and that is where we 
are probably putting most of our effort, because it is a 
combination of quality of service and quality of life. Congress 
has been very helpful with financial incentives. But what we 
hear over and over again is it is not only about the money, it 
is also about quality of service.
    And some of the things that the Secretary talked about, 
talent marketplace, we are doing those things. But what we hear 
loud and clear from airmen, from aviators, this is beyond 
pilots, is what motivates them the most is to be part of a 
high-powered team led by a courageous and inspirational 
squadron commander.
    So we are focused on when we select and how we develop and 
how we create the culture in that squadron, our fundamental 
fighting formation, how do we create the culture so they are 
part of something really special. And then that decision of 
whether to stay or go is really hard for them and for their 
families.
    Ms. Granger. Thank you.
    Mr. Visclosky. Mr. Ruppersberger.

                              HYPERSONICS

    Mr. Ruppersberger. First, Secretary Wilson, Heather, I 
know. And we also served together on Intel as leaders of the 
Technical Tactical Committee.
    And then you went somewhere else and the next thing you 
know you are back. So do you have any idea when you are going 
to come back again?
    Secretary Wilson. I like it west of the Mississippi, sir.
    Mr. Ruppersberger. Right. Well, that is great.
    And I want to tell you, you have been a real professional. 
It is good to work with somebody that you know.
    And I think, General, you gave some great comments about 
her.
    So you are going to go away as a respected individual of 
Congress and Secretary of the Air Force.
    My question, the committee has discussed hypersonics at 
length, and it is a very important issue when it comes to our 
defensive capabilities. However, I would like to discuss the 
roadmap to fielding our own offensive hypersonic weapons.
    As you know, the Air Force is currently developing their 
Air-Launched Rapid Response Weapon, called ARRW, and the 
Hypersonic Conventional Strike Weapon, called HCSW, and these 
weapons are slated to reach an early operational capability in 
2022 and 2021, respectively. However, both weapons are still in 
the prototyping phase.
    My question, what is the Air Force's plan to successfully 
transition these prototyping efforts to programs of record? Is 
industry prepared to be able to manufacture these weapons 
affordably at scale?
    And I have been told, because of our sequestration law, 
basically, that we are 2 years behind both China and Russia in 
the technology of hypersonic weapons.
    So my question there is, based on where we are now, do you 
feel--and I guess some of this might go to you, General--based 
on where we are now and this plan moving forward as it relates 
to the Air Force, will we be able to catch up to China and 
Russia by 2021 or 2022?
    And I also notice that all of the military has come 
together on this issue and Griffin is really heading it up at 
DOD.
    Secretary Wilson. Mr. Chairman and Congressman, thank you 
for the question.
    This is actually a great example of how we have used the 
authorities that you have given us to do things faster and 
smarter. We have two hypersonics programs that the services are 
pursuing. So all three services got together. We get together 
regularly, it terrifies the staff, there is no staff in the 
room and we work together on ideas that we can do jointly.
    Hypersonics was the first one. The Navy had funded an Army 
test that went better than the Air Force test. So what we 
decided to do was to cooperate. We have better rockets than the 
Army did. We are using the Army shell, components from the Navy 
system, Air Force rockets. We are testing it by dropping it off 
of a B-52, and we are doing ground launch and sea-based launch 
at the same time.
    Because of that and because of the prototyping authorities 
you have given us, for ARRW, which is one of our 804 programs, 
the rapid prototyping programs, we were able to cut 5 years out 
of the schedule by working together. And the same for 
hypersonics, we cut another 5 years out of that schedule. So 
that the Hypersonic Conventional Strike Weapon, or HCSW, will 
have its first all-up round flight test in the first quarter of 
2021, which is 5 years faster than we initially anticipated.
    This is not just faster; it is also better. Instead of 
spending 3 or 4 years in an analysis of alternatives and 
getting a pile of papers of reports from Beltway bandits, we 
are actually going to be able to test hardware and know what 
the most difficult pinch points are. It is a faster program, it 
is better, and we are also committed to making it more 
transparent than our regular acquisitions.
    This report that we send up three times a year on every one 
of our prototype and experimentation programs, and we build in 
guardrails. In the case of HCSW, any cost growth 10 percent or 
over the baseline requires an immediate notice to the 
committees up here on the Hill. So we built these into the 
programs, so that we are trying to achieve not only speed and 
performance, but also be more transparent and accountable to 
the Congress.
    Mr. Ruppersberger. General, I talk about the issue with 
Russia and China and also offense versus defense. If you 
could----
    General Goldfein. Yes, sir. You know, one of the ways you 
ensure that you can defend against a weapon is you build your 
own. And so there are parallel efforts not only in offense, but 
also in defense. And so it is important that we keep both of 
those going on par with each other as we go forward.
    Mr. Ruppersberger. But where do you think--based on what 
the Secretary just said, do you think that will bring us up to 
the level where we need to be because we have fallen behind in 
this technology?
    General Goldfein. We have every capability, both 
technologically and investment-wise, to be able to not only 
catch up, but to get out in front of them. I think the biggest 
challenge for us is going to be investment and----
    Mr. Ruppersberger. It is up to this committee to fund it.
    General Goldfein. Yes, sir.
    Mr. Ruppersberger. Thank you. I yield back.
    Mr. Visclosky. Mr. Womack.

                                 C-130S

    Mr. Womack. Thank you, Mr. Chairman, for the time.
    And to my colleagues, we have the classes of 1982 and 1983 
sitting here in the witness chairs of the United States Air 
Force Academy in Colorado Springs, which tells me that at some 
time in the 1970s, late 1970s, somebody just like us rolled the 
dice on these two individuals and gave them nominations which 
led to appointments to one of the outstanding service academies 
on the planet.
    And so my point in saying that is not only to congratulate 
them for great careers, but also to remind us that what we do 
every year in nominating these young men and women for these 
positions is something that we all should take really 
seriously, because one day they could be a service chief or a 
secretary of a service that means so much to the outstanding 
military that we have today.
    Secretary Wilson, just a quick question on C-130s. 
Specifically, this committee has provided funding for the C-130 
legacy modifications to keep these things flying. I noticed the 
budget request doesn't have any money for propulsion upgrades. 
Do we have a plan to keep these legacy aircraft flying? Are we 
just going to try to hold out for the C-130 recap to complete?
    Secretary Wilson. Sir, let me take your question. But let 
me also say that Dave Goldfein and I started the same day at 
the United States Air Force Academy. And about a year ago or so 
we were walking to an event and I said, ``You know, who would 
have thunk that the class geek and the class clown would end up 
running the Air Force?'' I will let you figure out who the geek 
is.
    With respect to the 130, you are correct that we have some 
of the specialized 130s in there where we are doing some recap. 
But we just did not have the budget and the funds available to 
continue to do that in this year's budget.
    And I don't know, Chief, do you want to add something?
    General Goldfein. Yes, sir.
    You know, following the tragic accident on the C-130, 
Marine C-130, we identified propeller issues. And so we have 
replaced all of the pre-1971 propellers. We are now going 
through--to get to your propulsion questions--we are looking at 
a new propeller for all of the C-130Hs, and also looking at the 
propulsion systems for the C-130.
    You know, the C-130, we are running out of letters in the 
alphabet for that weapon system, because it has just been an 
incredible workhorse. As the deployed commander in Central 
Command for 2 years, I never had to tell one of my soldier, 
sailor, airman, Marine Corps buddies no when it came to 
delivering supplies and equipment, because it was the C-130 
that made it happen.

                             PILOT SHORTAGE

    Mr. Womack. There was a question about pilots a minute ago. 
And I know that incentives are--the bonus piece is just part of 
the incentive package.
    What else can we do? What do we have left in our toolbox to 
be able to help with the shortage, maintain these folks in our 
forces? Because we invest a lot of money and time in them. Do 
you have recommendations on what more we can do?
    General Goldfein. Sir, I can't tell you the importance of 
the on-time appropriation for us to be able to plan ahead. You 
know, when I was the air component commander for 2 years 
forward and I would go out and I would talk to airmen and they 
would ask--you know, they would ask the question, ``Hey, sir, 
can you tell us again exactly what are we doing here?''
    And I had my mini speech. I could talk to them. I could 
tell them about being standing outside the Pentagon on 9/11 and 
seeing the airplane hit. But then the question would come to me 
and say, ``Well, why are you the only one talking about it? Why 
isn't everybody else talking about it back home?''
    And so the commitment to the resources to ensure that we 
can plan ahead is as important as anything else we do.
    Secretary Wilson. Sir, I would just add one thing to that, 
and that is we have got a national shortage of pilots. And the 
reason the airlines are coming to us is because we are a source 
of well-trained airmen.
    It is really hard for a young kid in Arkansas or South 
Dakota or Texas to want to become a pilot and to make the 
number of hours that are now required by statute in order to 
get signed on with a regional airline. Yet, the Air Force is 
experimenting with ways to improve the quality and safety of 
aircrew that is not about sitting in the right seat beating 
around a traffic pattern.
    I think the Congress might start to look at what are the 
better ways to train pilots for the civilian airlines that is 
not just about time and it is about skill development. We are 
really focused on skill development.
    And the way you get on with a regional airline now is you 
go to Auburn or you go to Embry-Riddle or you go to University 
of North Dakota and you start through. And then you become an 
instructor pilot, and you literally sit in the right seat of a 
Cessna 172 teaching young people how to go around a pattern.
    That is not quality training. That is not going to make 
them safer as a regional jet pilot. We need to get to a place 
where we are improving safety and competence and not just 
counting hours until somebody can sign on with a regional 
airline. That number right now is 1,500 hours, and it is just 
not realistic.

                             BUDGET PROCESS

    Mr. Womack. And, Mr. Chairman, the last few seconds of my 
time here, let me just say this, kind of an apology to the 
Secretary and to the Chief, because of Congress' inability to 
do its work on time.
    And here we are deja vu all over again. I expect that maybe 
this year we are going to go right back into that pattern of 
waiting until the last minute to do something. And how awful it 
is for these planners and these leaders to be trying to make 
critical decisions about national security all the while 
Congress is up here--I don't want to be too harsh on us, but I 
am not sure we can be too harsh on ourselves.
    Last year I spent an entire year of my life working on 
budget process reform, as everybody knows, that we got pretty 
close to a finish line and had a product that I think that 
would have helped. It wouldn't have been the perfect solution. 
And I know I am preaching to the choir.
    We have to fix this issue. If we don't do anything else, we 
have got to give these people an opportunity to better plan. As 
General Goldfein has just said, if we don't give a budget on 
time, look at what it does to the morale of the men and women 
that are putting their hands up voluntarily and saying, ``I 
will go.''
    So anyway, thanks for indulging me. I will get off my high 
horse on it and beg and plead with my colleagues to look for 
solutions to this problem.
    I yield back.
    Mr. Visclosky. I would agree with you, Mr. Womack. As a 
matter of fact, our former chair, Ms. Granger, and I had a 
brief conversation about that very issue before we started this 
hearing. It is not the committee, as we all know, and someday 
we will get over this fever.
    What I do disagree with you on, though, is the suggestion 
that the academy rolled the dice on these two individuals. I 
mean, you could just see the talent when they walked in that 
room, right?
    General Goldfein. Sir, can I just offer that we did start 
together. One of us graduated in 4 years, went on to be a 
Rhodes Scholar and a Congresswoman. One of us didn't.
    Mr. Visclosky. I will now recognize Mr. Cuellar.
    Thank you, General.

                           TRACKING INVENTORY

    Mr. Cuellar. Thank you again for your service.
    Let me just ask you, the Department of Defense Office of 
Inspector General, as you know, found some issues, and I say, 
quote: ``Pentagon officials failed to implement procedures and 
failed to appoint and hold officials responsible to account for 
and manage government property for 16 years.'' One of the Air 
Force programs, I think they found $2.1 billion worth of parts 
that are unaccounted for.
    I guess my question is, if this report is correct, how can 
the Air Force not account for $2.1 billion worth of parts and 
materials? And was the contractor, was he responsible to track 
the inventory of those parts? And, if so, do you all plan to 
hold the contractor accountable for the failure to track that 
inventory? Or that contractor was not on contract for inventory 
management, then did the Air Force mismanage this part of the 
program for such a long time?
    I am just trying to understand $2.1 billion. I mean, that 
should concern all of us. I can think of so many things we can 
do with $2.1 billion if that report is correct.
    Secretary Wilson. First of all, I get all of the IG 
reports, and we track corrective actions and closure of IG 
reports. If I remember, the report that you are talking about 
is the one that is talking about government-provided equipment 
to a contractor.
    So there are circumstances where we have somebody who is 
building an airplane or building a piece of ground equipment, 
and there is a piece of government-provided equipment that goes 
into that. It is really, the way I read that report, it was 
about proper tracking and auditing of government-provided 
equipment, and I thought it was a legitimate concern.
    We have now gone through our first year of a full audit. 
And audits to me are a tool to identify weaknesses and where 
you need to get better. The auditors, which for us are Ernst & 
Young, identified 347 weaknesses. We have corrective action 
plans either done or in development for all of those 
weaknesses, and every month we track whether we are on track to 
close and fix those problems identified.
    So, to me, that is a process of continuous improvement. IG 
reports or audit reports are ways to identify where you need to 
improve. And to put it in perspective, I mean, there are a lot 
of things where we will work with a contractor and give them 
part of a piece of equipment to put into a larger system. The 
problem was there was not the proper receipts and 
accountability for that, and that is a legitimate criticism.
    Mr. Cuellar. So is $2.1 billion something we can at least 
follow up on?
    Secretary Wilson. Absolutely, sir. And in each of those 
cases--and in that case particularly--there is a required 
closure plan. And one of the things I found when I came here 
was that there were IG reports, but there weren't corrective 
action plans. And we have set a standard to say, we want 90 
percent of them done within 18 months of the findings.
    Mr. Cuellar. And I know you are going to El Paso soon, but 
could you, before you leave, can you have somebody follow up 
with the committee?
    Secretary Wilson. Yes, sir.
    Mr. Cuellar. I mean, if it was $2.1 thousand, it is still a 
lot of money. If it was $2.1 million, that would still be a lot 
of money. But billions of dollars is just--I mean, it is hard 
to even----
    Secretary Wilson. I don't think that they found that the 
equipment was missing. It was that there were not proper 
controls and accountability for the receipts and tracking of 
those pieces of equipment as they went through, in this case, 
probably a manufacturing line.
    Mr. Cuellar. ``Unaccounted for'' I think is the term they 
used. Anyway, can you send us something on that?
    Secretary Wilson. Absolutely, sir.

                      DOG TRAINING AND MANAGEMENT

    Mr. Cuellar. If I can have the staff, if we can follow up 
on that.
    And then the last thing, real quickly. Last time we were at 
Lackland Air Force Base, if you recall, we saw the--as you 
know, Lackland is the home for the Military Working Dogs 
program, and we saw some of those little puppies. They are soon 
going to be more ferocious puppies when they grow up a little 
bit.
    But one of the things we saw there is that the Air Force 
and TSA, because TSA also has a training there, that they are 
not working together on dog training and management. In fact, I 
have to run over to another committee where the TSA person is 
there also, so I want to ask him.
    But can you follow up with them and see if TSA is willing 
to work with you all? I think the Air Force wants to use TSA-
owned training facilities and kennels. And if there is a way we 
can use taxpayers' dollars where they can allow you to do that, 
I think that would provide some efficiencies. So I know I am 
going to go talk to the TSA director right now, but if you all 
can follow up, that would be good also.
    Secretary Wilson. Yes, sir, happy to.
    Mr. Cuellar. Thank you. And, again, I look forward to 
working with you. I used to chair the budget for higher ed in 
Texas. We can follow up on tuition revenue bonds and other 
Texas dollars, I would be happy to work with you on that.
    And thank you again for both of you all. Thank you for your 
service, working with you, Madam Secretary.
    Secretary Wilson. Yes, sir.
    Mr. Visclosky. Judge Carter.

                              HYPERSONICS

    Mr. Carter. Thank you, Mr. Chairman.
    And welcome to both of you. Very proud to have both of you 
here with us.
    Madam Secretary, you are going to be missed. I happen to 
have toured the fine institution you are taking charge of just 
very recently when I was out at El Paso. I was with a former 
football player who happens to be my chief of staff who played 
football for UTEP. And by the way, he was a good one.
    Anyway, we went around the campus and he showed me all the 
things that were new just since he got out, and he got out in 
the early part of this century. And he mentioned that the 
person who is the president had been there forever and that she 
was leaving.
    And now I know you are taking the position of somebody that 
has become a legend there on that campus, and you are the 
perfect person for that. You are one of the most competent 
people I have ever known. I am sure that university is going to 
be in great hands. And even though you are taking the place of 
someone that is a legend, you will be a legend, too. So thank 
you for being with us.
    Now, let's talk about hypersonics again. I want to follow 
up a little bit. Dutch and I are both interested in this a lot 
and mainly because we feel like we are behind. And it is 
interesting that you have got the ARRW and the HCSW, and it has 
been accelerated. That is good news.
    Testing is going to be accelerated to where we say we have 
got a product we can work with. But then what is the Air 
Force's plan to transition successful hypersonic prototyping 
efforts to programs of record? And can these weapons be 
affordably manufactured and scaled? Because the real world is 
we got to fight people with these things. Do you have any 
information or any insight on that?
    Secretary Wilson. Congressman, let me get back to you and 
lay out for you the plan that we have and what is in the budget 
in the 5-year plan. We have accelerated the design in testing 
well inside the 5-year plan, which is new.
    And honestly, one of the challenges of the new authorities 
you have given us is that it is changing the way we budget 
things, because we are not just peanut butter spreading things 
out over a 12- or 15-year timeline. We are moving very quickly 
to get and test the capability, and it changes the way we have 
to do our budgeting. It is a challenge.
    Mr. Carter. One of the things the director of Operational 
Test and Evaluations said, as well as the Air Force Assistant 
Secretary of Acquisition, pointed out the unique challenges 
posed by testing hypersonic weapons, particularly the open air 
testing needed to ensure these weapons could perform in 
realistic environments.
    Does the Air Force have a plan to ensure these weapons are 
tested rigorously before being declared successful and put into 
production?
    General Goldfein. We do, sir. And without going into 
classified----
    Mr. Carter. I understand.
    General Goldfein [continuing]. I was just at Air Force 
Research Labs. I was looking at some of the testing they are 
doing there.
    And I think, if we could, can I commit to come by and 
talking to you, perhaps on a classified level, to walk you 
through where we are going relative to testing in a realistic 
environment, which is what I think you are driving at?
    Mr. Carter. I would love to do that. And when we do, give 
me a heads-up and I will include my friend Mr. Ruppersberger.
    General Goldfein. Yes, sir.
    Mr. Carter. Thank you.
    Mr. Visclosky. Mrs. Kirkpatrick.

                     IMPACT OF BORDER WALL TRANSFER

    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    My question, Secretary, has to do with the border wall 
transfer. If that happens, what will be the impact on the Air 
Force needs?
    And specifically, I understand that the Air Force needs to 
reprogram funds in order to fulfill must pay operation and 
maintenance bills for fiscal year 2019, such as the Secretary 
of Defense's mandate to increase readiness rates for fighter 
aircraft, as well as the bills for immediate recovery from last 
year's storms, which you mentioned.
    The defense appropriation bill caps the amount of transfers 
between accounts at $4 billion for base funding and $2 billion 
for OCO. I am concerned that if the DOD uses up a large amount 
of this transfer authority to fund the supposed emergency on 
the border, this will necessarily endanger your ability to meet 
yourunforeseen needs. Can you address that for me?
    Secretary Wilson. Congresswoman, I think some of it will 
depend on what categories the funds come from and move from. 
But you are correct that we do need to do some reprogramming 
this year. But more urgently is the need for the supplemental 
to recover from the storms.
    Hurricane Michael hit on the 11th of October and just 
smashed Tyndall right in the teeth. And we expect in just 
fiscal year 2019 operations and maintenance, as well as what we 
call FSRM facilities, it is kind of rehab money, for Tyndall is 
about $750 million. Our initial estimate on Offutt is $350 
million just in fiscal year 2019.
    And military construction, we won't be able to get any 
military construction out of the ground at Tyndall, but just 
the planning funds at Tyndall is about $150 million, and that 
is for just fiscal year 2019 money.
    Without those funds, we are going to have to take that out 
of other places in the Air Force. And by middle of May, we are 
going to have to start slowing down aircraft repairs, we are 
probably going to have to stop recovery at Tyndall and slow 
things down there, because we are cash flowing this out of 
other accounts in the Air Force. It is a significant issue.

                           DISASTER RECOVERY

    Mrs. Kirkpatrick. How long do you think that recovery is 
going to last?
    Secretary Wilson. I think that the recovery at Tyndall, 
much like Keesler, which had a similar event, Keesler took 3 to 
5 years for the full recovery. And at Tyndall we had a couple 
of buildings that weren't damaged at all, including the 
headquarters, Air Operations Center there. But we had several 
buildings that were really significantly damaged, and 95 
percent of the buildings had some damage.
    So the idea of doing the construction over a 3- to 5-year 
period is reasonable. The thing that we did decide to do, 
though, was to rebuild it as a robust F-35 base as well as the 
testing that we do there.
    Mrs. Kirkpatrick. Thank you.
    I yield back, Mr. Chairman.
    General Goldfein. Ma'am, could I just offer that Marines 
are in the same situation we are with Camp Lejeune. They had a 
storm that hit them hard as well. So the supplemental, we are 
hoping that it will include Tyndall, Offutt, and Camp Lejeune.
    Mrs. Kirkpatrick. Okay. Thank you. I yield.
    Mr. Visclosky. Mr. Diaz-Balart.

                           F-15 EXS VS F-35S

    Mr. Diaz-Balart. Thank you very much, Mr. Chairman.
    General, what a privilege to have you here, and thank you 
for your service to the Nation. And you are at a bit of a 
disadvantage because those of us that served with the Secretary 
in the House and got to know her and then have continued to 
work with her know that, frankly, if there is a tougher, a 
smarter, a person with more integrity anywhere in this planet, 
frankly, I haven't met her.
    So it is a privilege, Madam Secretary, to be your friend 
and to serve with you. So thank you for your service as well.
    We talked a little bit--about a couple times about, you 
know, the fact that we are now dealing with the potential of a 
contested airspace, and with, you know, close-to-equal peers. 
And so--but according to the Air Force posture statement, the 
Air Force, again, we need to evolve to incorporate advanced 
technology, and obviously to deal with cutting-edge--those 
cutting-edge capabilities.
    But we have been hearing about this purchasing of F-15EXs, 
again, with no stealth capability. Basically 70 percent of the 
technology is from the 1980s. It would seem to me, from all the 
numbers that I have seen--and I am, you know, I don't--just the 
math will bear it out that if we go to the F-15s, our 
conversion timeline to the fifth generation, which is crucial, 
will be dramatically slowed down.
    And so, I would just like to hear your comments because, 
you know--and I have yet to speak to an air person, an airmen 
who tells me that they would rather be in an F-15 than an F-35. 
When you look at--because it is not like you just buy the F-15 
then continue to buy the F-35s. Something has got to give, and 
it seems to me that the big loser is the fact that our timeline 
to convert to the fifth generation Air Force is dramatically 
hurt. So am I wrong there, and if so, where?
    General Goldfein. Now, sir, let me walk you through, if you 
could, the logic that we used. First of all, you won't find a 
stronger proponent for the F-35 than this chief of staff at the 
Air Force, because it is not only a game changer, but it is the 
quarterback of a significant investment that we are making in 
penetrating capability.
    Sometimes we are guilty of putting charts together that 
show big red domes over, you know, enemy territory like we 
can't get in. No country can put a big red dome over 
themselves. The best thing they can do is put up a block of 
Swiss cheese, because there is holes there and it is our jobs 
to know where they are and get in and exploit them.
    The F-35 is part of that penetrating team that we are 
investing. And you will see over $135 billion in the Air Force 
budget over the FYDP in penetrating capability, which is F-35, 
F-22, B-21, X-37, RQ-170. It also--it works with the Navy and 
the Army as well. So this is about being able to penetrate and 
persist inside of enemy airspace, and we cannot back off the F-
35, and we have not.
    The challenge we find ourselves in is that we need capacity 
to be able to do all the missions I outline in my opening 
statement. And we have four fourth-generation aircraft that 
have to fly into the 2030s to give us capacity, F-15E, F-16, A-
10, and F-15C. One of them is not going to make it. It is the 
F-15C.
    And so, we find ourselves in a situation where we have to 
build capacity as we go from our 20/80 percent mix today, 20 
percent fifth gen, 40--or 80 percent fourth gen, to a reverse 
of this by 2040. Because we want to get to 80 percent fifth gen 
and 20 percent fourth gen, but the F-15C is not going to make 
it.
    So when we looked at the cost analysis, and looked at how 
we could--how could we, on top of a program of record, that we 
don't back an inch away from with the F-35, how do we place 
those F-15Cs? An F-15 variant to replace an F-15 allows you to 
have the same support equipment, same hangars, same base, same 
maintainers, same operators, minimal transition costs, and we 
don't lose the time associated with that.
    It also helps us to get at our target, which is 72 aircraft 
a year, which is what we need to be able to drive aircraft aged 
from its current 28 average years to 15, to which--what we 
think we can manage by about 2040 timeframe. So the F-15C is 
about capacity. We are not taking a dime out of the F-35, nor 
would we, to buy F-15s, but we have got to fulfill this 
capacity shortfall with the F-15C.
    Mr. Diaz-Balart. And, General, I would like to--because I 
then--because what I have seen, and I am--obviously maybe 
wrong, is the fact that I don't see how, mathematically, you 
can do them both, the F-35 and the F-15. Because, again, you 
know, we are dealing with limited amount of money, and so I 
just--again, I would like to see how you get to, you know, the 
80/20 as quick as possible.
    And it would seem to me that if there is a capacity of 
purchasing more F-35s, they can build them, that we, in 
essence, should be pursuing that. And, again, I would like to 
continue that conversation, because I am not convinced that 
purchasing--again, great airplane, obviously, the F-15, but it 
is old technology.
    General Goldfein. Certainly.
    Mr. Diaz-Balart. It is antiquated technology, particularly 
if we are dealing with, you know, China and Russia as potential 
adversaries. And so, I would like to follow up with that, Mr. 
Chairman.
    Mr. Visclosky. Mr. Crist.

                            MILITARY HOUSING

    Mr. Crist. Thank you, Mr. Chairman.
    Secretary, as you know, we have a mold problem with our 
military housing in many parts of the country, including at 
MacDill Air Force Base just outside of my district. I know you 
toured MacDill recently to inspect the situation and meet with 
some of the families affected, for which I am very appreciative 
that you took the time to do that.
    Can you talk a little bit about how we ended up here, what 
actions you are taking to correct the situation and keep it 
from repeating itself? And also, what authorities or support 
from our committee and Congress you might need to hold bad 
actors accountable and protect our servicemembers and their 
families?
    Secretary Wilson. Certainly, Congressman. We--in the wake 
of the hearing that was held in the Senate and the concerns 
expressed about military housing, we directed a 100 percent 
review of all Air Force housing, and by the chain of command.
    So, in some cases, it was in person. In some cases, if 
somebody said, you know, my house is fine, you know, first, 
sir, I really don't want you coming. It was--but we did--we 
were able to do 100 percent review of that housing. We thought 
that was important.
    We also asked our inspector general to look at our system 
of how we are managing this, and do people understand what 
their responsibilities and authorities are with respect to 
housing, and make some recommendations to us. We have just 
gotten those recommendations, and they will be coming up to the 
Hill to brief the committees and so forth before we move 
forward on the content there.
    One of the things that we have proposed, and it is jointly 
with all three service secretaries, is a tenant's Bill of 
Rights to make it really clear what rights the tenants have. I 
believe that we have sent a copy of that up to each of the 
oversight committees--it is in draft form--asking for your 
feedback. And we would encourage your feedback before we try to 
go forward and negotiate this Bill of Rights with the 
contractors that run our housing for us.
    And finally, the one thing that we have found that was 
really clear to me at MacDill and other places is a lack of 
clarity on who is responsible for what. So what is the civil 
engineering squadron responsible for? What is the base 
commander responsible for? When you have active engaged 
leadership, you usually have fewer problems. And that is true 
on the company side, as well as on the Air Force leadership 
side.
    And the final thing I will say is this: The thing that 
bothered me most or concerned me most about the hearing and the 
testimony with airmen and their families was what appeared to 
me to be a breakdown in trust, that some airmen seemed to be 
afraid that if they complained, they would be punished. That is 
a trust issue with leadership.
    And the chief and I are absolutely committed to trying to 
rebuild that trust that people have with their leadership, that 
if they have a problem, they can raise that problem with their 
chain of command and they will be taken seriously and helped.
    General Goldfein. And I would just add, there is also trust 
to the American people and the parents of airmen, because they 
have shared with us and expect us to take care of them.
    Mr. Crist. Yes, sir.
    General Goldfein. And we have got to do it.

                             KC-46 PROGRAM

    Mr. Crist. Right. Well, thank you. Thank you both very 
much.
    I wanted to shift to the issue of the refueling tanker 
program. As you know, refueling aircraft include the KC-46, KC-
135, and the KC-10, support our overseas operations, and are a 
key component of our force readiness.
    Just today, I heard you are, once again, halting the KC-46 
deliveries. I am concerned by the delays and the problems with 
the KC-46 program, issues with maintaining the KC-135 fleet, 
and what this means for Air Force Mobility Command and the 
refueling wings around the world, including the 6th Air 
Mobility Wing at MacDill Air Force Base.
    Can you update us on the short-term and long-term plans for 
our refueling fleet?
    Secretary Wilson. I will defer to the chief on a couple of 
the plans, but let me just explain what happened most recently 
with the KC-46. We started accepting the KC-46, taking them off 
the line in Everett, Washington. They are coming down into 
the--into their first bases and starting to train crews.
    We did have a report from our--from the Defense Audit 
Agency, the folks who were out there looking at the 
manufacturing lines that there was foreign object debris in 
some of the aircraft. We then went out, we did deeper dives and 
inspections.
    And that is a manufacturing discipline issue on the line 
that you can't leave--you know, if you drop a wrench, you have 
to find the wrench. You have to wipe down surfaces so you don't 
have small pieces of aluminum that over time, get in the midst 
of things and cause serious problems in aircraft. It is 
manufacturing discipline, and we saw a breakdown there. We are 
working with Boeing on it. The most recent issue was we opened 
up some closed compartments like, you know, in the compartments 
inside wings to see if those had been inspected and wiped down.
    They were better than some of the open areas, but they 
weren't what we would expect. We expect excellence in the 
manufacture of our aircraft, and we are working with Boeing on 
corrective action plans to get what we are--what we expect.
    General Goldfein. And, sir, I would just offer quickly that 
I went out and I flew that airplane and put it through the 
ringer out there. And now, when I was looking at it, I was 
looking at four things: Number one, how well does it fly? 
Number two, how well does it communicate? Number three, how 
well does it defend itself? And then the four, how does it--how 
well does it perform in the business of tanking, having been on 
the receiving end for most of my flying career and having been 
pulled out by some really courageous tanker crews?
    What I saw was, and as you might imagine, I think you 
should expect this, the Secretary and I are pretty tough 
customers. And what we did find was some deficiencies in the 
remote visual system that is being used. I think eventually, it 
is going to be a great system, but we would--we refuse to 
accept the airplane until Boeing, the company, agreed to fix 
that system to specifications, which they did.
    And so as we go forward, we are going to continue to be 
tough customers and hold them to account. But I can tell you 
that everything I saw in that airplane indicates to me, as the 
chief, that that is going to be a spectacular weapon system for 
us.
    Mr. Crist. Yes, sir. Thank you.
    Thank you both very much. Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Aderholt.

                             STP-2 MISSION

    Mr. Aderholt. Thank you, Mr. Chairman.
    And good to have both of you here today. And I think all of 
us who served with the Secretary were very proud of our time to 
serve in the House with her, and we look forward to following 
her career as she continues on, but to welcome both of you here 
today.
    I want to ask about the STP-2 mission. It is my 
understanding that it is an example of how the sticker prices 
offered in the commercial world are not what the U.S. taxpayer 
always pays when those rockets are used for government 
admissions.
    I was hoping maybe you could tell us the total price that 
the Air Force agreed to pay for the STP-2 mission, and, you 
know, do you have that number there offhand?
    Secretary Wilson. I don't have the number per mission. I 
do--I can tell you that the unit cost of launch has gone down 
24 percent since 2012, so the cost per pound basically. And a 
couple of reasons for that, competition works, and, also, 
advances in technology.
    Mr. Aderholt. And the reason I ask that is because I 
understand that after paying half or more of that price back in 
2012, whatever the price was, that actually, having to wait 
until there is a Saudi Arabian satellite launch before we can 
get it, is there----
    Secretary Wilson. Sir, I am going to have to get back to 
you on that.

                 LAUNCH SERVICE PROCUREMENT COMPETITION

    Mr. Aderholt. Okay. All right. Yeah, if you could get back 
with some of that, it would be helpful. The--because it was my 
understanding that we are having to wait until after a Saudi 
Arabian satellite launch before we can--before the Air Force 
can move forward on that, so I would be curious to know.
    Let me move on about the launch service procurement 
competition. At least I understand that the next round in our 
launch contract competition will be that, and previously launch 
providers won awards in the tens of millions from the rocket 
propulsion system accounts.
    Also, it is my understanding that any provider with launch 
vehicles which are already certified can enter this 
competition, even if the provider did not win one of the launch 
service agreement development awards, which were awarded in 
October. Is that correct?
    Secretary Wilson. Yes, sir, that is correct.
    Mr. Aderholt. And it seems to me that the launch service 
procurement competition and the launch service agreements 
process of down-selecting to two providers needs to continue on 
schedule in order to secure the early work, which is part of 
the--each national security launch mission.
    What potential harm would be done to the national security 
if there are further delays in the launch service procurement 
competition, including our desire to finally transition off the 
Russian propulsion?
    Secretary Wilson. Congressman, let me talk a little bit 
about launch. It is one of the missions we do in space. You 
know, most of the missions that we talk about are the ones that 
are coming off satellites, but one of the other things the Air 
Force does is handle launch.
    We no longer build rockets. We buy launches. But as the 
members of this committee know, there was a point in our 
history not so long ago where we were losing the ability to 
have assured access to space, because for very heavy launches, 
the government is really the only buyer.
    And so, we had to come up with a strategy to continue to be 
able to have assured access to space, which was defined by 
Congress as having at least two providers, and to stop using 
the Russian RD-180 engine by 2022. So that is the goal set for 
us by statute to get beyond the Russian engine by 2022.
    The heavy lift is our most competitive and our most 
difficult problem, and we need to get this RFP out, we think by 
April, in order to make a decision in 2020 and then get beyond 
the Russian engine by 2022.
    So it is an open competition, but the timeline is driven by 
the desire from a policy level, and from the Congress, that you 
have directed us to get beyond the Russian engine by 2022.
    Mr. Aderholt. Okay. And just one last question. Why is it 
important that candidates who are providing for these launch 
services be willing to commit to servicing all of the nine 
reference orbits?
    Secretary Wilson. The reason is because there is a lot of 
competition for the low-Earth orbit constellations. But in 
the--for heavy launch into higher orbit, takes a much larger 
rocket. And so--and there is really not--at least not at this 
point--a commercial use for those rockets.
    So the way the approach that the Air Force has taken is to 
say, Look, we need any of the providers to us to be able to 
cover the entire family of systems. We need to have assured 
access to space to all orbits, and we really can't let 
companies pick and choose, because we will never get someone to 
do competitively those heavy launches.
    General Goldfein. Sir, can I just offer that I think it is 
really important for us to remember that we almost launch in 
the 1990s. We had a series of spectacular failures in the 
1990s, and therein lies what came together was the--that 
unified the Launch Alliance.
    And since that timeframe of them coming together, we are 76 
for 76, 100 percent successful launches. So this is also about 
making sure that assured access to space is also making sure 
that we can properly certify these companies to be able to 
deliver very exquisite payload.
    Mr. Aderholt. Thank you.
    Thank you, Mr. Chairman.

                     NUCLEAR MODERNIZATION PROGRAM

    Mr. Visclosky. Thank you very much.
    The chair would ask a question at this point in time about 
the nuclear modernization program. I have a couple. My 
understanding is the Congressional Budget Office has an 
estimate that the total enterprise would be about $494 billion, 
a significant sum of money. Some would suggest as a portion of 
the Department's budget over 10 years, it is not that large. I 
would disagree with that assertion, and I am not suggesting you 
support it.
    But the reality is, these costs are borne 
disproportionately by a relatively small subset of the Navy and 
Air Force acquisition accounts. For the Air Force also, the 
peak of these costs are going to be overlapping to a degree 
when you have this bow wave for aircraft replacement.
    Do you have confidence as far as the CBO estimate and the 
ability of the Department, General, to work the modernization 
program in, as well as making sure we have the appropriate 
aircraft? I mean, it is a tough slog for you. I understand 
that. Could you explain that to the committee?
    General Goldfein. Sir, I will tell you that right now, the 
recap and modernization of each leg of the triad and the 
nuclear command and control is on a just-in-time portfolio, 
just in time in terms of when we absolutely need it. General 
Hyten testified to that a little bit earlier this week as the 
STRATCOM commander.
    If you look at the threat that we face, Russia just 
completed their modernization of their triad this year. And if 
you look at what they are saying publicly, and read what the 
Chief of Defense is saying, they talk openly about inserting 
and--inserting nuclear weapons into a campaign, because they 
know they cannot defeat us and certainly can't defeat NATO 
conventionally.
    So our modernization and recap of the triad is just in time 
because in--certainly in the missile leg, key parts of that 
program expire right about the time that we bring on the new 
ground-based strategic deterrent to replace it.
    So I would never, as a--from a warfighting perspective, 
ever advise that we would unilaterally either disarm, or not 
proceed forward with the nuclear recap modernization the way it 
is laid out coming out of the Nuclear Posture Review in the 
budget that we put forward. And what you will see is that we 
have fully funded our portions, which is the missile leg, the 
bomber leg, the long-range standoff missile, and our portions 
of the nuclear command and control.
    Mr. Visclosky. If I could ask a follow-up question, and 
obviously, over a decade-long program, costs are going to 
change through no one's fault or problem. But the Pentagon's 
Cost Assessment and Program Evaluation Office had a range for 
the ground-based strategic deterrent.
    And my understanding is the Department is proceeding on the 
low end of that, but that the Air Force's estimate originally 
was lower. There is a new assessment, as I understand it, as to 
what the cost will be for that portion of the triad. Do you 
know when that estimate is going to be completed, and do you 
have any sense of where it is going to come down, Madam 
Secretary?
    Secretary Wilson. Mr. Chairman, I don't have a sense of 
when it is going to be completed, but we can find that out for 
you.
    Mr. Visclosky. Okay. That answers that question.
    Mr. Calvert.

                         HEAVY LAUNCH VEHICLES

    Mr. Calvert. Thank you, Mr. Chairman.
    Since that discussion on launch capability was taking 
place, you mentioned that heavy launches--the only customer is 
the government for that. In order to have assured access to 
space for those important payloads, wouldn't it make sense for 
the government to pay for the certification costs for heavy-
launch vehicles and make sure that we have that capability?
    Secretary Wilson. Congressman, we have taken an acquisition 
approach that helps these companies to get to where they need 
to go with respect to developing the technology. We down-
selected from four to three this last year, and are moving 
forward with those.
    As for, you know, different parts of this that we might pay 
for, I would hate to go down that road, because right now, we 
have been asked, Well, should we just keep all four going? The 
answer is, we got--the funds that you put there for us are 
committed to the three successful bidders at this point.
    Mr. Calvert. And what happens if only one of those three 
are capable of doing heavy launch?
    Secretary Wilson. We are required to have two sources of 
supply in order to have assured access to orbit.
    Mr. Calvert. And the one that isn't--wasn't selected to 
have any resources directed there, would they commit to bid for 
that work?
    Secretary Wilson. They are not required to bid for that 
work, but it is an open competition for the next phase.
    Mr. Calvert. Thank you.
    Mr. Visclosky. Mr. Aguilar.

                             PFAS AND PFOA

    Mr. Aguilar. Thank you, Mr. Chairman.
    Thank you, General and Secretary.
    Secretary, we wish you the best in your future endeavors as 
well. Madam Secretary, I am going to ask a question out of--
over my skis because it is related to New Mexico, and I know 
that this is something that you have been working on. Air Force 
site inspections have shown contamination levels for the 
groundwater below Holloman Air Force Base in New Mexico are 
18,000 times higher than what is considered safe by the Federal 
Government.
    Evidence also shows that contamination levels at Cannon Air 
Force Base are also extraordinarily high. And yet, in February, 
the State of New Mexico had to issue a notice of violation 
against the Air Force due to lack of quick response by the Air 
Force.
    What is the reason for the delayed response? I know weeks 
ago, you also had a call with the congressional delegation. Can 
you give us an update on what is going on in New Mexico, and 
how do we resolve this urgent matter?
    Secretary Wilson. What we are talking about, the 
contaminant is PFAS and PFOA.
    Mr. Visclosky. Madam Secretary, if you could defer, I 
didn't understand the gentleman's question.
    Mr. Aguilar. I asked for what is going on with this issue 
related to the contamination in New Mexico at the Air Force----
    Mr. Visclosky. Oh, I am sorry. Go ahead. I am sorry.
    Secretary Wilson. The contamination we are talking about is 
PFAS and PFOA. Many of you have it in your districts or in your 
States. It is a chemical that was used in firefighting foam. 
The EPA came out with it as a potential contaminant. At the 
time that we were using it, we were using it according to 
directions. It was not considered to be a contaminant.
    They have listed it as an emerging contaminant. The Air 
Force and the other services immediately went out and assessed, 
All right, where do we have this? Has there been any impact on 
the ground or the groundwater? We replaced 100 percent of our 
firefighting foam. We assessed 297 different installations, and 
did detailed site inspections of 110 installations.
    Our first priority is to make sure that there is safe 
drinking water, and we have got 21 locations where we have 
provided alternative water supplies. One of our challenges--and 
so where we have found problems, we have also started the 
planning, and, in some cases, implementation to prevent any 
further problem or migration of the material, and then 
remediation.
    One of the problems is there is no set standard yet for 
cleanup; what does clean mean and what is it in terms of parts 
per million? That standard is not set by the military. That is 
set by the EPA.
    One of the other challenges and problems is that we can 
provide clean drinking water for human consumption. We can also 
take action to prevent further migration of a plume, but we 
cannot, under current law, provide, for example, remediation 
for agricultural purposes.
    So this is a--and the final thing I would say is, this is 
not just a military problem. We know about our problem, because 
we were proactive and we went out and found it, because we knew 
we used this chemical and we went out and assessed every one of 
our sites.
    Less than 4 percent of this chemical was sold for 
firefighting foam. It is used in waterproofing on shoes. It is 
used on the wrappers for fast food. It is used in Teflon-coated 
pans. So it is used very widely, and 96 percent of it is used 
for industrial and consumer goods uses that haven't even 
assessed where the problem is.
    So this is a national problem. The EPA has not set cleanup 
standards yet. The Air Force has moved forward aggressively 
where we know we have it to provide clean drinking water, to do 
the assessments, and to start both the remediation and the 
stopping the migration of the plume where we found it.
    Mr. Aguilar. What does future liability look like for 
remediation and cleanup?
    Secretary Wilson. It is very hard to say because we don't 
have a standard for cleanup.
    Ms. McCollum. Would the gentleman yield?
    Mr. Aguilar. I would, ma'am.
    Ms. McCollum. I am sorry.
    Mr. Visclosky. Go ahead.
    Ms. McCollum. So we--I have, in my congressional district, 
water units that are being treated to clean this up. So this is 
an issue that we have been working on in Minnesota in my 
congressional district for a while.
    The question I would put to the two of you, it was widely 
in the newspaper, and I asked this of Mr. Wheeler today, he was 
in front of my committee, there was reports that the DOD was 
looking to have some standards put in and have some standards 
put in lower. We do have standards that we are cleaning up 
water, too, for drinking levels that is being reviewed. It has 
been ratcheted up. It may come out that there are no safe 
levels.
    So to your knowledge, the reports that we were reading in 
the newspapers, is the Department of Defense actively pursuing 
with the EPA to set a standard and a standard that would bring 
some relief to the Department of Defense and----
    Secretary Wilson. We want a standard. And I think the 
Congress has also told the EPA that they need to move forward 
and set a standard. My view is that standard needs to be set 
based on science and a standard that applies to all.
    But I read the same article that you did in the paper. We 
aren't asking them to raise or lower their standard. We have--
it is not what we do. We don't do human health research. That 
is--the EPA has to tell us what is the standard to which--and 
that needs to be based on human health research. But that was a 
surprise to me in the paper, too.
    Ms. McCollum. Thank you. I thank the gentleman for 
yielding.
    We need to--there was, I heard, in the last omnibus bill, 
some people from industry looking to have a standard put in, 
which they were only responsible for cleanups to a certain 
point.
    And I think this is an adult conversation we all need to 
have in Congress about what to do, not only in the private 
sector, but in the public sector as we are dealing here as--if 
there turns out to be no safe standard, we have got a real 
issue with what has happened to a lot of our drinking water.
    With that, I thank the gentleman for yielding.
    And I am sorry to the chair if I jumped ahead of you.
    Mr. Visclosky. No.
    Mr. Aguilar. One last question, Madam Secretary. In spite 
of all of this, the fiscal year 2020 environmental restoration, 
no matter the standard, the fiscal year 2020 environmental 
restoration line item requests a $63 million reduction from 
fiscal year 2019 enacted levels of $365 million. So why 
recommend lower levels for environmental restoration within the 
budget, given all the uncertainty in the potential liability 
that we know?
    Secretary Wilson. The Air Force fiscal year 2020 budget is 
an increase from what we requested in 2019. You are correct 
that Congress enacted a higher level than was actually 
requested. I have asked our folks, and they say that the amount 
of money that we have in there is sufficient to be doing the 
things that we are doing with respect to--I think it is really 
frustrating for people that the pump-and-treat things take so 
long. That has been the nature of that kind of remediation. But 
my folks tell us that the money that is in the budget is 
sufficient to continue the cleanups that we have underway.
    Mr. Aguilar. Thank you.
    Thank you, Mr. Chairman.

                                  EPA

    Mr. Visclosky. Thank you.
    For the record, it is my understanding--and Ms. McCollum 
was correct, and the question was raised last week at a 
hearing--that the acting Secretary of Defense, in testimony at 
some point this week, was asked the same question and indicated 
the Department is not pressuring the EPA to have a lower 
standard. So I think we are all agreed on that.
    The--I would implore you, however, to pressure EPA. As a 
matter of fact, I testified before Chairwoman McCollum's 
subcommittee this week--last week to--on the issue of EPA 
coming up with the standard.
    If anybody has dealt with this problem over his life in 
Gary, Indiana, I have done this. You are absolutely right that 
this is a national problem, but we should deal with this. Mr. 
Calvert's referencing technology wherever that might be 
implemented and the committee is very, very concerned about 
this.
    The question I would have is my understanding is you have 
completed the 202, 203 preliminary site assessments. 189 
installations have been recommended for site inspection, which 
is the second step on the circle. Are you prohibiting taking 
that step until you have the EPA standard, or do you proceed 
with step two?
    Secretary Wilson. Sir, we are proceeding with step two on 
the detailed site assessments. And when we find that the 
contamination is higher than the parts per million in the 
recommended level, even though there is not a cleanup standard, 
we take action to provide water for people, and also to do the 
civil engineering assessments to make sure that it doesn't 
migrate, and figure out what we need to do to make sure it 
doesn't migrate.
    Mr. Visclosky. Okay. I appreciate the gentleman bringing it 
up, and I appreciate your response and do encourage you just--
we should address this because these take forever under the 
best of circumstances.
    I would recognize Mr. Kilmer. I believe we have the first 
vote.

                         UNMANNED AIR VEHICLES

    Mr. Kilmer. Thank you, Mr. Chair.
    And thanks for being with us.
    I know the Air Force research lab is working on fielding a 
prototype unmanned autonomous combat air vehicle with the 
ominous program name of SkyBorg, which, I think, is in line 
with my favorite 1980s action film. But I want to ask about 
these unmanned systems.
    It seems clear that China is enhancing its capabilities. It 
seems that our ability to sort of keep up with them will be 
exceedingly costly, and it seems like low-cost, unmanned air 
vehicles and other unmanned systems may be a viable strategy as 
a way of offsetting China's growing capabilities.
    I was hoping you could talk about these technologies and 
about the Air Force's investment in these technologies. Is it 
adequate? You know, maybe start there, and I may have some 
follow-up.
    Secretary Wilson. Let me start out and then I will ask the 
chief to fill in here. But the idea of having low-cost 
attritable systems where you don't try to build them to last 
for 20 years, and you accept that there is going to be some 
damage to them, or some loss is something the Air Force is 
experimenting with.
    And, you know, the experiment I think you referred to is, 
was one that was from our kind of Loyal Wingman program, where 
you would carry it in, or close to where you are trying to get 
to, and then let it off. And it is semiautonomous, if you will, 
so it is an interesting technology, and it is one that we want 
to push forward and keep experimenting with and potentially 
deploy.
    General Goldfein. Sir, I would just offer that the future 
of air superiority we have got to be able to do five things: We 
have got to--first of all, we have got to penetrate. Then once 
we have penetrated enemy defenses, we have to persist. Once we 
are penetrating and we are persisting, we have got to protect 
what is there, not only in the air, but also what is on the 
ground, at sea. We have got to protect what is inside of this 
enemy air space.
    And then we have got to proliferate. And we have got to 
punish, because we are in there to hold targets at risk. The 
proliferate piece, and I am going to keep this at an 
unclassified level, is somewhat what you are talking about 
here, which is how do we ensure that we--that as we come in, 
you know--I like to think that as part of the penetrating joint 
team, if our adversary was ever to see an F-35, which is highly 
unlikely, I would love to send him a two-word message: We are 
here. Not I am here. We are here. Because that F-35 has been 
designed to be able to be the quarterback inside of enemy 
airspace to call the audibles, to fuse information in a way 
that no other weapon system is designed to do. And a Loyal 
Wingman and unmanned attritable aircraft are going to be a key 
component of that future force.

                         NEW SERVICE TECHNOLOGY

    Mr. Kilmer. Maybe that is a good segue, because, General, 
last year you wrote an op-ed about winning in the multi-domain 
battle space. And you wrote, ``Whoever figures out how to 
quickly gather information in various domains and just as 
quickly direct military actions will have the decisive 
advantage in battle.''
    So it seems like coming out of that there is sort of two 
things we need to do well: One, optimizing our ability to 
collect information from all of the domains, air, sea, cyber, 
space, you name it; and then second, a way to process that 
information so that it is usable on the ground.
    Can you talk about what we are doing to achieve that goal? 
And am I right to assume that investments in AI and machine 
learning are part of that second piece of the equation? And can 
you talk about the investments that are being proposed in that 
regard?
    Secretary Wilson. I would start out and then pitch it over 
to the chief. We are about to come out with a new science and 
technology strategy that will be different from what the Air 
Force has done in the past. Instead of just listing a list of 
technologies, what it will encourage and guide the Air Force to 
do is to try to master speed, time, and complexity, and to 
identify place--not just follow where the adversary is going, 
but identify where they can't go and get there faster.
    On the complexity part of it, you are correct that the 
ability to ingest massive amounts of information, figure out 
what is going on, and give decision quality information to a 
commander that can make something else happen, is going to be 
part of the success and future of warfare.
    The exponential growth in knowledge, in information is 
something that we are going to be coping with. And if we master 
that and the ability to--for a sensor to decide what is 
important out on the edge rather than sending this massive 
quantity of data back, will enhance our ability to fight in a 
very complex environment.
    General Goldfein. Sir, what you just described--just to add 
to what the Secretary is saying--what you just described so 
well is exactly the story behind advanced battle management 
system.
    And when we came to this committee last year and argued for 
fundamentally changing the way we do battle management by 
moving from a platform-centric approach, which is what we were 
doing with Joint STARS and to an advanced battle management 
fusion of sensors, that was the most important dialogue, I 
would offer, we had as an Air Force.
    But it is the most important dialogue we had as a joint 
team, because this connection of all sensors to all shooters to 
be able to provide the decision quality information that we 
need to provide--to bring forces to bear on the adversary, 
probably in my mind, not probably--in my mind, it defines 
deterrence in the 21st century.
    Mr. Kilmer. Very good.
    Thank you, Chairman. I yield back.
    Mr. Visclosky. Thank you very much.
    Mrs. Bustos.

                        POTENTIAL REPROGRAMMINGS

    Mrs. Bustos. Thank you, Mr. Chairman.
    And thanks to both of you.
    Secretary Wilson, I am very happy about your new job for 
you, but sad that you are leaving us. I have really enjoyed 
getting to know you, and your staff has been absolutely 
wonderful for us to work with. I am a new member to this 
subcommittee.
    And, General, thank you for your service as well.
    I am going to make this hyper-local, which I like to do. We 
have talked about this before, but I represent Peoria, 
Illinois, and the Air National Guard base is there.
    In fiscal year 2019, Peoria's Air National Guard was 
awarded $9 million for a firehouse. And I have been assured by 
Assistant Secretary McMahon that projects expected to be 
awarded in fiscal year 2019 will not be considered for 
potential reprogramming under the President's emergency 
declaration.
    And so what I wanted to ask you is if you could commit to 
me that you or anyone in your command will not issue any 
guidance or take any action that would delay the awarding of 
projects, like the one in my district that I just mentioned, 
for the purposes of making that money available for border wall 
construction.
    Secretary Wilson. Let me--we have not given any guidance at 
all on delaying anything with--for that reason. But I would say 
that I did have to give guidance last week on 61 projects 
slowing those down because of the--because of Tyndall.
    Now, those were not military construction projects. They 
were renovation projects, and they were in 18 States. I don't 
know if that one--that would be--yours is--if yours is MILCON, 
that would not have been affected by my directive last week.
    Mrs. Bustos. Okay. All right. Do you know if it was MILCON, 
by the way?
    Secretary Wilson. Honestly, we gave the list of all of the 
projects, so my guess is that your staff looked and it is 
probably not on the list that I did last week. We have given no 
guidance to slow anything down. We are moving forward and with 
normal operations.

                    AIR MEDICAL EVACUATION SQUADRON

    Mrs. Bustos. Okay. Very good. Thank you.
    Do I have time for one more question? Are we okay before 
votes? Okay. All right.
    One other question for you then, please. When we visited in 
my office, when you were nice enough to come by, I mentioned 
that the 182nd Airlift Wing in Peoria is under consideration 
for a new Air Force air medical evacuation squadron.
    As you know, I think Peoria would be an absolutely great 
choice for this. And the 182nd has maintained the highest C-130 
mission capability rate of all of the C-130 units that are 
assigned to the Active and Reserve components.
    So Peoria is close to Scott Air Force Base, as you are 
aware, which houses the 375th Air Medical Evacuation Squadron. 
Plus, I am proud of the high-quality medical professionals that 
the colleges in central Illinois produce. They would be highly 
capable of serving as medical techs and nurses in the new 
squadron.
    So I am wondering if you have a timeline for when the down-
select and ultimate choice will be made for the new location 
for the air medical evacuation squadron?
    Secretary Wilson. Congresswoman, we do these in a very kind 
of--try to be very transparent about it. I can't remember the 
date and the timeline on that, but I can get it to you and 
bring it to your office. It is--we have a strategic basing 
process that sets our criteria that tries to just make the best 
decision we can for the Air Force.
    I always accept that when I make one State happy, there are 
49 States that are unhappy, so we just try to--we don't put any 
thumbs on the scale. We just try to make this straight-up 
decision based on the criteria that we brief. And I will get 
you the timeline.
    Mrs. Bustos. Okay. Illinois likes to be very happy. Thank 
you very much.
    With that, I yield back. Thank you, Mr. Chairman.

                   COST ESTIMATES FOR THE SPACE FORCE

    Mr. Visclosky. Thank you very much.
    Madam Secretary, the early study State cost estimates for 
Space Force is $500 million per year. Do you think it is 
realistic?
    Secretary Wilson. Mr. Chairman, when we started going 
through this and looking at the various options for the Space 
Force, we looked at everything from a Medical Corps, a JAG 
Corps kind of model all the way up to a completely independent 
department with all the bells and whistles associated for that.
    We also looked at the cost of a unified combatant command, 
which the Congress has already authorized, and which is moving 
forward. And General Jay Raymond has been nominated to be the 
first commander of that unified combatant command.
    The--where the President's proposal ended up was kind of in 
the middle of those two that said we are going to set up a 
force inside the Air Force. So it would have a member of the 
Joint Chiefs and the support for that new joint chief, but it 
would be inside the Air Force and leverage off of the budgeting 
legal support acquisition and so forth of the Air Force itself.
    That is probably--that is much more cost effective than the 
standalone kind of service. So I am not sure if that is--
answers your question specifically. We think that based on what 
we project, the additive cost of just the inside the Air Force 
model is pretty accurate.
    Mr. Visclosky. Okay. General.
    General Goldfein. Sir, just to add, you know, we had a 
really robust debate for months within the Department on where 
we would land in support of the President's guidance. And it 
was everything from a separate service, separate department, 
from which where we made some initial cost estimates down to a 
JAG Corps, Med Corps, and everything in between.
    Where we landed, which is a service within the Department 
of the Air Force, for me as a warfighter, is a recognizable 
model because it follows the Marine Corps model. The challenge 
we have now and the challenge for Congress is that the details 
associated with what that force looks like, we just started 
that work, and it is weeks old.
    And so we are working through the planning of the details. 
There is 1,000 decisions now associated with what that force 
looks like within the Department of the Air Force, and we are 
working through that now, and the costs will be built as 
associated with that.
    Mr. Visclosky. Thank you.
    Ms. Kaptur.

                AIR NATIONAL GUARD UNIT IN TOLEDO, OHIO

    Ms. Kaptur. Thank you, Mr. Chairman.
    Along with many of my colleagues, I just wanted to say to 
Secretary Wilson, all the very best to you in the years ahead. 
Thank you for your stellar service as a Member of the House, 
and for truly your extraordinary service as Secretary of the 
Air Force. And we wish you the very best in the future. Good 
luck. Thank you.
    I want to ask either of our witnesses in future procurement 
and basing of F-35s to come online, how could the 180th Army 
Air Guard Wing, fighter wing based at Toledo, which has the 
northern command responsibility, be best positioned to compete? 
Knowing everything you know about what has happened in the past 
versus what is going to happen in the future, what can an Army 
Air Guard Wing do to compete?
    General Goldfein. Could I just say, ma'am, I will start off 
that if General Milley was sitting here, he would love the fact 
that you are calling it an Army Air Guard. This is our Air 
National Guard unit that is there, and I will turn to the 
Secretary in terms of the details of our basing process because 
this happens under her authority.
    But we score out and we put--and we are very transparent 
about this, but we score out bases based on how well they meet 
the requirements for operational synergy ranges, runway, you 
know, all of the support activity that is in the community. And 
we are very transparent with the community in terms of what 
that scoring looks like. And then that is all preserved--that 
is then presented to the Secretary for decision, ma'am.

                              HYPERSONICS

    Ms. Kaptur. You know, I just wanted to say that you are 
short on fighter pilots as I look at your recruitment. And I 
can guarantee you the reason they didn't make first cut is 
because they were not close enough to a training base, not 
because they weren't good enough. That is a strange thing.
    And I ask myself, well, planes fly faster now, so what is 
it that they are not near? What is it they don't have when 
their performance is as good as any unit in the array, right, 
of the Department of Defense? So I just want you to take a look 
at that. I don't know. There is something not right. And, so, I 
just have to advocate for them because they are close to my 
heart, okay.
    I wanted to move to the--thank you for listening. I want to 
move to hypersonics for a second here. The Air Force has a $576 
million request for hypersonic prototyping, and I have several 
questions. What role did the Air Force play in the Department 
selecting the three sites for funding? What were some of the 
factors that were weighed in the site selection? And how are 
cost and construction timelines factored in? And is the Air 
Force aware that there may be other facilities that are cheaper 
and take less time to construct and bring online for test 
capabilities? And have you toured any of those available sites?
    Secretary Wilson. Congresswoman, are you talking about wind 
tunnels?
    Ms. Kaptur. I am, but also attendant facilities to that.
    General Goldfein. Yes, ma'am. So we take a look at all of 
the facilities. Right now, we are putting fairly significant 
focus as a department on wind tunnels and testing for 
hypersonic purposes. Our Air Force research labs, and as the 
Secretary mentioned earlier, that this is one particular area 
where all the services are working together to make sure that 
we are not duplicating our efforts, but we are actually merging 
our efforts to accelerate as fast as we can the business of 
hypersonics, because we know we have got to speed up.
    Secretary Wilson. Congresswoman, in general, we try to be 
competitive with our award of research funds, our funds for 
equipment to build things like wind tunnels. I couldn't, 
sitting here, remember for you the three sites that are chosen 
or the criteria for selection for those, but I can follow up 
and get those to you.
    Ms. Kaptur. Do those wind tunnels already exist?
    Secretary Wilson. I--honestly, ma'am, I don't know the 
details of it. I can--I know we have some wind tunnels that 
exist. We have got one at Arnold. I know that we have one at--
in Indiana. And I would be--I am stretching to find the other 
one.

                           MENTAL HEALTHCARE

    Ms. Kaptur. Okay. Well, I will tell you what, I would 
really be grateful if you would look at one called Plum Brook, 
which is an adjunct to the NASA research facility at Brook 
Park, Cleveland, Ohio, and tell me why that one either 
qualifies or does not qualify for consideration.
    My third area of questioning very quickly, the military 
finished 2018 with another sad statistic, the highest number of 
suicides among Active Duty personnel in at least 6 years. What 
can we do more of to help ensure we provide access to better 
mental healthcare and maintain that continuum of care, 
especially for those in the Guard and Reserve components where 
the numbers don't look that good?
    General Goldfein. Yeah. Thanks, ma'am.
    You know, we hit 100 last year. We are on track for 100 
this year. So we are--the Secretary and I have been very 
focused on this. What we believe is going to have the most 
impact is to follow a model that special operations command is 
using very successfully where they embed healthcare providers 
at the unit level so that they forge those relationships. So 
when someone is looking for help, they are not asking a 
stranger for help, they are asking someone they actually know.
    And so we call it Task Force True North. It has been very 
successful at several bases. Now we are working on the next 
tranche of this, which is to push it across the Air Force to 
make sure that there are no bystanders in this business, that 
in the business that--when we talk about suicides, that someone 
who is either contemplating that has got the care they need, 
and we have that embedded at the unit level.
    So that is the way we are approaching it. We have not been 
successful to date, and we are not--and we are very serious 
about moving out.
    Ms. Kaptur. I will just end with sharing this conversation 
we had with the heads of the Air Force Academy, West Point, and 
Annapolis. They were up here a couple weeks ago. And I asked 
them why they couldn't increase the number of admissions to 
train health professionals that will ultimately work in the 
various branches.
    And they were very dismissive and said, Well, we admitted 
five people that might be a doctor or whatever. I was actually 
very disappointed in their reply because people like myself 
would be willing to plus-up their accounts, because we know the 
country is 100,000 doctors short in this area, and many 
multiples of that of advanced practice nurses.
    So whether we are talking regular force, whether we are 
talking Guard and Reserve, whether we are talking our veterans 
facilities and in the civilian sector, this country is under-
doc'd and under-nursed in these important behavioral science 
areas.
    So if you can have any influence on them, I think we could 
do a lot, and then those individuals would likely serve people 
in the military for quite a long while. And we need to fill 
that pipeline, be more creative, because these individuals are 
not being produced in our society at the level that we need 
them.
    I thank you very much for listening. If you have any 
further comments on that, I would be very open to them.
    Secretary Wilson. The one thing that I would say is one of 
the things that has been successful with special operations is 
it is not just the medical professionals who are embedded in 
the squadrons. It is the chaplains, it is kind of the wrapping 
around, and physical therapists as well, trainers, so that you 
have the helping professions in the squadrons.
    And one of the other things that is interesting to me--and 
I--you know, every suicide, every death, every accident in the 
service the chief and I get an email. It is an op rep, an 
alert, and the details of that. And it is stubbornly high. 
About 100 airmen we lose a year to suicide, 100 airmen. That is 
more than we lose in any of our conflicts now. We are losing 
more people to suicide.
    But the interesting thing to me, I have been at this job 
for 2 years, we have yet to lose an airman who is forward-
deployed in austere conditions in a combat zone. What is it 
that is protective about that sense of meaning being in a lousy 
place away from home all those kind of things that doesn't 
exist in our squadrons at home and how do we replicate it?
    And I think part of it is, there is a sense of purpose, and 
there is a team around you that is looking out for you. And we 
need to recreate that sense of belonging and purpose and care 
in our squadrons here at home.
    Ms. Kaptur. Thank you, Madam Secretary.
    Mr. Visclosky. All right. I want to thank both of you, one, 
for your service, for your preparation for your testimony 
today.
    General, I am still trying to figure out which of the two 
of you you were referring to earlier.
    And, Madam Secretary, truly I think on behalf of Mr. 
Calvert and I, just the day I got onto this committee Joe 
McDade said there are good people and there are not-so-good 
people. You are one of the good people. You have been a delight 
to work with, and good luck to you in your career.
    Secretary Wilson. Thank you, sir.
    Mr. Visclosky. Thank you very much. We are adjourned.

    [Clerk's note.--The following questions and answers are for 
the record:]

           Impact of Border Wall Transfer on Air Force Needs

    The fiscal year 2019 Defense Appropriations bill caps the overall 
amount of transfers of funds between accounts that are funded in the 
bill (which does not include Military Construction). The caps are $4 
billion for base funding and $2 billion for Overseas Contingency 
Operations (OCO) funding. The Administration's plan to implement the 
border wall through the use of Defense funds pursuant to a presidential 
emergency declaration reportedly includes $2.5 billion to be executed 
through the Counterdrug account. While over $1 billion in base and OCO 
funding was appropriated to this account for FY19, only about $238 
million remains.
    On March 25, DOD submitted to the Committee a reprogramming action 
to transfer $1 billion in the Counterdrug account to support the 
Department of Homeland Security on the southern border, specifically 
for the ``construction of additional physical barriers and roads . . . 
. in order to impede any drug smuggling activities.'' The $1 billion is 
coming from Army military personnel accounts, largely due to the Army's 
inability to meet its 2019 end strength goals.
    DOD has indicated its intent to execute this transfer without prior 
approval by the congressional defense committees, thereby violating a 
longstanding agreement embodied in the reprogramming rules that are 
included in the Committee's report. However, this transfer will still 
use up one-quarter of the Department's base general transfer authority 
for the year, which will deprive the services of flexibility to fund 
must-pay bills and unforeseen needs.
    Secretary Wilson, I understand that the Air Force needs to 
reprogram funds in order to fulfill must-pay operation and maintenance 
bills for FY19, such as the Secretary of Defense's mandate to increase 
readiness rates for fighter aircraft, as well as the bills for 
immediate recovery from last year's storms. The Defense Appropriations 
bill caps the amount of transfers between accounts at $4 billion for 
base funding and $2 billion for OCO. I am concerned that if the DOD 
uses up a large amount of this transfer authority to fund the supposed 
``emergency'' on the border, this will necessarily endanger your 
ability to meet your unforeseen needs.
    Question: Are any of your reprogramming requests being held up by 
OSD or OMB right now, and is it because of this use of $1 billion in 
transfer authority to fund the border wall? (OPR: SAF/FMBP)
    Answer: The Air Force submitted an Omnibus reprogramming request to 
OSD the week of 29 April 2019. Our understanding is OSD and OMB are 
planning on submitting the consolidated request to Congress in May.
    Question: How will the use of transfer authority for the wall 
impact the ability of the Air Force to meet the needs of hurricane and 
flood recovery, as well as other unforeseen bills that may arise?
    Answer: Natural disaster supplemental appropriations have so far 
provided $1.7 billion of an estimated $4.3 billion in additional 
authorizations and appropriations required to recover Air Force 
installations damaged by natural disasters. This included $670 million 
in Operations and Maintenance and $1.0 billion in Military 
Construction. Congress also provided an additional $200M in 
reprogramming authority to aid in recovery efforts.
    These initial funds restore Tyndall Air Force Base to a minimum 
level suitable to support the missions that have already returned and 
prepare the installation for the arrival of a new flying mission. The 
Air Force continues to require funding in FY20 and beyond to fully 
recover Tyndall AFB and Offutt AFB.
    Question: The transfer authority we provide under Section 8005 
comes with the explicit condition that it ``may not be used unless for 
higher priority items, based on unforeseen military requirements''. The 
department is claiming that the border wall is a ``higher priority'' 
justifying its use of this $1 billion. However, I must ask you: what 
are the higher priority items for the United States Air Force?
    Answer: The Air Force faces significant unfunded requirements due 
to storm damage, the year of execution DOD mission capable rate 
initiative, emergent operational needs, fact-of-life shortfalls and 
critical weapon system needs. While we can internally resolve or defer 
a portion of these shortfalls, we need support from OSD and Congress 
for a $1.1B supplemental to recover from storm damage as well as 
reprogramming for several critical Readiness and Modernization needs to 
avoid significant impact to our operations.

                     Space Force and Space Programs

    DOD is proposing to establish a Space Force as a new military 
service. The Space Force would be organized within the Department of 
the Air Force, similar to how the Marine Corps is within the Department 
of the Navy. DOD says that creating the Space Force is a strategic 
priority to unify and integrate space across the Department because of 
increasing threats to U.S. space systems from adversaries, particularly 
Russia and China.
    Creating a new military service will require authorization. If 
approved by Congress, DOD's goal for FY20 is to standup the Space Force 
headquarters at an estimated cost of $72 million. Over the next five 
years, DOD would transition 15,000-18,000 space personnel from across 
DOD into the Space force at an estimated cost of $2 billion over that 
time.
Justification for Space Force
    Question: Secretary Wilson, DOD's proposal for the Space Force says 
establishing a separate military service for space is a strategic 
priority and is needed to unify national security space efforts and 
address increasing threats. However, in the past, DOD's focus has been 
on integrating space into the existing services, not separating it out. 
Can you explain the rationale for creating a new military service for 
space? (OPR: SAF/SP)
    Answer: Space is now a warfighting domain--our competitors have 
observed the advantages we gain from operating in space and are 
fielding a full range of anti-satellite weapons in an attempt to deny 
our use of space in crisis or war. Furthermore, they are fielding space 
systems so their own forces can benefit from the use of space. While we 
remain the best in the world at space, and our current structure has 
been aggressively meeting these challenges, this structure was 
developed before space was a contested domain. The President's proposal 
would elevate the influence of space leaders in the Pentagon for the 
long-haul.
    Question: Can you provide examples of specific problems or issues 
that cannot be solved within the current organization, but could be 
solved by a Space Force?
    Answer: The organizational change put forward in the President's 
proposal elevates and institutionalizes the influence of space leaders 
in the Pentagon for the long term. A dedicated Military Service within 
the Department of the Air Force will: unify, focus, and accelerate the 
development of space doctrine, capabilities, and expertise to outpace 
future threats; institutionalize advocacy for space priorities within 
the Pentagon; and further build a distinct space warfighting culture. 
It also places a 4-star general as an equal member of the Joint Chiefs 
of Staff, to provide the requisite advocacy and expertise regarding the 
role of space power in national defense.
Space Force Plan
    Secretary Wilson, DOD's Space Force proposal outlines the plan but 
leaves many important questions unanswered, such as:
    Question: What happens to the space organizations of the other 
services, such as the Army Space and Missile Defense Command and Navy's 
space and Warfare Systems Command?
    Answer: The DoD is currently conducting the detailed planning to 
determine the specific transfers to the Space Force. Generally, the 
Department has proposed that the preponderance of space capability 
would be in the Space Force. However, because space is integral to 
joint warfighting capability, each Service may retain a cadre of space 
experts to promote and to integrate space-related capabilities, 
integrate space into the planning and operations of its forces, and use 
some space capabilities specifically designed for its respective 
domain.
    Question: The proposal says the Space Force will assume 
responsibilities for ``all major military space acquisition programs.'' 
Are there non-major space programs that won't fall under Space Force? 
(OPR: SAF/AQS; OCR: SAF/SP)
    Answer: Yes, although DoD envisions consolidating the preponderance 
of existing military space programs under the Space Force. Other DoD 
Components may retain organic space capabilities uniquely required to 
support their core mission (e.g., terminals and localized electronic 
warfare equipment). The DoD is currently conducting the detailed 
planning to determine the specific programs that should transfer to the 
Space Force.
    Question: How was the size of the proposed Space Force determined?
    Answer: The projected size of the U.S. Space Force at Full 
Operational Capability (fiscal Year 2024) is 16,451. This includes 
transfer of an estimated 14,551 existing billets, plus the addition of 
an estimated 1,900 billets for new requirements. The projected total is 
comprised of approximately 66 percent military and 34 percent civilian 
authorizations. The Department determined this was the appropriate 
manning level to capture billets transferred from existing space 
functions within the current Services, mostly from the Air Force. It 
also INCLUDes billets for the U.S. Space Force staff, positions 
supporting the Joint Staff, and elements to enhance expertise, culture, 
and ethos (e.g., education and training, personnel, warfare center, and 
doctrine center). To support cost effectiveness, the U.S. Space Force 
will remain highly dependent on existing U.S. Air Force institutions 
and systems. For example, the Headquarters Air Force Secretariat will 
provide equal support to the Space Staff and the Air Staff. In 
addition, the Air Force is projected to provide all Base Operations 
Support for Space Force units.
    Question: The early steady-state cost estimate for Space Force is 
$500 million per year. Is this realistic? (OPR: SAF/FMC; OCR: SAF/SP)
    Answer: Yes, $500 million per year is realistic as a steady state 
``additional'' recurring cost for a Space Force. The recurring cost 
estimate includes: Space Force Headquarters, a Warfare Center for 
Space, Education and Training Requirements, and a Doctrine Development 
Center. The estimate does not include: current Space funding, growth in 
Space operational capability, the Space Development Agency (SDA) or 
U.S. Space Command. As such, the estimate only addresses the 
organizational change. The $500M was estimated based on a set of 
assumptions about the degree to which the Space Force would leverage 
the Department of the Air Force. The more integrated with the Air 
Force, the lower the cost; the less integrated, the higher the cost. 
The Space Force Planning Task Force is refining the assumptions and 
associated cost estimates.
    Question: What is the process for deciding what will be 
transitioned to the Space Force and what will not? Who will make these 
decisions? (OPR: SAF/SP)
    Answer: Decisions on specific transfers will be made by the 
Secretary of Defense, in consultation with affected Services. The 
Department of Defense has set up a planning task force underneath the 
Air Force that includes all of the Services and the relevant Department 
of Defense agencies. This team is accomplishing the detailed planning 
necessary so that within 90 days of enactment in law, we would stand up 
the initial elements of the U.S. Space Force. That planning task force 
is led by a two-star general and includes members from across the 
Department.
    Question: The proposal says that the Space Force will ``leverage 
the Air Force infrastructure.'' Can you share with the subcommittee 
what infrastructure and support the Air Force would be providing to the 
Space Force? Why should the Air Force be paying for the Space Force's 
infrastructure? Do you have an estimate for the fully burdened cost of 
the Space Force, including infrastructure to be provided by the Air 
Force? (OPR: SAF/FMC; OCR: SAF/A4C)
    Answer: Many infrastructure functions that are not core to the 
Space Mission can be more efficiently performed by the Air Force. 
Centralized infrastructure support expected to be provided by the Air 
Force includes: energy management; environmental management, hazardous 
waste management, real property development and management, and housing 
privatization operations. These centralized functions are performed by 
the Air Force Installation and Mission Support Center (AFIMSC). AFIMSC 
is also expected to provide centralized support for Security Forces, 
Contracting and Services (food, fitness, lodging, etc.). Related to 
these centralized functions, the base level Mission Support Group 
functions are expected to remain in the Air Force. Additionally, other 
functions are expected to remain with the Air Force, (e.g. Medical, 
Judge Advocate, Chaplain, Audit, etc.). At this time, there is no 
decision on management of the United States Space Force Military 
Construction requirements. Since space forces will be located on 
existing Department of Air Force installations and the cost of Base 
Operations Support is not expected to change, the Air Force expects 
that Base Operations Support will be covered within its existing FYDP. 
The Space Force Planning Task Force is refining the assumptions and 
associated cost estimates.
Missile Warning Satellite (Next-Gen OPIR) Cost and Oversight
    Last June, the Air Force approved the acquisition plan for a new 
series of missile warning satellites, called Next Generation Overhead 
Persistent Infrared (Next-Gen OPIR). These satellites provide early 
warning of missile attacks, and track launches from North Korea, 
Russia, China, and others.
    The total cost of the program (five satellites and ground control) 
is $14-$15 billion through the life of the program. The Air Force 
intends to request a $632 million reprogramming to keep the program on 
track in FY19. This is in addition to the $643 million appropriated in 
FY19, and $1.4 billion requested for FY20.
    Next-Gen OPIR is being carried out under streamlined acquisition 
authority, called Section 804 authority, which exempts the program from 
some key reporting requirements on cost and schedule, raising questions 
about whether use of this authority is appropriate.
    Question: Secretary Wilson, the Air Force has embarked on a program 
to develop a new series of missile warning satellites, called Next-
Generation Overhead Persistent Infrared (Next-Gen OPIR). DOD approved 
the program start last year, and this year the Air Force is requesting 
$632M in reprogramming on top of the $643 million appropriated in FY19, 
totaling nearly $13 billion for FY10 alone, and is requesting $1.4 
billion in FY20. My understanding is that draft cost estimates for the 
total cost of the program are in the $14 to $15 billion range to 
deliver five satellites and a ground control system. Further, the 
program is being carried out under streamlined acquisition authority, 
called Section 804 authority, which is exempt from key reporting 
requirements on cost and schedule. Can you please explain why this 
streamlined authority is appropriate for this program and what controls 
and processes are in place to keep the Committee fully informed? (OPR: 
SAF/AQ; OCR: SAF/SP)
    Answer: Section 804 authorities are being used to accelerate the 
Next-Gen OPIR sensor to deliver in five years. This is the highest-
risk, most technically challenging portion of the program in order to 
meet USSSTRATCOM'S 2025 launch requirement. Operating under Section 804 
authority enabled rapid contract award to Lockheed Martin 
(Geosynchronous Earth Orbit (GEO) satellites and Northrop Grumman 
(Polar satellites) in August and June 2018 respectively; Lockheed 
Martin has subsequently completed their system requirements review. 
Additionally, the payload contractors have been energized at rapid 
pace, successfully completing System Design Reviews for the first GEO 
satellite in April 2019. By utilizing the Section 804 authorities, the 
program has already saved approximately 12 months of schedule. Whereas, 
under a traditional DoD 5000.02 program, we would not likely be on a 
contract.
    Just because Next-Gen OPIR is operating under Section 804 
authorities doesn't mean it lacks acquisition rigor or transparency. In 
fiscal year 2019, the program increased transparency by adding Budget 
Procurement Activity Codes to provide additional transparency to the 
GEO satellite, Polar satellite, and Ground System acquisition 
activities. As for documentation, attached is a list of how the program 
is meeting the intent of the statutory and regulatory requirements 
imposed on a typical Department of Defense (DoD) Major Defense 
Acquisition Program. Finally, with respect to reporting, the Service 
Acquisition Executive established cost and schedule guardrails which 
are documented in the Acquisition Decision Memorandum. The program is 
required to report to Congress seven times a year through tri-annual 
reports and quarterly Congressional reports. These reports inform the 
DoD and Congress of program progress and will be the avenue used to 
track the program against the schedule and cost guardrails set in the 
Acquisition Decision Memorandum.
    Question: What is the $632 million reprogramming needed for, and 
what is the impact if it is not received? What are the highest risks 
for this program? (OPR: SAF/AQS; OCR: SAF/SP)
    Answer. The $632 million reprogramming is needed to support the 
accelerated schedule to meet the warfighters 2025 delivery date by 
purchasing long-lead items and key components and increasing 
engineering, design, and other staff for both the prime contractor and 
payload contractors. Approximately 50% of the funding would be applied 
to the purchase of long-lead items and key components and 50% would be 
applied to headcount increase. If the $632 million is not funded, then 
the schedule will slip two years, pushing the initial launch capability 
from 2025 to 2027. Additionally, if the program schedule extends, the 
prime and payload contractors will have to maintain an adequate 
workforce size to support the required work, driving an increase in 
program cost.
    The highest program risk from a technical point of view is the 
design and development of the sensor. To mitigate this risk, the 
program has two payload vendors under contract with competing designs. 
The program is also using proven technologies with high technical 
readiness levels in order to reduce the technical risk. The use of 
Section 804 authorities to get on contract earlier, carrying multiple 
payload venders, and utilizing high technical readiness levels 
components and subsystem design reduces risk and enables the program to 
meet the warfighter's 2025 need date.
Weather Satellite Gaps
    Secretary Wilson, the current Air Force weather satellites on orbit 
are nearing their estimated end of life, and DOD faces potential gaps 
in its ability to monitor weather or military operations. Two Space 
Rapid Capabilities office space missions were intended to demonstrate 
technologies and provide residual operational capabilities in the near 
term--Operationally Responsive Space (ORS)-6 and ORS-8. ORS-6 has been 
delayed and the Air Force recently canceled ORS-8.
    Question. What is the impact of the delay and cancellation of the 
ORS efforts to the risk of potential gaps in weather monitoring? (OPR: 
SAF/AQ; OCR: SAF/SP)
    Answer. The Compact Ocean Wind Vector Radiometer (COWVR) sensor was 
to fly on the ORS-6 satellite as a technology demonstrator and provide 
residual operational capability for ocean surface vector winds and 
tropical cyclone intensity. ORS-6 was cancelled in May of 2018 due to 
unresolvable issues with the spacecraft bus software. The COWVR sensor 
is now planned to be hosted on the International Space Station to 
complete the technology demonstration in 2021, resulting in a smaller 
sensor than other microwave sensors that can be utilized in potential 
future missions. The Weather System Follow-On-Microwave (WSF-M) program 
is expected to field capability in FY24, aligning with the current need 
date defined by Defense Meteorological Satellite Program (DMSP) 
availability.
    ORS-8 was the short-term solution to meet the urgent need for cloud 
characterization and theater weather imagery, but was terminated due to 
delays in the contract award. Rather than filling a gap in on-orbit 
weather sensors, these delays would have resulted in a capability 
overlap between ORS-8 and the Air Force's long-term solution to meet 
this requirement--the Electro-Optical/Infrared (EO/IR) Weather System 
(EWS).
    To reduce this potential overlap, the Space Rapid Capabilities 
Office (SpRCO) and Space and Missile Systems Center (SMC) concluded the 
most beneficial option was to cancel the ORS-8 program and focus on the 
EWS acquisition. In order to address the original intent of the ORS-8 
program, the Air Force intends to accelerate acquisition activities for 
EWS, allowing it to launch up to six months earlier. This will help to 
ensure the weather gap that ORS-8 was originally intended to fill is 
minimized.
    The EWS acquisition strategy is pending approval and has an 
expected initial launch capability of FY24.
    Question. What is the Air Force's long-term strategy for meeting 
validated requirements for weather data? (OPR: AF/A3; OCR: SAF/SP)
    Answer. The USAF is currently devising a new long-term strategy for 
satellite weather which will move away from the legacy approach of a 
small number of large satellites with multiple instruments, which has 
led to complex and costly satellite missions that require years to 
develop, procure and launch. Moreover, the large amount of capability 
packed into each individual large satellite presents a significant 
portion of the overall capability, meaning that if any one mission were 
lost or delayed, it could result in a significant degradation of the 
overall system. The new strategy will move to a larger number of 
smaller, lower-cost satellites with a smaller number of lower-cost 
weather sensors on each satellite. The strategy plans to provide these 
capabilities through a combination of (a) USAF missions, (b) USAF-owned 
sensors hosted as a payload on commercial satellites, (c) data 
purchases from commercial solutions, and (d) the continuation of 
leveraged data from US (e.g., NOAA, NASA) and international/allied 
partners. This strategy will result in our overall satellite weather 
capability being distributed over a larger number of smaller 
satellites, each of which can be more easily and cheaply upgraded or 
rapidly replaced if lost, thereby adding a substantial amount of 
resiliency and cost stability to the overall system. The transition 
bridge from the legacy architecture to the desired end-state of a 
disaggregated constellation of small satellites will be a series of 
rapid prototype missions to quickly build and launch new small sensors, 
and test and evaluate the use of that data end-to-end within the USAF 
weather observing and forecasting enterprise.

        Air Force Overseas Contingency Operations (OCO) Request

    At the behest of OMB, the fiscal year 2020 Defense budget request 
distorts the request of Overseas Contingency Operations by 
reclassifying $98 billion of base funding (13.6 of DOD's total request) 
as ``OCO for base requirements''. This, when combined with $66 billion 
in normal OCO funding, results in a total FY20 OCO request of $164 
billion versus an enacted FY19 level of $69 billion. For the Air Force, 
this results in a total OCO request of $42.3 billion, which includes 
$29.5 billion in ``OCO for base requirements''. This includes about 43 
percent of the Air Force's total operation and maintenance request, and 
also results in the entirety of the Air Force's ammunition procurement 
request ($2.6 billion) being in OCO.
    Question. Secretary Wilson, the Administration has designated $29.5 
billion of the Air Force's budget, about one-quarter of your budget, as 
Overseas Contingency Operations due to its decision to reclassify a 
large amount of base funding as OCO. How does this impact your ability 
to budget and plan for future years? (OPR: SAF/FMBP; OCR: AF/A8)
    Answer. Since the $29.5 billion is categorized as OCO for Base 
Requirements, it has not impacted our ability to budget and plan for 
future years, as the FY20 Air Force budget request (including base and 
OCO) includes a total top line of $165.6 billion. The future year 
requirements and associated funding levels assume the total FY20 
request is supported.

                             F-15EX Request

    The Air Force's budget request includes $1.12 billion to procure 8 
new-build F-15 fighter aircraft, dubbed F-15EX. This is the first year 
of a programmed purchase of 80 F-15EX aircraft over the FY20-24 future 
years defense plan:

------------------------------------------------------------------------
                                   FY20    FY21    FY22    FY23    FY24
------------------------------------------------------------------------
Quantity........................    8.00   18.00   18.00   18.00   18.00
Procurement ($B)................    1.05    1.65    1.69    1.72    1.75
R&D ($B)........................    0.07       -       -       -       -
Total ($B)......................    1.12    1.65    1.69    1.72    1.75
------------------------------------------------------------------------

    This would be the Air Force's first procurement of new ``fourth 
generation'' fighter aircraft since fiscal year 2001. The Air Force 
currently operated 234 F-15 C/D aircraft and 218 F-15E Strike Eagle 
aircraft. Due to structural integrity problems the F-15C/D fleet is 
expected to begin aging out in the late 2020s. The F-15EX request is 
intended to solve this problem while addressing total fighter aircraft 
capacity issues. The model of F-15 currently in production for foreign 
partners such as Saudi Arabia carries several capability upgrades and 
is expected to have a service life of 20,000 hours.
    Question. Secretary Wilson, you have made public comments that the 
F-15EX request was not the Air Force's idea, leading some to conclude 
that this is something the Air Force did not agree with, and does not 
want, but was imposed upon you by higher-ups within the Department of 
Defense. Our understanding is that while the idea originated within 
OSD, the Air Force ultimately did agree to it. Can you please clarify 
this? Does the Air Force support this request or not? (OPR: AF/A8)
    Answer. It is true that our initial FY20 POM submission did not 
include the F-15EX; however, several key pieces of analysis and 
information became available during Program and Budget Review (PBR) to 
support the FY20 PB position to procure the aircraft. We must procure 
72 fighter aircraft a year to account for aging aircraft retirements 
and to meet the National Defense Strategy. This requirement, combined 
with current budget realities and the global missions of the Air Force 
demand a mix of 4th and 5th generation force structure to balance near 
and mid-term readiness with future needs.
    Question. If Congress did not fund the F-15EX, what would the Air 
Force propose to do about the F-15C fleet--in other words, what is Plan 
B? Is this Plan B funded in your budget request? (OPR: AF/A8)
    Answer. In the event Congress does not fund the F-15EX, the Air 
Force will consider all options with regard to the F-15C fleet, to 
include the Service-Life Extension Program. The latter option will 
require significant additional funding which would still not address 
the enhanced capabilities the fleet would need for tomorrow's fight.
    Question. General Goldfein, it has been suggested that because the 
F-15EX lacks the features and capabilities of ``fifth generation'' 
aircraft, it is therefore irrelevant to the National Defense Strategy 
and its emphasis on ``great power competition''. What is your view? 
(OPR: AF/A8)
    Answer. On the contrary. Our analysis shows in the 2030 timeframe, 
sufficient fighter capacity is critical in a fight with a near-peer. A 
mix of F-15EX--with its increased range and weapons carriage 
capability, as well as, a more advanced on-board electronic warfare 
suite of avionics making the aircraft more survivable--with F-35 is our 
best option given present resources.

                             Pilot Shortage

    At the end of fiscal year 2018, the Air Force reported a total 
force pilot shortage of 1,937, with the most serious shortfall 
occurring in the fighter pilot inventory.
    Question. General Goldfein, nearly 6 months into fiscal year 2019, 
can you tell me how the Air Force is doing in meeting its target for 
pilots? Specifically, can you speak to the fighter pilot shortage? 
(OPR: AF/A3)
    Answer. We do not calculate overall shortage numbers within the 
fiscal year primarily due to the open window for aircrew to accept the 
Aviation Bonus, which does not allow us to accurately project status 
mid-year. We are programmed to produce more pilots in FY19 (1,341) than 
we did in FY18 due to streamlined undergraduate pilot training syllabi.
    Question. How does your fiscal year 2020 request seek to address 
the pilot shortage? (OPR: AF/A3)
    Answer. Increases in sustainment, flying hours, and readiness 
accounts support pilot recovery efforts. Critical investment areas 
address a balanced approach of increased production and retention 
initiatives, including: expansion of Contract Adversary Air, increased 
undergraduate pilot production through streamlined syllabi, targeted 
aviation bonus policies, and increased administrative support in 
operations squadrons.
    Question. In the last several years, commercial airlines have 
experienced significant growth. To address their own pilot shortage the 
commercial air industry offers significant bonuses and premium pay and 
benefits--forcing the Air Force to compete with the private sector to 
retain its pilots. Do you have sufficient resources to provide the 
recruitment and retention incentives necessary to keep and train highly 
qualified pilots? (OPR: AF/A1)
    Answer. Currently, recruiting resources are sufficient for pilots. 
For retention incentives, the Air Force is appreciative of the increase 
to congressionally mandated caps for Aviation Incentive Pay and the 
Aviation Bonus as part of the 2017 NDAA. As stated in the OSD report to 
Congress earlier this year, these increases have yet to show a 
meaningful decrease in attrition across the services; however, we 
recognize there must also be improvements to quality of life and 
quality of service in order to retain our talent. The Air Force remains 
committed to working with our sister services and OSD to examine what 
improvements to retention incentives would best serve to increase 
readiness while also remaining good stewards of the taxpayer's dollar.
    Question. Commercial pilots have far less time away from home and 
their families. Aside of pay-based incentives, how is the Air Force 
competing in terms of benefits? (OPR: AF/A3; OCR: AF/A1)
    Answer. We are examining and implementing multiple initiatives to 
increase retention to levels needed for long term career field health. 
Air Force initiatives to increase retention of experienced pilots are 
focused on Quality of Service and Quality of Life: revitalizing the 
squadron, increased admin support staff, and targeted, proactive talent 
management.
    Question. Women currently represent about 6.5 percent of Air Force 
pilots. How is the Air Force examining its policies and benefits to 
attract more female recruits? (OPR: AF/A3; OCR: AF/A1 )
    Answer. Air Force accession sources (Reserve Officer Training Corps 
and Air Force Academy) are examining their application messaging, 
policies, and procedures to remove barriers that disproportionally 
affect female recruits. For example, they have worked to increase the 
diversity of the pilot selection boards and to commit to bias 
mitigation training in board members in order to combat implicit 
prejudices. In addition, accession sources are working to diversify 
recruiting events so that potential female recruits can see women 
succeeding as military pilots. They are also working to allow more 
cadets under 5,4"--a barrier for many female recruits--to apply for 
flying positions. In addition, the Air Force is collaborating with 
external partners, including RAND and the Federal Aviation 
Administration, to build a more diverse pipeline to aviation careers.
    Question. Many female pilots feel they must make a choice between 
flying fighters or having a family. How is the Air Force making it 
easier for female pilots to take leave to have a family while also 
providing the opportunity for women to maintain proficiency while on 
leave in order to remain competitive for assignments and promotions 
when they return to full-time service? (OPR: AF/A3; OCR: AF/A1)
    Answer. The Career Intermission Program was developed to improve 
long-term retention of high performing Airmen by allowing pursuit of 
personal or professional goals that could be challenging while serving 
in an active status. Feedback from the field indicates that the 
statutory service commitment for participating in the Career 
Intermission Program (2 months for every 1 month on intermission, per 
Section 710 of Title 10, U.S.C.) is the main barrier to program use and 
causes some Airmen to separate from the service entirely. The Air Force 
seeks flexibility in legislation so that the Service Secretary can 
tailor the commitment in an effort to increase the program's appeal 
within targeted populations.
    In addition, the Air Force has recently modified rules for flight 
simulators, allowing those simulators to count for ``operational flying 
credit'', ensuring professional flying milestones can continue to be 
met even if the member is not flying due to pregnancy.

                        PFOS/PFOA Contamination

    The Air Force is the largest DOD user of the firefighting foam, 
known as AFFF, which contains the chemicals PFOS and PFOA. These 
chemicals have been linked to an increased risk of cancers and other 
serious health effects, and have contaminated groundwater near hundreds 
of military bases, commercial airports, and chemical plants.
    Since May 2016, when the EPA established a Lifetime Health Advisory 
(LHA) level of 70 parts per trillion for PFOS/PFOA in drinking water, 
the Air Force has identified 203 installations requiring Preliminary 
Assessments, the first step of the Comprehensive Environmental 
Response, Compensation, and Liability Act (CERCLA) process. 202 of the 
203 preliminary assessments have been completed, and 189 installations 
have been recommended for Site Inspection (SI), the second step in 
CERCLA.
    Question. I understand the Air Force is in the process of 
conducting Site Inspections for 203 Air Force sites that have been 
identified for cleanup under the CERCLA process. How many of those site 
inspections have currently been completed? (OPR: SAF/IE)
    Answer. The Air Force identified 203 installations for Preliminary 
Assessments. 189 locations required Site Inspections. The Air Force has 
completed 114 of the 189 Installations identified for Site Inspections.
    Question. The Air Force's FY20 Environmental Restoration budget 
request proposes a $63 million reduction from the FY19 enacted level of 
$365.8 million. This account funds activities beyond FFOS/FOA cleanup. 
Can you please tell me what you have spent on PFOS/PFOA cleanup in 
FY19? (OPR: SAF/IE; OCR: AF/A4, SAF/FMB)
    Answer. The Air Force plans to spend $126.27 million on PFOS/PFOA 
cleanup in FY19, of which $46.49 million has already been obligated.

             AIR FORCE FUNDS OBLIGATED/PLANNED ON PFOS/PFOA
                             (Amount in $M)
------------------------------------------------------------------------
                 Component                    FY19 (Obligated/Planned)
------------------------------------------------------------------------
 BRAC.....................................   $18.30 ($8.10 obligated/
                                             $10.20 planned)
 ANG O&M Restoration......................   $24.50 ($2.40 obligated/
                                             $22.10 planned)
 DERP.....................................   $83.47 ($35.99 obligated/
                                             $47.48 planned)
 Totals...................................   $126.27
------------------------------------------------------------------------

    Question. Why is the budget proposing a 17 percent reduction to 
this account in FY20? (OPR: SAF/IE; OCR: AF/A4)
    Answer. The FY20 President's Budget Defense Environmental 
Restoration Program (DERP) and Base Realignment and Closure (BRAC) 
request for PFOS/PFOA is 2% greater than the FY19 President's Budget 
request. However, it is a 17% reduction from the total amount received 
following congressional additions to both accounts. The FY20 
President's Budget addresses our highest risk requirements (both PFOS/
PFOA and other contaminants) and shows an increase from the original 
FY19 President's Budget request.
    Question. How much of your proposed FY20 request will be spent on 
FFOS/PFOA clean up? (OPR: SAF/IE; OCR: AF/A4)
    Answer. The Air Force plans to spend $56.11M in FY20 for PFOS/PFOA. 
We have $12.41 million in requirements funded under the Defense 
Environmental Restoration Program (DERP). The Base Realignment and 
Closure program plans to spend $14.7M. For sites ineligible for DERP 
funds, we have $29M in Operations and Maintenance-funded requirements.
    Question. Is your FY20 request adequate and could you do more in 
FY20 to address contamination?
    Answer. The Air Force FY20 budget request is adequate to protect 
human health, principally funding and executing mitigation actions to 
ensure no one is drinking water that exceeds the EPA's Lifetime Health 
Advisory (LHA) due to Air Force activity. If additional resources were 
made available, we could execute an additional $100 million in Defense 
Environmental Restoration Program (DERP) requirements, $54 million in 
Base Realignment and Closure requirements, and $29 million in Air 
National Guard Operations and Maintenance requirements in FY20.
    Question. What do you estimate the Air Forces' total obligation for 
clean up to be?
    Answer. The safety and health of our Airmen, their families, and 
our community partners is our priority. AFFF is the most efficient 
extinguishing method for petroleum-based fires and is widely used 
across the firefighting industry, to include all commercial airports, 
to protect people and property. AFFF accounts for less than four 
percent (4%) of PFOS/PFOA chemical use, whereas the majority can be 
found in other industrial and consumer-goods such as nonstick cookware, 
stain-resistant fabric and carpet, and some food packaging. The Air 
Force used AFFF according to the manufacturer's directions and once the 
LHA was established began transitioning stockpiles and fire trucks to 
C6 AFFF. PFOS/PFOA contamination can be attributed to both the 
Department of Defense and civilian actions which requires a ``Whole of 
Government'' approach to respond to an issue impacting communities 
across the United States.
    The Air Force has spent $351.35 million on PFOS/PFOA from FY13 
through FY18 and plans to spend $126.27 million in FY19. The AF is 
evaluating the initial results of PFOS/PFOA investigations and will be 
able to better estimate future obligations as these efforts are 
completed.

               AIR FORCE CLEAN-UP FUNDS OBLIGATED/PLANNED
                             (Amount in $M)
------------------------------------------------------------------------
            Component                   FY13-18              FY19
------------------------------------------------------------------------
 BRAC...........................   $129.90..........   $18.30
ANG O&M Restoration.............   [Included in        $24.50
                                   DERP] *.
 DERP...........................   $221.45..........   $83.47
Totals..........................   $351.35..........   $126.27
------------------------------------------------------------------------
* Prior to legal determination concerning ineligibility of DERP funds.

                       F-35A Joint Strike Fighter

    The Air Force's FY20-24 budget plan flat lines F-35A production at 
48 aircraft per year, a reduction of 30 aircraft compared to the 
previous year's plan, as shown below:

------------------------------------------------------------------------
                                FY20   FY21   FY22   FY23   FY24   Total
------------------------------------------------------------------------
 FY19 Plan...................     48     54     54     54     60     270
 FY20 Plan...................     48     48     48     48     48     240
 Change......................      0    (6)    (6)    (6)   (12)    (30)
------------------------------------------------------------------------

    Question. Secretary Wilson, can you explain why the Air Force 
currently plans to buy 48 F-35A aircraft per year through the future 
years defense plan despite, in light of the fact that you say you need 
72 new fighters per year? (OPR: AF/A8; OCR: FMB)
    Answer. Current budget constraints prevent the Air Force from 
procuring more than 48 F-35s per year. We intend to mitigate the impact 
with the acquisition of 8 F-15EXs in FY20 and 80 over the FYDP. The 
FY20 Unfunded Priorities List (UPL) request--if funded--will increase 
the F-35 quantity from 48 to 60 by procuring 12 additional aircraft in 
FY20 and an additional 12 aircraft in FY21.
    Question. Was this decision determined by the inclusion of the F-15 
request? (OPR: AF/A8)
    Answer. No. F-35 procurement was not, and will not be, impacted by 
acquisition of the F-15EX.
    Question. Did cost factors--such as operating costs, or the costs 
of retrofitting aircraft to accommodate upgrades under development--
weigh in this decision? (OPR: AF/A8)
    Answer. While the Air Force has committed funds to modernize 
earlier F-35 models, the reality is in the current budget environment, 
an all 5th generation fleet is simply unaffordable.
    Question. General Goldfein, the unfunded requirements list you 
recently submitted to Congress included funding for advanced 
procurement of F-35 long-lead parts to support an increase of F-35 
production to 60 jets in the FY21 budget. If Congress supported that 
request in a timely fashion, would you commit to asking for these 60 
aircraft in FY21? (OPR: SAF/A8; OCR: AF/1O)
    Answer. Yes.
    Question. Secretary Wilson and General Goldfein, you have expressed 
some concern about the F-35's operating cost and the need to bring it 
down more aggressively. Could you provide more detail about what you 
are seeking, and how you plan to make it happen? (OPR: AF/IO)
    Answer. We are absolutely concerned that the F-35 fleet we need is 
ready and sustainable at a cost we can afford. We are working with DoD 
leadership and the Joint Program Office to ensure we continue to 
increase readiness and reduce operating costs. The following are some 
specific actions we're focused on:
          <bullet> Urgently fix Autonomic Logistics Information System. 
        Agile software development is an industry best practice that 
        needs to be fully brought to bear using the Kessel Run 
        organization.
          <bullet> Accelerating program organic repair capability by 
        early 2024 is essential to reducing sustainment costs and 
        increasing parts availability.
          <bullet> Maturing F-35A reliability and maintainability is 
        essential to reaching affordable sustainment levels. The 
        program recently identified 30 reliability projects that would 
        yield over $3.9B in life cycle cost avoidance.

                         Nuclear Modernization

    The Air Force operates two legs of the nuclear triad (land-based 
missiles and bombers) and approximately three-fourths of the nuclear 
command, control, and communication (NC3) system. Currently the Air 
Force has three major nuclear weapon system modernization efforts 
underway: the Ground based Strategic Deterrent (GBSD), the B-21 Raider 
bomber, and the Long Range Standoff (LRSO) cruise missile. The cost of 
each major effort in the FY20-24 future years defense plan is laid out 
below:

------------------------------------------------------------------------
              ($M)                 FY20    FY21    FY22    FY23    FY24
------------------------------------------------------------------------
GBSD............................     570   1,528   2,540   3,040   3,078
B-21............................   3,004   3,048   2,942   2,662   2,264
LRSO............................     713     475     359     396     433
------------------------------------------------------------------------

Nuclear versus conventional modernization
    The costs of nuclear modernization will be substantial and will 
impose budget pressure at a time when conventional modernization and 
new capability development will also be in demand. The Congressional 
Budget Office (CBO) estimates that total nuclear modernization costs--
including DOD and Department of Energy warhead programs--will be nearly 
a half-trillion dollars ($494 billion) in the 2019-2028 timeframe. 
While DOD officials tend to minimize these costs by comparing them to 
the entire Defense budget, in reality these costs are born 
disproportionately by a relatively small subset of Navy and Air Force 
acquisition accounts. If not controlled, such costs are a potential 
threat to conventional force modernization. For the Air Force, the 
period of peak costs for nuclear modernization largely overlap a 
projected bow-wave of aircraft replacement costs as estimated by CBO.
    Question: Secretary Wilson and General Goldfein, the costs of 
nuclear modernization could severely compromise the Air Force's ability 
to grow and modernize as you have indicated you need. How will the Air 
Force ensure that the costs of nuclear modernization programs stay 
within cost estimates and do not consume the Air Force's conventional 
modernization budget? (OPR: SAF/AQ; OCR: AF/A10)
    Answer: The Air Force is dedicated to both nuclear and conventional 
modernization programs. Significant effort is always given to keep 
complex weapon system programs affordable and within cost estimates and 
the Air Force is committed to our modernization priorities.
Uncertainty in GBSD cost estimates
    In 2016, the Pentagon's Cost Assessment and Program Evaluation 
(CAPE) office produced a cost estimate for the GBSD program that ranged 
from $60.8 billion at the low end to $97.5 billion at the high end, in 
constant dollars, versus an Air Force estimate of $47.4 billion. By 
departmental direction, the Air Force currently is funding the program 
to the CAPE low end estimate. The greatest divergence between the Air 
Force and CAPE estimates comes after the production phase begins in the 
mid-2020s, due to uncertainty over industry capacity to build the 
requisite number of missiles per year. New knowledge gained during the 
current technology maturation phase (under contract with both Boeing 
and Northrop Grumman) should inform a more refined estimate, but it is 
unclear when this new estimate will be provided.
    Question: Secretary Wilson and General Goldfein, up to now we have 
seen widely divergent cost estimates for GBSD from the Air Force and 
cost estimators in the CAPE office of the Secretary of Defense. I 
understand that a new cost estimate is being worked on now, and that 
this may provide more clarity. When will that estimate be done? (OPR: 
SAF/AQ; OCR: AF/A10)
    Answer: The Office of Cost Assessment and Program Evaluation is 
scheduled to complete the new cost estimate in June 2019.
    Question: How is the Air Force planning to control costs on GBSD 
without sacrificing the capabilities that are important to the 
warfighter? (OPR: SAF/AQ; OCR: AF/A10)
    Answer: GBSD is pursuing a program approach that utilizes low-risk, 
mature technologies, incorporates contract incentives, and emphasizes 
``smart commonality'' with the Navy, Space community, and Missile 
Defense Agency to control costs. It is leading the Department in using 
digital engineering to trace design changes to cost impacts and how to 
mitigate them. The weapon system also incorporates a modular, open 
architecture to facilitate system maintenance / modernization and 
reduce life cycle costs. The Air Force intends to own the technical 
baseline up front, key interfaces, and necessary data nghts to aid cost 
effective modernization.
    Question: It is my understanding that the analysis of alternatives 
that justified the GBSD program determined that the 60-year cost of 
GBSD and a Minuteman III life extension were roughly equal; however, 
this analysis predates the higher CAPE estimate. At the same time, GBSD 
presents an opportunity to reduce life-cycle costs through an open 
architecture that allows for easier upgrades and updates. Do you 
believe that GBSD is still the most cost-effective means of preserving 
the land-based leg of the triad? (OPR: SAF/AQ; OCR: AF/A10)
    Answer: Yes. Minuteman III is based on 1970s technology and was 
designed with a 10 year planned service life. Systemic age-out of 
critical components and attrition as well as design limitations 
inherent to the 45-year old system prevent it from being cost-
effectively life extended. The analysis of alternatives and supporting 
intelligence threat assessments concluded that GBSD would provide a 
system more readily adaptable to meet evolving threats that will begin 
to appear as early as the mid-2020s. In addition to providing the 
capability to counter these threats, GBSD delivers the opportunity to 
significantly reduce the total cost of ownership by adopting modern 
design features, known facility improvements, and modernized Weapon 
System Command and Control architecture.

                              Hypersonics

    The Air Force's total budget for hypersonic weapons research and 
prototyping is $807 million, a slight increase over the FY19 total of 
$795 million. The Air Force funds numerous efforts in hypersonic from 
basic science and technology up to demonstration and prototyping 
efforts. The Air Force is utilizing rapid prototyping authorities to 
pursue two hypersonic weapon concepts:
          <bullet> Air-Launched Rapid Responses Weapon (ARRW, or 
        ``Arrow''): this would be an accelerated, weaponized version of 
        a system, known as Tactical Boost Glide (TBG), that the Air 
        Force is testing in partnership with DARPA. The goal is to 
        reach an ``early operational capability'' by 2022.
          <bullet> Hypersonic Conventional Strike Weapon (HCSW, or 
        ``Hacksaw''): an air-launched, solid rocket powered, exo-
        atmospheric weapon. The goal is ``early operational 
        capability'' by 2021.
Are hypersonics being adequately resourced?
    As of the fiscal year 2019 budget, the Air Force had not adequately 
resourced the ARRW and HCSW prototyping efforts in its budget plans. A 
combined $351 million shortfall ARRW and HCSW in FY18/19 was remedied 
only by a combination of reprogramming and congressionally added 
funding. That shortfall was expected to grow to $455 million in FY20 
under current budget plans.
    Question: Secretary Wilson, the Air Force's FY19 budget did not 
match its accelerated plans for prototyping hypersonic weapons. Has the 
Air Force fully funded these efforts in the fiscal year 2020 request? 
(OPR: SAF/AQ; SAF/FMB)
    Answer: Yes. The FY20 PB funds the HCSW effort in FY20. The Air 
Force is working the future year funding requirements (FY21-22) for 
HCSW in the FY21 POM process as it is not currently funded in the FYDP.
What will come after the prototyping efforts?
    Currently it is unclear how the Air Force plans transitioning 
successful hypersonic prototyping efforts to programs of record, what 
operational requirements or quantities of such weapons will be, or the 
unit costs that need to be met in order to make hypersonic weapons 
worth the capability gained.
    Question: Secretary Wilson, what is the Air Force's plan to 
transition successful hypersonic prototyping efforts to programs of 
record? Can these weapons be affordably manufactured at scale? (OPR: 
SAF/AQ)
    Answer: Air Force Global Strike Command (AFGSC) is the designated 
lead Major Command (MAJCOM) for the operational posture of a hypersonic 
weapon. Currently, AFGSC is anticipating and planning for a completion 
of hypersonic weapon prototype efforts (the design, engineering, 
testing, initial production) in the FY22 timeframe. As Middle Tier 
Acquisition (MTA) Phase A, Rapid Prototyping efforts, the efforts will 
transition to MTA Phase B Rapid Fielding or a Program of Record.
    The industrial base, to include prime contractors and suppliers, 
will be stressed in the coming years to accommodate the needs of all of 
the hypersonic activities within the three Services and Missile Defense 
Agency. Both of the ARRW and HCSW prototype efforts have established 
industry base and laboratory work needed to acquire low rates of assets 
for AFGSC. The size of an eventual inventory will be determined by 
AFGSC, ultimately driven by warfighter need. At this time All-Up Round 
(AUR) costs are based on early estimates being refined by AFCAA. Once a 
procurement quantity and timeline are determined, a more accurate 
average AUR cost can be determined.
Testing Hypersonics
    Hypersonic weapon systems pose several development challenges 
including an adequate ground and flight test infrastructure to ensure 
that systems meet performance expectations. On November 5 2016, the 
Director of Operational Test and Evaluation noted the challenge of 
building an infrastructure for hypersonic testing and identified 43 
capability gaps in ground and flight testing. More recently, Will 
Roper, the Air Force Assistant Secretary for Acquisition, was quoted as 
saying that the Air Force is only starting to ``get our head around'' 
the scope of adequate test capability needed to support these rapid 
efforts. This raises the question of how the Air Force will be able to 
declare, with confidence, the success or failure of hypersonic efforts 
in the 2021-2022 period.
    Question: Secretary Wilson, the Director of Operational Test and 
Evaluation, as well as the Air Force Assistant Secretary for 
Acquisition, have pointed that the unique challenges posed by testing 
hypersonic weapons--particularly the open-air testing needed to ensure 
these weapons can perform in realistic environments. Does the Air Force 
have a plan to ensure these weapons are tested rigorously before being 
declared successful and put into production? (OPR: AF/TE; OCR: SAF/AQ)
    Answer: ARRW and HCSW will conduct an appropriate level of testing 
consistent with their scope as rapid prototypes with leave-behind ``as-
is'' operational capability. These rapid prototyping programs, 
comprised of 7 test flights for ARRW and 6 test flights for HCSW, 
should provide sufficient data upon which to base a limited operational 
capability declaration decision after their All-Up Round operational 
environment flight tests.
    The Department of Defense is investing in the test and evaluation 
capabilities required to more rigorously test hypersonic weapons, but 
these test capabilities are still in development. For instance, a 
clean-air, Mach 7+, variable speed wind tunnel capability is on 
schedule to be available after completion in 2023. These test 
capabilities will be available to support future spirals of ARRW and 
HCSW and other hypersonic programs.

                      Air Force Disaster Recovery

    Three Air Force installations have been severely damaged by natural 
disasters: Tyndall AFB, Florida, by Hurricane Michael; Joint base 
Elmendorf, Alaska, by an earthquake; and Offutt AFB, Nebraska, by 
flooding. The most recent estimates indicate a current year budgetary 
shortfall of $899 million for damage assessments, repairs and repair 
plans. The Department of Defense is requesting FY19 supplemental funds 
for these and other Service installations hit by natural disasters in 
the past year in the amount of $1.7 billion.
    The Department has requested $467 million in FY20 ``OCO for Base'' 
activities for the Air Force to address only the costs of repair at 
Tyndall AFB; it is unclear what funds may be needed to address 
additional needs at Offutt AFB.
    The Air Force has advised the Subcommittee that in FY20 there is an 
estimated shortfall for Tyndall of $360 million and $400 million for 
other related damage costs.
    The Committee approved a recent reprogramming of $600 million ($200 
million for the Air Force and $400 million for the Marine Corps) on 
March 26. The Senate supplemental bill includes $600 million, including 
$400 million for the Air Force and $200 million for the Marine Corps; 
its passage is still pending.
    Question: Secretary Wilson, I understand you have spoken recently 
about the disaster recovery needs of the Air Force. Further, I 
understand there is a shortfall in FY19 of $899 million. Could you 
explain to the Committee what costs these funds would cover? How are 
you covering immediate costs? What, if any, facilities sustainment, 
renovation or modernization activities are you funding at this point, 
separate from these three disaster areas?
    Answer: The Air Force requires $750 million in FY19 Facilities 
Sustainment, Restoration, and Modernization (FSRM) and Support funds to 
continue recovering Tyndall AFB, Florida. These funds will enable the 
return of base operations while ensuring personnel do not continue to 
work in degraded facilities. Our FY19 estimate for FSRM and Support 
funding required at Offutt AFB is $120 million. We have cash-flowed 
funds from within our Operations and Maintenance budgets to cover the 
immediate costs for Tyndall and Offutt recovery, as well as for Joint 
Base Elmendorf-Richardson. Other FSRM activities funded from 
centralized accounts have been suspended. Without supplemental funding 
now, the Air Force must cut critical facility and readiness 
requirements, driving Air Force wide operational risks and negatively 
impacting the recovery of Tyndall and Offutt.
    Question: Given the fact that the flooding in Offutt AFB just 
occurred, when will the Air Force be able to provide the committee with 
a list of projects for repair? Or do you believe the preponderance of 
the programs will be military construction projects?
    Answer: Our revised FY19 estimate for FSRM and Support funding 
required at Offutt AFB is $120 million, which was refined as facility 
damage assessments were completed.
    Additionally, flight simulators and equipment supporting RC-135 
training and operations was damaged. Without an additional $234 million 
to replace this equipment, training capacity and ability to continue 
filling operational taskings will be negatively impacted. Separately, 
on 18 April 2019, the Air Force provided Congressional committees with 
a preliminary $298 million list of parametric cost estimates for the 60 
facilities we expect to be replaced by military construction projects.

                                            Tuesday, April 8, 2019.

                            FISCAL YEAR 2020

                   UNITED STATES ARMY BUDGET OVERVIEW

                               WITNESSES

HON. MARK T. ESPER, SECRETARY OF THE ARMY
GENERAL MARK A. MILLEY, CHIEF OF STAFF, U.S. ARMY

                Opening Statement of Chairman Visclosky

    Mr. Visclosky. The subcommittee will come to order.
    This afternoon, the committee will receive testimony on the 
posture of the United States Army and the fiscal year 2020 
budget request for the Army.
    Our two witnesses are the Honorable, or Dr., Mark Esper, 
Secretary of the Army, and General Mark A. Milley, the Chief of 
Staff of the Army.
    We welcome you both back to the subcommittee and thank you 
for your service.
    General Milley, I would also like to take this opportunity 
to congratulate you on your nomination to be the next Chair of 
the Joint Chiefs of Staff.
    In the recent past, there have been some discussions over 
the continued need for U.S. land power. Such speculation was 
clearly wrong. Continued insecurity in Afghanistan and 
throughout the Middle East, the rapid modernization of Russia 
and Chinese military capabilities, and a defiant North Korea 
all underscore the need for a strong, capable Army.
    The committee has made significant investment in Army 
readiness over the past several years to ensure soldiers in all 
components are prepared for whatever our unpredictable world 
brings. We have already seen the impacts of that investment 
through increased training, improved maintenance availability, 
and increased flying hours.
    The Army's fiscal year 2020 budget request once again 
prioritizes readiness but also focuses resources on future 
modernization efforts in order to support the National Defense 
Strategy. This investment in the future is intended to prepare 
the Army to face great-power competition and is led by the 
recently created Army Futures Command.
    However, downpayments in future high-tech weaponry come at 
an expense, primarily in the form of the elimination or 
reduction of 186 existing procurement programs. Many of these 
programs are on time, on budget, and bring essential 
capabilities to our soldiers.
    The Army proposes to trade those programs for investments 
in future modernization, which does bring a certain amount of 
risk. I strongly support the need to modernize the Army but 
clearly have concerns about the path of the 2020 budget 
request.
    The Army has struggled mightily with modernization programs 
over the last two decades. We have always been told this time 
it is different. Yet several high-profile Army acquisition 
programs were ultimately canceled after significant investment 
of taxpayer dollars due to an incomplete requirement process.
    Given the nature of the threats, we cannot afford to 
replicate the past. I do look forward to hearing about how the 
Army's acquisition strategy for 2020 will break this cycle.
    Another challenge the Army faces is recruiting future 
soldiers. The manning levels that were authorized and 
appropriated in fiscal year 2019 do not appear to be able to be 
reached, creating a significant surplus in funding.
    We have seen similar scenarios play out over the past 
several years. However, fiscal year 2019 is different. Instead 
of using the additional funding to invest in Army and other 
military priorities, we have learned that $1 billion in surplus 
funding will be used to finance the President's border wall.
    I should note that this committee denied that proposal, but 
the Department moved forward with their plan anyway, breaking a 
historical agreement between this committee and the executive 
branch.
    Gentlemen, I have seen unfunded needs for the Army and 
across the services, including readiness, improved facilities, 
and your stated goal of modernizing the force. Those needs are 
great. This committee wants to be your partner in achieving 
your goals. But it appalls me when the funding that Congress 
appropriates to enhance our military superiority is used to 
finance nonmilitary functions via a unilateral decision by the 
President of the United States.
    With that, I thank you again for appearing before the 
committee today to discuss these important issues.
    We will ask you to present your summarized statements in a 
moment, but first I would like to recognize the distinguished 
ranking member, Mr. Calvert, for his opening comments.

                     Opening Remarks of Mr. Calvert

    Mr. Calvert. Thank you, Chairman Visclosky.
    Secretary Esper, General Milley, thank you both for your 
service and for being with us today.
    I would also like to congratulate you, General Milley, on 
your nomination to be the next Chairman of the Joint Chiefs of 
Staff. It is well-deserved, reflects great credit upon you and 
the United States Army.
    It is evident from this budget request that the Army is in 
the midst of a significant paradigm shift from 
counterinsurgency to the near-peer threats emphasized in the 
National Defense Strategy. From the establishment of Army 
Futures Command to the relocation of resources, this shift is 
reflected most dramatically in the Army's modernization plans.
    While I understand the reasoning for these changes, I have 
some concerns with their scope and speed. Given the resources 
at stake, it is critical that the Army gets this right. So I 
look forward to hearing from you about how your budget request 
aligns resources with the Army's modernization strategy.
    I will also be asking you about how Army Futures Command 
will interact with the traditional Army acquisition and 
requirements communities.
    Finally, I will be interested in hearing from you both 
about the risks that we are assuming in the near term by 
shifting resources away from current capabilities to future 
priorities.
    Thank you both again for your service. I look forward to 
your testimony.
    Mr. Chairman, I yield back.
    Mr. Visclosky. Thank you very much.
    Gentlemen, your full testimony will be placed in the 
record, and members have copies at their seats.
    My intent is to complete two rounds of questions for each 
member present. In the interest of time, I would strongly 
encourage you to keep your summarized statements to 5 minutes 
or less, to be complete but succinct in responding to 
questions.
    Secretary Esper, I would ask that you go first, followed by 
General Milley, but would just suggest, because we will be 
having votes shortly, that we will simply continue the hearing, 
given our location, and go back and forth so that we can 
proceed.
    Mr. Secretary, go ahead.

                  Summary Statement of Secretary Esper

    Secretary Esper. Yes, sir.
    Chairman Visclosky, Ranking Member Calvert, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today.
    I want to first thank Congress for helping us reverse 
readiness decline that developed following several years of 
budget uncertainty. Because of the strong support provided in 
the fiscal year 2018 and 2019 budgets, we have increased the 
number of fully ready brigade combat teams by 55 percent over 
the past 2 years.
    However, while I am confident we would prevail against any 
foe today, our adversaries are working hard to contest the 
outcome of future conflicts. As a result, the Army stands at a 
strategic inflection point. If we fail to modernize the Army 
now, we risk losing the first battles of the next war.
    For the past 17 years, the Army bore the brunt of the wars 
in Iraq and Afghanistan. For over a decade, we postponed 
modernization to procure equipment tailored to 
counterinsurgency operations. Our legacy combat systems, 
designed for high-intensity conflict, entered service when I 
joined the Army in the early 1980s. While they dominated in 
past conflicts, incremental upgrades for many of them are no 
longer adequate for the demands of future battle, as described 
in the National Defense Strategy. We must build the next 
generation of combat vehicles now before Russia and China 
outpace us with their modernization programs.
    Despite Russia's looming economic difficulties, they are 
steadily upgrading their military capabilities. In addition to 
field testing their next-generation T-14 Armata tank, they 
continue to advance the development of their air defense and 
artillery systems. And when combined with new technology such 
as drones, cyber, and electronic warfare, Russia has proven its 
battlefield prowess.
    We have no reason to believe that Moscow's aggressive 
behavior will cease in the short term. Russia's blatant 
disregard for their neighbors' sovereignty, as demonstrated in 
Ukraine and Georgia, is a deliberate strategy meant to 
intimidate weaker states and undermine the NATO alliance.
    In the long run, China presents an even greater challenge. 
They continue to focus their military investments in cutting-
edge technologies such as artificial intelligence, directed 
energy, and hypersonics. Beijing's systematic theft of 
intellectual property is also allowing them to develop 
capabilities cheaper and faster than ever before.
    To deter the growing threat posed by great-power 
competitors and defeat them in battle if necessary, we must 
leap ahead to the next generation of combat systems, and we 
must do so now.
    Over the past year, the Army took a major step forward in 
reorganizing its entire modernization enterprise with the 
establishment of Futures Command. In doing so, we stripped away 
layers of bureaucracy and streamlined our acquisition process 
while achieving unity of command and greater accountability. 
Guided by our six modernization priorities, Army Futures 
Command is hard at work developing the systems needed to 
maintain battlefield overmatch in future conflicts.
    When we reviewed our budget this time last year, we felt 
that it was unreasonable to ask Congress for the additional $4 
billion to $5 billion needed annually to fund our modernization 
without first looking internally to find the necessary 
resources.
    As a result, the Army's senior leaders took an 
unprecedented initiative to comprehensively review every Army 
program. Our goal was simple: find those programs that least 
contribute to the Army's lethality and reallocate those 
resources into higher-priority activities.
    After over 50 hours of painstaking deliberations, we 
eliminated, reduced, or delayed nearly 200 programs, freeing up 
over $30 billion over the next 5 years. We then reinvested this 
money into our top priorities: those systems and initiatives we 
need to prevail in future wars.
    The Army will continue to ruthlessly prioritize our budgets 
to provide a clear, predictable path forward that will achieve 
our strategic goals. That process is underway now as we develop 
next year's budget.
    Support for the Army's fiscal year 2020 budget is critical 
to building the Army the Nation needs and demands. Those who 
are invested in legacy systems will fight to hold on to the 
past while ignoring the billions of dollars in opportunity 
created by our investments in new technologies and what it 
means for the Army's future readiness. While change will be 
hard for some, we can no longer afford to delay the Army's 
modernization. We believe we are following the sound guidance 
conveyed to us by many of you.
    In this era of great-power competition, we cannot risk 
falling behind. If left unchecked, Russia and China will 
continue to erode the competitive military advantage we have 
held for decades.
    The Army has a clear vision, which I ask be entered into 
the record, and a sound strategy to maintain battlefield 
overmatch. We are making the tough choices. We now need the 
support of Congress to modernize the force, and it starts with 
the fiscal year 2020 budget. The bottom line is this: We owe it 
to our soldiers to provide them the weapons and equipment they 
need to win decisively in future battles.
    Thank you again for your continued support. I look forward 
to your questions and appreciate the opportunity to discuss 
these important matters with you today.
    Mr. Visclosky. Thank you very much.
    General Milley.

                  Summary Statement of General Milley

    General Milley. Chairman Visclosky and Ranking Member 
Calvert, distinguished members of the committee, thank you all 
for the opportunity to join Secretary Esper here today.
    And it remains an incredible privilege for me to represent 
all of the 1 million soldiers in the regular Army, the National 
Guard, and the U.S. Army Reserve that are arrayed in 18 
divisions, 58 brigade combat teams, and deployed with over 
180,000 soldiers today in 140 countries around the world on 
freedom's frontier.
    While much of our testimony today and your questions are 
going to focus on the Army's challenges and how to make us 
stronger and more lethal, it is important to note up front for 
the committee, for the entire Congress, for the American 
people, our allies, and perhaps most importantly for our 
adversaries, that the United States Army is a highly capable, 
globally deployable force today. We can go on short notice. We 
can go anywhere in the world. We have the training, equipment, 
people, and leaders to prevail in extended ground combat 
against anyone, anywhere, anytime. And there should be no one 
who doubts that.
    I concur with Secretary Esper's comments on the threats 
posed by China and Russia. And they are, in fact, rising. The 
international order and, by extension, the United States' 
interests are under increasingly dangerous pressure.
    China is a significant threat, as the Secretary outlined, 
to the United States and our allies in the mid- and long terms. 
I would categorize China as a revisionist power seeking to 
diminish our influence, U.S. influence, in the Pacific and 
establish themselves as the controlling regional power in Asia. 
And they are setting conditions to challenge the United States 
on a global scale in the coming decades.
    Russia seeks to return to global great power and will 
continue to challenge the United States not only in Europe but 
also in the Middle East, Asia, Africa, and the Arctic as well 
as the Western Hemisphere. Russia continues to undermine NATO 
as an alliance and to sow dissent throughout the European 
continent and, as we all know, in our own homeland through a 
variety of means. Russia remains the only current existential 
threat to the United States and will likely become, in my view, 
increasingly opportunistic in the near term.
    So what will this budget do? In the last 17 years, our 
strategic competitors have eroded our military advantages, as 
outlined by Secretary Esper. And with your help, starting 2 
years ago, we began to restore our competitive advantage, and 
our recent budgets have helped improve readiness and lay the 
groundwork for future modernization. And we ask, with this 
budget, that you sustain those efforts.
    Our goal remains 66 percent, two-thirds, of the regular 
Army, the Active Duty Army, the brigade combat teams, and 33 
percent of the National Guard and the U.S. Army Reserve to be 
at the highest levels of readiness. We are not there yet. Those 
numbers, those levels of readiness are what we need to be able 
to execute the National Defense Strategy. And with continued, 
consistent, predictable congressional support, we can reach 
those levels of readiness sometime, we think, in 2022.
    Specifically, this budget will fund, in terms of readiness, 
58 brigade combat teams and 6 security force assistance 
brigades for the total Army; 32 combat training center 
rotations, to include 4 for the National Guard, which is twice 
as many as recent years; increased prepositioned stocks in both 
Europe and INDOPACOM; and many, many other readiness 
initiatives.
    In terms of modernization, this budget is really going to 
fund future readiness in terms of across our 6 modernization 
priorities, which include 31 specific programs, 50 high-
priority programs, and another 100 which we consider must-
funds. In short, this budget will increase the Army's lethality 
in the near term and set conditions for increased lethality of 
the Army in the future.
    And, lastly, I want to highlight that this committee, 
Congress as a whole, has provided us tremendous support over 
the last several years. And we, both the Secretary and I, and 
the entire Army's leadership are committed to applying our 
resources deliberately and responsibly, understanding that they 
have been entrusted to us by Congress and the American people.
    Collectively, you and us, we must ensure that we maintain 
our solemn obligation to the American soldier to never send our 
sons and daughters into harm's way unless they are properly 
trained, fully manned, and have the best equipment money can 
buy and are extraordinary well-led.
    We believe that strength provides deterrence and preserves 
the peace in terms of great-power competition and the awful 
potential for great-power war. The only thing more expensive, 
in my view, than deterring a war is actually fighting a war, 
and the only thing more expensive than fighting a war is losing 
a war. This budget will ensure that none of those nightmare 
scenarios ever come true.
    Thank you again for your continued support to our soldiers 
and their families, and I look forward to answering your 
questions.
    [The written statement of Secretary Esper and General 
Milley follows:]
[[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Visclosky. General, thank you very much.
    Mr. Calvert.

                          ARMY FUTURES COMMAND

    Mr. Calvert. Thank you, Mr. Chairman. Appreciate that.
    Let's talk about the Army modernization efforts. Secretary 
Esper, General Milley, you both have worked hard to put forward 
an ambitious Army modernization effort that will enable us to 
fulfill the capabilities required by the National Defense 
Strategy. I commend you for this effort. We want to succeed, 
and we want you to succeed.
    However, many of us have been here a long time, and we have 
witnessed high-profile failures of Army modernization efforts, 
including Future Combat Systems, which we expended $18.1 
billion; the Comanche helicopter, we expended $7.9 billion; the 
Crusader self-propelled howitzer, $2.2 billion; the Ground 
Combat Vehicle, $1 billion. It is about $30 billion. I am sure 
we wish we could get all that money back.
    The Army is at a crossroads between legacy and next-
generation equipment. Your modernization efforts are too 
important to fail.
    One of the reasons cited for the failure of the FCS program 
was a complicated program management approach. Program 
management of major defense systems typically involves a number 
of organizations and multiple authorities and processes.
    So I have a number of questions here.
    How are you ensuring accountability over these programs?
    How will the programs interact with traditional Army 
Acquisition Office structures?
    Who has the ultimate authority over the requirements?
    How are you driving out the risk factors, such as 
assumptions on technological maturity?
    Are you working with CAPE, the Office of Cost Assessment 
and Program Evaluation, which tends to be more accurate on 
realistic cost estimates?
    And, finally, how are you balancing these requirements and 
what the warfighter needs with the speed at which you are both 
hoping to field these new systems?
    Secretary Esper. Well, thank you, Mr. Calvert. I can't 
agree more with your points in terms of money wasted in the 
past, and that is one thing that we aim to overcome here.
    I will just try and take a number of your points here.
    Yes, we are working with CAPE.
    With regard to accountability, a fundamental reason why we 
stood up Army Futures Command was to establish two things: 
unity of effort and unity of command. And that places 
accountability squarely on General Mike Murray, the commander 
of Army Futures Command.
    So, before, where you had multiple players, a dozen-plus 
players involved in the modernization effort, from S&T to 
acquisition to budget to contracting, all of that, he now is 
driving the entire requirements process. So he is the 
accountable officer for that whole chain of modernization 
events. So that is where our accountability is built in.
    The interaction occurs in the fact that he works side-by-
side with Dr. Jette, our head of Army acquisition. And it is 
seen most evidently at the cross-functional team level. So at 
the cross-functional team is where this partnership begins, 
with the cross-functional team leader, which is typically an 
O7, and a warfighter sitting side-by-side with the PM or PEO of 
a program. And they are the ones working with this broader team 
of budgeters, testers, contractors, and all that to bring 
forward realistic requirements.
    So we now have a process that aims to reduce the 
requirements process from what used to be 5 to 8 years down to 
12 to 18 months, based with a lot more interaction with the 
private sector and in a way that aims to do a lot of 
prototyping up front. So rather than buying clean-sheet 
designs, we intend to prototype. And you can see that now with 
prototyping we are doing with the ERCA long-range gun, 
prototyping on the next-generation combat vehicle that will 
happen in the next couple years.
    So there are a number of organizational changes we have 
made. There are process changes we have made and other 
adjustments we have made--for example, lining up, in terms of 
career timelines, the CFT leads and the program managers so 
that they stay in position much longer and they don't hand 
programs off until there is a major milestone change.
    So there is a lot more I can give you on this, but we 
looked at all parts of this problem to make sure that we did 
exactly what you called for and made sure we don't fall into 
the same problems of the past.
    Mr. Calvert. General.
    General Milley. I would concur with the Secretary.
    This goes back a ways, as you well know and pointed out, 
Congressman. Senator McCain, when I first became Chief, he and 
I sat down at length, and he talked about a broken acquisition 
system. And one of the things in the last NDAA that was driven 
by Senator McCain was to bring the Chiefs, the service Chiefs, 
back into the entire acquisition and procurement business at a 
much heavier level.
    So accountability is right here with the Secretary and I. 
The Secretary is in charge of the entire acquisition process, 
and the Chiefs of each of the services--I, being the Chief of 
Staff of the Army, am in charge of the requirements.
    One of the things we needed to do, going back 3-1/2 years 
ago, was we needed to reestablish unity of command, unity of 
effort, because the Army procurement and acquisition system was 
spread out all over the place in multiple commands. And as the 
Secretary looked down into the Army, he had a command, Forces 
Command, which was responsible for current readiness; he had a 
command, Army Materiel Command, which was responsible for the 
logistical readiness of the force; and he had Training and 
Doctrine Command, which was spread out all the way from prior 
to a soldier coming in the Army to begin with, all the way 
through your education system and everything between, to 
include setting requirements. It was a command spread too thin.
    So we decided--and I think it is exactly the right thing; 
it is the largest reorganization of the Army in 40 years--to 
establish a command that had sole responsibility for the 
modernization of the Army and to develop the modernization in 
answer to--I mean, we have sole responsibility, but a command 
that would do that in the name of the Secretary and the Chief. 
And that is what General Murray is all about.
    Forces Command still does all the readiness in the near 
term, the legacy force, if you will, call it out through 2, 3, 
4 years. But Army Futures Command, that command itself, is 
responsible to take the deep look into the future, gather it 
all together, analyze the concepts, come up with a doctrine, 
the organizations, and the material solutions to deal with this 
near-peer threat.
    And the last thing I would say is that, in terms of 
processes, we have been working on a variety of processes for 
the last 2 or 3 years to improve the system, the efficiency, 
the timeliness, in order to get both the best use of the 
taxpayers' dollar and to get the piece of equipment to the 
soldier in the shortest amount of time. There has been a huge 
amount of work done, and I am very, very proud of the Army 
having done what it did in the last 3 years on this.

                            PROGRAM MANAGERS

    Mr. Calvert. Thank you.
    Just a final point--you brought it up, Secretary Esper--is 
program managers. You see it in these major weapon programs, 
like, for instance, the F-35. I don't know how many program 
managers, Mr. Chairman, we have had over the years, but it has 
been a number.
    And it is not like the days when you had an Admiral 
Rickover and you gave him a job and said, ``Look, this is it. 
Submarines. You are going to be with it until the day you 
die.'' And that literally--he was there until the day, almost, 
that he died.
    And so there is no responsibility on these major weapon 
programs that anybody can put a finger on.
    General Milley. And I am glad you brought up Rickover. That 
was one of--and you may have known this. That was one of the 
models we looked at. And, in fact, for Futures Command, the 
Futures Command commander next--not Murray, because Murray is a 
relatively pretty senior guy. He graduated around the same time 
I did, so he is getting long in the tooth, and he is going to 
time out after a few more years. But the commander after next, 
it is the Rickover model we are looking at for Futures Command, 
that when we appoint that person, whoever that next person is, 
we are looking at probably a 7- or 8-year term, just like 
Rickover was. He was, you know, Rickover for life.
    And that is kind of what we want in the Futures Command, is 
that continuity of effort over multiple Secretaries, multiple 
Chiefs.
    Mr. Calvert. Thank you.
    Thank you, Mr. Chairman.

                        MODERNIZATION PRIORITIES

    Mr. Visclosky. I would like to take my time, first round, 
now, simply because I would like to follow up on Mr. Calvert's 
line of questioning but in a different vein.
    One, it is the committee's job to pay for modernization. 
And I do appreciate that the Department has come in with 186 
recommendations as far as reductions. My concern--and we have 
had conversations about this in the past--is that there is, if 
you would, a gap, that some of the modernization will start, 
there are some of the cuts that will start in 2020, but some 
will significantly increase in 2021 and the outyears.
    And my concern, because Congress is a partner and has been 
at fault here, when the Army is right on an acquisition, is we 
can't say ``no'' to a cut--or, we can't say ``yes'' to a cut.
    And so my first question is--I assume you have talked to 
vendors about the adjustments that will be made as far as 
determination, reduction in programs, the new ones, and trying 
to even out, if you would, the industrial base and the 
production schedule. What about the Members and Senators in 
those districts and States? Are you having those conversations, 
too, to plow the field for us when we get on the House floor?
    I think of a Chinook helicopter. I have heard from a number 
of people from a particular State that they are not happy with 
that particular change. And I am not saying it is good or bad. 
Vendors, because they may have a job in that State or another 
State, may have a different opinion.
    Is the Army seeking out some of these Members and doing an 
educational program? Really, we are not going to repeat the 
past, and we really aren't going to need this program in the 
future, and there is going to be that uncertainty in the middle 
years. Are you doing that?
    Because when we get to the House floor--and I have 
reiterated, we have had some very unpleasant experiences, 
because we give you new money, the theory is we pay for it with 
cuts, and by the time we get done with the bill on the House 
floor, there are no cuts, and I have to find--we have to find 
more money.
    And I am not suggesting anybody is doing anything untoward, 
but I don't want to get in a trap.
    Secretary Esper. So, Mr. Chairman, you know, on your last 
point first, that is why I said up front, we could have come to 
you and said, ``I need $5 billion more to modernize the Army,'' 
but I think that with a $182 billion budget we can find 
savings. And that is what we did.
    It is not that the programs we cut, eliminated, or delayed 
didn't have any value. The fact is in many of them we were 
either producing too many, the upgrades weren't worth the cost, 
it was a duplicate effort in some ways, if you will.
    But to your first question, you know, obviously, the budget 
is not available for any public release or discussion until it 
is released, and that was 6 weeks ago at this point, I guess. 
But in the days immediately following this, several Army senior 
leaders reached out to some of the companies, the CEOs 
directly, those who took some big hits in the budget, and had 
discussion with them about where we are going and why.
    I would say, prior to that, the Chief and I have probably 
met multiple dozen times with CEOs, either privately or in 
large groups, to explain where the Army is going. We try to be 
very clear about our 6 modernization priorities and the 31 
programs associated with them and that those were not changing. 
So we wanted to give them predictability, because that is where 
we are going.
    What we try to do--and certainly in the case of 47s, I know 
that company was aware, because they came and spoke to me 
months in advance. We said, this is where we are going, this is 
why, this is our game plan, and tried to lay out what future 
is, to try to get them to move to future.
    I mean, could you imagine what the Army would look like in 
the 1980s or 1990s if Army leaders hadn't made the steps they 
made in the 1970s to really move to the Bradley and the Abrams 
and the Black Hawk and the Patriot? So that is the move we are 
trying to make now. These systems have been with us for four 
decades.
    You talked about the risk of doing this. There is a great 
risk and a very clear risk in not doing it, because these 
systems will not hold up. Many have run their useful life. The 
Bradley is a case in point. And if we don't modernize now, I 
don't know when we will, and we will be at a significant 
disadvantage on a future battlefield.
    Mr. Visclosky. Could I ask--because you have mentioned the 
conversations you have had with the vendors and contractors. 
They are not going to vote on this bill or on those amendments 
not to make that cut. Are people from the Department going to 
be--again, an educational program, here is why we are doing it, 
here is what the future looks like, so that, again, the ground 
can be laid here?
    Secretary Esper. Yes, sir. We have done that in multiple 
speeches, in multiple presentations. Again, I have done it 
privately; I have done it in small groups with CEOs and 
companies. I have done some outreach with Members but not as 
much. But certainly with the industry, absolutely.
    Mr. Visclosky. I would encourage the Department to think 
about individual Members----
    Secretary Esper. Sure.

                      COST REDUCTIONS FOR PROGRAMS

    Mr. Visclosky [continuing]. Delegations and locations. If 
you want to be successful, we have to win those votes on the 
House floor.
    The second question I would have--and then I will defer--
is, a significant number of the reductions--and, again, I am 
not arguing with them--are, given the Department's budget, 
relatively small. In one program for fiscal year 2020, $6 
million; for another one, $5,093,000; another one, $4,487,000.
    I appreciate the granularity, but I am also worried, is 
there a thought that has been put into some of these people who 
might be very small businesses, smaller contractors, and when, 
2 years from now, there is zero in that account, what happens 
to that part of the industrial base?
    Because many of these--that is why you have 186--are 
relatively small in comparison to the budget. Is there a 
thought and concern placed on who those vendors are and what 
happens to them?
    Secretary Esper. Yes, sir, we did try and pay attention to 
the industrial base. We obviously need a robust industrial 
base. And we need competition within that base, so we can't 
drive down a product so you have one vendor. So we tried to do 
due diligence there.
    I think throughout the process we have said, at least I 
have said, we may have made mistakes or whatever, and that 
probably is the case, but what we want to do is find out what 
those impacts are.
    And you are right, there is--in my view, when you do 
reform, no dollar amount is too small, in many ways. We have 
gone after a million dollars, because those millions and 5 
millions start adding up to 100 millions, and 100 millions 
start adding up to billions. That is how we got to 30-plus 
billion dollars.
    Because, again, I think if you look at the budget, you 
know, we found ourselves producing thousands of items that 
seemed far in excess of need of what a soldier or unit need. We 
saw ourselves building capabilities that were unnecessary or at 
least weren't as relevant as the capabilities we had or that we 
need in the future fight.
    Long-range precision fire is a case in point. We are 
outranged and outgunned. I have to build those systems now if 
we are going to face down the Russians and the Chinese on the 
future battlefield.
    So every time a case came before us, the Chief and I would 
ask, is it worth more money to keep funding this program? What 
do I get from that? What is the return on investment from that 
in terms of lethality versus putting that money into a long-
range cannon?
    And those were the fundamental choices we made, case by 
case by case, with some consideration, of course, to the 
industrial base.
    Mr. Visclosky. Judge Carter.
    General Milley. Could I just add one quick comment----
    Mr. Visclosky. Sure.
    General Milley [continuing]. Chairman.
    We are trying to shift from an industrial base model that 
has served our country well for, say, 100 years or so into the 
current century. So, for example, not everyone needs everything 
at the same time.
    It is contrary to the Army instinct. Army instinct is 
everyone has the same uniform, same haircut, everything is the 
same, same--left, right, left, right, left. But that is not 
necessarily going to be valuable in the future. In some 
instances it will, but in other instances it won't.
    So a case in point is the new squad rifle or the new 
individual rifle that we are developing down at Fort Benning. 
We decided that about 100,000 of the million, about 10 percent 
of the force, actually needs that rifle. So we are only going 
to buy 100,000 of those, for those forces that are engaged in 
close-quarters combat. The rest of us will do with the rifles 
that exist today.
    And that is just one example of many, many, many that, as 
we went through these night courts and these cuts, ended up in 
a $30 billion recoupment, because some of this equipment 
doesn't have to go to everybody.
    And the second point is, technology is moving at a rate of 
speed very, very quickly today. So if we decide on a particular 
item today, by the time you field an entire Army, that might be 
10, 20 years, 30 years, and that technology is no longer valid 
for the original need, and yet we keep buying it.
    So we are shifting to a different procurement model, an 
acquisition and procurement model.
    Secretary Esper. And, by the way, if I might add, when the 
Chief mentions the next-generation squad weapon, just so there 
is no misunderstanding, issued to the infantry or the scouts, 
that is all components. That is not just the regular Army; that 
would be issued to the Guard as well.
    But we look at who actually needs a weapon of that 
capability. And as the Chief said, you may not need it in a 
logistics unit, but you certainly need it in your regular Army 
and National Guard infantry units, and you need it in, you 
know, your cavalry units and stuff like that.
    We are trying to get more sophisticated, more precise in 
terms of how we--because these are going to be expensive 
weapons, given their capabilities--how we do smarter budgeting, 
so we free up money for other things.
    Mr. Visclosky. Judge Carter.

                        MOTOR POOLS AT FORT HOOD

    Mr. Carter. Thank you, Mr. Chairman.
    And thank each of you for being a part of our Army. We are 
very proud of you.
    And, General Milley, we are looking forward to your 
confirmation. I think it is a great choice.
    I am going to go local, because I have a question about 
Fort Hood. And you both know I represent Fort Hood. It is a 
great place.
    Over the past several years, as I bring people through--I 
have had Ms. Granger come through. I have had other Members of 
Congress come through. General Milley and I have toured and 
looked at the needs of Fort Hood together with the garrison 
commander on multiple occasions. And it has all come down to: 
We have to refocus and fix up our barracks, we have to get new 
motor pools that our equipment will fit into, and we have to 
get hangars.
    Okay. We have done a lot. We have found money. We have 
scrounged money. We have come up with solutions kind of outside 
of what we do here. And we have gotten an awful lot done on our 
barracks at Fort Hood. And I think we all need to proud of 
that. And there is barracks money in this particular bill.
    But as I look at this, not only is there nothing about 
motor pools, but there is nothing--as I look into the future on 
the FYDP, there is nothing in the future about motor pools. And 
yet we have motor pools that an Abrams tank won't fit in. And 
if you are going to build a new tank, it probably won't fit in 
it either.
    And so, at that point, I want to know, was there a decision 
made not to think about motor pools at Fort Hood? Which has 
been a current event at least since General Milley was in 
command there; I know that for a fact. And so I wanted to find 
out--I needed to ask that question about motor pools. Because I 
came to this table looking to build a couple motor pools, and 
there is nothing in there about it.
    General Milley. Thanks, Congressman. And, of course, as you 
recall, Fort Hood is not the great place; it is the greatest 
place.
    Mr. Carter. Yes.
    General Milley. And we know that there is, like, 6\1/2\, 7 
miles of motor pool at Fort Hood. I think what we are talking 
about is not the space but the facilities themselves.
    Mr. Carter. Buildings.
    General Milley. And those facilities at Fort Hood, as a 
former commander of Fort Hood, they do need to be upgraded. We 
are aware of that. It is on the laundry list.
    But in the broader scheme of things, in terms of 
prioritization for this particular budget, the motor pool at 
Fort Hood, for the 2020 budget, did not rise above the line. It 
is not too far below the line, by the way. So if money does 
become available, then it is certainly under consideration.
    We recognize the importance of motor pools. There is not a 
deliberate decision not to fund motor pools. But in the scheme 
of things and priorities, the Secretary and I and the senior 
Army leadership determined that there were other priorities of 
greater need than the Fort Hood motor pool. I hate to say that, 
but it is just below the line.
    Mr. Carter. I recognize that we care about our soldiers and 
their living environment, and we are certainly working on 
barracks and doing a good job on that. But we have to worry 
about their working environment too. And working in the Texas 
110-degree August sun, where you get burned when you touch the 
tank, is not a good place to be.
    And my responsibility requires me to continue to push 
getting those workplaces in order. Because we have some really 
fine people out there that keep us ready to go to war, and 
their work environment is not the best right now.
    Thank you for your--I understand and respect your 
decisions. And I realize, from the conversation we are having 
here, about what we are doing as we go to near-peer 
competition. But let's not forget our current equipment needs 
to be ready to go to fight tonight.
    Thank you.
    General Milley. And it is a balance between current 
readiness and future modernization, which is a different name 
for future readiness. And we are keenly aware of that. And we 
think--the Secretary and I and the rest of the Army leadership 
thinks we did a job of due diligence, if you will, to strike 
that balance. Is it perfect? No. And we do recognize the 
importance of motor pools, especially those at Fort Hood.
    Secretary Esper. The only thing----
    Ms. McCollum [presiding]. Mrs. Bustos.
    Secretary Esper. The only thing--I am sorry.
    Mr. Carter. Okay. Thank you. I yield back.
    Ms. McCollum. Mrs. Bustos.

                          ROCK ISLAND ARSENAL

    Mrs. Bustos. Thank you. Thank you, Mr. Chair--and Madam 
Chair who is sitting in.
    It is good to see you both again. And I do want to thank 
you for your regular engagement with us even before I was on 
this committee, and look forward to working with you more 
closely now that I am an appropriator.
    And I think you both know this, because I have brought it 
to your attention, and, Mr. Secretary, you understand that the 
Rock Island Arsenal is in the congressional district that I 
serve.
    And for my colleagues here in this room that have not had 
the pleasure of visiting what I think is a pretty awesome 
place----
    Mr. Carter. We would love to have you.

                     ADVANCED MANUFACTURING CENTER

    Mrs. Bustos [continuing]. In addition to Fort Hood--but I 
would love for folks to visit our installation. But it is 
literally on an island in the middle of the Mississippi River, 
so it is a pretty awesome environment.
    But when our brave men and women put on the uniform and put 
their lives on the line, the men and women who serve and work 
at the Arsenal are proud to help provide the best equipment to 
help get the job done. And the hardworking men and women of the 
Rock Island Arsenal are leading the way in developing 21st-
century manufacturing techniques that make our Army the 
strongest in the world, and we are certainly proud of that.
    I am pleased to see the Advanced Manufacturing Center of 
Excellence nearing its initial operating capability at the Rock 
Island Arsenal. And given the history and current efforts that 
the Arsenal provides the Army, this is the right location for 
this endeavor, in our opinion.
    To that extent, how do you envision additive and advanced 
manufacturing techniques helping to support the fielding of the 
Army's modernization effort? And the second part of that, 
particularly as we look to the efforts like the next-generation 
combat vehicle?
    Secretary Esper. So, thank you, ma'am, for that opening. As 
we discussed, I had the chance to go up there and visit Rock 
Island last year--it is a neat place to visit--and walk through 
the site of what would be our 3D Manufacturing Center of 
Excellence.
    I think, in many ways, it can be a game-changer for Army 
sustainability both at the strategic level, in term of its 
ability to allow us to inexpensively and quickly print parts, 
if you will, particularly for low-density items, and if you can 
think about that, once we master that technology, to put it on 
the battlefield, behind the forward line of troops, so that you 
don't have to carry around warehouses of supplies and 
equipment.
    The ability to quickly manufacture key parts, again, could 
really improve our sustainability, our readiness on the 
battlefield. So I think it is an exciting venture I think we 
need to continue to develop, because I think additive 
manufacturing is going to be a real big, important part of the 
future Army.
    General Milley. If we look at future combat operations, it 
is highly likely that ground forces will be cut off and they 
will be operating in a small, isolated organizations. Long 
logistics convoys may or may not have the survivability and the 
capability to get through on that type of extraordinarily 
violent, very intense battlefield. So 3D manufacturing, 
additive manufacturing, is going to be critical to the 
survivability of an organization so they can produce their own 
spare parts right on site. And that will play a very critical 
role in future battle.

                         ARMY MATERIEL COMMAND

    Mrs. Bustos. Okay. Great.
    If I may ask one more question?
    All right. So, in addition to making some of the best Army 
equipment, the Arsenal is also home to Army Sustainment 
Command, as you are aware. It is the logistics arm of the Army 
Materiel Command, and that provides our warfighters with 
everything they need to do their job. America's soldiers need 
ammunition, equipment, food, uniforms, much more, to fight and 
win on the battlefield or to respond to natural disasters, and 
the Army Sustainment Command makes sure that they get them.
    Can you discuss the role of prepositioning of assets and 
how that plays into managing the budget, both in support of 
current operations and future needs?
    Secretary Esper. Well, I will speak to one part of that. 
You may be talking about prepositioned stocks, for example. We 
have sets around the world--Korea, Europe, and elsewhere. It 
obviously allows us to fall in on these--a piece of equipment, 
whether it is fighting vehicles or tanks, much more quickly 
than if we had to ship them from the United States. And so it 
is a very important part.
    I would like to commend Army Materiel Command, under 
General Perna, for what they have done to bring that to a much, 
much higher state of readiness. I had a chance to walk through 
these prepositioned stocks warehouses in both Korea and in the 
Middle East. And I know we are look at some adjustments, based 
on what the National Defense Strategy tells us to do, to make 
sure that we are in locations that allow us the highest degree 
of readiness should a conflict happen.
    General Milley. So, as the Secretary said, the PREPO stocks 
play a critical role in, essentially, what I would argue is 
part of the American way of war, which is for the United States 
to project power forward and to do that in a strategic way, 
from continental United States, overseas.
    And we can rapidly deploy ground forces by air or sea and 
have them fall in on various prepositioned stocks and then move 
from the PREPO stock areas into the combat zone.
    So the PREPO stocks are critical to the broader strategy of 
the United States and our ability to conduct combat operations 
overseas.
    Mrs. Bustos. All right.
    Mr. Chairman, I yield back the remainder of my time.
    Mr. Visclosky [presiding]. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Gentlemen, good to see you all.
    Let me talk a little bit about SOUTHCOM.
    Mr. Secretary, the folks assigned to SOUTHCOM, the 
headquarters, they clearly struggle to find affordable housing 
in the area, for obvious reasons. And this puts an incredible 
financial burden on them.
    And, General, in October, the Army received approval to 
proceed with the required planning and studies to acquire land 
for SOUTHCOM military housing. Any idea on when the Army is 
planning that process or what is going on with that process?
    Secretary Esper. My understanding, Congressman, is that the 
Army is looking at options, a variety of alternatives, which 
could include the one you are talking about. But I think what 
we need to do is make sure we understand the most economical 
and effective approach going forward that meets a variety of 
needs.
    You know, we have soldiers in high-cost urban areas all 
around the country, and there are different approaches to each. 
So I just think we want to take a thoughtful approach to make 
sure we understand what the near-term and long-term values and 
costs are for a variety of options.
    Mr. Diaz-Balart. Oh, absolutely. But any idea where that is 
in the process? Because, obviously, you know, folks are 
struggling down there.
    Secretary Esper. I don't, but we can get back with you.
    Mr. Diaz-Balart. That would be great.
    General Milley. It is in an analysis-of-alternatives 
process.
    I have talked to Craig Faller. Each of the services has 
proponents, an executive agent, if you will, for various 
COCOMs. And the Air Force has, you know, Tampa or MacDill and 
so on. So we have SOUTHCOM. So we are responsible for the 
housing and the maintenance and all that kind of stuff, the 
administrative/logistical support for SOUTHCOM.
    And it is in a process--he has made his desire, his 
aspiration, his ask, his requests, he has made that known to 
us. It is in a process right now where we are looking at an 
analysis of alternatives to meet his housing needs.

                       NATIONAL DEFENSE STRATEGY

    Mr. Diaz-Balart. Appreciate that.
    Another quick question, if I may, Mr. Chairman. I know that 
votes are pretty much at the end of the time.
    But I think everybody kind of knows that SOUTHCOM is one of 
the most under-resourced of the commands. I don't have to tell 
you all gentlemen what is happening in this hemisphere right 
now with Venezuela, Cuba, Nicaragua, Russians, Iranians, 
Chinese. It is a big deal. And yet my understanding is that, in 
the proposal, there is actually a bit of a decrease for 
SOUTHCOM funding.
    And so just wondering, what is the rationale for decreasing 
SOUTHCOM support right now, particularly right now during this 
pretty unprecedented time in this hemisphere?
    General Milley. Congressman, the National Defense Strategy 
is what guides us. It is an authoritative document. It is 
signed by the former Secretary of Defense, General Mattis--
Secretary Mattis. We take that as an order, and we develop our 
plans and policies and our train/man/equip programs in 
accordance with the National Security Strategy coming out of 
the White House and the National Defense Strategy.
    The National Defense Strategy clearly states, 
unambiguously, that the priority is China and Russia, and then 
everything else falls after that, and that SOUTHCOM is an 
economy-of-force theater, that the main effort is Pacific--I am 
putting this in military language, so to speak--but the main 
effort is Pacific, followed by Europe. And then third would be 
the counter-violent-extremist and counter-terrorist operations 
that are going on in the Middle East. And then after that comes 
SOUTHCOM and AFRICOM.
    But those are orders to us. So we prioritize in accordance 
with those orders. And that is why you see what you see in the 
budget.
    Mr. Diaz-Balart. If I may, General, though, because, right 
now, with what you see in this hemisphere----
    General Milley. Yes.
    Mr. Diaz-Balart [continuing]. Which is, you know--I know 
that concerning, the fact that you have now, it looks like, an 
increased, at least more public presence of Russia in this 
hemisphere. You have China----
    General Milley. Yes.
    Mr. Diaz-Balart [continuing]. Now. You know that.
    And so I would just caution everyone to not underestimate 
the threat. I think that the threat that we are facing right 
now in this hemisphere--and I may be wrong, but I don't think 
so--is, frankly, equivalent to--in dealing with, again, not 
only Russia and China but others, including Middle Eastern 
presence--is as big of a threat as anything that we are seeing 
anywhere around the world right now. And so I just hope that we 
are aware of that.
    General Milley. I think we are--with SOUTHCOM and Admiral 
Faller down there and the forces and the intelligence services 
that we have, I can assure you that we are keenly aware of the 
threats in the SOUTHCOM area of our responsibility.
    Mr. Diaz-Balart. Thank you.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Ruppersberger.

                              HYPERSONICS

    Mr. Ruppersberger. First thing, I want to acknowledge both 
of your leadership, as far as--I know your theme, I think, 
General, of readiness and modernization, and, Secretary Esper, 
working together as a team, I think you are one of the better 
teams we have in our area of national security.
    I want to get into the issue of hypersonics. In my opinion, 
other than maybe nuclear weapons, hypersonics is one of the 
most serious threats to our national security.
    At a budget hearing yesterday, Secretary Wilson indicated 
the various branches of our Armed Forces are working together 
to develop an offensive hypersonic capacity. And I believe 
those are slated to enter initial operating capability in 
fiscal year 2021 and 2022. And Secretary Griffin, I think, also 
stated those are the dates that they are focused on.
    Secretary Wilson indicated that the Army's role in this 
effort is the hypersonic shell, so to speak. Now, we know that 
there is also an offensive and defensive component here. If you 
can discuss that. And, also, can you provide additional details 
on the Army's role in collaborative process?
    And do you feel that industry is making the right steps to 
have the capacity to affordably build hypersonic weapons in 
order to meet the fiscal year 2021-2022 initial capabilities?
    Secretary Esper. Yes, sir. Thank you.
    If I had to list a handful of technologies, hypersonics 
would be up there, along with directed energy, for example, and 
artificial intelligence.
    It is indeed true that the Air Force, Navy, and the Army 
are working together on this. Secretary Wilson, Spencer, and I 
worked a disagreement out some many, many months ago where we 
had separate research going on with regard to hypersonic 
weapons, and we decided, by pooling our resources and our 
efforts, we found that each had a different piece of the puzzle 
we could utilize.
    We are investing a lot of money into hypersonics in order 
to fulfill the demands of our number-one priority, which is 
long-range precision fires. We are looking at a long-range 
hypersonic weapon being tested in the 2023 timeframe either as 
atop a missile or--and the Chief may want to talk about the 
strategic long-range cannon we are looking at for National 
Defense Strategy purposes.
    But we think it is moving along. All that I have been told 
is we are getting a lot of good effort by industry to do this. 
And I think it is a game-changer.
    With regard to ability to defend against it, it is a very 
difficult system to defend against due to its maneuverability 
and due to its speed and its profile.
    I think, of our six priorities, number five is integrated 
air missile defense. That is something that we really need to 
build out. That is part of our modernization plan. Because over 
the past 18 years, we faced an enemy that did not present us, 
really, with any type of airborne/aerial threats.
    So you could see how all these modernization priorities fit 
together, Mr. Ruppersberger, to kind of help us modernize the 
Army and get to where we need to be.
    Mr. Ruppersberger. Okay. Thanks.
    General Milley. Congressman, the American way of war, if 
you will, you know, project power forward at the strategic 
level, but at the tactical and operational level, we are a 
fires-based Army and a fires-based military, and we are 
fundamentally a maneuver force, a maneuver military.
    And in order to gain maneuver, to get maneuver, freedom of 
maneuver, you have to have fires and movement. Hence, the very 
first priority of the United States Army is to reestablish our 
overmatch with fires. And that is why we said long-range 
precision fires.
    Between the ERCA program, the Extended Range Cannon 
Artillery, and the PrSM, the long-range cannon, to include 
hypersonics is another piece of that, and upgrades to our 
attack MLRS and GMLRS programs--all of those programs in 
combination, both the acquisition piece of it and the fires 
piece of it, will reestablish U.S. dominance in fires.
    That is a really important priority for the United States 
Army and ground forces in general in a near-peer competition or 
a near-peer combat operation against either Russia or China, is 
to have overwhelming fires. And everything else will flow from 
that.
    Mr. Ruppersberger. Okay. Good.
    And congratulations on being the next Chief. That is going 
to be good for our military.
    General Milley. Thank you, sir.
    Mr. Visclosky. Mr. Calvert.

                          FUTURE VERTICAL LIFT

    Mr. Calvert. Thank you, Mr. Chairman.
    I would like to talk about the Future Vertical Lift. And, 
as you know, there is a plan to develop a family of helicopters 
for the Army which will share common hardware such as sensors, 
avionics, engines, and countermeasures. It kind of sounds 
vaguely similar to the F-35, you know, when we went down the 
path of having these variants of aircraft. It didn't work out 
the way we planned, but, nevertheless, here we are.
    This FVL is meant to develop replacements for the UH-60 
Black Hawk, the AH-64 Apache, the CH-47 Chinook, the OH-58 
Kiowa helicopters. The program is in the RDT&E phase. Fielding 
will not begin for several years. But the Army, as you know, is 
putting $800 million towards the fiscal year 2020 and $5.7 
billion across the FYDP. There is a sense that the Army may be 
moving extremely aggressively in order to field this capability 
at the expense of existing programs. There are some people who 
believe that.
    General, in regard to the Future Vertical Lift and your 
ambitious efforts, how important will these aircraft be in a 
fight against a near-peer competitor?
    General Milley. So thank you, Congressman, for the 
question.
    Going back to Dutch--or going back to Congressman 
Ruppersberger, on the American way of war, the operational 
tactical piece, fires--long-range precision fires, number one. 
So the next thing is move. So shoot and move. And that then 
gives you maneuver.
    Armies move two ways--or, actually, three: one by foot, one 
by vehicle, one by helicopter. So the Future Vertical Lift is 
absolutely fundamental to the Army's ability to execute 
maneuver warfare.
    The program Future Vertical Lift really has two components 
to it, an attack piece and a lift piece. And you mentioned what 
they are going to replace. They will essentially double the 
range of existing systems, double the speed, the agility, the 
survivability, and the lethality of existing systems, unlike 
any existing helicopter of any nation on Earth today.
    If we are able to achieve it--and I believe the technology 
is there, and I believe we are doing the demonstration, the 
prototypes now. The reason we are putting so much money into 
this is to ensure that we can field the force by the mid- to 
late 2020s, with the first units equipped of these aircraft, to 
restore Army dominance for ground maneuver in the conduct of 
ground warfare. It is critical.
    So the combination of those priorities--long-range 
precision fires, Future Vertical Lift, and Next-Generation 
Combat Vehicle--will restore Army dominance against a near-
peer.
    Secretary Esper. And if I may, sir. I don't want to use up 
all your time, but this is a great opportunity to connect some 
dots.
    You talked about how we are doing modernization 
differently. So here is a program whereby, over the last 
several years, industry has contributed, invested $4 for every 
$1 the Army has invested, and we now have two prototypes flying 
with regard to Future Vertical Lift. And it shows just a great 
partnership that we have developed by giving predictability, by 
emphasizing Future Vertical Lift.
    The second point you made is there is concern out there, 
maybe an atmosphere about, are we moving too quickly and maybe 
neglecting the current fleet? The current fleet we have will be 
with us for decades--decades. So the CH-47s are the youngest 
aircraft, on average, 8 years or less. They will be with us 
through the 2030s, probably the 2040s. The Apaches, we are 
remanufacturing, rebuilding 48 a year. They will be with us 
well into the 2030s. Same with the Black Hawks; we are 
upgrading all of those.
    So we feel very comfortable with where we stand with the 
current fleet. It is a very capable fleet. It still allows us 
overmatch with regard to our adversaries. But we need to get to 
a system that can do what the Chief said--penetrating range, 
higher payloads, speed, lethality. And that is why we want to 
move to the Future Vertical Lift now. I think industry is with 
us on this, and we feel very good about the path forward.
    Mr. Calvert. Thank you. And I have to go up and vote. Thank 
you very much.

                   ENVIRONMENTAL RESTORATION FUNDING

    Ms. McCollum. Mr. Secretary, I want to talk about the level 
of funding in the environmental programs in this year's budget 
request. In the case of the Army, it seems as though funding 
for environmental programs in the fiscal year 2020 request has 
been reduced significantly below the fiscal year 2019 enacted 
level.
    Given the range of environmental cleanup issues facing all 
the services, emerging contaminants like PFOS or lingering soil 
remediation or unexploded ordnance issues, I find the proposed 
reduction concerning.
    I understand that the Army has prioritized new weapon 
systems in your budget request, but it cannot come at the 
expense of deferring the Army's responsibility regarding 
environmental restoration programs. It just creates a bigger 
and bigger backlog, and it makes it more and more expensive to 
clean up as well, and possibly, especially with PFOS, putting 
more people's life at risk for cancer-causing agents.
    So can you speak to the decision why these numbers are 
considerably below fiscal year 2019 enacted levels, as well as 
assure the subcommittee of the Army's commitment to meeting its 
obligation as it relates to environmental restoration will be 
lived up to?
    Secretary Esper. Yes, Congresswoman. We do take very 
seriously our responsibility to be good stewards of the 
environment and the programs set out by DOD or the directives 
provided by Congress.
    I would have to get back to you on the details. In some 
cases, what looks like a reduction, because maybe Congress 
added money from the enacted, which is what you referred to, 
versus what we proposed in this year's budget, may look like a 
decrement, but it may be that it is actually an increase from 
what we proposed a year prior.
    So I would have to go back with you, do the forensics and 
come back and tell you what happened, if anything, in that 
regard.
    Ms. McCollum. Well, I would like very much to see a 
breakdown----
    Secretary Esper. Sure.
    [The information follows:]

    The Army's FY19 Environmental Restoration account is broken down as 
follows:
          <bullet> The Army received a total of $235.8M from Congress.
          <bullet> The Army's budget request was $203.4M.
          <bullet> Congress provided an additional $32.4M ($25M for 
        PFOS/PFOA-related cleanup activities; $7M for other cleanup 
        activities).
    While the Army appreciated the additional funding this FY, it 
exceeded what we believed was appropriate in the context of the broader 
FY19 budget. The Army has requested sufficient resources in FY20 
($208M, $4.1M above the level requested in FY19) to continue addressing 
our environmental restoration sites, including those with PFOS/PFOA-
related actions. When the Army's FY20 budget is compared with what we 
requested (not what was enacted) in FY19, it shows that environmental 
funding was not reduced from last year. The Army is currently 
evaluating the appropriate request for FY21 and beyond. As the Army 
reaches completion of its environmental restoration program, funding 
requests have been decreasing commensurate with requirements; however, 
future funding will likely need to be programmed as we continue to 
assess and address PFOS/PFOA.

    Ms. McCollum [continuing]. On your list of priorities, 
where you are and how you are moving forward.
    Because even in some of the areas--and I can speak to my 
district, but other districts, I have been around the country, 
but I will speak to mine specifically--when we have gone in to 
do cleanup, we often then start getting resistance as to how 
clean is clean and when they will get to it and this is fine.
    And it is just not acceptable for the communities around in 
the area, the water tables, and especially with the new 
emerging contaminants. If we don't get rid of the legacy 
contaminants, we will never, never get the cleanup done the way 
it needs to be.
    Secretary Esper. Well, ma'am, you have my commitment. If 
you ever get any pushback, feel free to reach out to me 
directly and we will jump right on it to make sure that you are 
getting the full responsiveness of the United States Army.
    Ms. McCollum. Thank you.
    Thank you, Mr. Chair.

                                 CH-47F

    Mr. Visclosky. Mr. Calvert has been anticipating my every 
move today. He asked about Vertical Lift. And I understand 
during the interim when I was gone that, General, you mentioned 
the Chinook helicopter and its value and that the Army was 
going to need it for some period of time.
    It is my understanding, however, that you have a decision 
to delay procurement of the Block II upgrade to the helicopter 
for 5 years, but a year ago you submitted a notice for a formal 
program of record.
    What changed in that year, and what happens during the 
intervening future 5 years or more?
    Secretary Esper. Congressman, Mr. Chairman, on two points.
    First of all, we are going to continue to buy CH-47s. That 
will be provided to the Special Ops community. So there is a 
steady stream of helicopters being built over this year and 
succeeding years. We can get you those numbers.
    The decision I think with regard to the 47s for the 
conventional Army, what probably changed at that point was the 
fact that the National Defense Strategy was issued. It told us 
to move away from counterinsurgency to high-intensity conflict.
    And as we looked at the fleet of aircraft we had, we knew 
that we needed to upgrade what we call the Black Hawk, the 
future long-range assault aircraft, and, of course, more 
importantly, the future attack reconnaissance aircraft. We 
needed a capability that could fly at great distances at great 
speeds and penetrate, let's say, Russian air defense systems. 
And so it shifted what our needs were for the outyears.
    Plus, when you look at the portfolio of aircraft we have, 
we know that the 47 is the youngest aircraft in the entire 
fleet right now. It will be with us for decades at this point. 
And so we figured that we can manage a portfolio better by 
looking at the future needs, based on what the National Defense 
Strategy told us. That is what changed.
    That is, frankly, what changed a great deal of our 
portfolio, was the shift in accordance with the National 
Defense Strategy, that directive to prepare for near-peer or 
peer-level competition.
    [The information follows:]

    The 2018 National Defense Strategy directed the military 
departments to prepare for high-intensity conflict against peer/near-
peer competitors who possess advanced warfighting capabilities. It 
prompted an immediate review of how the Army mans, trains, equips, and 
organizes the force. As a result, Army Senior Leaders led an extensive 
review of our entire equipping portfolio to realign resources into our 
six modernization priorities rather than ask Congress for an 
unrealistic increase in our budget. This review led to the cancellation 
and reduction in funding for many programs. During this process, the 
Army determined that we had insufficient investment in improving our 
lethality, and, specific to aviation, our future vertical lift (FVL) 
capabilities.
    Given the threats by strategic competitors outlined in the National 
Defense Strategy, it was determined that a Future Attack Reconnaissance 
Aircraft (FARA) capable of penetrating and surviving against robust air 
defenses, followed by a Future Long Range Assault Aircraft (FLRAA) to 
replace the UH-60, were our top priorities, in that order. These are 
critical requirements needed to meet our ability to fight and win the 
next war. Rather than ask Congress for more money, the Army reduced 
funding in many aviation programs to resource these requirements.
    The Army recognized the CH-47F fleet is the youngest in our 
inventory, with an average age of six years in our conventional 
formations. The Army has met its acquisition objective for the current 
fleet of CH-47s, satisfying the conventional Army's heavy-lift 
requirements. Finally, it is unclear if the Block II meets the speed, 
range, payload, and survivability requirements essential to a future 
fight against Russia or China.
    Delaying this decision, while working with the company to fill the 
manufacturing through Foreign Military Sales (and some other options), 
allowed the Army to realign resources towards the more pressing 
aviation modernization needs in FARA and FLRAA.
    For the foreseeable future, the Army will continue purchasing the 
Special Operations Command variant (MH-47Gs), assembled on the same 
production lines as the CH-47F Block IIs.

                     EUROPEAN DETERRENCE INITIATIVE

    Mr. Visclosky. On the European Deterrence Initiative, the 
fiscal year 2020 request is $600 million lower than last year. 
Could you explain the rationale for that reduction, General?
    General Milley. DOD-wide, I am not 100 percent sure on the 
numbers, but I know the Army has got $3.9 billion, I think, of 
that EDI. And that is primarily going to exercises. It is going 
to some infrastructure pieces over there. It is going to the 
prepositioned stocks. And a few other piece parts are embedded 
within that. We think that is a healthy amount of money for the 
purpose of deterring any further aggression in Europe.
    As far as the cuts go, it is my understanding the reduction 
in the money came from the completion of projects. It wasn't so 
much a cut as it was a completion of projects. I can get you 
the exact detail on what was completed, but I believe it is 
housing, both in Germany, I think, from memory here, and Italy.
    But let me come back to you with the exact accounting of 
the $400 or $500 or $600 million that was, quote/unquote, 
``cut.'' I don't think it was cut, per se. I think it was 
completion of project.
    But let me, if I could, I would like to come back to you 
for that for the record.
    Mr. Visclosky. In the situation in Europe, would you for us 
compare where we are today from a year ago, 2 years ago, from 
your perspective, on the participation of the allies, 
coordination, their abilities? Is there an improvement? Are we 
stable? Is there a decline?
    [The information follows:]

    Question: On the European Deterrence Initiative, the fiscal year 
2020 request is $600 million lower than last year. Could you explain 
the rationale for that reduction, General?
    Answer: The $600 million reduction to the European Deterrence 
initiative request is a result of the reduced requirement to establish 
Army Prepositioned Stocks (APS). The APS efforts hit a high mark in 
2019, and will continue to trend lower as we complete the build of 
planned unit sets. The reduction in the APS request was partially 
offset by an increase to exercise funding. In 2020, the U.S. Army will 
execute its most significant European exercise in years--Defender 2020. 
The transition from APS to exercise costs reflects increased readiness, 
as we rehearse U.S. based forces rapidly deploying to Europe and 
drawing APS.
    Question: In the situation in Europe, would you for us compare 
where we are today from a year ago, 2 years ago, from your perspective, 
on the participation of the allies, coordination, their abilities? Is 
there an improvement? Are we stable? Is there a decline?
    Answer: The capabilities and contributions of our European Allies 
continue to improve across time. This is reflected in their defense 
spending commitments and through their additional contributions to 
ongoing operations and activities. The most significant example of this 
trend was demonstrated during NATO's Trident Juncture 2018 exercise. 
This event comprised over 30 nations, dispersed across three countries 
and served to demonstrate an ability to provide collective defense in a 
large-scale, multi-domain environment, under inclement weather 
conditions.

    General Milley. I would offer a few things for 
consideration.
    One is I think NATO is an important alliance and it has 
been, and I think this was reinforced most recently by the 
President by meeting with the Secretary General of NATO and 
then, of course, the Secretary General of NATO's address to a 
joint session of Congress just the other day.
    NATO has been around, as you know, for 70 years now. They 
just celebrated their 70th birthday. And it is one of--it is 
not the only reason, but it is one of the critical or one of 
the significant causal factors that has allowed--or prevented--
great power conflict on the continent of Europe. That is 
important and people should remember that.
    And with all of the difficulties and challenges that NATO 
presents, and there are many--and I have been a NATO commander 
in Afghanistan with all the NATO member states contributing to 
forces in Afghanistan--there are all kinds of issues in an 
alliance like that, because every state, every member nation 
has its own interests. But there is only one thing worse than 
fighting with allies, and that is fighting without them. So 
having allies in a team matters and is very, very important.
    Relative to the principal threat of NATO, which is further 
Russian territorial aggression and undermining of NATO, NATO 
has significant capabilities.
    Do all members meet the 2 percent GDP defense spending? No, 
they don't. But, as Secretary General Stoltenberg said the 
other day, the efforts of this government over the last 24 
months has resulted in a significant increase in the amount of 
money that the NATO member states are contributing. So that is 
important as well.
    So of the 28, 29 member states of NATO, only a few meet the 
2 percent or greater in their GDP, but there is a significant 
movement in that direction in the outyears.
    But NATO is an important alliance. We are a critical 
member. We are the linchpin of NATO, if you will. And I believe 
that the EDI is a critical component of the U.S. contribution 
to NATO.
    Mr. Visclosky. Thank you very much.
    Ms. McCollum [presiding]. Mr. Carter, when you are ready, 
if you have a second question.

                            FUTURES COMMAND

    Mr. Carter. Okay. Well, I will just throw an easy one out 
there since this is my neighborhood. What is going on as far as 
putting everything together for the Futures Command? Where are 
we? How are we doing? I know you have a lot of slots to fill, 
still have a lot of slots to fill.
    General Milley. We are very much on track. So we said that 
we would be at IOC and then FOC by this summer. We are on track 
to do that, by FOC this summer.
    General Murray is in place. We still have a fair amount of 
civilian hires to do. The command is a relatively small 
command, located, as you know, in Austin, with about 500, about 
100 military and about 400 civilians. They are not at full 
strength yet; they are in the 80 percentile strength. They have 
got the budget, and he is building it out.
    So we expect him to be at full operational capability here, 
roughly speaking, within, I would say, another 90 to 120 days 
or so.
    Mr. Carter. July is kind of the target we were looking at 
earlier. Is July still a good----
    General Milley. Yes, no later than. That is the charge to 
General Murray, and he is on track to do that. So we are in 
good shape.
    Mr. Carter. Okay. Well, I am a big supporter of the Futures 
Command. The concept is really modern and smart. And I hope 
that we will take the subcommittee down there and let them take 
a look at it when it is up and fully operational. I think they 
will be impressed.
    General Milley. Yes, sir. I think so, yes.
    Mr. Carter. I am hoping that we can do that.
    Secretary Esper. I think it would be worthwhile for 
everyone's understanding to get a brief by General Murray.
    We tend to think of Futures Command in the context of 
equipment, if you will, requirements, and it is much, much 
broader than that. It begins with his first responsibility is 
looking into the future and thinking about how the Russians and 
Chinese will fight and then thinking about how we will fight.
    So there is this whole front end of this of his job that is 
very important before you ever get to what our acquisition 
community does, and it would be I think very insightful and 
very helpful as you think through what Army Futures Command's 
role is.
    Mr. Carter. And I have talked to the chairman. We have got 
interest. So, hopefully, maybe late summer we can go up there 
as a group and take a look. And I will be glad to host that. 
Thank you.
    General Milley. Yes, sir.

            INFECTIOUS DISEASE RESEARCH AND MALARIA VACCINE

    Ms. McCollum. Late summer in Minnesota is even better.
    I want to ask you about the Army's infectious disease 
research and malaria vaccine, something I know a little bit 
about, having traveled and having a father serve in World War 
II who had malaria. Once you have it, you have it for your 
life.
    U.S. military personnel is increasingly being deployed, 
again, in areas of the world that are prime locations for 
malaria transmission, Asia, Africa. And given that malaria 
remains the number one infectious disease threat for troops 
deployed in these regions and we know that we have issues with 
compliance, whether it is State Department, military, even 
Peace Corps volunteers because of some of the side effects from 
these diseases, it remains critically important that the Army's 
research on malaria vaccines continues.
    I am concerned in the fiscal year 2020 budget that the 
justification appears as though the funding for the project 
that conducts the malaria vaccine research program is being 
realigned into other projects. Given nearly all the most 
effective, widely used antimalarials were developed, in part, 
by the U.S. military research team, I find the possibility of 
losing momentum in research extremely alarming when it comes to 
malaria.
    Can you tell me in the fiscal year 2020 budget what it 
contains specifically for malaria vaccine research and assure 
me that the fiscal year 2020 funding and beyond will continue a 
robust malaria vaccine program to continue within the Army's 
research area? Because you have done it so excellently in the 
past, the Army and the world are counting on you to continue to 
do it.
    Secretary Esper. Congresswoman, the Army does do a lot of 
research in infectious diseases. I can't give you the specific 
numbers for this program. I will have to get back to you.
    I will tell you, with all of our research, what we are 
trying to make sure that we do, that it is all focused on 
lethality, survivability of the force, all those things we need 
for readiness.
    I don't know if your facts are correct, whether there was 
another program or something. We will just have to get back to 
you and give you a full explanation.
    Ms. McCollum. Well, you can get back to us as soon as 
possible----
    Secretary Esper. Sure.
    Ms. McCollum [continuing]. Or else we are going to start 
moving forward on this.
    And with climate change, malaria is only going to continue 
to spread and become more of an alarming disease, which can 
really cripple people.
    But at the same time, not to do anything if progress is 
being pushed forward, to stop research or to slow it down would 
be foolish, in my opinion. So I look forward to fully 
understanding your rationale and what you are doing.
    Secretary Esper. Sure.
    Ms. McCollum. Thank you, Mr. Chairman.
    General Milley. Congresswoman, I don't believe--we will get 
the numbers. I don't think we are stopping research on malaria. 
I think there is a couple million dollars pumped into the 
malaria research in 2020.
    Ms. McCollum. Well, I said slowing down or stopping.
    General Milley. Okay, yes, because we are not stopping.
    Ms. McCollum. Slowing down sometimes stops things, right?
    General Milley. Roger. But we understand, the Army 
understand that infectious diseases cause more casualties than 
bullets in historical war. The 1918 flu took a lot more people, 
killed a lot more American soldiers than the Germans did in 
World War I. World War II, infectious diseases, that your 
father fought in, they were very debilitating. Vietnam, the 
same.
    And we continually do research on infectious diseases. We 
are keenly aware of the debilitating effects of infectious 
diseases on deployed combat troops.
    Ms. McCollum. Well, your justification, if you read through 
it--and I am sorry, Mr. Chair, to reiterate this again--it 
really appears to me, looking through the funding, that the 
project in malaria research is being realigned into other 
projects. And maybe it is just malaria research moving into 
another line and it is still all covered, but my view of it, I 
don't see it.
    And as I said earlier, you don't have to explain that to me 
how it impacts a soldier a long time after they are home, 
having lived with someone who did have reoccurrence of malaria 
when I was a child.
    General Milley. We will get you the answers.
    [The information follows:]

    In support of the Army's modernization initiative, Army leaders 
reviewed existing Army programs, including the Army Medical RDT&E 
portfolio, in an effort to identify opportunities to realign 
investments towards the highest priority modernization efforts. As a 
result, Army leadership directed funding realignments across multiple 
programs through the Program.
    Objective Memorandum process. Based on the relative priorities of 
infectious disease programs, including malaria vaccines and 
therapeutics, a $2.2M FY20 cut was applied to the malaria research 
program. The cuts and realignment will terminate the Army malaria 
vaccine core program research efforts. Malaria vaccine funding was 
realigned to higher priority malaria prevention and treatment. The 
realignment of S&T funding priories is to push products currently in 
the S&T phases forward so they can move into the development phase.

    Ms. McCollum. Thank you.
    Mr. Visclosky [presiding]. Mr. Rogers.

                            MEDICAL RECORDS

    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Secretary and General, thank you for your service.
    Let me ask a question of General Milley, more in his 
upcoming role than his present role.
    We have got a problem, a big problem, between DOD and VA. 
Many of the soldiers coming back through the hospital, for 
example, in Germany, when they get back home as a veteran they 
can't get access to their medical reports from the hospital in 
Germany.
    A young man came to me some time ago after an IED in 
Afghanistan with his eyes deeply injured. He went to the VA 
hospital in Kentucky, and they could not operate or attempt to 
fix him because they could not get the military records from 
the hospital in Germany.
    We have spent $4.5 half billion so far over the last 15 
years trying to merge those two systems. Still not workable. 
And it is inhumane the way we are treating some of these 
soldiers.
    Mr. Chairman, could you in your new role follow this 
through?
    General Milley. I will do that, Congressman. I absolutely 
will.
    Mr. Rogers. There is an effort underway, obviously, but it 
is taking so much time and overcomplicating what I think is a 
fairly simple remedy, and that is a common language between 
these two computer systems and the bureaucracies on both sides 
of the question.
    General Milley. I am not going to disagree with that at 
all. I have seen that in spades, with dealing with WIN-T, the 
network, all kinds of computer systems, and all the variety of 
IT systems that we deal with. This is one of many. And you are 
absolutely correct, complicated, bureaucratic, needs to be 
fixed, can be streamlined. And let me take a specific look at 
this one, if you would.

                     ADVANCED CAMOUFLAGE TECHNOLOGY

    Mr. Rogers. The VA hospital could not operate because they 
didn't know what had been done in Germany to his head, and he 
went blind because of that.
    Switching gears quickly, let me talk briefly about great 
power competition and the procurement of technology that is 
critical to our success in a potential conflict with a near-
peer adversary, and that is advanced camouflage technology. Not 
as glamorous as the Next Generation Combat Vehicle or Abrams 
tank upgrades and so forth.
    But can you talk about the importance of advanced 
camouflage and concealment technologies, especially in a combat 
environment where we don't necessarily have dominance in the 
air and space domains and we are not able to operate out of 
fixed operating bases? Could you share your thoughts on that?
    General Milley. As we look to the future--and even in the 
present--the ability to survive is obviously paramount on any 
battlefield. And we think the ability to survive in a future 
battlefield will be at a premium, because we think it is going 
to be highly lethal and, as I mentioned earlier, units will be 
cut off and separated and so on and so forth.
    So advanced camouflage systems are critical. We are putting 
a fair amount of money into advanced camouflage systems, both 
individual unit, vehicle, et cetera.
    The key to camouflage is the electronic signature. We think 
it is the electronic signature and the heat signatures of human 
beings, the vehicles, et cetera, but also the electronic 
signature.
    We know that adversary acquisition systems are very, very 
capable. And if you can see a target with precision munitions 
in today's rocket and tube artillery, along with joint systems 
from the air or sea, you can hit a target.
    So camouflage systems that break up electronic signatures 
or break up heat signatures are critical, and that is the 
systems you are talking about. And I think we are putting money 
in this budget and we will continue to research in that. And 
you are right, it is not as glamorous as the others, but 
survivability is key.
    As you look at our six priorities that the Secretary has 
laid out for us--Long-Range Precision Fires, the ability to 
shoot, then you have got the move piece for vehicles and 
helicopters, then you have got the communication piece, so 
shoot, move, communicate, that is the network--the next piece 
down is protect. And that is the integrated air missile defense 
system, but it also includes things like smaller programs, like 
advanced camouflage systems.
    So it is embedded within the various programs that are 
underneath those priority bins.
    Mr. Rogers. We are proud of you for your service so far, 
and we wish you very much success in the new role you are 
entering. Thank you.
    General Milley. Thank you, sir.
    Mr. Visclosky. Mr. Ruppersberger.

           MATERIALS IN EXTREME DYNAMIC ENVIRONMENTS PROGRAM

    Mr. Ruppersberger. Yes. First, I want to talk about the 
issue of Materials in Extreme Dynamic Environments Program. You 
are familiar with that, General, my question is to you.
    Regarding the Materials in Extreme Dynamic Environments, 
that is MEDE Program, run by Johns Hopkins University and the 
Army Research Lab, in 2017, you were quoted as saying: The real 
sort of holy grail of technologies that I am trying to find is 
material, is the armor itself. If we can discover a material 
that is significantly lighter in weight that gives you the same 
armor protection, that would be a real significant 
breakthrough.
    The Materials in Extreme Dynamic Environments Program has 
developed advanced materials, such as boron carbide, glassy 
epoxy, magnesium alloy. These materials all reduce the size and 
weight of vehicle armor while enhancing protection. However, 
the Materials in Extreme Dynamic Environments Program is slated 
to end after fiscal year 2021.
    My question: What are the plans for investing in followup 
basic research efforts to advance the development of new armor 
materials for our soldiers? In my opinion, we need to keep the 
research and development moving ahead in this area. Comments?
    General Milley. The quote that you read back to me from a 
year ago is still valid. The materiel for armor for vehicles--
or for personnel, for that matter, but really we are talking 
vehicles--that is the holy grail of the whole thing.
    So anything that we can make a 70-ton tank, for example, 
much, much lighter, say 30 tons or 35 tons or 25 tons, based on 
a material that gives you the same protective qualities as 
rolled homogeneous steel does today, but at a much thinner and 
lighter weight, that would be an incredible breakthrough.
    To my knowledge, no country yet has broken through that 
barrier. But we are researching and we intend to continue to 
research, because we are aware of a variety of avenues, many of 
which are classified, that do hold promise, but they are not 
real yet. But we do intend to continue to research that.
    Mr. Ruppersberger. Okay. Thank you.
    Mr. Visclosky. Mr. Womack.

                             OFFICER CORPS

    Mr. Womack. Thank you, Mr. Chairman.
    Thanks both to you, Mr. Secretary and General Milley, for 
your outstanding service to our country.
    The first question for the Secretary, and I don't even know 
if you are at liberty to discuss any findings if you have 
findings, but you had commissioned kind of a look at the 
officer accessions process. General Abizaid, I guess, was your 
point on that.
    So has that yielded a product or do you have some findings 
from what he looked at that would be beneficial to us in terms 
of--because I understand it covered all the commissioning 
sources, basically, and looked at the BOLC piece. So fill me in 
on where we are in that study.
    Secretary Esper. Yes, sir. So we are very focused with 
making sure we understand, because we are a closed personnel 
system: Who do we bring into the Officer Corps? Who do we bring 
into either ROTC, OCS, and West Point? How do we then train and 
educate them? And then they how do we graduate and commission 
them? And those are all different parts of this. And so we 
wanted to have a good understanding of the product we are 
getting, based on what the field is telling us.
    And so we did take a deep dive at that. And there are some 
obvious things that come out. We underresource ROTC, for 
example, in terms of what we have. We have different standards 
between all three of those sources. Within ROTC itself, there 
is a wide range of schools, in terms of the focus they put on 
the military, the number of graduates, the type of graduates.
    So, for example, I was at Virginia Tech last week, has a 
very good program at Virginia Tech, and this upcoming week, I 
am going to VMI. I am trying to make my way around to the 
senior service colleges to really get a good feel of this. 
Because I think if we can produce an exceptional Officer Corps, 
it will serve us well into the future.
    It is of note that the cadets we graduate this summer from 
any source will one day be in 35 years a future Chief of Staff 
of the Army, a future COCOM Commander, a future Chairman of the 
Joint Chiefs of Staff. That is why I think we need to get it 
right on the front end.
    So we are looking at a number of things by which we improve 
the quality across all those bands to make sure that we are, 
again, getting the right talent in, training and educating them 
properly, and then getting them into the right assignments.
    And this is all part of the bigger effort that we are 
pursuing; that is talent management. How do we replace the 
current personnel system with a system that is based on--it is 
a market-based system utilizing talent management techniques?
    Mr. Womack. So was he able to conduct it in such a way that 
there wasn't a lot of territorial protection? Because I know 
that is where kind of the rub might come.
    Secretary Esper. There is. And there is a lot of this is 
the way we always did it so we always will.
    But we have a number of initiatives underway where we are 
looking at some of the recommendations to make sure we do what 
is best for the Officer Corps and for the service. And that 
will require some change, and change will be difficult, but we 
think it is the right thing moving forward.

                    COMBAT TRAINING CENTER ROTATIONS

    Mr. Womack. Thank you.
    General Milley, back a few years ago, during some of the 
more austere times in funding our Department of Defense, 
particularly the Army, I was outspoken about the lack of Combat 
Training Center rotations that we were able to afford to do. 
And I guess we took a dip there for a while, in part because of 
budgets, but also in part because of the type of warfare we 
were engaged in.
    Now, with this great power competition going on, I see a 
really strong need to get back into the rotation business in a 
pretty big way. And we have got some money budgeted for that. I 
think 25 rotations, as I read the budget.
    So can you speak to the need for us to utilize Combat 
Training Center rotations and the importance they are going to 
bring to the readiness picture?
    General Milley. Absolutely.
    The number of rotations, the maximum throughput--there are 
three training centers, dirt training centers, National 
Training Center at Fort Irwin, Joint Readiness Training Center, 
and then over in Germany, CMTC. And the fourth training center 
is a virtual training center for computer simulation at the 
higher levels. But the three dirt centers I think is what we 
are talking about here.
    So with three of those, and given the length of a given 
rotation, the maximum throughput would be 30. But you need to 
reset. You need to give the Observer Controller/Trainer some 
time to take a leave or to do so and so. And given the current 
pace, so what we try to set it for is between 10 or 11 at a 
given rotation or at a given training center, and then 5 over 
in Europe, because the other 5 over in Europe will go to allies 
and partners, not necessarily U.S. forces alone.
    So 25. We are essentially at max throughput other than 
mobilizing for general war sort of thing. So we are at max 
throughput. So that is one thing. And they are funded, and four 
of those rotations will go to National Guard units.
    The other piece--one is just the throughput, the capacity. 
The second piece is the quality of the rotation.
    Some of those rotations, but very few now, are geared and 
targeted specifically towards a rehearsal exercise for a 
targeted theater. So if you are going to go to Afghanistan, you 
are still going to go to a rotation at one of the training 
centers.
    But most of those rotations are decisive action, 
specifically at the higher end, and we have modeled them after 
the best practices of a combined threat, if you will, from the 
best practices that we were able to discern from China, Russia, 
and some other countries. And we have kluged them into an enemy 
that is replicated at the training centers.
    And we have included all the domains. So space is included 
in the training centers. Cyber, for example, the National 
Training Center at Fort Irwin is the only enclosed live cyber 
fire exercise training area in the world that I am aware of.
    And then, of course, you have got air and the ground piece 
as well.
    So all the domains are replicated in all of these training 
centers. The OP-4 is very, very capable, and the blue units or 
the friendly force units that have gone through there are 
really being put through the wringer.
    Very, very difficult, very challenging. And I would 
encourage any Member to go visit any of the training centers, 
and I think you will see an Army that is undergoing significant 
change in terms of its training.
    And the last piece I would say, it is really critical, 
these training centers, it is really critical, because what you 
are talking about is not just the training of the unit, but you 
are talking about the training of a future Army.
    The leaders--the buck sergeants, the lieutenants, the 
captains--are learning their trade, their craft at those 
training centers in a very, very realistic environment, and 
they carry that with them for many, many years as they get 
promoted through the ranks.
    So those training centers are critical, they are fully 
funded, and we are at max throughput.

                            EMPLOYER SUPPORT

    Mr. Womack. Where it concerns the National Guard, are there 
any difficulties you are seeing in employer support? These are 
longer rotations. This is not your 2-week annual training 
exercise. This is a much longer piece and a much more demanding 
piece. Are you getting any feedback there?
    Secretary Esper. Yes and no. One of the things I am 
concerned about is employer fatigue. I think you and I have 
talked about this before. I see some units are going on 
multiple rotations, not just NTC. They are going to Korea. They 
are going to Europe. They are going to Afghanistan.
    So I do get concerned about that. You know, on one hand you 
hear the commands, the senior officers and NCOs are very gung 
ho to go, and I believe that. But if you talk to individual 
soldiers, sometimes if you are on your third or fourth 
deployment, it gets old.
    And particularly, as you know, I mean, I served in both the 
Guard and Reserve, it is one thing if you are a big company and 
you have a thousand employees, but if you start getting down to 
a 20-person, 15-person office, losing 1 or 2 persons, 
employees, gets tough on the business.
    So I am very conscious of that. I ask it every time I meet 
with a Guard or Reserve unit. What is the state of your 
employers? How does it feel? And I think we need to watch that 
carefully.
    Mr. Womack. So as a former Guard guy, I can tell you, Mr. 
Chairman, the Combat Training Center rotation is the pinnacle. 
Other than going on a deployment, it is the pinnacle of 
military training. And I am glad to see that we have got at 
least these guys funded to the level that they can maximize 
their throughput.
    I yield back.
    Mr. Visclosky. And if you say it, Mr. Womack, it must be 
true.
    Mr. Aguilar.

                           GOLDEN HOUR POLICY

    Mr. Aguilar. Thank you, Mr. Chairman.
    General, I wanted to ask you about the Golden Hour Policy, 
the policy that we have that says the first hour after a life-
threatening injury occurs that we help an individual on the 
battlefield with life-saving care.
    What challenges does the Army expect to have with regard to 
meeting the Golden Hour Policy in future conflicts?
    General Milley. Again, we are currently engaged in armed 
conflict in different parts of Afghanistan, for example. We 
have soldiers, we just lost three marines who got killed and 
three others wounded and another American civilian contractor 
killed.
    So we are engaged in armed conflict now. But currently in 
the combats we are involved in now, we have dominance of the 
air and we pretty much can guarantee ourselves ground 
evacuation and/or air evacuation within the so-called Golden 
Hour, 60 minutes.
    The real key, of course, is the immediate reaction of the 
people on the scene to stop the bleeding, clear the airway, and 
so on. And then we get them into an evac. So you want him under 
surgeon's knife within 60 minutes. That is what you want.
    And we have an extraordinarily high success rate, well in 
excess of 90 percent. So that if you are wounded and we can get 
you to a doctor within 60 minutes, your probability of survival 
is well in excess of 90 percent. It will be a difficult 
survival. Perhaps you lose a leg, you lose other limbs, but you 
will be alive. And where there is life, there is hope.
    So that is the Golden Hour. But it is dependent upon 
control of the land lines of communication and control of the 
air.
    In future combat, that may or may not be true. It will 
depend on the situation. So hence, Future Vertical Lift is 
really critical, because that is going to increase the 
survivability of the helicopters much, much greater than what 
we have today, in order to penetrate to be inside the airspace, 
the air envelopes of enemy air defense systems. So that is key.
    We are up-armoring our ground ambulances. So that is what 
the EMT program or part of the EMT program is all about. So 
that is piece parts of it.
    But also equally important is to protect as far forward on 
the battlefield as we can as a basic method and principle of 
military medicine. So we want to get the forward surgical 
teams, the doctors and the critical care nurses, get them as 
far forward on the battlefield.
    So when I had a chance to visit U.S. advisers to the SDF on 
the outskirts of Raqqa, there was a fully funded or fully 
equipped, manned and equipped forward surgical team there with 
doctors, ortho doctors, critical care nurses, right there to 
take care of wounded right from here to a couple hundred meters 
from here. So protect as far forward as you can.
    And then telemedicine is another area that we are putting 
money into so that those doctors and those medics and those 
nurses can pipe in the specialist virtually over various 
communication systems and they can work that.
    And then the last piece I would say is the ability of self-
care and body care. And we are putting a lot of money into 
advanced medical capabilities, things like bandages and 
QuikClot type systems, et cetera. There is a lot of individual 
stuff that can go a long way towards the immediate care once 
you get a wound.
    And it is all of those and many, many more that we are 
working on. We are very, very interested in that, because it is 
the survivability of those folks.
    Mr. Aguilar. Recent Department of Defense statements have 
suggested that this may not be an expectation in the future. It 
sounds like you are----
    General Milley. It is probably not. I mean, realistically, 
for us to think that we are going to have the success rates of 
evacuating soldiers in high-intensity combat against a 
potential adversary like the Russians or even, let's just say, 
North Korea, first of all, the scale and the scope of the 
casualties will be significant, really significant. And the 
ability to evacuate those casualties within 60 minutes, that 
expectation, we will try, but I am not guaranteeing that.
    We control the air, we control the land lines today in the 
type of war we are in now. Against that type of threat in those 
environments, you can't guarantee that. That is why the protect 
far forward, to get the doctors and the nurses as far forward 
as we can.
    So the level of intensity and the amounts of casualties in 
that scale and scope of war will be significant. And for me or 
anyone else to guarantee a Golden Hour under those conditions 
would be a false representation of what we think would be the 
truth.
    Mr. Aguilar. Thank you, General.
    Mr. Secretary, what analysis has been done to identify gaps 
within the planning and capability side of the policy, of the 
existing policy?
    Secretary Esper. For which policy, Congressman?
    Mr. Aguilar. For the Golden Hour Policy.
    Secretary Esper. I would have to get back with you on 
policy changes. I guess I was on a different track. I mean, one 
of the things I wanted to add--and I can come back to your 
question--was the Chief talked about the importance of the 
soldiers, what happens to the soldiers. And the chairman asked 
earlier about save a million dollars here, a million dollars 
there.
    [The information follows:]

    The term golden hour was an idea coined to encourage the urgency of 
trauma care. There is no change to that policy, only how the Army 
reacts to and adapts it to the Large Scale Ground Combat Operation. 
Circumstantially, the Army may have to extend the golden hour by 
focusing less on rapid evacuation of injured soldiers and more on 
bringing life-saving definitive care capabilities far forward on the 
battlefield. This means focusing on prolonged tactical combat casualty 
care, advanced resuscitative care, and long-distance ground MEDEVAC 
until air MEDEVAC is available. Reshaping the golden hour will require 
that the Army adapt and rapidly modernize its medical technologies, 
training, and expectations.
    The Army has analyzed our potential medical needs during future 
conflicts within the idea of a multi-domain battlefield environment. In 
this environment, the area-denial capabilities of our adversaries will 
create an increased need for prolonged field care capabilities down to 
the lowest level of medical care. To ensure there are no gaps, Army 
Medicine is deeply invested in Combat Casualty Care Trauma Research and 
Development. Our priorities include increasing capability to provide 
enroute critical care, leveraging current and future ground, air and 
other service's evacuation platforms as well as providing effective, 
logistically supportable, capabilities and advanced treatment options 
to deliver critical care closer to the point of injury. The Army's 
efforts to address planning and capability have shown great success as 
the past 15 years of war have yielded the highest survivability rates 
in history. As an example, in Operation Enduring Freedom, the 
survivability rate was 91.4% and for Iraq/Syria it was 89.7%.

    And out of the $30 billion that we have moved to build the 
Army of the future, training is a very important part of that. 
We shifted a lot of money into initiatives like the CTCs. But 
one where we did was we extended Army basic training, OSUT, One 
Station Unit Training, actually by 2 months, 2 months. It is 
now, I like to say, the longest and toughest in the world.
    But in addition to changing their program of instruction to 
focus more on high-intensity conflict, one of the things they 
do now is they go through an extensive medical training course. 
So they pretty much come out as EMT-qualified soldiers, which 
is a pretty remarkable achievement.
    Now, you think of all these young soldiers coming out of 
infantry basic and advanced training with the skills, I think 
it is going to enable us to not only be more lethal on the 
battlefield, because these soldiers are now training on all 
infantry company weapons, they are also getting these enhanced 
medical skills that I think are going to serve them well and 
serve us well in the future.
    With regard to the broader issues of the Golden Hour, I 
mean, that is all what we are looking at in terms of research.
    Futures Command, one of the things we are doing in Futures 
Commands is making sure medical research is lined up as well, 
because, as I mentioned over here earlier, one of the things, 
the challenge of Futures Command is not just about requirements 
as it relates to equipment, but it is also about: How do we 
envision the future fight? How will we fight? How will we 
organize?
    And they need to look at that. Part and parcel of that is 
to look at how do we make sure we have adequate medical 
capabilities on the field to make sure that we can keep 
soldiers alive, whether or not it is 60 minutes or 30 minutes 
or 90 minutes, is how do we build that into based on a future 
fight against the Russians and Chinese, as the Chief outlined 
as a future battle.
    Mr. Aguilar. Thank you. Appreciate it.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Cole.

                           END STRENGTH GOAL

    Mr. Cole. Thank you very much, Mr. Chairman.
    And, gentlemen, I thank you for your service. And I 
apologize, frankly, for not being here earlier. Juggling too 
many balls today.
    But let me ask you, Mr. Secretary, in fiscal year 2018, the 
Army fell about 11,500 short of its end strength goal. And it 
looks like, I am told, it will fall short about 7,500 this 
year.
    What are we doing on the recruitment front to address that, 
try and hit the targets that we have set?
    Secretary Esper. Well, we fell short in the Regular Army 
6,500 in fiscal year 2018. We had a very aggressive goal. We 
originally were shooting for 80,000 soldiers and we ended up 
with 70,000 once the final congressional limit was set at 
76,500, and it was a miss.
    But I will tell you, it was still the highest recruiting 
year we had in 10 years, and not just the highest recruiting 
year in 10 years, but also the highest retention year we had in 
quite some time, 86 percent overall for the Army and 90 
percent-plus for the Regular Army.
    At the same time, as you recall, last summer we turned up 
the standards, in terms of who we would waive in, the drug 
standards, a number of things. So our emphasis continues to be 
quality over quantity.
    Now, that said, we recognized as well that we face a 
difficult recruiting environment. Only 29 percent of America's 
youth qualify for service for one reason or another, and of 
that same cohort, less than 4 percent have any proclivity to 
serve. And then you are doing it in a country that is facing 
one of the lowest unemployment rates in decades and an American 
population that is increasingly isolated from the Army that 
serves it.
    So we went back to the drawing board and did a lot of work 
in terms of our recruiting enterprise. We appointed a four-star 
in charge of it. We have done tactical things, from overhauling 
our website to greater social media outreach, more recruiters 
on the streets.
    We also launched what we call the 22-City Initiative. So we 
are going back to America's 22 largest cities, and we are going 
to go to where the kids are and talk to them about what 
opportunities present themselves in the Army, whether you are 
coming for 3 years or you are coming for 33 years.
    But we are really doubling down on this task to make sure 
that we--and I am confident we will hit this year's goals, both 
in terms of numbers and quality, and I think, again, quality 
being more important.

                             READINESS GOAL

    Mr. Cole. I think that is good news.
    General Milley, how are we doing toward meeting our 
readiness goal of 66 percent? And do you think we can reach 
that goal by 2022?
    General Milley. I do. Now, it depends on two things, the 
international environment essentially staying about what it is 
today; and we get this budget and next year's budget and so on, 
that we get continuous, predictable funding at the levels we 
are asking for.
    If those two variables happen, then we should achieve our 
66 percent goal of the Regular Army units being at the highest 
levels of readiness and 33 percent of the National Guard and 
the U.S. Army Reserve being at the highest levels of readiness, 
we should achieve those two metrics by 2022 if those two 
variables obtain.

                EFFECTS OF A CONTINUING RESOLUTION (CR)

    Mr. Cole. Let me, Mr. Secretary, give you a chance to 
respond to something nobody around this table wants to see 
happen, but I think it is good for us to know. What would 
happen if we ended up stumbling into a CR at the end of this 
year, which I think is very possible, frankly, what would that 
do to your ability to reach the targets that you have set?
    Secretary Esper. Well, I thought you were first going to 
say, Congressman, if we went to BCA limits, and that would be 
disastrous.
    A CR also presents its own challenges, particularly for an 
Army in transition. Last year we got the budget on time, and I 
cannot tell you what good it did. It was fantastic in terms of 
us having the ability to fill training seats.
    So if we have a CR, what it means, given all the 
limitations of the CR, is likely lower funding levels. We 
likely will not be able to fill all of our training seats. 
Commanders will likely have to tune down their training, which 
will affect readiness.
    For an Army that is moving out on a number of modernization 
objectives, we would not be allowed to do new starts. That 
would have a major impact on us. For an Army that is trying to 
build its munition stockpiles to fight in either North Korea or 
Europe, that would mean we would not be able to change 
production levels.
    So you can see, whether it is manning the force, training, 
equipping, you name it, it just has dramatic impacts. And if we 
look at the past, if the past tells us about the future, then 
we would start the year likely in January or February with a 
full budget, which means we now have to spend a lot of money 
quickly.
    And you just end up with these bad cycles and bad habits 
that you get into, then trying to spend a whole lot of money 
near the end of the fiscal year, and that presents its own 
challenges as well in itself.
    The key thing for Army, all the services and all of 
government, really, is predictable, adequate, sustained budgets 
that we can rely on and then plan on and then keep a steady 
force, steady growth.
    And so I know the Chief has some views as well.
    General Milley. No. I mean, he said it all: predictable, 
adequate, sustained. And a CR, I mean, it is not the end of the 
world, but it is a terrible way to spend the taxpayer's dollar. 
It is not effective. It is not efficient. It cuts off part of 
the year. Everything builds up at the end of the year. It sends 
terrible signals to industry. Industry jacks up the price of a 
widget, because they don't have predictable cash flow, and so 
on and so forth.
    So it is not good. The best thing, on time and predictable 
from year to year. I mean, everyone knows that. A BCA would be 
catastrophic.

                       NATIONAL DEFENSE STRATEGY

    Mr. Cole. Evidently, everybody doesn't know it, because we 
have done this before around here, and that doesn't reflect 
very well on Congress. It is certainly not your fault. But I 
hope you are carrying that same message to the administration.
    One last question, if I may, General Milley. Based on the 
National Defense Strategy and the current plans, how do you 
envision the current mix of armored, infantry, Stryker Brigade 
command teams will change to meet the demands of the National 
Strategy going forward?
    General Milley. We are looking at that. And, again, it is 
another part of the overall review that we have charged Army 
Futures Command to do. We started that review a couple, 
several, 3 or 4 years ago.
    Right now we have 58 brigade combat teams. We have got a 
mix of, as you mentioned, armor, infantry, and Stryker. And we 
are looking at what needs to be that force structure. In fact, 
the Secretary is going to take a brief here in probably about 
the next 30 to 45 days at least on some preliminary findings, 
some studies that we have done.
    What needs to be that force structure to fight a war 
against a near-peer competitor sometime in some distant future? 
Pick your time. We have some classified times that we are 
looking at.
    But we do know this. We know that force structure won't be 
the same. We know the Army of 10, 15, 20 years from now is not 
going to look like the Army of today. It is not a linear 
progression to the future.
    So we are looking at all that. I can't give you the exact 
answer right now. It is under review and we are a little bit 
preliminary in our studies. But we are taking a hard look at 
that, in terms of concept, doctrine, organization.
    The multidomain operation concept that you hear about or 
maybe have read about, that is going to be the driving 
organizational concept, but it is not yet doctrine. We are 
probably 24 months or so from that becoming doctrine both for 
the Army and the joint world, and from that will flow the 
organizations, the precise types of equipment.
    These things happen in parallel. So those six priorities 
that you see, the Long-Range Precision Fires, Future Vertical 
Lift, Next Generation Combat Vehicle, et cetera, we know that 
those technologies, we need to get moving on those 
technologies, because we know those are going to be important. 
We already know that.
    We know things like we are going to fight mostly in urban, 
highly dense urban areas. We sort of know that. We think there 
are going to be 8 to 10 billion people in the world. War is 
about politics. Politics is about people. And we know that a 
decisive battle will happen probably in urban areas, which is a 
fundamental shift in war over the last two or three hundred 
years.
    So we know the capabilities and the requirements that are 
going to be needed. The exact force structure and organization 
and exact mix of infantry, armor, Stryker, et cetera, in those 
outyears is not yet known, but we are going through those 
studies and the Secretary will be briefed on those shortly.
    Mr. Cole. Thank you very much.
    Thank you, Mr. Chairman.
    Secretary Esper. If I may, Mr. Cole, just to----
    Mr. Cole. Oh, thank you, please.
    Secretary Esper. Just to make a bigger point, because the 
chairman talked about this earlier. He talked about the Army 
modernization budget changes being not just this year but 
several years.
    If you look back at history, when the leaders of the Army 
in 1973 decided to make a fundamental change, we were going to 
move, shift from Vietnam, based on the lessons of the Middle 
East wars, and focus on the Soviet Union, and we were going to 
change doctrine and change equipment, we brought in the Big 
Five, all that, that process took 10-plus years.
    So when the Chief and I talk about Army reform, that if we 
don't start now when will we start, and we are talking about an 
Army we want to field in 2028, 2029, 2030. Because we are doing 
all the work now on the new doctrine. That is going to take a 
couple years. New doctrinal changes will drive new 
organizational changes throughout the force. The equipment 
piece. I talked about how we are changing basic and advanced 
infantry training.
    All those these things will come together, but it is going 
to take years of change and adjusting the ship as we go forward 
to get to where we need to be in late 2020s-early 2030s to be 
able to fight and beat a peer adversary. That is what this is 
all about.
    So this is not a 1-year fiscal year 2020 and we are done. 
This is fiscal year 2020, 2021, 2022, and it is going to occur 
for many, many years to shift this big ship called the United 
States Army to where we need to be.
    Mr. Cole. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Visclosky. I would have more confidence we will avoid a 
CR if the gentleman from Oklahoma was still on the Budget 
Committee.
    Ms. Kaptur.

                            ARMY TANK CORPS

    Ms. Kaptur. Thank you, Mr. Chairman.
    And thank you so very much, Mr. Secretary and General, for 
being here today and for your service.
    I wanted to ask a question about tanks. And the Abrams 
tank, made in my neighborhood, can weigh over 45 tons--
actually, 65 tons--fully loaded. My question is, your budget 
requests, the Army budget requests $1.75 billion for the 
upgraded M1A2 and version 3, and my question is, how does that 
potential capability compare to what the Russians and Chinese 
have on the drawing boards?
    Secretary Esper. Ma'am, if you don't mind, I will take the 
first stab at this and then let the Chief talk about the other 
side.
    I was in Lima actually a couple weeks ago and was able to 
tour the plant. It is an incredible facility. Great American 
workforce out there. I think the Abrams tank is the most 
capable in the world and we continue to upgrade it.
    And that is why we are buying, I think, 168 tanks or 
upgrading 168 last year and 168 this year and we will continue 
to do the upgrade, so we can retain the overmatch over the 
respective Russian and Chinese counterpart. That is the key. 
And I think as compared to the Bradley, the Abrams has more 
life in it, more life left in it. That is why we continue to do 
these upgrades.
    Ms. Kaptur. But I understand there is a Russian version 
that can make it across Europe faster than anything that we 
have.
    General Milley. I would say this, Congresswoman----
    Ms. Kaptur. And can traverse more difficult terrain.
    General Milley. The Russians are investing in a variety of 
vehicles, some of which are tanks, some of which are infantry 
fighting vehicles, et cetera. There is nothing that I have seen 
yet that is some sort of super breakthrough in the world of 
Russian armored vehicles. They have certain capabilities that 
are very, very good, but I will match our M1 tank and the 
various models and series of those tanks against anything the 
Russians have.
    They do out-range us, because they put a missile on their 
tank, not just a main gun, but our main guns are very similar. 
But the real difference in tank, in the capabilities, is not so 
much the piece of equipment, it is the crew that mans it. It is 
the people.
    And our crews, our armored force are far superior, in terms 
of training, the amount of rounds that are fired per year, 
miles driven per year, and the complex environments they face 
at the training centers. So currently, today, our force, our 
armored force is a very, very capable force, and I am very 
confident in its ability to successfully operate against the 
Russians or anybody else.
    The key, the question really is the future and what are we 
going to do in the future, and therein lies this Next 
Generation Combat Vehicle. We talked about material with I 
think it was Congressman Ruppersberger.
    We need a vehicle, the basic attributes, that has the same 
protective qualities, that has increased lethality and 
overmatch relative to anything the Russians or the Chinese or 
anybody else can field.
    We want something that has greater speed and range and 
agility and is light enough to cross the rivers and the bridges 
and can be strategically mobile, can move from continental 
United States by air or sea with much less level of effort by 
TRANSCOM than currently to do with the M1s.
    That is a high bar of requirements, and we are working 
very, very hard on that as part of this Next Generation Combat 
Vehicle program.
    But our current vehicles--and I don't want anyone to walk 
away thinking that the Russians are 10 feet tall or anybody 
else is 10 feet tall in this world--the United States Army and 
the United States Army Tank Corps, the United States Army 
Armored Forces would do very well against anybody on the face 
of this Earth.
    And if you combine that with the United States naval power 
and the United States air power, we will do okay if something 
were to happen. Pray that it doesn't happen. But if it happened 
tonight, we are going to be okay. The future is what is really 
the question, and that is where we are driving with this 
modernization program.

                                ROBOTICS

    Ms. Kaptur. All right. And are plans on the drawing boards 
yet for those new vehicles?
    General Milley. Yes. They are being prototyped, tested 
right now.
    The other part of that is robotics. So these are going to 
be optionally manned vehicles. We know that the Russians and 
the Chinese are moving out very, very quickly on the use of 
robotics.
    Hypersonics was a technological area that the Secretary had 
mentioned would be an area that we want to invest in heavily. 
Also, robotics and artificial intelligence. And there are 
several others. There is a laundry list of these emerging 
technologies.
    But robotics is important for both the air and the ground 
vehicles. So for ground vehicles, you want the commander to 
make the decision on some future battlefield as to whether it 
is going to be a robot, the vehicle is going to be autonomous 
or semi-autonomous, depending on the situation, or manned, 
again, depending on the situation.
    And there is a variety of--industry has a variety of 
options and models that we are experimenting with. We are 
already driving some of these vehicles. We know in the 
commercial world there are plenty of robotic vehicles out there 
on the highways and byways of America and in other countries 
right now delivering goods and services.
    But running up and down I-95 is one thing. Running through 
some of the difficult terrain in the woods or deserts or dense 
urban areas is a different problem set for the engineers to 
solve.
    But I am 100 percent confident that it is going to get 
solved, and I think that we are going to be fielding very, very 
high-tech, optionally manned, robotic-type vehicles, armored 
tanks, if you will, in the not too distant future for the 
fielded force.

  TANK AND AUTOMOTIVE RESEARCH, DEVELOPMENTAL AND ENGINEERING CENTER 
                                (TARDEC)

    Ms. Kaptur. Is the Warren Tank Command heavily involved in 
that futuring?
    General Milley. I am sorry?
    Ms. Kaptur. Is the Warren Tank Command heavily involved in 
that futuring?
    General Milley. TARDEC. Yes, TARDEC, yes, absolutely. 
Absolutely.
    Secretary Esper. And just to be clear, ma'am, the number 
one priority right now is replacing the Bradley, the fighting 
vehicle, because it is out of electrical power, it is out of 
automotive power capabilities. So we have got to focus on that 
first.
    As the Chief said, we will have prototypes here in the next 
18 months or so that we will be able to test. And the game plan 
is to start fielding, I think, in 2026.
    And then we have got to focus on the tank. And we will 
learn a lot from the Bradley replacement in that process. But 
just to be clear.

                            INTREPID CENTER

    Ms. Kaptur. Thank you very much.
    General, I just wanted to ask, as I look at the suicide 
rates in the Army for 2018, the third quarter had a higher 
amount, sadly, in the Reserve and National Guard. And do you 
have any initiatives under development to help ensure better 
access to mental healthcare, particularly for those in the 
Reserve and Guard components?
    I was extremely impressed when I went up to the Intrepid 
Center up here at Walter Reed, but I can't guarantee you not 
one of those existing centers exists for Guard and Reserve 
personnel.
    Can you provide more information now or to the record about 
how one goes about getting something like the Intrepid Center 
in places where we have large numbers of Guard and Reserve 
returning home without access to that type of care?
    General Milley. I will. I would like to take the second 
part of that for the record to get back to you on how to do 
that, because I, frankly, don't--the Guard, as you know, is in 
all 54 States and territories and in various densities. I don't 
know that--I would have to go back and do the analysis to 
determine if there are centralized locations where something 
like the Intrepid Center would make sense for the Guard and 
Reserve.
    It is a particular challenge, no doubt, for the Guard and 
Reserve. We know that. We are very sensitive to it. Suicide is 
a national issue, and it is an issue for the U.S. military, and 
it is further an issue for the U.S. Army in all three of our 
components, the Regular, Guard, and Reserve. We take it 
serious. We have behavioral health counselors and specialists 
in all of our Active units and also embedded within our Guard 
and Reserve units, but not to the extent that is necessary.
    Suicide is extraordinarily complex. It is extremely tragic. 
And really, from my own experience as a commander and from what 
I have seen to date, the crisis point is almost--not always, 
but almost always there is some sort of spiraling or crisis 
that occurs about 72 hours prior to the consummation of a 
suicide. It is in that 72 hours if someone could intervene in 
some capacity, whether it is a family member, a buddy team, a 
soldier, a leader or something.
    So that is what we emphasize. We emphasize it for sexual 
assault and we emphasize it for suicide. It is the intervention 
that is critical. It is the I am my brother or sister's keeper, 
I do have personal responsibility for you as my fellow soldier. 
And regardless of rank, whether it is a private saving a 
sergeant or a lieutenant saving a colonel, it doesn't matter. 
Intervene.
    And oftentimes what we have seen is the diving catch, that 
intervention within those 72 hours makes all the difference in 
the world as some individual experienced crisis and they don't 
know how to get out of it and they do essentially what amounts 
to a short-term solution--or a long-term solution to what could 
be a short-term problem. And they do something that is 
irrevocable, suicide, when if someone could intervene right 
there.
    So we emphasize buddy teams, intervention, small unit 
leadership, the squad leader, the platoon sergeant, the platoon 
leader knowing their people, perceiving all the signs, 
symptoms, and crisis indicators and warnings, and then 
intervening. Don't hesitate. You will be saving somebody's 
life.
    [The information follows:]

    The Army National Guard (ARNG) and U.S. Army Reserve (USAR) have 
implemented psychological health programs, staffed by Directors of 
Psychological Health who provide referrals and linkage to appropriate 
treatment based upon eligibility and available resources. The ARNG and 
USAR expanded that program to include clinical case management of high 
risk and complex cases. Nurse case managers work with Soldiers, 
commands, providers, and Family members to coordinate treatment and 
ensure that Soldiers have access to, and engage in, the treatment 
required to stabilize their condition with the primary goal of 
restoring Soldiers to optimum mental health.
    The ARNG also operates the Resilience, Risk Reduction, and Suicide 
Prevention (R3SP) program across the 54 States and Territories to 
implement the Fiscal Year 2018 National Defense Authorization Act 
requirement for suicide prevention training and education for ARNG and 
USAR Service Members and their dependents. The R3SP program is 
collaborating with the SHARP Ready and Resilient Directorate to deploy 
Engage training across the force, which refocuses leader and junior 
Soldier intervention at the first sign of problematic behavior. This 
year, we have partnered with the Veterans Health Administration to 
utilize Veterans Affairs Mobile Vet Center staff members to provide 
increased access to behavioral health services for ARNG and USAR 
Soldiers in remote areas through a Mobile Vet Center Outreach 
Initiative.
    Additionally, the Secretary of the Army directed the development 
and evaluation of an Army suicide prevention leadership tool for first-
line leaders. The pilot study of this tool is the first to deploy a 
rigorous scientific design to evaluate leadership's practical and tool-
based methods for suicide prevention. Results of the pilot study will 
inform whether the tool should be further tested or deployed Army-wide.
    Regardless of component, screening and risk assessments are 
included in the Periodic Health Assessment, the Post-Deployment Health 
Assessment, and Reassessments, as well as separation health 
assessments, and occur routinely in Army Patient Centered Medical Homes 
during treatment encounters. Education and public awareness efforts 
leverage Army programs to reach out to leaders, peers, and Families. 
Surveillance occurs through the Army Public Health Center, the Armed 
Forces Health Surveillance Center, the Department of Defense (DoD) 
Suicide Prevention Office, and the DoD Suicide Event Report Program.

    Ms. Kaptur. I know my time is up, but I must say this. I 
was very disappointed when we had the heads of West Point, 
Annapolis, and the Air Force Academy before us and I said to 
them, we know we have a shortage in the military of physicians 
and behavioral nurses, people who specialize in these 
categories, would you consider admitting more individuals who 
would wish to study in those areas? And I got a very weak 
reply, actually a terrible reply from every single one of them. 
So they are unconscious.
    And then for the uniformed military health services, I have 
asked myself could we do something in those accounts to attract 
more individuals who would come into the military with some 
responsibility. They would learn and study in these arenas that 
the military very much needs as well as civilian society. But I 
haven't really heard too much about that.
    So I am just sharing that with you. You have extremely 
important positions in our country. And this is a problem we 
need to solve. My goodness, we just lost the Admiral on the 
Fifth Fleet, for heaven's sake.
    General Milley. That is right.
    Ms. Kaptur. So I just--it is like--some people say it, but 
where we have the opportunity to make a difference, we are not. 
And we have got the largest budget in the Government of the 
United States.
    So just know you have a Member here who is harping on this, 
and some of my colleagues care a great deal as well. Why can't 
we fix this?
    And every aspect of the military has to pay attention. And 
we can do this. We can do this as a country. So hear my plea.
    Thank you.
    General Milley. You are correct, and we agree.

                    U.S. FORCES ON KOREAN PENINSULA

    Mr. Calvert. Thank you, Mr. Chairman.
    I have been reading the news lately, I know you do also, 
and it seems like Kim Jong-un is going to Russia on his begging 
tour, to try to get aid from Russia. Of course, Russia is not 
in great financial shape themselves.
    But it concerns me. It seems that Kim Jong-un is getting 
increasingly desperate to get foreign assistance from either 
China, Russia, or whoever he can get it from. And I know, 
General, you have been dealing with this character for some 
time.
    But is there a level of frustration he may get to where he 
may try to do something to get attention in order to get 
assistance? It has worked in the past. And it seems that he was 
trying to gear up for a new launch or do some other things that 
maybe somewhat expose kind of management of this situation. Do 
you see any risk out there right now?
    General Milley. The short answer is yes, there is always 
risk. And I would be hesitant here or any time to predict the 
future behavior of any foreign leader and specifically the 
foreign leadership of North Korea.
    It is a challenging situation. We in the military, our role 
in all of this is to be prepared, and I believe we are. I 
believe we have done all the right things. I believe General 
Abrams and the U.S. Forces on the Korean Peninsula, 28,500 of 
them, are prepared to execute whatever is necessary.
    Right now, with the diplomatic efforts with North Korea and 
the denuclearization efforts, diplomacy is the main effort of 
the Nation, and we are clearly in support of that.
    But I would hesitate to predict what would come next. I 
have access to a lot of the intelligence, and I would be happy 
to talk to you in a classified environment. But right now in a 
public environment I would not want to predict what North Korea 
would do.

                     READINESS ON KOREAN PENINSULA

    Mr. Calvert. Well, a key point is our readiness in the 
Korean Peninsula. And obviously we put off a lot of joint 
training missions with South Korea.
    General Milley. Yes.
    Mr. Calvert. Is that damaging our readiness?
    General Milley. I think for the readiness of the force, 
General Abrams has testified, and I would reemphasize that, 
that the exercises that were canceled, modest or negligible in 
terms of its negative effects, per se, on the readiness. But if 
it was sustained over multiples of years, it would have a 
cumulative effect.
    But the readiness of the force at the division and below 
level on the Korean Peninsula--and I will be heading over there 
in a couple weeks, by the way--the readiness of the force at 
the division and below level, at the brigades and the 
battalions and the companies, they are training all the time. 
So that is not what got canceled. What got canceled is command 
post exercises.
    And so I think those can be mitigated adequately with an 
acceptable level of risk.
    Mr. Calvert. Thank you.

                              END STRENGTH

    Mr. Visclosky. Gentlemen, I would like to return to the 
issue of end strength. Where does the number come from? It is 
an authorized end strength number, but how is it formulated? Is 
it informed by the National Defense Strategy? Where does that 
number every year come from?
    Secretary Esper. I can take the first stab at this.
    We have a process called the TAA process, the Total Army 
Analysis, that looks at--based on war-gaming and a number of 
other factors and--my shorthand--comes up with a force 
structure that we would need to fight and win in future wars. 
And then that force structure inevitably, once you break it 
down by compo--regular Army, Guard, Reserve--drives a certain 
number of people. Once you determine how many of this type of 
unit you need, there is a number associated with that. For 
example, an infantry company, 142 people or so.
    In shorthand, that is how it is derived.
    I don't know if you----
    General Milley. So, on an annual basis, we go through a 
rigorous process, starting with the National Security Strategy 
and the National Defense Strategy. And from the National 
Defense Strategy, you pick out--again, it is an authoritative 
document. You pick out the specified and implied tasks that the 
Secretary of Defense has given each of the various services. We 
go through that. Then we look at the National Military Strategy 
that is developed by the Joint Chiefs of Staff, of which I am a 
member, and the Chairman. They have specified tasks in there.
    And then, in addition to that, we kludge onto all of that 
the combatant command war plans. Those are key because those 
are very, very specific, and they lay out exactly the types of 
forces and capabilities that each of the combatant commanders 
want in order to execute their various plans.
    The combination of all of those are the inputs. It goes 
through very, very, very rigorous analysis down at various 
centers within the Army. Then we war-game all of those. And 
from those, we derive--plus we apply military judgement to all 
of that. And from that, we derive estimates of the size force 
and the type of force, the force structure that was mentioned 
earlier. We do it for the present force, and we do it for the 
future force. But all of that together is a--it is a very, very 
rigorous detailed process.
    Mr. Visclosky. My next question, then, would be that it 
would appear, if it is approved by the Congress, so your fiscal 
year 2020 authorized end strength would be 480,000, as I 
understand it.
    The authorized end strength two fiscal years ago, fiscal 
year 2018, assuming 2020, was 483,500. So given the fact that 
we are trying to anticipate peer competition, you would have an 
authorized level of 3,500 lower than 2 fiscal years earlier. 
Does that give you pause or concern?
    Secretary Esper. Yes, sir.
    General Milley. Let me take that. I am the one who--this is 
on me----
    Mr. Visclosky. A rigorous examination----
    General Milley. Well, this is on me. I am the Chief of 
Staff of the Army. We know the end state. We know where we need 
to get to in general terms on the size. Those end strengths 
that we asked in the NDAAs, that was a glide path to an end 
state.
    And I, the chief, set a goal that exceeded our recruiting 
ability. And I was advised by then-Secretary of Defense Mattis, 
hey, your goal, your objective is too high; you probably are 
not going to make it in the current recruiting environment, et 
cetera. But we kept that goal. And as Secretary Esper 
mentioned, we had a banner recruiting year, 70,000. Even though 
we came in short 6,500, it was still a 10-year high, and it was 
a greater amount recruited into the United States Army than are 
in the Canadian and Australian Armies combined.
    So we set our objective too high. We maintained quality 
over quantity, and we didn't make the recruiting goal.
    So we came back to Congress this year, and we said: Okay. 
We are not going to have that rise over run, that glide path, 
as big as we desired. We want to trim it back to about 2,000 
rise over run, and we want to execute modest growth.
    And what that means now is that the end state size of the 
Army that we think is necessary to execute the National Defense 
Strategy is going to be stretched out, pushed out several years 
beyond that which we would have had we achieved the objective.
    Mr. Visclosky. If I could, because I have a number of 
questions on this.
    General Milley. But that is on me.
    Mr. Visclosky. I appreciate--and you are absolutely 
correct--that your accessions for fiscal year 2019 were the 
highest ever, about 70,000. They come from the civilian force, 
I assume--civilian population. They come from reenlistments. 
They come from the Guard. They come from the Reserve.
    Is there any proportionality to that, and is there any 
shift of your emphasis to try to meet your numbers as far as 
what the composition of those numbers look like?
    Secretary Esper. Well, they come from the civilian 
population in into the Regular Army, Guard and Reserve. Each 
component has its own respective targets to meet. Each of the 
components missed their targets last year. And so we adjusted 
our numbers appropriately to deal with that.
    As the chief said, one of the things that we have to do is 
make sure or training base--we give them predictability, 
because it determines how many drill sergeants they hire and 
the equipment they need, et cetera. I mean, if the economy 
changes in a few short years, we may come back--and by the way, 
we are reorganizing our recruiting enterprise. We may come back 
and say we want to go to 4,000 more a year, because we know the 
end state needs is well over 500,000 in order to--regular 
Army--in order to fill units to strength; number two, to 
restore capabilities have been lost over the past 18 years, 
like electronic warfare; and to build new capabilities, like 
cyber units.
    So we know what we need to do, but we have to modulate that 
based on bringing in a sufficient number of quality recruits 
into each of the components year over year over year in a 
predictable basis.
    Mr. Visclosky. Because your number is fairly static. The 
fact that you have 70,000 new people, give or take, 70,000 
people disappear, too.
    General Milley. Okay.
    Mr. Visclosky. Not disappear, but they are not in the 
military now.
    Secretary Esper. One of the challenges, too, is--you know, 
I said earlier we had one of the highest retention rates of 
many years as well. One of the key things we need in the Army 
right now, the most in-demand rank is the rank of staff 
sergeant, E6. They are the level--the rank level is that our 
squad leaders, our team leaders. They are the recruiters; they 
are the drill sergeants. And that retention of--that high 
retention rate allows us to kind of grow that NCO corps.
    Now, that is going to take a few years, but you also need 
to make sure that we have a sufficient retention rate year over 
year to make sure we get those quality NCOs moving up.
    Mr. Visclosky. And I appreciate the fact that you are 
looking at all of your options and advertising and websites and 
everything because I am looking at your end strength on the end 
of February this month, and you are 818 people down from the 
end of the last fiscal year. You have a significant problem in 
your end strength.
    The next question I would have is for fiscal year 2018. The 
Congress appropriated monies for the personnel account, and 
there is great support for doing that because it is for the 
troops. But there was an excess of about a billion dollars that 
the Army asked to be reprogrammed for 2018, and it was used for 
modernization efforts. And Congress approved those 
reprogrammings.
    When we were in conference for the fiscal year 2019 bill, 
there was about $600 million in the military personnel account 
that was essentially eliminated during conference and used for 
other military purposes. And I find it interesting that, within 
the last month, there is still a billion excess that is now 
being dedicated by the administration to the wall.
    I note, at the very same time, that the Army has presented 
to this committee fiscal year 2019 unfunded requirements 
totaling $308 million. It is my understanding the Army has also 
submitted and unfunded requirements list of $2.3 billion and, 
additionally, that there are reprogramming requests pending at 
OMB that would substantially invest in other existing Army 
programs for this fiscal year.
    Would you have a response to the fact that you have a list 
of needs here?
    Secretary Esper. Yes, sir, so the----
    Mr. Visclosky. The answer was made that didn't--wasn't 
applied to any of those.
    Secretary Esper. The chronology is important. And I was 
going to actually, when I was thinking about your first 
question, it ties into your second question. So we are a little 
bit behind right now. But these are what we call the bathtub 
months--not these now, but January, February, March. Our 
highest recruiting period is really when you hit the summer 
months, May, June, July, August.
    So, last year at this time--and that is why we express 
confidence now that we will hit our mark by the end of this 
year--we were still fairly confident that we would hit our 
marks for fiscal year 2018. I want to make sure I get my years 
right. Come the end of the year, though, we realized, by the 
time we had the numbers in, were 6,500 people short. That is 
around late September, early October.
    We--I--went to Secretary of Defense Mattis and said: We 
have this asset. What we want to do is lower our end strength 
numbers because we don't believe, given the recruiting 
environment, given all of the challenges, given the fact that 
we need to overhaul our recruiting base, that we can make a 
number of 487,000.
    So we said: We want to lower that number for 2019 down to 
478.
    This is now October timeframe, October/November timeframe. 
And, therefore, we said: That means we have an asset of over a 
billion dollars for MILPERS that we are presenting to OSD, if 
you will.
    This is well before any discussion about transferring money 
to the 284 account, or whatever, began. But at the same time, 
we came forward, I think, in late November or so, early 
December, to inform the Congress that we wanted to lower our 
end state number and we had this asset. We wanted to be very 
transparent in the process. That is the ticktock in terms of 
you talk about the military personnel----
    Mr. Visclosky. But in past years, the reprogramming was for 
military programs. And my point of the question is I have a 
list of unfunded requirements for 2019 of $308 million that are 
still sitting out there.
    And my understanding is there is going to be additional 
requests after OMB clears them for reprogramming of needs.
    Secretary Esper. Yes, sir. So----
    Mr. Visclosky. You have got about a billion dollars sitting 
there for something else.
    Secretary Esper. So, when we surrendered, if you will, that 
billion-dollar asset to OSD, we said that, while the fiscal 
year 2019 budget met our readiness and modernization 
objectives--your requirements, your needs and wants always 
exceed your resources. We had a list of things we said we could 
have used that for. Some of those things are on the UFR. But it 
was OSD's call to use that money for other priorities.
    Mr. Visclosky. Okay. I will conclude this, and I will 
recognize Judge Carter.
    And I understand what you say about the end of school 
system. But I would note, in 2019, the net increase in 
personnel was 62; the net increase in June was 12; and the net 
increase in July was 144. So it just tells me you do have a 
problem as far as that end strength and meeting it. And I wish 
you well on it.
    Judge Carter.

                          JUNIOR ROTC PROGRAMS

    Mr. Carter. Thank you, Mr. Chairman.
    And let me continue on this conversation a little bit.
    I met with Sergeant Major Dailey a couple of weeks ago. We 
were talking about recruitment. He pointed out that the members 
of the Junior ROTC programs around the country, they tend to be 
good citizens, and they tend to have a high propensity to join 
the military.
    I live in one of the fastest growing areas of the country 
right now. We are building high schools. They are coming up 
like mushrooms after a rain, all over everywhere. And a lot of 
these high schools have a real interest in getting a Junior 
ROTC program, and they seem to be running into issues that 
frustrate their ability to get these programs.
    How do you feel about Junior ROTC programs?
    I feel like they build citizenship. And we have got a lot 
of interest in a fast-growing community, and I would think that 
would be a good one small plus for recruiting. And then I will 
tell you about something else we have after you answer that 
question.
    Secretary Esper. I also agree that JROTC is a great 
citizenship program, and it tends to push--encourage kids to 
join the military at higher rates than anywhere else. It 
requires some investment. We have had great success for many, 
many schools. But as Chairman Visclosky mentioned earlier, as 
hard as it is to cut a program, it can be equally hard to 
reduce a JROTC or an ROTC program once you stand it up, even 
though it may be nonperforming. And so there is, quite 
candidly, a reluctance to start a program, unless we can trim 
programs elsewhere because, otherwise, you are just--you know, 
the return on investment.
    So, if I had the ability on all levels to, you know, with a 
free hand to really make those shifts, that would be something 
we would want to do.
    Mr. Carter. As you know, I live in a military community. It 
is Army-based, but quite honestly, we have a high propensity 
for all the services in our area.
    And a group of citizens have started have talking about 
ways to figure out how, at graduation, you will have the 
announcement made, ``Ms. Bustos is graduating from Round Rock 
High School, and she is going to the University of Texas; and 
Mr. Kilmer is graduating from Round Rock High School, and he is 
going to''--whatever--``Texas Tech.'' We want them to announce 
``Mr. Carter is graduating from high school and is joining the 
United States Army; Mr. Jones is graduating and is joining the 
United States Navy.'' We want them to be acknowledged for their 
patriotism and for the fact that they are going.
    I intend to--as part of a program a bunch of us are working 
on, I did write letters to all the recruits that graduated from 
high school, a personal letter from me, thanking them for their 
patriotism and congratulating them for meeting the high 
qualities and standards that our military requires, all of our 
military requires, to be able to be there and remind them they 
are part of 1 percent of the people that are qualified and 
eligible to serve in our service.
    And then I am hoping I can get people who are going to help 
me come up with the money to give people who graduate a red, 
white, and blue extra tassel on their graduation hat when they 
graduate from high school which says ``I have joined the 
military.''
    I think the people that are patriots that are willing to do 
that need some reward.
    Secretary Esper. Yes, sir.
    Mr. Carter. And maybe that will help.
    Secretary Esper. Well, thank you for doing that. It does 
make a difference. It not only celebrates the young man or 
woman who decides to go into the military, but it also 
showcases them for the juniors and sophomores and freshmen 
behind them. As I said, as part of this recruiting overhaul, I 
have been around, and I have talked to many of our recruiters 
in major cities across the United States.
    Unfortunately, in many cases, there are too many school 
districts that simply will not give us genuine access to the 
schools, to the kids. For one reason or another, we can't get 
in. We get very limited access. And I think it hurts our 
recruiting efforts. Not just us, but the Army, Navy, Air Force, 
Marines.
    And I think it is a disservice to young people who maybe 
aren't ready for college, can't afford college, aren't college 
material. We can bring them in. We can teach them a skill, a 
trade. We can teach them about loyalty and duty and service. 
And even if they come just for 3 years, they will be a far 
better citizen if they join the military for a few years.
    But we need to get into the schools, and that is where we 
need help.
    Mr. Carter. Thank you.

             MEDICAL HEALTH SERVICES TRANSFORMATION PROGRAM

    Mr. Visclosky. I would just associate myself with the 
comments the Judge made about the Junior ROTC program. I think 
is a great program and certainly would appreciate it being 
expanded.
    I just have one other line of questioning, and that is on 
the Medical Health Services Transformation program.
    At the outset, I would acknowledge, people do not like 
change. One thing I have learned, they don't like change.
    But a number of us travel--we are at a medical institution, 
not an Army facility, and most fulsome discussion, longest 
discussion, and most emotional discussion was this issue in 
billets.
    People can tell you how incredibly confused I was at the 
hearing relative to medical services last week. The staff is 
trying to educate me over an extended period of time.
    But the question I would really have is it is--you have 
services, whether they are pediatrics, OB/GYNs, others that 
sometimes people think aren't associated with the military, 
although we obviously have women and we have families.
    As far as potential reductions, what is the concern here, 
and what are the ramifications? And if those billets, if those 
positions go away, what are the alternatives to members of the 
service and their families?
    And the reason I ask is the facility we were at, some 
people are driving an hour just to get to work at the base. And 
pediatricians, women's health, if I then have to travel an 
extended period of time, my child is sick, whatever, I am not 
making for a happy soldier, if you would. That is kind of my 
question.
    Secretary Esper. There are two parts to this, sir. And we 
can talk to the first part and maybe a little bit to the second 
because it is different areas of responsibility, if you will, 
in some ways.
    So, first of all, our commitment is to make sure that our 
soldiers, as a medically ready force, are ready to go to fight 
and win. And then we have concern about the beneficiaries, 
their family members, if you will.
    On the first part, the Army, several months ago, started 
looking at what do we need for the fielded force in terms of 
medics and doctors and nurses and surgeons and PAs, you name 
it, to make sure we had exactly what we needed for the force. 
And there was a lot of change happening there, with that 
regard. We just didn't think that we had the right numbers in 
the right specialties for our fielded force, the units that go 
to war. And that is our responsibility.
    The second part is Defense Health Agency. And as directed 
by Congress, was to look at a number of reforms. Our 
understanding of that is their challenge is to look at how they 
can reduce overhead and how they can look at services that, if 
it is available in a local area, it may be where they can--they 
can outsource, if it is nearby, a--you know, pediatric services 
or what. That is the part that is not us, but is a focus of 
DHA. Our focus, though, is making sure that in this transition 
period and after, that our beneficiaries are taken care of, 
that you are not having to do exactly what you said.
    There is a lot of concern and change out there. And it is--
you know, my wife gave birth in both an Army hospital and a 
civilian hospital and had good experiences in both. But some 
people haven't, and some people have one.
    So it is the second part that I think is causing the most 
consternation, is what happens with regard to the medical 
treatment facilities. And that is where we have been pushing 
hard. Myself and Secretary Wilson and Secretary Spencer have 
had a number of engagements with the folks leading that effort. 
I don't think it is moving as quickly as we would like or as--
you know, I just--they got a long road ahead of them.
    General Milley. I think there are probably three key areas 
that any soldier and their family care most about, I suppose. 
One of them, as you saw recently, is housing. And that is a 
significant effort. Another is schooling for your family 
members. And the third, and perhaps the most significant, is 
medical. And these are readiness issues.
    Sixty percent of our Army today is married and, on average, 
with two children. So, on average, you are looking at a four-
person family, whereas like, in World War II, 10 percent of the 
Army was married.
    So taking care of the family's peace--the medical care, the 
housing, and the schooling--is critical to the readiness 
because we want the soldier to focus on the military task at 
hand. And if you are constantly worrying about lousy medical 
care or lousy houses or mold in your house or the kid doesn't 
have a good school to go to, then that wears on you, and it 
detracts from readiness. So point one is it is really, really 
important.
    Point two is the military medical system--Army, Navy, Air 
Force, Marines--is a huge system. It is massive. And with the 
Defense Health Agency initiative, we are taking a massive 
system and doing a massive change. And I am one of those who 
believe when you are doing something on that scale and 
magnitude, to do it step-by-step, to do pilots, to learn 
lessons as you go, and make adjustments to the program. And 
that is kind of what we are trying to do.
    So we have taken for the MTF--the Medical Treatment 
Facilities, take large--this is across all the services, not 
just the Army--take a large hospital, take medium hospitals, 
and take small hospitals, and let's apply the new DHA standards 
to them, draw the lessons, and then grow from there. So that is 
the MTF piece.
    And the other part that we are doing within the Army is we 
want to carve out those healthcare professionals--medics, 
doctors, nurses, et cetera--that are necessary for the combat 
force in order to provide that forward medical care that we 
talked about earlier in order for the golden hour.
    And those are two different capabilities. One is stay at 
home, medical treatment facilities, big hospitals, take care of 
soldiers and families. The other is a combat medical capability 
that is distributed within tactical units, and they are going 
to be on the forward edge of battlefields. And those are two 
different requirements.
    So the medical command, if you will, has got to be split 
now into two as part of this major ongoing initiative in order 
to provide those capabilities. And it is very complex. We need 
to take it step-by-step and learn the lessons as we go.
    Mr. Visclosky. Gentlemen, thank you very much, and good 
luck this year. Please stay in touch. We want to work with you.
    Mr. Calvert, thank you.
    We are adjourned.
    [Clerk's note.--Questions submitted by Mr. Aderholt and the 
answers thereto follow:]

                      Common Hypersonic Glide Body

    Question. I am concerned about our delay in deploying a long-range, 
offensive, hypersonic weapon in the field. I have pushed this for 
years.
    I understand that there is a booster, of large circumference, which 
we have in our inventory, and which we have used, and that there is at 
least one more about the same size in steady production.
    I think we may use one of those boosters for upcoming flight tests.
    Yet--instead of fielding a few of these weapons using that booster, 
a decision was made to wait for a NEW, smaller booster to be designed 
and tested. I think that adds substantial time to the process. If money 
is a factor, this is the right Committee to hear the details. I would 
appreciate you sending the Committee information on your most recent 
cost-study.
    Meanwhile, as all this work continues, would you support the 
fielding of a limited number of weapons, using the larger booster, so 
that we can save a couple of years in getting a weapon in the field?
    Answer. The Army recognizes the importance of deploying a long-
range, offensive, hypersonic weapon. The current plan accelerates the 
initial fielding from FY2025 to FY2023. The Army's plan will allow the 
Army to have a road mobile weapon system that is more survivable and 
operationally effective than a fixed site missile system using the 
larger booster stack that is currently in the Army's inventory. Army 
leadership made the decision in October 2018 to use a common booster 
with the Navy. Additionally, the Army will use the Common Hypersonic 
Glide Body (C-HGB) that both the Navy and the USAF are using. The use 
of common elements with the Navy and USAF also creates economic 
advantages of scale through increased production numbers from use by 
all the services.

                          Army Futures Command

    Question. For years, research labs such as the AMRDEC, now with the 
new name of CCDC, have done cutting-edge work on materials and other 
matters which may not be applicable to an acquisition next month but 
may be exactly what we need for the next generation or the one after 
that. Since there is never enough money for acquisition, now that we 
are under this new process called the Army Futures Command, how do we 
preserve some of the budget and the initiative of the lab directors so 
that we maintain the ability to hit the next breakthrough before our 
enemies do?
    Answer. Army research laboratory directors under CCDC have the 
flexibility to allocate a percentage of their budget and exercise 
initiative through U.S. Code Section 2363--Mechanisms to Provide Funds 
for Defense Laboratories for Research and Development of Technologies 
for Military Missions. Sec. 2363 authorizes laboratory directors to use 
2-4% of their funding for innovative basic and applied research to 
maintain the Army's ability to hit the next breakthrough before our 
enemies.
    Materials research is often the core of new technology and is 
certainly an area where we will continue to focus investments. The Army 
will also continue to encourage our laboratory directors to utilize 
their Sec 2363 funds for these types of initiatives as well as to 
propose cutting edge research areas during the Program Objective 
Memorandum (POM) process.
    Question. For FY19, Congress appropriated $20M for Army Futures 
Command (AFC). However, an additional $80M was transferred to support 
AFC operations. Can you explain what made these transfers necessary, 
what the FY20 request for AFC is, and whether additional funding 
transfers be required in FY20 to lead the development of the Army's 
modernization priorities?
    Answer. Initial resourcing for Headquarters, AFC, includes 
requirements for 400 civilian and 100 military members at the 
Headquarters and an additional $100 million in operations and 
maintenance--Army (OMA) funding to support the headquarters and cross 
functional teams. The increase of $80 million funded civilian pay, 
facility leasing, headquarters operations, sustainment, travel, 
training, and information technology requirements. Funding also 
supported the innovation center and cross functional teams. Facility 
leasing pertains to Headquarters, AFC and basing in support of the 
eight cross functional teams, the Army Artificial Intelligence Task 
Force, and the Army Applications Lab.
    The FY20 request is $100M. The funding level for Headquarters, AFC 
is commensurate with other Army commands and will support the 
headquarters and cross functional teams as well as civilian pay, 
facility leasing, headquarters operations, sustainment, travel, 
training, information technology requirements, and the innovation 
center. There are currently no plans to submit additional transfer 
requests for FY 20.

              Communications Network Acquisition Programs

    Question. The Army has repeatedly acknowledged major setbacks in 
communications network acquisition programs and emphasized the need to 
modernize lower and upper tier capabilities.
    In an effort to shore up network pitfalls, the Army has proposed 
acquisition policies that open competition to commercial off-the-shelf 
(COTS), non-developmental communications technologies, which can be 
quickly adapted and integrated.
    Given the existence of vastly superior COTS solutions, some of 
which are currently fielded by the Special Forces, why does the Army 
continue to roll out major radio and communications network 
procurements based on restrictive, dysfunctional technical requirements 
(ex. JTRS, WIN-T, and Riflemari Radio) that specifically preclude COTS 
solutions from consideration?
    Answer. The Army is fielding new network capabilities that can be 
integrated into, and dramatically transform, the current tactical 
network. Some of these new capabilities are delivered by improving 
programs of record, integrating the latest commercial non-developmental 
item capability into existing efforts. Other capabilities are entirely 
new, such as leveraging commercial cellular networks, buying industry 
developed COTS data radios, and using advanced waveforms to give 
commanders alternative paths to communicate. These systems will expand 
the Army's network capacity and resiliency and they will maximize the 
availability of bandwidth to support voice, data, and video in a 
contested and congested spectrum environment on the battlefield.
    The Army is executing a strategy to field new network capability in 
two-year increments beginning in FY21. The detailed network design of 
each successive set will be informed by experimentation and direct 
feedback from operational units and Soldiers. The Army is using the new 
Mid-Tier Acquisition (MTA) 804 authority to rapidly procure the latest 
cutting edge commercial technology for our integrated tactical network 
efforts to support capability set fielding, where appropriate. The Army 
is leveraging several efforts including the use of rapid innovation 
funds to assess commercial products including purpose built radios, 
commercial waveforms, cloud computing, and common standard software and 
applications to help inform network design revisions.
    Question. In addition, how is the Army providing active oversight 
of these activities to ensure that the warfighter is equipped in harsh 
operating environments with network capabilities providing optimal 
scalability, full-motion video streaming, and high data transfer rates?
    Answer. The network cross-functional team (N-CFT) and PEO C3T are 
working together to provide oversight of the network modernization 
strategy. Through the N-CFT, the Army has begun to simplify and 
expedite the requirements process, prioritize and align Army investment 
in science and technology with industry efforts, and focus on 
experimentation and rapid procurement of Joint and Special Operations 
Forces solutions, available commercial technology, and non-
developmental items.

    [Clerk's note.--End of questions submitted by Mr. 
Aderholt.]

                                           Tuesday, April 30, 2019.

  FISCAL YEAR 2019 UNITED STATES NAVY AND MARINE CORPS BUDGET OVERVIEW

                               WITNESSES

RICHARD V. SPENCER, SECRETARY OF THE NAVY
ADMIRAL JOHN M. RICHARDSON, CHIEF OF NAVAL OPERATIONS
GENERAL ROBERT B. NELLER, COMMANDANT OF THE MARINE CORPS

                Opening Statement of Chairman Visclosky

    Mr. Visclosky. The Subcommittee on Defense will come to 
order. This morning the committee will receive testimony on the 
fiscal year 2020 for the United States Navy and Marine Corps.
    Our three witnesses are the Honorable Richard Spencer, 
Secretary of the Navy, the Admiral John Richardson, Chief of 
Naval Operations, and General Robert Neller, Commandant of the 
United States Marine Corps.
    Gentleman, we welcome you back before the subcommittee and 
do, as always, thank you for your service. Admiral Richardson 
and General Neller, I would like to take this opportunity also 
to recognize that this is likely the last time you will appear 
before the subcommittee, you are probably happy about that, and 
congratulate you both on your upcoming retirements. You have 
both been outstanding representatives for your services, and we 
appreciate the frank and informative dialogue we have always 
enjoyed with you.
    The committee has made significant investments in Navy 
platforms and readiness over the past several years to ensure 
that sailors and Marines are prepared for whatever happens 
throughout the world. We want to understand how the fiscal year 
2020 budget request is focusing on increasing readiness, 
utilizing the platforms currently in the Navy inventory to 
their full capacity, and taking care of sailors and Marines and 
their families.
    The recently released 30-year shipbuilding plan continues 
to assert the need for a 355-ship Navy. Since 2001, the Navy 
force structure goal has fluctuated between a low of 306 ships 
in 2013 and a high of 375 ships between 2002 and 2004. However, 
the current number of ships totals 289, less than the 
requirements over the last several years.
    At the same time, the budget requesting seemingly 
contradicts the shipbuilding plan by deferring procurement of a 
long-planned amphibious ship and canceling the refueling and 
overhaul of an aircraft carrier. Shipyard backlogs remain high, 
and the shipbuilding industrial base is also facing production 
delays and capacity challenges.
    Today I would like to find out and hear whether or not a 
355-ship requirement is a realistic goal and how some of these 
decisions have informed the fiscal year budget request. 
Additionally, I remain concerned with reports that the Navy is 
frequently accepting ships that have both minor and major 
defects which require additional costs and unscheduled 
maintenance. We have seen the multiple issues with the Zumwalt 
class of destroyers, the Littoral combat ships, and the lead 
Ford class aircraft carrier. I believe it is inexcusable that 
shipbuilders are delivering ships with defects, and we need to 
understand what steps are being taken to improve the situation.
    I am also concerned, and the committee is, about the well 
being and quality of life for sailors, Marines, and their 
families. I have heard about the lack of available child care 
and would like to know what the services are doing to mitigate 
some of the challenges that members and their families face.
    With that, again, I want to thank you for appearing before 
the committee today to discuss these issues, so we will ask 
that you present your summarized statement in a moment. But 
first, I would recognize Mr. Calvert for his opening statement.

                    Opening Statement of Mr. Calvert

    Mr. Calvert. Thank you, Mr. Chairman. I would like to 
welcome each of our witnesses, Secretary of the Navy, Richard 
Spencer, Admiral John Richardson, Chief of Naval Operations, 
and of course, General Robert Neller, Commandant of the Marine 
Corps.
    Admiral, General, I understand you are both going to be 
retiring before you have to return to this committee, so this 
is my chance to say congratulations on your retirement and 
thank you for your long and distinguished service to this 
country, and we certainly are appreciative of your dedicated 
service.
    The Department of the Navy plays a critical role in 
addressing the growing challenge and increasing threats from 
China that suffer to extend influence over international waters 
and the sea lanes. As China becomes ever more bold, the 
National Defense Strategy rightly calls for renewed focus on 
adversaries such as Russia and China.
    While we have been fighting violent extremists for nearly 
two decades, China has been watching us and steadily investing 
in its maritime capabilities. I want to hear how your budget 
request will enable the United States to achieve its strategic 
defense mission particularly with respect to China.
    I also want to hear your rationale for the proposed early 
retirement of the USS Truman. This represents obviously a 
substantial change from the current course.
    I would also like to hear from you, Mr. Secretary, about 
our carriers and survivability against attack. We have 
discussed the capability of the military health community to 
respond to such an attack at an earlier hearing with the 
defense health community.
    I would also like to commend Secretary Spencer and Admiral 
Richardson on embracing the innovative technology such as the 
Aegis Virtual Twin which significantly shortens the time it 
takes to field new capabilities of the fleet. While change can 
be difficult, we need to disrupt the status quo if we are going 
to maintain our technological and military superiority.
    Finally, I would like to hear from you both about training, 
both the Admiral and General Neller. Are we investing enough in 
our sailors and Marine Corps to make sure that we are effective 
in the future?
    And certainly we have a lot to discuss, so I will conclude 
my remarks. Thank you again for your service to our country, 
and I look forward to your testimony.
    Mr. Chairman. I yield back.
    Mr. Visclosky. Thank you very much.
    Gentlemen, your full written testimony will be placed in 
the record. Members have copies at their seats. Our intent is 
to try to complete two rounds of questions for each member 
present. In the interest of time, I would encourage you to keep 
your summarized statements to 5 minutes or less. Be complete 
but succinct in responding to questions. Thank you very much, 
and Secretary, the floor is yours.

                 Summary Statement of Secretary Spencer

    Secretary Spencer. Chairman Visclosky, Ranking Member 
Calvert, distinguished Members of this group, on behalf of our 
sailors, Marines, and civilian teammates, thank you from the 
bottom of our hearts. Thank you for this bipartisan effort that 
you have done historically here to provide us steady funding. 
It is the lifeblood of our ability to bring readiness to the 
forefront.
    I too would be remiss, ladies and gentlemen, if I didn't 
take a minute, wearing my Title X, hat to say thank you to two 
amazing business partners I have on my right and left here. 
Admiral Richardson and General Neller. There has been no light 
between us on the efforts that we have put forward over the 
past 22 months. And we have pushed the envelope in many ways, 
but it has been done in lockstep with a complete understanding 
between us.
    They have both done herculean work, and at the same time, I 
am also hoping that what is going on next door will come to an 
expeditious confirmation because we have the same relationship 
with Admiral Moran and General Berger, and I look forward to a 
seamless transition in that regard if, in fact, we get an 
expeditious confirmation.
    Ladies and gentlemen, the concept of a strategy is the 
application of limited resources to attain a goal. Aligned to 
the National Defense Strategy, the Navy-Marine Corps strategy 
for restoring readiness, strengthening relationships, and 
reforming our processes has been set. And from that, we are 
building with a disciplined focus on people, capabilities, and 
process.
    This budget prioritized a strategy-driven, balanced 
approach to investment. It builds on prior investments, 
sustains the industrial base, and maintains our competitive 
advantage as we transition to a more cost-imposing, survivable, 
and affordable future force.
    The restoration of readiness is well underway, and we are 
seeing progress every single day. My analogy is that the 
weather vanes are all pointed in the correct direction. 
Although we might be frustrated with the rate of velocity of 
the wind, it is increasing every day.
    We are building the strength of our team through hiring in 
areas of critical needs such as cybersecurity specialists, 
aviation technicians, scientists, engineers, human resource 
specialists, shipyard workers, and digital warfare officers. In 
that light, you have provided us the needed resources for 
hiring experts, but we now must also address the competitive 
salaries to fill these positions.
    We are aligning and enhancing our educational institutions 
and distributed learning venues through the education for sea 
power review, and we are taking aggressive actions to return 
private military housing to a premium product, mindful that we 
recruit the individual, but we retain the family.
    All of these actions have one common thread that runs 
through them, the goal of increased readiness. We are building 
our capabilities through investments in hypersonics, machine 
learning, additive manufacturing, quantum computing, and 
directed energy.
    We are building the fleet in the pursuit of a 355-ship 
Navy, manned and unmanned, to include the Columbia class 
submarine, the next generation frigate, the remotely-piloted 
platform such as Sea Hunter and Orca. These efforts are 
increasing lethality through increased distributed maritime 
operations.
    To reach the Secretary's goal of 80 percent mission capable 
tactical aircraft, we have realigned investments in spare 
parts, aviation engineering, and logistical support through our 
newly-created Navy sustainment system, incorporating best 
practices from outside the wire, or as we might say, from 
commercial best practices in industrial process.
    As an example, our most recent F-18 readiness indicators 
show 68 percent mission capable Navy F-18s and 72 percent 
mission capable Marine Corps F-18s, a far cry better than 20 
months ago. As a pilot program, these activities have moved us 
to review our processes in all maintenance areas within the 
Naval enterprise to improve ship maintenance, weapon, and 
vehicle maintenance and sustainment.
    Driven by the Marine Corps Force 2025 capability investment 
strategy, we are investing in the amphibious combat vehicle, 
loitering munitions, and unmanned logistical systems in order 
to maintain and expand our competitive advantage on the 
margins.
    Exercising the Marine Corps Operating Concept is moving us 
to rapidly progress as a continuous learning organization as we 
adapt and experiment in our new competitive environment. Yet 
while we affect the aforementioned, the Marine Corps is also 
contending with the unprecedented double impact of Hurricanes 
Florence and Matthew which together damaged or destroyed more 
than $3.7 billion of infrastructure across our many East Coast 
installations. Camp Lejeune is a primary force generator for 
the Naval services, directly contributing to the capacity and 
readiness of our overall force. That area took the majority of 
blunt impact of those storms.
    We need relief through a supplemental funding as soon as 
possible for two reasons. The fiscal year is closing upon us, 
and we are about to enter the hurricane season as of June 1. We 
truly appreciate the work the committee has done to reprogram 
$400 million immediately which began addressing our most 
pressing infrastructure needs, and we look forward to working 
with you to address the remaining $449 million shortfall in 
2019 and the $2.8 billion to fully recover.
    Over the past year we have menially increased our 
interaction with our allies and friends, and this has been 
critical. Exercising and education has strengthened our ability 
to operate, therefore, increasing the depth of our collective 
ability to deliver the resources required. Compared to a year 
ago, this increase in depth of our relationship with allies and 
friends has been a prime contributor to this good outcome.
    Our Navy has adjudicated 91 of the 111 readiness reform and 
oversight council recommendations and fully implemented 83 to 
date, transforming a culture from accepting risk to one of 
understanding and managing risk. We have reviewed and are in 
the process of remediating our business processes following our 
first top to bottom audit. The audit is now proving to be a 
tool where we find we can leverage lethality.
    We are using this information to streamline operations and 
reimagine how support functions can be modernized to drive 
continued learning, therefore producing ever-increasing 
efficiencies for the American taxpayer. We owe it to them to 
ensure every dollar we invest, every dollar we invest is in the 
most effective manner possible. I am proud to work with this 
committee to keep that promise. Thank you.
    [The written statement of Secretary Spencer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Visclosky. Admiral Richardson.

                Summary Statement of Admiral Richardson

    Admiral Richardson. Good morning, Chairman Visclosky, 
Ranking Member Calvert, and distinguished members of the 
committee, and thank you for the honor of appearing here 
alongside Secretary Spencer and General Neller to discuss the 
Navy's fiscal year 2020 budget.
    At the dawn of our republic, President Jefferson wrote that 
industry, commerce, and security are the surest roads to the 
happiness and prosperity of our people. The causal link between 
prosperity, order, and security is why he deployed the United 
States Navy to combat piracy off the Barbary Coast at the dawn 
of the 19th century, and it is why for over two centuries we 
have helped keep the seas open for all and oppose those who 
seek to control the seas at the expense of America and our 
allies.
    Today as outlined in the 2018 National Defense Strategy, 
nations like China and Russia are attempting to do just that, 
to stem the tide that has steadily lifted all boats by 
unilaterally redefining international norms on terms more 
favorable only to themselves. The Nation and the Navy are 
responding with more than 60,000 sailors deployed aboard nearly 
100 ships and submarines at this very moment by sustainably 
operating around the globe, advocating for our principles, and 
protecting our national interests.
    To maintain this worldwide posture, the President's fiscal 
year 2020 budget offers a strategy-driven, future-leaning, 
balanced approach to deliver a Naval force up to the task in 
this era of great power competition. The single most effective 
way to maintain our strategic momentum is to provide adequate, 
stable, and predictable funding. This makes everything 
possible. It solidifies strategic planning, incentivizes our 
commercial partners, and mitigates operational risk by 
maximizing our planning and execution time.
    The foundation of Naval power is our force of talented and 
well-trained sailors. Important to our success, we remain 
committed to recruiting and retaining diverse shipmates whose 
intelligence, curiosity, energy, different backgrounds, and 
varied viewpoints will catalyze the speed and quality of 
decisions we need to outperform our adversaries.
    As well working with the Congress, we continue to transform 
our pay and personnel systems to 21st century standards. This 
budget builds a bigger fleet, 55 battle force ships over 5 
years, preserving our industrial base, and strengthening our 
ability to prevail in any war fighting contingency.
    This budget fully funds the Columbia class ballistic 
missile submarine program, fulfilling our existential 
imperative to deter nuclear attack on our homeland. This budget 
builds a better fleet, fielding state-of-the-art systems that 
are more agile, networked, resilient, and lethal. This budget 
recognizes that aircraft carriers will be central to winning 
the future fight which is why it invests in the Gerald R. Ford 
class delivering far more combat power for less cost over their 
lifetime than the Nimitz class predecessors.
    This budget also builds a ready fleet, steaming days to 
exercise at sea, flying hours to train in the air, sufficient 
quantities of ammunition and spares, and the resources to 
conduct maintenance today and in the future as the fleet size 
grows.
    Meeting the Nation's and the Navy's responsibilities is not 
easy. It requires us all to work together, but this is what 
great nations and only great nations can and must do. At the 
dawn of the Cold War, as the Nation took on the challenge to go 
to the moon, President Kennedy, a Naval officer, said we do 
these things not because they are easy but because they are 
hard, because that challenge is one that we are willing to 
accept, one that we are unwilling to postpone, and one that we 
intend to win.
    I am grateful to this committee and to your colleagues in 
the Congress for your continued vigorous support which 
validates the founding father, Thomas Payne's maxim that a 
Navy, when finished, is worth more than it cost. We look 
forward to sailing alongside you to deliver the safest Navy for 
our sailors, the strongest partner Navy for our friends and 
allies, and the Navy that is the worst nightmare for our 
enemies. I look forward to your questions.
    [The written statement of Admiral Richardson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Visclosky. Thank you.
    General Neller.

                  Summary Statement of General Neller

    General Neller. Chairman Visclosky, Ranking Member Calvert, 
members of the committee, I am here today to testify about the 
posture and budget proposal for your Marine Corps for this 
fiscal year 2020. Thank you for that opportunity to be here 
today and answer your questions.
    I know this committee. The Congress, the American people 
have high expectations for your Marines. As our Nation's 
expeditionary force and readiness, you expect your Marines to 
be ready to operate forward with their Navy shipmates in what 
the National Defense Strategy calls the contact or blunt zone 
layers of the global operating model to assure our partners, 
deter our rivals, and respond to crisis across the range of 
military operations. And if our deterrent should fail, and we 
are called to fight, you expect us to win.
    As we hold this hearing, approximately 40,000 Marines are 
forward deployed or postured in more than 60 countries around 
the world, some of them in harm's way, all engaged, doing 
exactly what you would expect. Through our history, if called 
upon, your Marines respond immediately to crisis around the 
globe either coming from sea, from forward bases, or from home 
station to meet this intent, to be ready, to suppress or 
contain international disturbances short of large scale war. We 
strive to prevent war by assuring allies and deterring our 
rivals with ready, capable, and persistently present 
expeditionary forces along with our Navy shipmates.
    Forward postured Naval forces remain critical to that end, 
providing the Nation a significant operational advantage 
through maneuver access and their daily presence. Supporting 
day-to-day operations through theater security cooperation, 
building partner capacity, doing humanitarian assistance and 
disaster relief, or supporting current global contingencies 
requires your expeditionary force to be both ready and to be 
present.
    We recognize the strategic environment is constantly 
changing, requiring adaptations to our organization, our 
training, our equipment, and our concepts in order to provide 
our Nation the lethal Naval expeditionary force it demands.
    So your Marine Corps remains committed to building that 
force. This requires hard choices as we balance commitments to 
current operations, work to continue to increase our readiness, 
and pursue modernization efforts designed to improve our 
competitive advantage over our rivals.
    And thanks to your efforts in Congress, by providing timely 
substantial budgets, we have seen increased improvement on our 
readiness, and the rate of our ability to change the force has 
also improved.
    The Secretary mentioned the effects of Hurricane Florence 
and Michael on the Camp Lejeune greater area and also Marine 
Corps Logistics Base Albany, so I won't go into that, but I do 
want to thank the Congress, the administration, and the Office 
of the Secretary of Defense for the reprogramming they gave us, 
$400 million to get us working on making those reinvestments we 
need to get this base back on line. So we continue to work 
tirelessly to address the remaining shortfalls for this year 
and for those in the future year budget.
    Despite these challenges, we remain on the right path to 
implement the National Defense Strategy. We continue to develop 
what we believe are going to be and are effective war fighting 
concepts, invest in the right capabilities while experimenting 
ruthlessly to validate our choices.
    Most important to the success of our core, we continue to 
be able to recruit and train the mostly qualified men and women 
our nation has to offer, men and women who raise their right 
hand and desire to earn the eagle, globe, and anchor, and ask 
to serve something greater than themselves and to represent the 
best our Nation every day around the world.
    So your Navy and Marine Corps team remains the Nation's 
Naval expeditionary force and readiness, forward deployed and 
forward postured, present and competing across the globe. And 
with your continued support and commitment, we will ensure that 
we must never send our daughters and sons into harm's way where 
they don't have every advantage the Nation can provide.
    I thank you for your support, and I look forward to your 
questions.
    [The written statement of General Neller follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Visclosky. Thank you very much.
    Mr. Calvert.

                        COLUMBIA CLASS SUBMARINE

    Mr. Calvert. Thank you, Mr. Chairman. The Navy has 
identified the Columbia class submarine, as was mentioned in 
your testimony, as its top acquisition priority. According to 
the GAO, you plan to invest over $100 billion to develop and 
purchase 12 nuclear-powered ballistic missile submarines to 
replace the Ohio class submarines by 2031.
    The Columbia class submarine program is vital, there is no 
disagreement to that, to the strategic nuclear deterrents and 
to the nuclear triad. I think all of us here understand the 
complexity of building advanced weapons systems. However, as 
appropriators, it is important for us to understand the risk of 
a major defense acquisition program. We have seen that many 
times in the past.
    A recent GAO study stated that the cost estimate for the 
Columbia class is not reliable due to optimistic labor hour 
assumptions, and there is no--virtually no margin in the 
program for cost overruns. And while the Navy has provided a 
margin for schedules slip, unless more time is built into the 
margin, the Navy is in a position where there is little room 
for error in order to meet the 2031 date for the lead ship 
first patrol.
    Mr. Secretary, given the importance of the Columbia class 
submarine program and the imperative that we meet the timeline, 
what steps are being taken to reduce risk in the program? Why 
is there a zero margin for cost overruns? The program is 
already eating into the margin for schedule slip. What is your 
confidence level on meeting the 2031 first patrol date?
    Secretary Spencer. Congressman, those are all good 
observations, and they have caused us to step forward. I 
believe it is going to be early next week where we are sitting 
down with industry to do a collective assessment because as you 
know, while the Columbia class submarine is our number one 
acquisition program, it is in concert with the Virginia class 
program which is probably one of our most successful 
acquisition platforms that we have in the Navy. We are 
balancing risk in both of those portfolios. We do have concern. 
I would be remiss if I didn't say that. We are sitting down 
with industry to look at the supply chain, to look at both 
primes that are involved, to ensure that we can manage the 
risk, that we can build in some margin where we can, that we 
can sweep risk on a continual basis. If we do not do this in 
lockstep with industry, it will run off the rails. I guarantee 
you that. We are focused on this from the executive level on 
down. I think you have heard me say this before.
    When I came into my seat, the attitude that we have is one 
of enforcing and supporting competition but to work with our 
prime suppliers in the most partnership manner that we can 
which means shared risks, shared responsibility, shared 
benefit. They are with us side by side on this program.

                                 F-35BS

    Mr. Calvert. Thank you for that answer.
    Real quick, General Neller, recently F-35Bs were 
successfully integrated in operations supporting the 31st 
Marine Expeditionary Unit. I believe you called the lightning 
carrier concept as a strategy that can be employed to overcome 
adversaries like China who have several long-range precision 
weapons specifically designed to hit land bases and aircraft 
carriers.
    How would the lightning carrier concept which involves 
arming the America class amphibious assault ships with F-35Bs 
overcome this threat and increase the Navy and Marine Corps 
ability to project power?
    General Neller. Well, Congressman, you are aware that the 
capability of the F-35 as a fifth gen fighter gives it 
clearly--it is not invisible, but it gives us stealth 
capability, and it gives us some opportunity to fly in regimes 
and envelopes that other aircraft don't.
    So if we are going to have to strike these long-range 
targets that ideally could be anywhere, even in the mainland of 
the home nation that is firing them, it gives us an opportunity 
to penetrate the air space and take down these targets.
    So when we put the 10 airplanes on I believe the USS Essex 
that went down to the Philippines, that was just a 
demonstration to potential adversaries of our ability to embark 
those airplanes and move into that area and fly in that regime.
    So as we work through this with the part of the Navy Marine 
Corps team and the future experimentation, we are going to 
figure out and learn more about this airplane and what it can 
do and what capabilities it brings. That said, we do need to 
increase the range of our weapons because the adversary is 
increasing the range of theirs. And so even if we have to 
penetrate their airspace, optimally we want to stay outside the 
range and fire longer missiles.
    So there is a whole lot of work going on with this, with 
experimentation and fleet experiments. I would ask the CNO if 
he wants to comment. But there isn't a carrier strike group or 
an amphibious ready group that doesn't sail from either the 
East Coast or the West Coast of the United States or from 
overseas forward deployed bases that when they deploy, they 
don't go out and do what is called a fleet experiment where 
they operate in a strict electronic regime, and they try to 
work out how they are going to employ their weapons against 
this type of a threat.
    Admiral Richardson. And maybe if I could pile on just to 
talk about the survivability of both this type of a platform 
and a traditional aircraft carrier, you know, I would say that 
with respect to launching strikes into forward theaters, these 
are your most reliable, most survivable air fields in that 
theater under attack. These nuclear-powered aircraft carriers 
can move 700 miles a day and can generate 100 sorties a day.
    So in concert with the amphibious ships, the big decks, F-
35, we have to make sure that F-35 can be fully exploited by 
making sure that they have got the combat systems and 
communications on those ships to stitch them into the battle 
space. But a well-operated carrier in a campaign plan, you 
mentioned it in your opening statement, is a survivable 
platform, and in fact, maybe more survivable now than it has 
been since World War II and effective in delivering strikes.
    Mr. Calvert. I look forward to hearing more about 
survivability in the future.
    Admiral Richardson. As you can imagine, sir, this is highly 
classified to get into the real details of that, and we will 
bring everything that you need.
    Mr. Calvert. Right. I appreciate that.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Kilmer.

                         SHIPYARD MODERNIZATION

    Mr. Kilmer. Thank you, Mr. Chair. I have got a couple 
subjects I was hoping to cover.
    First, the shipyard optimization and improvement plan I 
know lays out a 20-year, $21 billion effort to optimize and 
modernize the for public shipyards covering everything from dry 
dock recapitalization to facility layout to just trying to 
modernize some of the capital equipment.
    I was hoping you could speak to the importance of that 
shipyard modernization work in terms of ensuring the readiness 
of the fleet. What kind of capability gaps do you see that 
filling, you know, particularly as we build the 355-ship Navy? 
What sort of gaps will we see if we don't make those 
investments in modernization? I have heard the yards are pretty 
much at capacity at this point. Do you envision that to 
continue to be the case if we make these investments?
    Secretary Spencer. If I can provide a 30,000-foot overview 
from a Title X position and then turn it over to the CNO. 
Congressman, this is, in the infrastructure category, one of 
our most critical programs that we have. One of the things that 
we are really focusing on, and you see it in this year's 
budget, is the fact that infrastructure is readiness. It has 
been a bill payer in the past. No longer. We cannot afford to 
do that.
    When it comes to the modernization program, it is not 
simply making a new dry dock. One of the first steps we made 
this year as an example was to bring in contractors with 
expertise in industrial flow. They have visited Hawaii. They 
are on their way to the Pacific Northwest. Then they will come 
to the East Coast. Just to increase our ability to get flow 
through and parts and touch on these hull forms is going to 
increase flow through, and I can get existing platforms I have 
back out to the fight quicker. That is the primary drive from 
my point of view you know.
    Admiral Richardson. And that flow will lead directly to 
Naval power which is ships at sea and not in maintenance, and 
so this is one of our more challenging areas right now in terms 
of just wrestling through the complicated scenario of ship 
maintenance. If we don't modernize the dry docks, some of the 
ships that we are building right now just simply won't be able 
to be using those dry docks, and so we have got to do that. 
That is an imperative.
    And then to the Secretary's standpoint, if you map out the 
work flow in a current shipyard, it looks like you just threw a 
bunch of spaghetti on a plate. Some of these shipyards were 
built to build the Constitution, you know. And they have just 
kind of maintained that same format. This optimization plan 
redoes that using modern techniques for flow.
    And then also, as you pointed out, some of the equipment 
that we use is stunningly capable compared to some of the 24-, 
25-year-old equipment that we have got. So it is a full court 
press across the entire spectrum, and it translates directly to 
ships at sea versus ships in maintenance.

                     ENVIRONMENTAL IMPACT STATEMENT

    Mr. Kilmer. Very good. Related to that, one of the unique 
challenges in my neck of the woods is we have 11 Native 
American tribes, federally recognized Tribes, many of which 
have treaty rights around fishing. When we build stuff on the 
water, whether it be a new dry dock or a pier or as we did a 
few years back at Bangor, an explosive handling wharf, that can 
impact the tribal treaty rights.
    And there was a couple questions I want to ask quickly on 
that front. Right now, there is a government-to-government 
consultation that happens. Usually that happens as part of the 
Environmental Impact Statement, but at that point it is usually 
sort of too late to develop any sort of changes to a project 
and mitigate the impact of treaty rights.
    So with that in mind, would it be possible--I guess two 
questions. One, would it be possible to start that consultation 
before the beginning of the NEPA process and the issuance of a 
draft EIS? Is there any sort of regulatory or statutory barrier 
that would prevent that consultation from happening earlier?
    And the other question I have on that front is I have heard 
that the Navy limits its ability to mitigate tribal treaty 
impacts to the mechanisms that are spelled out in the Sikes Act 
which was really designed to mitigate environmental damage. Is 
there a reason for that limitation? Is there a reason the Navy 
kind of equates a right guaranteed by a treaty to an 
environmental impact, and could we look at sort of other 
mechanisms outside of that Sikes Act?
    Secretary Spencer. Congressman, to answer both questions up 
front. One, the move that we are taking now is a continual 
conversation with our tribal neighbors and partners. There is 
nothing that precludes involvement from day one. And to my 
knowledge, going forward since I have been on board, we have 
been actively involved.
    When it comes to Sikes, we also have other abilities to us. 
One thing I want to frame is the whole concept of impact is 
where does the impact end? I have to admit there has been--in 
my review of some of the cases, we were remediating way beyond 
the impact or asked to remediate possibly way beyond the impact 
of where we saw it, and there is where natural torque and 
tension happens, and we will get an arbitration to solve it.
    But yes, doors of communication are wide open at Navy at 
all times on all projects. The formality of the EIS does not 
mean that you can come in at X point in time. You can be 
involved all the way to the lead up and through.
    Mr. Kilmer. Thank you.
    Thank you, Mr. Chair.
    Mr. Visclosky. Mr. Womack.

                               READINESS

    Mr. Womack. Thank you, Mr. Chairman, and thanks to the 
gentlemen for your expert testimony here this morning.
    General Neller, I will start with you. I want to thank you 
for your service to the country and to the Marine Corps. I wish 
you well as you turn over your responsibilities.
    You have always of been a candid sort of guy with the 
committee, and I appreciate that, and I am seeking your candor 
one more time. I want you to tell this committee about the 
readiness challenges that you have faced in the last few 
months, particularly with regard to some of the destruction 
that has taken place as a result of things beyond our control, 
shall I say.
    General Neller. Well, the biggest challenge has been trying 
to get reprogramming or whatever assistance we can to rebuild 
Camp Lejeune. I was asked with another Member what is your 
insurance policy? I said you. You are our insurance policy. We 
don't self-insure.
    So just like the Air Force at Tyndall when they had Michael 
come ashore, we suffered a generational storm last September. 
And not so much the winds, but the fact that the storm sat on 
top of the eastern Carolina region and rained for three 
straight days, and they got about 40 inches of rain. And there 
was enough damage to the older buildings that the rain just 
came inside, and it was--so we could fix it, but I can tell you 
that, you know, people are concerned about climate and storms. 
And I can tell you that all the new buildings we have, and we 
have a lot of new buildings because the Congress has been very 
generous with us and MILCON around the world. None of those new 
buildings had any damage. The buildings that were damaged and 
the buildings we could repair, but we recommend they be 
replaced. They are anywhere from 40 to 70 years old. And so 
that was our dilemma because we didn't program that.
    Some of them were programmed for being razed and rebuilt in 
the future years like the MEF headquarters building is in the 
fiscal year 2020 budget. It was already there. But now we are 
living in that building, and so that has been the biggest 
thing.
    And then the discussion about other fiscal matters that is 
before the Congress and where money is going to go and the 
ability to reprogram money which has been kind of a normal 
order of business where you could come in if there were certain 
abilities to reprogram money, and we appreciate the $400 
million of reprogramming. That has kind of been caught up in 
the discussion about other requirements for the administration 
and the Congress.
    In the meantime, though, as the Secretary mentioned, other 
readiness has improved markedly, particularly fixed wing 
aviation. I can give you by type, model, series the number of 
hours that are being flown, the readiness. In fact, the other 
day on the East Coast, we did break 80 percent for F-18s on a 
single day on a Friday. Now, is that there today, no, but we 
have been running pretty consistently with F-18 anywhere from 
70 to 80 percent and Representative Calvert mentioned F-35s are 
out with the 31st MEU. We had F-35s out on the 13th MEU. They 
ran pretty consistently in the mid 70s, those six jets out 
there.
    So how did that happen? A lot of different things, but at 
the end of the day, we invested in parts, and you gave us the 
money to do that, to fly, to get the parts to fix the planes. 
So in the overall readiness situation, I think we are in a good 
place and we continue to get better, but at the end of the day, 
I have got to come up with a solution for Camp Lejeune.
    Mr. Womack. And at the same time, we are sitting here today 
without any real clarity on what happens or doesn't happen on 
October 1st, so if you are worst casing it, would you guys make 
a practice of doing, you have to, you have to provide for all 
contingencies. How dire would it be if this Congress cannot 
give clarity to the October 1 fiscal?
    Secretary Spencer. Congressman, I will be more than happy 
to answer that. It would be devastating. For all the money that 
you have given us, the 2017 RAA, the 2018 and 2019 budget, we 
are up on the bicycle. We are pedaling down the street. We go 
into a CR, we fall off the bike, period.

                      RESTARTING THE TOMAHAWK LINE

    Mr. Womack. Well, I hope the Congress is paying attention. 
I have got one more question, and then I will add more in round 
two.
    Admiral, last year's defense appropriations bill directed 
the Navy take a look at the viability of restarting production 
on the Tomahawk. It is my understanding that the analysis of 
alternatives led the Navy to conclude that more Tomahawks were 
required which led to a decision to restart production this 
year. Can you address the importance of restarting the Tomahawk 
line?
    Admiral Richardson. Sir, you have to appreciate the 
Tomahawk in the family of missile systems that is going to 
really be the punching part of our Navy, particularly moving 
forward where I think missiles are becoming more and more a 
part of our both offensive and defensive push. And so for this 
maritime strike Tomahawk, it is a reengineered version of that 
missile. It is a big part of--it occupies a big space in that 
family both for land attack and anti-ship attack, so it is 
extremely important.
    Mr. Womack. Thank you.
    Mr. Calvert. Will the gentleman yield----
    Mr. Womack. I would be happy to.
    Mr. Calvert [continuing]. For a moment on a subject you 
just discussed both on the supplemental and the sequestration 
that we are dealing with, and the October deadline. And I am 
sure the chairman will bring this up also, but the 
administration needs to step up here pretty quickly to come to 
a budget agreement. We don't have a lot of time here. The 
chairman intends on marking these bills up as rapidly as 
possible, and the Budget Committee obviously has challenges, 
but that doesn't change the calendar. And we need a budget 
agreement between the House, the Senate, and the White House, 
and I would hope the White House will step forward here pretty 
soon.
    And please send that message back because we need to get 
this going sooner rather than later. Time is not on our side, 
and I hope as part of that agreement that we come up with a 
supplemental to take care of these bases that have been 
devastated. This can't continue to stagnate.
    Mr. Womack. It should have already been done. I yield back.
    Mr. Visclosky. Mrs. Bustos.

                          ROCK ISLAND ARSENAL

    Mrs. Bustos. Thank you, Mr. Chairman.
    Mr. Secretary, I come from Rock Island County, and I want 
to thank you for visiting the Rock Island Arsenal which is one 
of our largest employers, absolutely critical to our economic 
health in the Congressional district that I serve, so thank 
you.
    We are really proud of it. We are really proud of the work 
that the men and women do there and that they produce readiness 
not just for the Army but for all services. And sometimes 
people don't always know that. I am sure those of you sitting 
there do know that. And I am glad you were able to see the 
capabilities that the arsenal provides our organic industrial 
base. And so, and that includes the work that we do at the Quad 
Cities cartridge case facility.
    So that is housed under the Joint Munitions Command, and I 
know I am telling you something that you already know. That 
oversees the distribution, the storage, the demilitarization, 
and production of munitions across all of the military 
services. So a few questions for you along those lines. Do you 
envision being able to leverage other capabilities that the 
arsenal can provide, if you have a feel for that?
    Secretary Spencer. Most definitely. Congresswoman, on my 
trip there, one of the things that really, really impressed me 
was the work Rock Island was doing in additive manufacturing. 
We are also doing that indigenously at the service level, but 
obviously at the level of a Rock Island, it would be terrific 
to have a depot level in sync with that of the fleet. It would 
be great.
    Mrs. Bustos. That is great to hear. So you know that if you 
envision, like, other partnerships, so that is under the JMTC, 
that would help the Navy build on your advance manufacturing 
into the industrial base. Like, in other words, how would the 
Navy evaluate if there is a business case for using the arsenal 
as a provider of capabilities to the Navy? What do you see 
going forward of how you could take advantage of that?
    Secretary Spencer. So one of the things that we are doing 
when it comes to the Navy sustainment system is looking at all 
avenues of capacity, internal and external. And if, in fact, we 
can take any of our best practices that we are using in Navy 
and bring them to a Rock Island or Rock Island can bring them 
to us, we look for that on a continual basis. That is the whole 
concept of the sustainment system. Where are the best pockets 
of capacity and efficiency?

                                BIOFUELS

    Mrs. Bustos. Very good. One other line of questioning, and 
then I will yield back.
    In addition to the arsenal being very critical, agriculture 
is very, very critical to the region that I serve, and I know 
that you have been a leader in biofuels. Wondering as you look 
ahead, what do you see as the future for biofuels as it 
pertains to the Navy?
    Secretary Spencer. So our position on biofuels is much like 
innovation, to be very frank with you. I am looking for 
industry which is now leading the area in biofuels, and if, in 
fact, they can provide me a fuel that has both sufficiency and 
effectiveness, I will entertain it.
    Mrs. Bustos. Okay. All right. Very good. Mr. Chairman, I 
yield back.
    Thank you, Mr. Secretary.
    Mr. Visclosky. Mr. Carter.

                            UNMANNED SYSTEMS

    Mr. Carter. Thank you, Mr. Chairman and thank you to each 
of you for being here today. This is an interesting discussion, 
and I want to ask a question about unmanned systems.
    Quite honestly, unmanned systems would include air, 
surface, and under sea platforms. It kind of blows my 
imagination a little bit, and you have asked for a significant 
increase in this area. Admiral Richardson, the budget request 
includes significant increases for unmanned air, under sea, and 
surface vehicles. What traditional programs or platforms had 
funding decreased in order to fund some of the new research in 
these areas? What potential risks may decreases in these areas 
incur?
    The budget request includes $507 million for unmanned 
surface vehicles including significant funding for the large 
operational manned surface vessel. What is the goal of this 
program? What is the cost estimate? What is the proposed 
acquisition strategy? What are the policy challenges and 
implications and the possibility of implementing deadly force 
from an unmanned ship?
    And finally, the feasibility of these unmanned ships, will 
that count in future shipbuilding plans as we go forward? I am 
trying to imagine these vessels.
    Admiral Richardson. Right. Sir, excellent questions. And as 
technology continues to improve, particularly those 
technologies that will lead to more and more capability 
autonomous systems, our budget, as I said in my opening 
statement, leans pretty heavily into that future. And so this 
is an area where we want to be in the lead as a Nation in 
unmanned. I mean, unmanned systems can have the endurance and 
performance limits that far exceed what a manned vessel can do.
    And so many of those questions in terms of how that 
unmanned system will conduct itself, navigate itself, 
communicate with other systems, this is why much of this is 
still in the R&D budget. We have these questions ourselves.
    With respect to where did the money come from, it is really 
the result of a comprehensive balancing act as we bring the 
budget together, mindful that this is going to be an extremely 
important part of our future. I was just up in Washington State 
where the unmanned under sea vehicle squadron just stood up to 
move those vehicles sort of out of the lab and into the 
operational world.
    The have got tremendous potential to extend the influence 
of our manned platforms to go places where we wouldn't want to 
send people, and also, as I said, to endure there for much 
longer. So it is an important part.
    But all of these ethical decisions with respect to the 
policies of weapon employment and all of that, this is the 
focus of our efforts too, as we dive into this from a research 
and development perspective.
    Mr. Carter. And you know, we already have some form of 
unmanned aerial vehicles.
    Admiral Richardson. Right.
    Mr. Carter. It is pretty easy to envision unmanned 
underwater vehicles. But the surface vehicle to me seems to 
be--I am wondering the size of the platform they are 
envisioning.
    Admiral Richardson. Sure.
    Mr. Carter. The target that somebody would be shooting at.
    Admiral Richardson. Right.
    Mr. Carter. Maybe a small vessel, I can see it, but 
something the size of a cruiser or a Baker would be 
interesting.
    Admiral Richardson. We will have to see where it goes, sir. 
I will tell you. Certainly the small ones, we are thinking 
about those in sort of mine countermeasure missions where you 
want to send that unmanned system into a minefield towing a 
very capable platform, so that is----
    Mr. Carter. I can see that.
    Admiral Richardson. Medium size. The Commandant and I are 
talking about how you can use that for lift, intra theater lift 
to move equipment for the Marines, move Marines themselves. 
This is something that will free up, you know, a lot of 
manpower for other things that only people can do, and so this 
is sort of the effort and all the way to, as you said, 
potential weapons employment as the technology and the policies 
develop.
    Mr. Carter. Well, I love people that think outside the box. 
The General acts like he wants to say something.
    General Neller. I just--I think if you are using a kinetic 
weapon, I think normally as there is today, there is going to 
be a human being that is going to make the call on whether you 
are going to engage or not unless the situation is so dire, 
like an air attack by, you know, a large number of swarming 
drones, for example, and you don't have time for the human to 
do that. Then there has got to be a machine interface.
    But I think right now, I think, as the CNO said, a lot of 
this is you have surface vessels that are able to move fuel, 
supplies, things that go from A to B ahead of the other force, 
or they are prestaged, or maybe they are submersible, and then 
you arrive, and they come to the surface, and then they come in 
which eliminates your ability to have to haul this stuff with 
you.
    Now, most of this is going to require a network that is 
reliable and resilient and protected. So I mean, at the end of 
the day, on top of almost everything we are doing, whether it 
is delivery of munitions, whether it is navigation, whether it 
is secure communications, we are going to have a reliable 
secure network.
    But this is stuff that is happening right now. I mean, 
there is things, and we just have to scale it. I mean, like you 
said, finding this stuff under the water which has always been 
really hard for a human to do, now we think we have got a way 
to do that and to find obstacles or mines or stuff like that 
and then potentially take them out in a very ineffective--in a 
very inexpensive but very effective way.
    Mr. Carter. Thank you very much for giving me a good 
picture of that. Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Ruppersberger.

                      UNITED STATES NAVAL ACADEMY

    Mr. Ruppersberger. Yes, Mr. Secretary. Thank you for being 
here. And I just want to acknowledge Admiral Richardson and 
General Neller. You managed during some very difficult times 
including sequestration which is probably one of the worst 
things this Congress has ever done to our country and to our 
military. And you were able to go through that, and we respect 
you, and we wish you well in your future lives.
    I want to talk to you about the infrastructure at the Naval 
Academy, Mr. Secretary. Prior to 2013, the United States Naval 
Academy operated under what they called a flagship agreement 
which was instituted in 2005. And this agreement ensured a 
minimum level of funding for maintenance of the United States 
Naval Academy physical complex and provided for 
recapitalization of facilities.
    By 2012, the United States Naval Academy was receiving 
about $36 million per year for sustainment and $35 million per 
year for renovation and modernization. However, sequestration 
and other budget factors placed pressure on the infrastructure 
spending which led to reductions at the Naval Academy. This 
caused a significant backlog of maintenance and deterioration 
of the United States Naval Academy's infrastructure.
    In 2017, a new agreement was implemented which provides 
approximately $30 million per year in sustainment funding for 
the Naval Academy and starting in 2020, $15 million per year in 
recapitalization funding, and starting in 2012, $15 million per 
year in the recapitalization funding but only every other year.
    Now, I have been on the board there for 10 years. I am Vice 
Chair of the board right now, and part of the reason that we 
have Members of Congress on the military boards is to advocate 
for them. I know that Steve Womack is on the West Point board. 
Then we have the Air Force. I think these institutions are one 
of the reasons we are still the most powerful country in the 
world, but we need to support them.
    The infrastructure of the Naval Academy is basically 
falling apart. There have been newspaper articles about it, 
Bancroft Hall there is fungus and all in the dorms, and it is 
just a matter of funding, and it is really, really important. I 
know the Naval Academy which, you know, we all worked to get 
this done, have built a new building for cybersecurity which is 
really important. And that is going to be very positive, and in 
fact, that was the fastest curriculum that we had moving ahead 
and with people graduating in the cybersecurity end.
    So what I really want to really say is that--or my question 
is the Navy considering an adjustment to its budget in the out 
years to resolve the issues, and I am not going to go over them 
now. I think you know what they are. The Naval Academy can stop 
deferring maintenance and sustainment. These institutions, in 
my opinion, are as good as any Ivy League school; the training, 
the honor, the commitment to whatever their expertise is going 
to be once they graduate.
    So I am asking you the question. What can we do to get help 
get more money? We are willing to do this on our board. Steve, 
I am sure you are having some of the same issues, and again, a 
lot of it goes back to sequestration which hopefully we will 
resolve that once and for all.
    Secretary Spencer. Congressman, music to my ears. This is 
when it all comes down to portfolio management, to be very 
frank with you. Yes, I could deal with more money. I do not 
want to ever see the Navy investing 70 percent in 
infrastructure ever again. We will not do that because as I 
said in the opening comments, infrastructure is a direct 
correlation to readiness, and when it comes to what we just did 
with our education for sea power which was the study that we 
just did, education is our answer to a root cause problem which 
is to make us that much smarter out in the war field. We can 
expand the competitive advantage if we fight smarter. That 
starts with our educational institutions.
    In the Navy alone, I have three. I have not only the Naval 
Academy, I have the Naval War College and the Naval Post 
Graduate School, all suffering from the same thing. I will make 
you a commitment. We will try to put every single dollar we can 
forward to improve those because we must.
    Mr. Ruppersberger. Well, with that regard is end game, and 
I would like someone from your staff to work with my staff to 
make sure we start focusing on this amount of money. I am sure 
Steve will be when it comes to the Army, but the bottom line, 
we just don't want to be in a hearing and hear what we want. We 
want to get it done, and we can both do it together, I think.
    So when this hearing is over, I will have my staff get with 
you, and then we can decide where we can go, what the plan is 
to help resolve this issue once and for all.
    Secretary Spencer. Congressman, I would love it, and I 
would also like to think outside the box. I would like to open 
up more authorities to the foundation so we can get private 
dollars to help us.
    Mr. Ruppersberger. Well, you know, there are a lot of 
private dollars coming in. Unfortunately, they might not be 
focused where they need to be. That is another issue.
    Secretary Spencer. That is where we might need some 
authorities.
    Mr. Ruppersberger. It is a very active alumni that is 
working on that right now.
    Secretary Spencer. Exactly. Look forward to working with 
you on that.
    Mr. Ruppersberger. I yield back.
    Mr. Visclosky. Mr. Diaz-Balart.

               LITTORAL COMBAT SHIPS/SUPPORT FOR SOUTHCOM

    Mr. Diaz-Balart. Thank you, Mr. Chairman. Gentlemen, thank 
you for your service to the country.
    Let me talk for a bit about this hemisphere. The Navy 
operates some of its Perry-class frigates in the Caribbean to 
assist the Coast Guard with drug interdiction, but those ships 
are obviously retired, so that stopped happening. And so what 
we hear is about 25 percent of what we see coming up from that 
part of the world coming to the United States to poison our 
families, our kids, we are able to intercept. And the Coast 
Guard continually repeats something that we think makes a lot 
of sense which is a lot more effective and efficient to 
intercept there than when it comes and already hits our 
streets.
    Secretary, you, I guess, wrote a letter in December of 2017 
asking that the Navy provide at least four Littoral Combat 
ships and expeditionary fast transfer ships to once again 
support again, the counterdrug, counternarcotics, again coming 
from the southern part of our hemisphere. Your letter noted 
that the figure of four ships was well below SOUTHCOM's request 
amount which is obviously accurate. And more recently, in 
February it was reported that a single LCS with an embarked 
Coast Guard law enforcement attachment will be headed to 
SOUTHCOM this year to combat, again, these type of operations.
    So where do things stand now as far as the Navy support for 
SOUTHCOM, for the counter drug operations? Has the Navy been 
able to provide the ships that the Secretary has requested? If 
not, what level of support is there available and can be 
provided, and when does the Navy anticipate being able to 
provide at least four of the ships which again, as you 
mentioned, Mr. Secretary, is below what a lot of us and what 
SOUTHCOM believes the need is. So what are the plans, and where 
are we on that?
    Secretary Spencer. So Congressman, just a month and a half 
ago, both the CNO, or you actually went down sooner than that, 
and I have been down into the South American remaining 
specifically spending time with the folks in Colombia and 
Brazil talking about exactly what could be done in coordination 
with Admiral Fowler. There obviously is a need.
    The LCS, which would be a great ship in this regard, now 
that we have them coming back into deployment have been working 
with the CNO to see how we can actually have those deployed 
down in that area, and I will turn it over to the CNO.
    Admiral Richardson. Just as the Secretary said, it is 
really a multi-full spectrum approach that we need to take, so 
not just the U.S. contribution. It would be a joint effort, the 
Joint Interagency Task Force that is down there, and we work 
also very closely with our Coast Guard partners.
    I am reviewing plans to send LCSs down there now on a more 
habitual basis. They can really help with the final intercept 
part, particularly with the law enforcement detachment that you 
mentioned that brings the authorities to do that type of 
intercept. And then as the Secretary alluded, are working very 
closely with allies and partners in the region to just really 
kind of have a full court press on this area.
    Mr. Diaz-Balart. I appreciate this. You know, one of the 
things that--and really, Mr. Rogers is the one who always kind 
of reminds us, unfortunately, of the number of Americans that, 
frankly, lose their life every year.
    Is it 70,000, Mr. Rogers, something like that a year?
    Mr. Rogers. Seventy thousand.
    Mr. Diaz-Balart. And again, you know, we can do better. And 
obviously, I know it has been an issue of not having the 
resources. So I am hoping that those days can be behind us, but 
it would be great if you could just keep us informed as to how 
that is going because obviously it is a huge priority for a lot 
of us in this subcommittee.
    Admiral Richardson. We will do that, sir.
    Mr. Diaz-Balart. I yield back. Thank you, Mr. Chairman.

              OFFSHORE DRILLING IN EASTERN GULF OF MEXICO

    Mr. Visclosky. Mr. Crist.
    Mr. Crist. Thank you, Mr. Chairman.
    And thank all of you for your service to our country. 
Appreciate you being here today.
    Mr. Secretary, as I understand, the military uses the 
eastern Gulf of Mexico for research, testing, and training 
activities. Can you talk about the importance of these 
operations and how those operations would be impacted if the 
eastern Gulf were open to offshore drilling?
    Secretary Spencer. Congressman, those ranges are critical 
to not only the Navy, but the Air Force also in that area. The 
way that I think it is phrased, from a DOD point of view, which 
I agree on, is if, in fact, you can do mineral extraction and/
or exploration subsurface, we would have no impact with that, 
or major issues with that. Where the primary issues are on the 
aviation range is anything that is sticking up in the air, to 
be very simple with that.
    Mr. Crist. So any drilling rig would be an impediment?
    Secretary Spencer. Traditional drilling rig. If, in fact, 
we could do it subsurface, which I am sure technology can 
probably provide us at some point, I think that would be a way 
to go forward.
    Admiral Richardson. Sir, if I could just add on, we are 
also, every time we have these discussions, work in very close 
coordination with the local community in particular to make 
sure that we are not overstretching, we are going to the 
minimum that we need to meet the training mission, so that we 
provide maximum flexibility for these other types of 
activities.

          IMPACTS OF CLIMATE CHANGE ON MILITARY INSTALLATIONS

    Mr. Crist. Thank you.
    I wanted to talk about climate change with you a bit. In 
January, the Department of Defense completed their report on 
the impacts of climate change on military installations. 
Apparently, the report found that 18 Navy installations are at 
risk--and 16 of which are currently at risk--of recurrent 
flooding. This report did not look at foreign installations, so 
the worldwide number is likely higher than that.
    Can you talk about the problems rising sea levels are 
causing the Navy and what you are doing to try to mitigate the 
effects of climate change itself?
    Secretary Spencer. Rising waters, Congressman, are a 
continual concern. They are in our forward planning. Right now, 
one of our MILCON projects for Norfolk is flood control, flood 
prevention, in the Norfolk area.
    But I will say that it is any major weather event, whether 
rising waters. Camp Pendleton, we worry about the fire impacts 
out there, wildfire impacts. We are continually working this 
into our assessment of risk.

                      STAFFING AND TRAINING ISSUES

    Mr. Crist. Great. Thank you.
    In 2017, we had back-to-back fatal incidents involving the 
USS Fitzgerald and the USS John McCain. Seventeen sailors lost 
their lives. According to a report by ProPublica, systemic 
issues dogged these vessels and ships across the Navy: 
inadequate training for sailors, working 100-hour weeks, 
vessels not properly maintained, a command structure that 
silenced senior military officers and Naval officials that 
spoke up with concerns.
    I understand that the Navy is investing heavily in new 
technology and next-generation vessels, which is important to 
keeping our superiority. However, we need to also invest in the 
men and women who carry out the missions.
    What have you done specifically to address the staffing and 
training issues exposed by these tragedies? And how can our 
committee be of further help to you?
    Secretary Spencer. Again, if I can give you an overview.
    And then, CNO, if you would like to dive in.
    Post the accidents, Congressman, as you know, CNO set out 
with the vice on the comprehensive review, and I set up the 
strategic readiness review. We just reviewed the numbers, at 
111, and we have implemented 89 of these. These are critical. 
They range from policy procedures of turning on AIS, an 
automatic identification system, when transiting commercially 
heavily trafficked areas, to longer-impact educational and 
training devices, schools that we put together. We are 
committed to it. We are already seeing some of the better 
product coming out to the fleet.
    CNO, turn it over to you.
    Admiral Richardson. Sir, I will just say that, as you said, 
this happened in 2017. We just issued our sort of 1-year report 
card in that effort. This remains our highest funding priority, 
and it really is a comprehensive approach. The manning 
situation in our forward-deployed Naval force in Japan is much 
different than it was then. The training, both the amount of 
training and the technology to support that training, is on a 
right-on glide path.
    The schedule rigor of the commanders out there, really, to 
make sure that we provide enough time to do maintenance and 
training and that we adhere to the certification requirements, 
that was a big part of what we saw when we explored some of the 
causal factors--contributing factors, I should say--to the 
collisions. And then managing the surface warfare career paths.
    So it has really been a comprehensive approach, as the 
Secretary said, many, many recommendations. But what we are 
really after is a climate change that the entire Navy learn 
from, but particularly the surface warfare community.
    I can provide you that report card. It is completely 
releasable. And we have testified before this committee and 
other committees in Congress to make sure that we are keeping 
everybody as informed as possible.
    Mr. Crist. That would be great, Admiral. Thank you very 
much.
    Thank you both, and appreciate your service again.
    I yield back, Mr. Chairman.
    Mr. Visclosky. Mr. Rogers.

                 BLACK HORNET UNMANNED AERIAL VEHICLES

    Mr. Rogers. Thank you, Mr. Chairman.
    Gentlemen, welcome.
    General Neller and Admiral Richardson, I understand you are 
both fixing to retire, and we wish you much happiness in your 
next life. We profoundly appreciate your lifetime of service to 
your country. You have served it admirably, and it is something 
of which we are all very proud.
    General Neller, I understand the Army, after years of 
research and investment, much of it advanced by this 
subcommittee, awarded a contract under the Soldier Borne Sensor 
program for the Black Hornet. That is a highly capable, squad-
level reconnaissance asset, a small, miniature drone 
helicopter, with television capabilities, highly capable, to 
give troops and Marines immediate over-the-fence or around-the-
corner capability both night and day.
    Are you aware of that program, and that the Army is now 
putting it in place, General?
    General Neller. I am aware the Army is looking at a number 
of different unmanned quadcopters or small-squad element. In 
the past 2 years we fielded probably something a little bit 
more robust, because our experience has been you get in a 
little bit of weather and something that small tends to get 
buffeted around.
    But I wasn't aware that they were actually at a program of 
record for that particular capability, Congressman, and so we 
will take a look at that.
    But we clearly are trying to push unmanned aerial vehicles 
down to the smallest elements of the ground maneuver force so 
that they have the ability to look into buildings or look over 
the next hill, so they don't have to send a Marine or a soldier 
in there to do that. But I will take a look at that.
    Mr. Rogers. Well, tranche 1 systems are now being delivered 
to the Army for initial integration into the force. FLIR has 
delivered over 8,000 Black Hornet-named UAVs around the world. 
The research done by the Army over years is through and is now 
fruitful. So it would be a big savings for you to adopt this 
system rather than try something new and spend more money.
    General Neller. Well, we will certainly take a look at 
that.

                            SOUTH CHINA SEA

    Mr. Rogers. Good.
    Let me quickly change, Mr. Chairman.
    South China Sea, this political tectonic plate collision 
that is occurring before our eyes. Tell us about the 
significance of what is going on there. And what are the 
Chinese doing to prepare and/or execute?
    Admiral Richardson. Sir, I will take that question.
    The South China Sea, an extremely important body of water. 
As we talked about in my opening statement, really the United 
States remains a maritime nation. About 67 percent of our 
economy is directly tied to the seas, and about one-third of 
the world's trade flows through the South China Sea. Trillions 
of dollars of trade. And so it is extremely important.
    We have great national interests in there, and our economy 
depends on that flow, which is why we are there. And we have 
been there for 70 years and we are not leaving, because we have 
got to protect those national interests.
    We have been consistently steady. We haven't done anything 
to elevate our level of presence. But, as I said, we are there 
to make sure that freedom of navigation is maintained and to 
advocate for the rules-based order that has allowed all of the 
nations of the world, particularly in that area, to flourish.
    China has taken a bit of a different approach, unilaterally 
constructing a series of islands and then militarizing those 
islands. They have been opaque about their reasoning behind 
that, and it has created a very uncertain situation as people 
are trying to figure out exactly what their motivations are.
    And I would say that a recent development is that more of 
our--this is not a bilateral issue between the United States 
and China, this is a regional issue, and more of our regional 
allies and partners are realizing that and are starting to 
advocate for this same system.
    Mr. Rogers. Can you speak to the military implications of 
China's military goals of a Blue Water Navy and how this 
applies to the security of us, our allies, and our interests in 
the region?
    Admiral Richardson. Right. Well, when a nation's economy 
grows to the point that it has really reached the capacity of 
its continental bounds, the next step is to go overseas. And so 
China has--the People's Republic of China has been very vocal 
and transparent about their Belt and Road Initiative that they 
are using. A big part of that is our sea lines and harbors, 
dual-use harbors, and they need a global navy to secure that 
infrastructure and those trade routes.
    And so they are building, in fact, the last 10 years they 
have transformed their Navy. They are building aircraft 
carriers, cruisers, destroyers, a very capable navy, increasing 
their submarine force, and everything new. The nation, they are 
the world's biggest shipbuilder.
    And so this is a great challenge, that some of the 
asymmetric capabilities in our budget, in terms of unmanned, 
hypersonic, directed energy, are designed to address this 
increasing threat from the People's Liberation Army Navy.
    Mr. Rogers. Can you speak to the quality of the new ships 
and the new equipment that you are seeing out of China?
    Admiral Richardson. Growing.
    Mr. Rogers. I am sorry?
    Admiral Richardson. Growing more capable and higher quality 
every day.
    Mr. Rogers. Higher quality than?
    Admiral Richardson. Higher quality than they were before. 
Improving.
    Mr. Rogers. Higher quality than us?
    Admiral Richardson. In some areas they are probably peer, 
as good.
    Mr. Rogers. Thank you.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Ms. Kaptur.

                              HYPERSONICS

    Ms. Kaptur. Thank you, Mr. Chairman.
    As with others, thank you very much, Commandant Neller and 
Admiral Richardson, for your patriotic service to our country. 
It has really been a privilege to work with both of you and 
with all of those whom you have served.
    I wanted to quickly ask first on the subject of 
hypersonics. Admiral Richardson, do you know if the Navy in 
selecting--how is the Navy involved, if at all, in the 
selection of at least three sites to expend over $250 million? 
Were you involved in creating the criteria by which those sites 
were selected in any manner, or were other branches more 
involved?
    Admiral Richardson. Ma'am, I can speak in general terms 
about hypersonics, an extremely important capability. We are 
working with our partners in the Army and the Air Force to team 
together to make sure that we all are kind of playing to our 
strengths with respect to hypersonic vehicles and conventional 
prompt strike. But I would have to get more details on the 
sites that you are talking about, ma'am. I am not----
    Ms. Kaptur. Okay. As I understand it, it is at China Lake--
let's see--Naval Ordnance Lab at White Oak, Maryland, and 
Arnold Air Force Base. The information I have shows these 
facilities will cost significantly more than other facilities 
that actually have been mothballed and are near ready. And I 
will give you a series of questions to answer, but I am curious 
whether the Navy has toured facilities that would be cheaper 
and take less time to construct and bring online for those test 
capabilities.
    Secretary Spencer. Congresswoman, if I could answer that. I 
would be more than happy to take those questions.
    We have been working in lockstep with the Army and the Air 
Force. In fact, we signed a memorandum of agreement to work 
together on this, to find the most effective and efficient way 
to go forward, so we specifically won't be siloing each other's 
events.
    I am more than happy to take this, questions from you, and 
respond.

                            HARPOON BLOCK II

    Ms. Kaptur. All right. I would very much appreciate that, 
Mr. Secretary.
    I have a follow-on question for the admiral.
    And that is, in your procurement of Harpoon Block II do you 
know whether--how many contractors will be involved in 
providing those weapons to our country? To the Navy?
    Admiral Richardson. Ma'am, I just want to make sure I am 
accurate. I will take that for the record as well so that I 
don't misspeak.
    I think about the capability that the Harpoon brings us, 
particularly the new ways that we employ it, but I would want 
to make sure that I link up with the Secretary in our 
acquisition arm to make sure that I am not--I give you the very 
latest data on suppliers.

                           CIVILIAN WORKFORCE

    Ms. Kaptur. That will be extremely interesting for me to 
take a look at. And over the years, just so you know, Ohio has 
lost a capability that its people manufacture the internals of 
that missile, and no longer do for the most part. It is quite a 
disappointment to us, especially when it was one of the best 
missiles that the Navy ever had.
    So just what has happened in the private sector is very 
interesting. And we are very disappointed in what has occurred 
over the years on that. So I just wanted to bring it to your 
attention.
    Secretary Spencer, in your testimony you said that you have 
invested in civilian workforce, including enhanced hiring and 
training at our public shipyards, but you are sometimes short 
in the talent that you need. Could I ask you, have you ever 
networked with Great Lakes ports and public shipyards on the 
Great Lakes or just on the other coast?
    Secretary Spencer. Primarily the other coast. But when it 
comes to the Great Lakes, where we look to the private sector, 
Marinette has done a great job of reaching out into the 
community.
    One of the things that we took as a best practice from some 
of our shipyards down south, to be very frank with you, was 
what they had done teaming together with their States to 
provide vocational training and/or technical expertise to allow 
candidates to become qualified for employment within our 
shipyards. I believe Marinette, the Lockheed-Marinette team up 
there is doing the same thing.
    Ms. Kaptur. Well, we would be very interested in having you 
suggest a way for us to bring some of our public shipyards on 
the Great Lakes together and maybe develop a program to help 
you provide the talent that you need, but we need to understand 
better what you are trying to do. And that would be of great 
benefit to us.
    Secretary Spencer. We will respond.

                 EXPEDITIONARY ADVANCE BASE OPERATIONS

    Ms. Kaptur. Thank you.
    And finally, Commandant Neller, in your testimony you say: 
``The Navy-Marine Corps team no longer relies on concepts and 
capabilities premised on uncontested sea control. We must 
establish a forward deployed defense-in-depth, anchored on 
naval `inside' forces, capable of Expeditionary Advance Base 
Operations in support of the naval campaign.''
    I would like to ask you, in view of what is happening north 
of North America, with the melting of the seas, north of the 
Hudson Bay, could you talk a little bit from your perspective 
on what your statements relative to becoming more lethal, 
resilient, and capable competitors, a deterrent, with what is 
happening up there, what does that mean? What does it mean for 
the Marine Corps?
    General Neller. What it means for the Marine Corps, 
Congresswoman, is we know that the Russians have, not to the 
level they were during the Cold War, but they have 
reestablished bases and airfields and capabilities on their 
northern frontier, which would allow them, dependent upon what 
the climate is or what the weather conditions are, to 
potentially control those sea lines.
    Ms. Kaptur. I would love for somebody to come and show me a 
map of that.
    General Neller. We can do that, but that would be--
obviously, the actual, specific capabilities are classified.
    So our ability, as all the U.S. forces have been focused, 
for understandable reasons, on the Middle East and the CENTCOM 
AOR for the past 17, 18 years, I think you find that the Naval 
force--Trident Juncture, the exercise we did in Norway last 
fall, is a perfect example. We are starting to operate again in 
the more northern climates because it is a different 
environment for you, not just because it is cold, but because 
it affects your equipment, it affects your personnel, it 
affects your aircraft, and it affects all the things that you 
do.
    So we realize we have got to get back into operations into 
that area. The Expeditionary Advance Base Operations concept is 
a way--is kind of geographically agnostic, that you would go 
into an area, establish a base in support of the Naval 
campaign, where you could potentially control sea lines of 
communication from the land, where Long Range Precision Fires 
provide the Army, and then refueling for aircraft, to extend 
your range, which is kind of what the Chinese have done in the 
South China Sea. They are using that area to extend their range 
out into the Pacific.
    So we are looking at, along with our shipmates in the Navy, 
how we can potentially occupy bases, regardless of the 
geography, be there, and then continue to maintain maneuver to 
create a dilemma for the adversary.
    Ms. Kaptur. Thank you very much.
    Again, if there is anything--yes, Admiral.
    Admiral Richardson. I just was going to pile on to say that 
we have been exercising up there a lot more than we used to as 
well in response to this climate change that has opened up sea 
lanes, exposed continental shelves, et cetera.
    And so starting, really, we have had a steady program up 
there with submarines. Every 2 years we go up there and surface 
through the ice and do a number of military and scientific 
experiments.
    In 2018, we had an exercise, Arctic Edge, in March. We did 
the ICEX in March and April. We took a carrier strike group 
north of the Arctic Circle in November of last year for the 
first time since 1991. We did an exercise in February this year 
up there, and we are planning for an amphibious exercise with 
our partners in the Marine Corps later on in September.
    And so in response to that changing security dynamic, the 
Navy-Marine Corps team is exercising and regaining those skills 
it takes to operate in that environment.

                               BLACK SEA

    Ms. Kaptur. Not to abuse my time, could I just say, could 
you comment on the Black Sea and what you see as the role of 
the free West in what is happening there.
    Admiral Richardson. Well, like the South China Sea, we are 
present. We have a destroyer in the Black Sea at regular 
intervals to make sure that that doesn't become a denied area 
for us. And like the Western Pacific, very much a regional 
issue. We have got to continue to strengthen our partners there 
by exercising with them so that they are more resilient, 
particularly to the challenge posed by Russia at sea.
    Ms. Kaptur. Thank you all.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Ms. McCollum.

            RUSSIA AND CHINA ACTIVITIES IN THE ARCTIC REGION

    Ms. McCollum. Thank you.
    You have had a couple of questions on climate change and 
what is going on in the Arctic, and I am going to follow up on 
that a little bit.
    As you alluded to, the sea lanes are opening. Both China 
and Russia are working hard on establishing themselves in a 
northern sea route. They are investing in an Arctic posture. 
And that is going to create security vulnerabilities, not only 
for the United States but for some of our allies in the Arctic.
    Last month, CNN reported that a new Russia base in the 
Arctic Circle; also reported that Russia has 50 percent of the 
Arctic coastline and is working to expand it by another 1.2 
million square kilometers. So clearly, and you know it well, 
our adversaries are active up there.
    So if you don't have all the information you would like to 
present in a short period of time, I would really like for you 
to share with the committee an update on Russia's and China's 
recent activities in the Arctic region. Or if it needs to be 
done in a different format, please work with the chair on that. 
What type of weaponry our near-peer adversaries are introducing 
and how are our allies, especially in the Scandinavian nations, 
are viewing these activities. I have had some quite frank 
discussions with some of the Nordic nations.
    And so how does this fit into your budget request in 2020 
with looking at what we need to be doing in the Arctic?
    And as you know, Congress finally--and I do mean finally--
appropriated funds to construct the first Coast Guard heavy 
polar icebreaker in over 40 years. We are way behind in the 
icebreaker updates. And even though the Arctic is slowly 
melting, ice is always going to be a problem up there with 
storms and navigation and that. So what is the Navy looking at 
as far as having assets for icebreakers in the future?
    So I know I asked a lot of things kind of rolled together, 
but some of us, as you can tell, are really starting to track 
this with a great bit of detail.
    Admiral Richardson. Yeah. And, ma'am, we are tracking it as 
closely as that as well. Partnering with the Coast Guard in 
terms of acquiring that icebreaker, so we have got a joint 
program office that is helping them do the shipbuilding 
decisions. We have just recently signed out the strategic 
outlook for the Arctic, which talks about our need to, one, 
continue to defend U.S. sovereignty and protect the homeland 
from attack from the Arctic, to ensure that the Arctic remains 
stable.
    And so there is a strategic approach to this. I would be 
happy to bring you all the details on that.
    And then, as I pointed out through the last question, 
exercising more and more up there. We are finding that a lot 
has changed in the last 20 years, but it is still really cold 
and heavy seas up in the--north of the Arctic Circle in 
November.
    So a lot of this is just taking some old books, updating 
those lessons, and getting back up there, and so this is the 
way that we are addressing that.

                       ENVIRONMENTAL REMEDIATION

    Ms. McCollum. Well, there are certainly cold weather places 
to train besides Alaska, too. We have a National Guard unit in 
Minnesota. I know General Waldhauser from South St. Paul, 
Minnesota, is in Africa. It is a little warmer working in 
AFRICOM. But we certainly have cold weather conditions up there 
and work a lot with the Norwegian Home Guard. So I look forward 
to learning more about this.
    I am late to this meeting, in part because I am the chair 
of the Interior Appropriations Subcommittee that overseas the 
EPA. I am going to really switch gears on you and talk about 
environmental remediation, particularly the cleanup of the PFAS 
and PFOA.
    I am very alarmed by what I keep reading in the paper about 
the Department of Defense looking to set its own standard for 
cleaning contaminants, maybe having one standard for water, 
another standard for soil contamination. And it is not up to 
the Department of Defense--and the chair and I have made this 
very clear--to decide what the standards are. It will be up to 
the EPA, not the Department of Defense, what is important for 
life, health, and safety for our men, women, and families who 
live on our bases.
    So to get down to where you folks are, there are 401 known 
locations that the Pentagon has reported. The Navy and Marine 
Corps have responsibility for 127 of them. And I realize in 
your current positions you are on the receiving end of the OSD 
policy and guidance. But in 2019 Congress appropriated millions 
of dollars toward sampling, site investigations of these two 
contaminants on DOD installations.
    If you can't do it today, in the near future--and I do mean 
in the near future--can you walk us through the Navy's process 
for allocating these future fiscal year 2020 resources for 
cleanup, and explain how you focused your 2019 environmental 
restoration funds?
    And additionally, we are hearing a lot about firefighting 
and foam contaminating from these chemicals, particularly 
contaminating groundwater, and that is a problem anyplace where 
there is an air base, airfield, as well in the civilian side. 
So this is a national problem, but it is a problem for the 
Department of Defense.
    So what additional capacity do you need in either 
identifying or cleaning up these pollutants to the best 
standard possible? Can you comment on what the Navy and the 
Marine Corps has been finding with PFOA?
    Secretary Spencer. Certainly, Congresswoman. I would like 
to start by saying DOD is not looking to set, from my 
observation from Navy, to set the standard. They were just 
commenting on the standard. It is going to be set in an open 
forum.
    But more importantly, we are everyone's neighbor in which 
we live and we are a responsible neighbor. We have proven that 
in all our previous cleanups when there are issues. I am 
dealing with one in Bethpage right now.
    If I was to make an overarching headline, while we have 147 
points, there are 630 airports in the United States that did 
the exact same thing that the Navy has done. This is an all-of-
government approach.
    I would beg of you to either take this to the EPA, where we 
can get standard and qualification to have a superfund to pull 
on, like we are doing with the spills we are working on in 
Bethpage, as an example.
    We are more than happy--and we have done this 
historically--to apply our resources to monitor, whether it be 
Red Hills, whether it be Bethpage, to make sure that we are an 
environmentally responsible neighbor.
    When it comes to cleaning up, this is an issue that I 
really truly believe is an all-of-government approach, because 
when you look at DOD, we are a minority in the whole players 
nationwide.
    Mr. Calvert. Will the gentlelady yield on that subject?
    Ms. McCollum. I will, and I have a followup, but I am happy 
to yield to the gentleman from California.
    Mr. Calvert. I thank her.
    We had this discussion recently. And the technology that is 
being used today, the old technology of pump and treat, is not 
working.
    And there are new technologies out there, biologicals and 
so forth, that do work at less cost and clean it up 100 
percent. And EPA has been slow to move to these new 
technologies by just bureaucrats and so forth.
    And I would hope that the DOD can show the way in cleaning 
these sites up using these new types of technologies, and maybe 
we can use this across the spectrum of all these sites 
throughout the United States, not just on DOD facilities, but 
facilities all over the country.
    I just wanted to make that point. Thank you.
    Ms. McCollum. I thank the gentleman for his comments, and I 
share what you were saying. And that is why I was very clear 
that this is a national, and it is an international, issue.
    But having worked on cleanup from Army facilities--and many 
of us in the room have--the DOD comes in and says: Oh, we are 
only going to clean to industrial standards. Industrial 
standards are not the same as being a good neighbor with State 
standards in Minnesota. The Minnesota Pollution Control Agency 
has been successful in getting remediation cleaned up to our 
State standards, which are higher, and in redeveloping land, 
making sure that they have been cleaned up to residential 
standards.
    And because you have such mixed use on the bases with 
people constantly coming in contact, sometimes family members 
present on certain parts of the bases with certain activities 
and that, I really think we--and I mean the Federal 
Government--we need to be challenging ourselves to go to the 
highest standards when it comes to cleaning up these 
contaminants.
    So I want you to know, I stand ready to work with you, the 
chairman and I. I am asking the same tough questions of the 
EPA. We cannot just sit on our hands on this, nor can we just 
say, well, we are going to just clean up to this standard here 
because it is industrial, and it will be less money, because 
these will be legacy issues we will be leaving forward.
    And there are also things that we are going to have to 
address in this committee, as far as, as these contaminants 
emerge, with our servicemen and -women who have been exposed to 
them, just as firefighters and other people have who come in 
direct contact with massive quantities of these chemicals.
    Secretary Spencer. I am sure you have heard the statistics, 
Congresswoman, that 87 percent of Americans test positive for 
it in their blood serum. So it is everywhere, it is not just 
firefighters, it is not just the military.
    Ms. McCollum. I am very familiar, very familiar.
    Secretary Spencer. Yeah. It is a whole of government. We 
have got to get the EPA, yeah.
    Ms. McCollum. I understand that, and I said that, but I am 
saying that the Department of Defense has a special 
responsibility, the Federal Government has a special 
responsibility to clean up some of this. I mean, you look at 
the budget in the Department of Defense, I think we can come up 
with environmental remediation.
    Secretary Spencer. I am not disagreeing with you. We are 
totally in line on this. All I need, is, I need policy and 
guidance, and that is what I am asking for.
    Ms. McCollum. But I am also saying that certain job 
occupations--and I realize it is in the bloodstream. I am 
pretty familiar with this stuff. But some people, with their 
occupations, have been more exposed to it than other 
individuals. Some people have come in greater contact with it 
than other individuals. And we need to do our due diligence 
now, rather than have another Agent Orange or something else--
    Secretary Spencer. Totally agree.
    Ms. McCollum [continuing]. Where we are dealing with It 
later. That is my point.
    Secretary Spencer. Yeah.
    Ms. McCollum. You have people here who want to work with 
you to keep it----
    Secretary Spencer. We are in violent agreement.
    Mr. Visclosky. Mr. Secretary, you just said that you need 
policy and guidance to proceed. From who?
    Secretary Spencer. Well, it would be great to have an EPA 
standard where we are all working in the same--off the same 
page.
    Mr. Visclosky. Of course.
    Mr. Aguilar.

                  ADDITIONAL VIRGINIA-CLASS SUBMARINE

    Mr. Aguilar. Thank you, Mr. Chairman.
    Mr. Secretary, a third Virginia-class sub has been added to 
the Navy's budget request for fiscal year 2020. What 
complications do you foresee in adding this additional 
submarine? And do you believe that industry has the shipyard 
capability to handle the increase?
    Secretary Spencer. We do believe they have the capacity to 
build this. It will build as a later ship. But as stated 
earlier--I can't remember if you were here, Congressman, or 
not--combined with the Columbia and the Virginia, this is--the 
Columbia being our number one acquisition program, Virginia 
right alongside it--they are both being built in the same, 
quote/unquote, industrial environment.
    We are very attuned to the fact that there is little margin 
involved and there is risk present in the development of a new 
program. We are sitting down with industry next week to go 
through specifically, step by step, what is available out 
there, where the risks reside, and what the calendar line looks 
like.
    May 16, we are sitting down with the CEOs, myself and the 
three CEOs, and acquisition, and walking through what are going 
to be resources applications on all team sides.
    Mr. Aguilar. I appreciate it.
    Admiral Richardson. Sir, if I could just add on to that.
    With respect to the attack submarine, it is the warfighting 
platform that is furthest below its warfighting requirement, 
right, so we are headed down to a force level of about 40s, and 
we are--against a requirement in the mid-60s. And so this is 
why we prioritized that submarine in fiscal year 2020.
    Mr. Aguilar. Sure. Larger deficiency, greater need.
    Admiral Richardson. Right.

                        UNMANNED SURFACE VESSELS

    Mr. Aguilar. I understand.
    Mr. Secretary, could you go into a little depth on the 
Navy's plans to build multiple unmanned surface vessels over 
the next 5 years? What will be the main function of the 
vessels? And how do we get from the R&D phase to the 
procurement phase?
    Secretary Spencer. Unmanned, whether air, surface, or 
underwater, is going to be a key area. It already is a key area 
of research and development, an application for the Navy going 
forward. We are now in the learning phase of what we will do 
with that.
    But I mean, as you have seen with Sea Hunter, already made 
a successful transition from San Diego to Honolulu and back, 
unmanned, using COLREGs, the rules of the road for surface 
navigation. Great hope here.
    What would it be? I defer also to the Commandant and the 
CNO in this case. I see it as additive capacity. They might 
have a finer point on it. But, again, if I was to use an 
analogy, the Ford F-150 truck, to help existing ships have more 
capacity. Also in logistics, being a backbone for logistics, 
freeing up jobs that might be done more with a human interface. 
Those would be the two primary areas.
    Admiral Richardson. Sir, I will tell you just, we are 
looking at a family of unmanned surface vehicles just to focus 
in on the surface unmanned issue. The small ones that would go 
into mine fields, they would be towing sensors. They could find 
in-water and bottom mines. Obviously a much better option than 
sending a manned platform into a minefield. And so this is a 
use for the smaller ones.
    The medium-sized vessels, we are partnering with the 
Strategic Capabilities Office so that we can buy some of those. 
We could use those, as the Secretary said, just for logistics, 
to move things intratheather. We could use those possibly for 
decoys, payloads, a lot of different possibilities there.
    And then we have got to think about a larger version of 
this as well as we mature the algorithms and such that will 
allow for more and more autonomous behavior.
    Mr. Aguilar. And what could we expect from a projected 
timeline when we come to that from the R&D side over the next--
--
    Admiral Richardson. It is happening right now. It is very 
vigorous in this budget. We are looking at north of 200 
unmanned systems supported in the budget, including surface 
vessels.
    Mr. Aguilar. So in, again, walking through kind of a 
hypothetical, let's say 5 years out, fiscal year 2025, what can 
we expect a future budget request would look like when it comes 
to unmanned?
    Admiral Richardson. All of that is contained in our current 
5-year request, and so we would be looking at about 226 
unmanned vehicles, yes, sir.
    Mr. Aguilar. Thank you.
    Thank you, Mr. Chairman. I will yield back.

                               CHILDCARE

    Mr. Visclosky. Thank you very much.
    Admiral, I would like to talk about childcare, and, 
Commandant, as well. The Navy, as I understand it, currently 
has a wait list of about 7,800, with the bulk, about 68 
percent, in the most heavily populated installations--San 
Diego, Hawaii, the District of Columbia metropolitan area, and 
Norfolk. The Marine Corps waiting list is smaller. It is 573 
people, as I understand it, today.
    Given that, looking ahead to 2020, the Navy is not planning 
on increasing the number of child development centers or family 
care homes, even though the number of facilities has remained 
stagnant for the last 2 years. It is my understanding that the 
Marine Corps also is not looking to expand the number of 
daycare centers, if you would, even though that has also 
remained unchanged for a number of years.
    For the budget for 2020, the Navy is asking for what looks 
like a $50 million increase in spending for daycare. My 
understanding is, in fact, it is a $7 million increase over 
this year's spending. The Marine Corps is looking to, in their 
request, spend $11.8 million less than they did 2 fiscal years 
ago.
    I think of people wanting to serve in the military and 
worried about their children and only at a base for 3 years or 
2 years, or less than that if they are deployed. What is the 
problem here about not providing more daycare services? I mean, 
7,800--over 8,000 people under your commands waiting for 
daycare here. And there are no plans in 2020 to increase that 
capacity.
    Admiral Richardson. Sir, I will take a first stab at this.
    We agree 100 percent. And as the Secretary said in his 
opening statement, you can recruit a sailor, but you are going 
to retain a family, and a lot of those decisions are going to 
be made based on childcare.
    As you pointed, in some of our greater fleet concentration 
areas is also the area where we have the longest waiting list. 
We are about probably 75 percent of our total projected need.
    We look forward to expanding that capacity. The quality is 
something that we think is about right, but it is just we don't 
have enough.
    Another option that we have looked at is to provide some 
subsidies so that, if you can't find it on base, you can go out 
into town. But in those population centers where our bases are, 
the childcare situation is even worse outside the gate. The 
waiting lists are longer and there are even fewer spots being 
met. It is another national problem where the Navy and the 
Defense Department are a part of that.
    We look forward to looking at every possible solution. 
Admiral Mary Jackson, Chief of Naval Installations Command, has 
solicited, put together some teams to look at every possible 
idea, and we look forward to working with this committee to 
mitigate this shortfall.
    Mr. Visclosky. But there is no request for additional 
facilities in 2020. When is this going to happen?
    Admiral Richardson. We will take a look at it, sir. But you 
are right, there is nothing in 2020.
    Mr. Visclosky. I appreciate, in the absence of facilities, 
the subsidies. And you are right, it is a very uneven world out 
there. I remember when my son, who is in his thirties now, was 
born. My wife and I had every resource in the world and it took 
us 9 months to find good daycare.
    Admiral Richardson. Right.
    Mr. Visclosky. And I am thinking, recently being in San 
Diego--I don't want to pick on southern California--but if I 
have a subsidy and it is a great daycare center off base and I 
am living somewhere else in the metro facility, I am getting up 
at 4 o'clock in the morning, by the time I get my kid to 
daycare. And then I get to the facility to start working, let 
alone then I got to go pick my child back up and get home.
    And looking forward to dealing with this with a backlog of 
8,000 people between the two commands and not having any plans 
next year, in 2020, to deal with it, I don't think that is 
looking forward to dealing with it.
    Admiral Richardson. Right. Yes, sir. We will address that, 
maybe not with facilities this time, we are still studying the 
requirements, to see that there are other creative 
possibilities. But we do agree with you 100 percent, this is a 
chronic problem and we have to get after it.
    Mr. Visclosky. We are going to mark up our bill very 
shortly. We are in the process of putting the pieces together. 
So time is of the essence. But I do not want to wait until 
fiscal year 2021 to work down that list of over 8,000 marines 
and sailors who are desperate for daycare. I am really looking 
to work with you, I think we are all agreed, in 2020 to start 
dealing with this problem.
    Admiral Richardson. We will work with you, and we will meet 
your timeline. And we do look forward to participating in the 
national problem that is childcare. So you mentioned San Diego 
County. If I go out, the shortfall in San Diego County is 
almost 200,000 spots.

                              LOSS OF LIFE

    Mr. Visclosky. Right.
    Admiral, another question is, unfortunately, an 18-year-old 
female recruit died at a Navy boot camp in Great Lakes last 
week. My understanding is that earlier this year a 20-year-old 
female recruit died while undertaking her own physical fitness 
assessment.
    I don't mean to trivialize the loss of two lives by saying, 
is this an aberration? But what were the circumstances? Is 
there a pattern? I am struck that both of the recent deaths are 
female recruits.
    Admiral Richardson. To the degree that we have investigated 
it so far--and some of the investigations are still in 
progress--there really is not a pattern between the two, and it 
appears that there is no smoking gun or anything that we can 
point to in terms of some precaution that we should have taken 
or something like that. But we continue to investigate it, 
particularly in light of this most recent, second passing.

                         SUBMARINE MAINTENANCE

    Mr. Visclosky. Okay. What I would like, and then I turn to 
Mr. Calvert, is have a discussion about submarine procurement 
as well as submarine maintenance, but particularly a focus on 
maintenance.
    The budget request has $11.6 billion in for procurement--we 
have had a number of people touch upon submarines--for three 
Virginia-class submarines, advanced procurement for one 
Columbia class, and advanced procurement for two Virginia-class 
submarines.
    Because there has not been any advanced procurement for 
that third submarine that is in the request for 2020, my 
understanding is that would be a ship for 2023, give or take.
    Talking about maintenance, from fiscal year 2012 to 2018--
and this is cumulative for--and I will just talk about 
submarines for a moment--had maintenance delays of 7,321 days. 
Looking at a graph from GAO, it would appear, for fiscal year 
2018, that for submarines the number of day delays is somewhere 
between 1,750 and 2,000. And I am struck that the graphs for 
surface ships and submarines all tend over those years to move 
to the right with longer numbers.
    The Navy has requested in excess of $10 billion in base and 
OCO for maintenance funds for these types of activities. The 
Navy has also submitted unfunded requests for $814 million. 
That figure includes $653 million for submarines, and I want to 
focus on three in particular.
    It includes $290 million for the USS Boise, $306 million 
for the Hartford, and $57 million for the Columbus. And all 
three, as I understand, are Virginia-class. Currently, Boise 
and Hartford are in dry dock. Columbus is in need of repairs.
    According to a GAO study on Navy readiness, the Boise was 
scheduled to enter shipyard in 2013, but due to several delays 
the Navy has postponed their repairs. The Boise has now lost 
its dive certification as of February of 2017.
    So we are asking for additional submarines, and we have got 
two in dry dock and another one waiting. And for those three 
submarines in particular, they are asked in the budget, in the 
unfunded requests. And the additional Virginia-class wouldn't 
be ready until 2023. I don't understand the economics of that 
at all.
    Secretary Spencer. If I could start, Mr. Chairman, and 
then, again, more than happy to have the CNO dive in.
    At the whole level of ship maintenance, am I satisfied? No, 
not at all. And I don't want to pull out a crying towel of 
sequestration, but on historical review on my part, that really 
did hurt us as far as allocation of dollars, where we were 
putting dollars forward.
    Let's talk about where we are and how we are getting out of 
it. The shipyard modernization program is one of the keys to 
get flow, maintenance flow, through our shipyards.
    That unto itself is not an inexpensive program. I think I 
have said this before, yes, I like buying new things, but by 
God, I like fixing old things I have to get them back out into 
the fight.
    We expanded our capacity by having private shipyards assist 
in the maintenance of our submarines. To be very frank with 
you, that has not gone as quickly and as fast and as 
efficiently as we had expected. We are addressing the issues at 
hand.
    The increase in manpower in the public yards is addressing 
that. It is not moving as quickly and as fast as we would like, 
to be very frank with you. But we are having improvement, 
albeit incremental.
    CNO, I don't know if you want to----
    Admiral Richardson. Just I think the Secretary captured it. 
There are a lot of different aspects in your question, Mr. 
Chairman. There is the new shipbuilders, primarily for 
submarines, Electric Boat and Newport News Shipbuilding. That 
is one industrial base, if you will. They do some repair. There 
is the public shipyards that do our nuclear power warship 
repair. And then there is the private shipyards that do our 
surface ship repair.
    All of these, I think, were leaned out. They are on the 
recovery path. I would say that if you look in the aggregate--
and I look forward to bringing you those numbers--the amount of 
idle time, if you want to call it that, has been shrinking over 
time for ballistic missile submarines and carriers, and we are 
looking forward to bringing that discipline into the SSN world 
as well.
    Secretary Spencer. Mr. Chairman, I want to make sure 
everyone doesn't leave here with the wrong impression. We are 
after this issue. I mean, this is one of the key issues that we 
are working on, in the sustainment side of the house, is how we 
get flow through so we can get our ships back out onto the sea. 
Submarines are a prime example.
    Mr. Visclosky. I appreciate the consequences of 
sequestration, but that was some time ago, and the Congress has 
provided a lot of relief.
    And I guess my specific question still remains. The Navy, 
for the first time now, has put the third Virginia-class in. I 
am not saying I am for it or against it. They put it in.
    I have got a Boise that was scheduled for 2013 that has now 
lost its certification, and it is in the unfunded requirement 
request. It is not even in what you are asking for this year to 
catch up on your maintenance.
    Secretary Spencer. I see them as two different--I am sorry.
    Mr. Visclosky. And the third is not in your request for 
2020. It is in the unfunded request list. And the Columbus is 
in the unfunded. You got three subs out there, two of which are 
in dry dock, and they are not even in the basic request for 
2020, and I want another sub.
    Secretary Spencer. The other sub, Chairman, is we have our 
retirement schedule----
    Mr. Visclosky. Let me ask you this. Why didn't you ask for 
the money in the maintenance for these three ships for 2020?
    Admiral Richardson. Some of this is a matter of what we 
discovered. Some of this is a matter of industrial capacity. So 
with respect to the Boise in particular, it is a little bit of 
a timing, right?
    So the public shipyard--I am sorry--the private shipyard 
that was designated to do the Boise repair is currently still 
working through other submarines that they are doing. So there 
is a bit of a cascading effect that is at play as well.
    Mr. Visclosky. I know maintenance is different than 
procurement of a new sub. But the fact is, if we have a problem 
as far as capacity in the request from the administration, we 
don't have a capacity problem as far as asking for a new sub, 
we have got a capacity problem on repairing three existing 
subs.
    Mr. Calvert.

                            AMPHIBIOUS SHIPS

    Mr. Calvert. Well, since we are on the subject of 
maintenance and what we are trying to do to address those 
issues, we also have a problem, not just with submarines but 
with the amphibious ships that the Marine Corps relies upon, 
and new amphibious ships where we need lift capability, 
obviously.
    It is good to have a capable Marine Corps, but you have got 
to get them to the fight. And it seems to me that we have some 
challenges when we talk about the status of our amphibious 
fleet.
    Do you want to comment on that, General?
    General Neller. We are in a similar position. And, again, 
as a Marine, I have tracked the readiness and the maintenance 
of all the amphib ships, of which we are up to 33 with a 
requirement of 38.
    So I think I am not familiar with the yard issues that deal 
with other platforms, but in talking with the CNO and his staff 
that help us with this, it is a similar issue with contracts 
and finding things in these ships that they contracted for a 
certain amount of work, and then they got into the middle of 
the ship and then they found other stuff, and then they had to 
relitigate the contract. So there are a lot of reasons, no 
excuses.
    But I think we are making some progress. We keep track of 
that. Ideally, we would put a ship in the yard, it would have a 
scheduled time, it would come out on time, and it would fill 
the deployment schedule.
    On the big decks, it is a more difficult challenge because 
you are having resurfacing going on, because you have to 
resurface the deck in order for it to handle F-35s. So there 
are certain things you have to do in addition to that.
    So I would think--I am not going to speak for the Secretary 
or the CNO--I don't think any of us are where we want to be, 
but I think we are well aware of the problem and we are working 
hard with the yards to try to get these ships out and try to 
avoid any second and third extensions.
    And so we will work with that. It does impact on the 
deployment schedule from time to time and we have to adjust. So 
we are tracking it. It is not where we want it to be. But we 
are working hard with the yards to try to fix it.
    Mr. Calvert. It seems to me, Mr. Chairman, we have a 
capability--a capacity problem, too, in the domestic shipyard, 
which leads to the question, should we do a better job of 
incentivizing our domestic shipyard operations to take on more? 
Obviously, a tremendous amount of demand out there.
    Secretary Spencer. One of the things I want to make clear, 
Congressman, when I talk about sequestration, the dollars 
aren't what is the question here. During sequestration we lost 
people out of the industry who never came back. That is the 
biggest thing that it cost us, is that there was uncertainty, 
so they went to different professions. And now we are starting 
to respool up there. That is one of the biggest contributors.
    I agree, we are trying to work with every single tool we 
have to incent. But there is the concept--you asked about the 
third submarine. You have gross hull numbers that we have to 
manage, and then we also have existing hull numbers. In those 
existing hull numbers, the maintenance clock never stops 
ticking. So I have got to get them through quickly. And when 
they sit there, they are still expiring.
    So you still have to manage the gross hull number. That is 
why the third. Our top priority is to make sure that these 
attack submarines are available to us on a gross number. I am 
not apologizing for the maintenance----
    Mr. Calvert. I wouldn't disagree with that. But obviously, 
too, the United States is not a reliable customer because of 
all these other issues out there. And, obviously, if you are in 
the private sector, you are going to pick people that are going 
to pay their bills and do things on time and all the rest.
    Secretary Spencer. Exactly.
    Mr. Calvert. And so we have to be a better customer in the 
future.
    That is one of the things--I will go back to where we 
started out, with what Mr. Womack brought up, is that we need 
to get this budget agreement completed, because if we don't 
have a defense budget or a defense appropriation bill on time 
we are going to have the same--we will go right back in the 
tank.
    Mr. Womack. Will the gentleman yield?
    Secretary Spencer, you just mentioned that we lost people 
in the trade, which we all knew was going to happen. I mean, 
when you mess around with certainty, people that are talented 
to do certain skill sets are going to move to other things if 
we are not a reliable customer.
    And I am concerned that we are sitting here today, tomorrow 
is May 1, and I am a defense appropriator, and I can't answer a 
question about defense appropriations in time for an October 1 
deadline. And, of course, I spent last year working on budget 
process reform that I thought would fix part of this problem 
and we missed on that.
    We could be headed right back into the same dilemma, could 
we not?
    Secretary Spencer. Yes, sir.
    Mr. Visclosky. Mr. Calvert.
    Mr. Calvert. I yield back the balance of my time.
    Mr. Visclosky. I will recognize----
    Mr. Calvert. Mr. Chairman, I am going to ask Mr. Womack to 
cover for me, because I have got to go to a meeting upstairs 
for a few minutes.
    Ms. McCollum. I am just here learning.

                     PAC-3 MISSILE ENHANCED SEGMENT

    Mr. Womack. I have got a couple more questions.
    Admiral Richardson, I received a briefing showing that the 
PAC-3 missile enhanced segment would fit in a surface ship's 
vertical launching system and that this missile being agile, 
hit to kill, bullet-to-bullet technology can defend against 
hypersonic weapons, which we have talked about already in the 
brief.
    What can you tell me about the possibility of this Army 
program of record missile being used on ships? Is this 
something that the Navy is exploring? And if not, should we be 
exploring this?
    I know we talk a little bit about old strategies and new, 
with a new direction, those kinds of things, multi-domain 
operations, attacking old problems from new angles. What can 
you tell me about the prospect here?
    Admiral Richardson. We are working very closely across the 
entire Defense Department to look for efficiencies where we 
can, particularly in weapon systems, where we can use each 
other's warheads, use each other's boosters, that sort of 
thing.
    Right now our Ballistic Missile Defense System uses the SM, 
the standard missile. Those are in production. That is how we 
have met that need to date, sir.
    But I think there is enough warfighting demand for both the 
PAC-3 and the standard missile. That is kind of how we sliced 
it and diced it to date.

                      REPLENISHMENT OF STOCKPILES

    Mr. Womack. And then finally, for anybody, particularly the 
Secretary, a little worried about replenishment of stockpiles. 
I can envision if we are in some kind of a great power 
competition and we end up with a major confrontation that we 
get a week or 2 into a conflict and we have emptied our 
stockpiles. A lot of this stuff takes a while.
    So is that something that we need to be concerned about? I 
mean, some complex missiles, like HIMARS and Tomahawks, you 
just don't create those overnight.
    Secretary Spencer. Congressman, one of the great things 
that you gave us was the 2-year budget, and that sent the 
signal to industry, and we allocated the dollars. We did a 
whole analysis last fall on the global floor minimums for our 
weapons across services. But the fact that we had a 2-year, 
eye-to-eye, send the signal, got industry back in gear again.
    Now, you are right, some still have a long lead time, we 
are not out of the woods, but we are making progress.
    Mr. Womack. Yeah. And I will just say one more thing about 
budget process reform. The Secretary mentions a 2-year budget, 
and this is one of the changes that the Joint Select Committee 
had advocated, got right to the finish line, and could not 
quite get it across the finish line for a lot of really 
political reasons. But that 2-year budget, has been--was proven 
effective, was it not, to create certainty?
    Secretary Spencer. Instrumental. Instrumental. And you can 
ask any of our prime suppliers and/or supply chain members.
    Mr. Womack. Thank you.
    Mr. Chairman, I will yield back.

                          PROCUREMENT OF SHIPS

    Mr. Visclosky. And I would associate myself with the early 
remarks of Mr. Womack and Mr. Calvert that, to the extent you 
can, suggest to the administration strongly that--and there are 
three parties here, the House, the Senate, and--is, we can't 
wait until September 27 to start these negotiations--and do a 
2-year deal.
    Because I am convinced the will is here in the House and 
the Senate on the committee to get our work done by the first 
of the year, but it is all for naught if we don't get those 
numbers. So to the extent that you can do that, that would be a 
great service.
    What I would like to do now is talk about procurement of 
ships. And as you are well aware, there was a GAO report that 
was unflattering, to say the least, relative to the deployment 
of new ships with either minor and/or major defects, and who 
ends up paying for those problems.
    I have a series of questions for the record. But what I 
would like to focus on is, in the GAO report, they indicated 
that, on average, the shipbuilder pays to correct 4 percent of 
the flaws, while the government pays 96 percent. To determine 
this percentage, the GAO reviewed the contract terms for a 
nongeneralized sample of six fixed-price incentive contracts 
for the detailed design and construction of 40 ships in five 
different shipbuilding programs.
    Would you have a response to how those costs for minor and 
major defects are paid for between the government and the 
contractor? Because we are talking defects.
    Secretary Spencer. Mr. Chairman, I don't at the tip of my 
tongue, and I will obviously get back to you on it. I am just 
thinking about some of the programs that we have in place right 
now, such as the LCS, which we are delivering with four-star on 
the star reports, that are coming out with literally no 
discrepancies.
    If, in fact, these are the earlier ships--and you gave me 
the universe, so allow me to get back to you if I could. But 
our present line, I look at DDG. I look at LCS. I look at the 
learning curves we are doing there. They are quite impressive. 
First ships, as you well know, are always pretty dramatic. That 
is a large universe you have provided, so I would like to be 
able to respond for that record.
    Mr. Visclosky. With that historical record, I think it is 
all the more important to----
    Secretary Spencer I agree.
    Mr. Visclosky [continuing]. Protect ourselves on the 
contract side with the vendors when we deal with them and 
understanding the historical issue.
    I would ask, for the record, information on the Gerald 
Ford. The Gerald Ford was delivered to the Navy in May 2017. 
This is not the distant past. It will not be deployed until 
2022. But there were numerous deficiencies in systems that have 
been identified, including the main turbine generators, the 
Electromagnetic Aircraft Launch System, the Advanced Arresting 
Gear, the advanced weapon elevator, Dual-Band Radar, and the 
integrated warfare system.
    What I would ask, for the record, is if you could, just in 
this one instance for the Ford, break out how much of a delay 
each of the system deficiencies caused to the program; for each 
of the deficiencies, the total cost overrun to fix each of the 
systems; and finally, to split between the contractor and the 
government as to who will pay for it.
    Secretary Spencer. We will do that, Congressman. I can tell 
you right now that the October 15 date, the biggest issue that 
we are looking at right now are the elevators. The electronic 
launching system, I have high confidence, after reviewing what 
is going on, that will be perfectly fine. The arresting gear, 
we have issued--we have gotten all the issues out of that. The 
phased-array radar, we are online with that.
    Like I said, the biggest gating event we are going to have 
is making sure we get the main thrust bearings and the 
propulsion system outstanding along with the elevators.

                          ADVANCED TECHNOLOGY

    Mr. Visclosky. Looking ahead, because I can understand 
anytime I do something for the first time there are unintended 
outcomes, fiscal year budget 2020 requests $1.3 billion for the 
lead frigate. What cautionary actions is the Navy taking to 
make sure we don't continue to hit our head against a wall like 
we always have because it is the first one?
    Admiral Richardson. So I would say that one of the big----
    Mr. Visclosky. What will be different this time?
    Admiral Richardson. Right. The big lessons from Ford is 
that with respect to--well, we bit off a tremendous amount of 
advanced technology, and we decided to put it all on the lead 
ship, technology that was not developed. So this technology 
needed to be both invented and then integrated into the larger 
aircraft carrier itself.
    With respect to the frigate, we are learning from that, so 
that we are using mature technologies. We brought industry in 
much, much earlier into the requirements process to understand 
the technology maturity, what is really the art of the 
possible.
    So we are going to use, as I said, mature technologies 
across the board, proven hull designs. And then it really just 
remains to be an integration challenge, which is a much more 
manageable problem.
    So that is what has allowed us to move to a contract award, 
only sort of 2 years after setting the requirements for the 
ship. Industry has been lockstep with us in terms of 
determining the balance between cost, schedule, and warfighting 
requirements.
    And so this gives us more confidence that we are going to 
be able to deliver this on schedule and for the budget that we 
asked for and to step up. And then we will have to be poised to 
continue to modernize that, to integrate more advanced 
technologies as they mature.

 TRANSITION OF MILITARY TREATMENT FACILITIES TO DEFENSE HEALTH AGENCIES

    Mr. Visclosky. Okay. Again, we have a number of questions 
for the record. And please don't misinterpret my remarks. 
Admiral, we have gone back to when you were in the nuclear 
reactor program.
    The information we have received to date in rebuttal or 
commentary on the GAO report I would say is lacking. So I would 
want to continue this conversation as far as ship procurement, 
defects, and particularly who is picking up the tab. I always 
think of that person waiting at a diner in pick a State in 
rural America on tips. And some of that money, somebody is 
getting paid on these defects, is coming out of that person's 
pocket.
    The last question I have is on the transition of military 
treatment facilities to the defense health agencies. My 
understanding is the Naval hospital in Jacksonville was first--
or was one that was transitioned last October. We have heard 
concerns about the transition, including that the services are 
continuing to support the Defense Health Agency more than 
anticipated.
    Admiral or Secretary, do you know, is that concern true? 
And are there problems? How are things going?
    Secretary Spencer. Chairman, I will tell you that right now 
I am going to reserve my comments for you, if I could follow 
up. In the fall, when we were sitting down there as the three 
service secretaries working on this transition, there was 
concern. We sat down with DHA and hammered out where we believe 
there was a construct to go forward.
    It is not as much as a concern as it was before if, in 
fact, we are following those edicts, shall we say, but if you 
would allow me to go back and pulse the system to make sure 
that those statements are correct, I would appreciate it.
    Mr. Visclosky. Good. And one thing I would add is when you 
get back to us, because we will have a hearing next year, God 
willing, with whoever the participants will be, we would like 
to be able to look back and say last April we had this 
discussion and here were some benchmarks we would want to make 
a decision as to whether we are moving in a positive direction 
or not.
    If you could provide us that, so not, again, to find fault, 
but is this working as advertised, both from your perspective, 
as well as from the health agency, I would appreciate it.
    Admiral Richardson. Mr. Chairman, if I could just add onto 
that, the pace of this transition is of concern to me. How many 
medical treatment facilities we are transferring in a 
relatively short amount of time. You know, as I talk to people 
in the healthcare industry in the private sector, they would 
never try to take on a pace like that.
    So we want to do this right, at a pace that is executable, 
that doesn't allow these sorts of things to fall in the cracks 
just because we are slave to a pace that is really faster than 
we can execute.
    Secretary Spencer. Right, artificial.
    Mr. Visclosky. Appreciate that very much.
    No further questions.
    Again, gentlemen, thank you very much. We are adjourned.

    [Clerk's note.--Questions submitted by Mr. Visclosky and 
the answers thereto follow:]

                    Trident II Modification Program

    Question. The Navy's FY 2020 budget request for Overseas 
Contingency Operations (OCO) includes $84.27 million for warhead 
components under the Trident II modification program. According to the 
Navy's request, some of these funds are for the deployment of a new 
low-yield warhead, the W76-2, on Trident II missiles.
    If the Navy's most important mission is nuclear deterrence and the 
Columbia-class SSBN remains the Navy's top priority program, why is the 
Navy requesting funds for the Trident II modification program--and for 
the near-term deployment of the W76-2-OCO instead of the base budget? 
By utilizing a budget gimmick, are you worried that the program will at 
risk?
    Answer. The President's FY2020 Budget request reflects what is 
required to comply with the National Defense Strategy (NDS) and what we 
need to defend America. As outlined in the FY 2020 Budget request, the 
Administration prefers to limit base National Defense funding to the 
current law discretionary cap, while using both Overseas Contingency 
Operations (OCO) and emergency funding to provide the necessary 
resources to support the NDS. To make it transparent, the budget 
material broke out OCO into two distinct groups--traditional OCO and 
OCO for Base. OCO for Base includes items traditionally funded in Base. 
Nuclear deterrence and the Columbia-Class ballistic missile submarine 
program remain the Navy's top acquisition priority. By including some 
of the funding for the Trident II modification program in OCO, the Navy 
is making clear the total funding required for this program and looks 
forward to working with Congress to ensure there is adequate, stable, 
and predictable total funding in this budget.
    Question. Setting aside the budget games, I struggle to see the 
value in creating a low-yield SLBM warhead. It will be expensive, 
potentially destabilizing and further blur the lines regarding the 
strategic and not tactical purposes of nuclear weapons. Could you 
please explain to the committee the value of a low-yield option for the 
Trident?
    Answer. The low-yield SLBM warhead announced in the Nuclear Posture 
Review (NPR) provides a flexible range of deterrence options needed to 
meet today's spectrum of adversaries and threats. Introduction of a 
low-yield SLBM warhead provides scalable, proportional response options 
that enhance deterrence by signaling to adversaries that nuclear 
escalation will not result in achieving their objectives.

    [Clerk's note.--End of questions submitted by Mr. 
Visclosky. Questions submitted by Mr. Ruppersberger and the 
answers thereto follow:]

                  Friend or Foe Identification Systems

    Question. Admiral Richardson, as you know the Federal Aviation 
Administration has a requirement that all aircraft operation in the 
National Airspace System (NAS) must be equipped with an Automatic, 
Dependent, and Surveillance-Broadcast (ADS-B) transmitter by January 1, 
2020. The FY2019 NDAA temporarily waived this requirement. Many current 
medium and small military Unmanned Aerial Systems (UAS) cannot meet 
this requirement. Additionally, Unmanned Aerial Systems are 
proliferating as a platform of choice. As a result, all branches of the 
military need a small, lightweight, secure Identification Friend or Foe 
transmitter capability that can be fielded in time to meet the 2020 
deadline. My Questions Are:
    Can you provide the Committee with details about the Navy's efforts 
to develop such a Micro-IFF capability to meet or exceed all the size, 
weight, and power requirements for the Navy's UAV fleet?
    Answer: The ADS-B mandate applies to all aircraft--manned or 
unmanned--that will operate in most controlled airspace within the NAS. 
Today, Navy small UAS do not operate in controlled airspace and are not 
envisioned to require such access in the near term. To mitigate UAS 
fratricide risk, and in the event that Navy would one day require small 
UAS access to controlled airspace within the NAS, the Navy is pursuing 
solutions via two approaches: in-house development by the Naval Air 
Warfare Center Aircraft Division (NAWCAD) and a Small Business 
Innovation Research (SBIR) project.
          <bullet> As an interim solution, the NAWCAD Combat 
        Integration & Identification Systems Division (NAWCAD-4.11.2) 
        has been developing an organic Micro-IFF solution. It uses an 
        existing NSA-approved KIV-77 crypto applique in order to 
        provide the Navy with a stop-gap solution in 2020. The interim 
        Micro-IFF solution is approximately 40 cubic inches.
          <bullet> Small Business Innovation Research (SBIR) Topic 
        N142-102. This will result in Micro-IFF prototypes that are 
        compliant with Air Traffic Control Radar Beacon System IFF Mark 
        XII System (AIMS) 03-1000B. Prototypes are being developed to 
        support mid to small size UAVs, and will be less than 7 cubic 
        inches when FOC.
    Question. When will the Navy's budget reflect the funding required 
for this capability development?
    Answer. The Navy's current budget (Rl #148, PE 0604777N / PU 1253 
and C472) contains funding that began in FY 2019 and continues into FY 
2020 that will mature organic and SBIR Phase II prototypes into 
production-representative units by 1Q FY21 and will include NSA 
Cryptographic Certification and AIMS Box-Level Transponder 
Certification.

                           Maritime Networks

    Question. Secretary Spencer or Admiral Richardson, this question is 
for either of you.
    The Navy operates in geographically challenging environments where 
network bandwidth is limited. These limitations impact the Navy's 
ability to analyze and transmit the data that is collected by various 
weapons platforms and sensors.
    I understand that to address one specific gap, the Navy has 
established the Maritime Dynamic Over the Horizon Targeting System 
(MDOTS). This system will utilize advanced integrated technologies to 
generate a secure high-bandwidth network for a new over-the-horizon 
weapons system. It is my understanding that the Navy is looking to 
deploy MDOTS onto the USS ESSEX in order to conduct a Fleet battle 
experiment in the fall of 2019. My Questions Are:
    Could you please tell me what the status of this program is, if the 
funds have been committed for it, and if there are any obstacles for 
achieving the pilot this year?
    Answer. The Department of the Navy (DON) is evaluating this concept 
and capability relative to requirements and warfighting needs. Given 
that this area is such a critical capability for our warfighter, the 
DON's evaluation needs to be comprehensive to ensure the Navy's 
strategy is sustainable for the long term. Elements of this concept are 
scheduled for demonstration during a July 2019 Advanced Naval 
Technology Exercise at Camp Lejeune, NC providing additional insight.
    Question. Could you please identify other critical capability gaps, 
such as the massive amount of data generated by the F-35 and deployed 
in an afloat environment where real time data transmittal and retrieval 
in a secure network would be beneficial?
    Answer. DON has and continues to identify critical capability gaps 
related to the collection and movement of data. Principally, these 
needs are defined by the location and mission of sensor platforms such 
as the F-35, critical computing infrastructure, and ultimately the 
specific needs of the end users. The critical network characteristics 
for each stage of data movement is highly dependent on the nature of 
the mission and platform/end user location. In particular, there 
continues to be an increasing need for those networks that move data 
to/from the tactical edge back to various command infrastructure 
elements. Communications solutions to/from the tactical edge platforms 
require highly specialized technologies to survive current threat and 
exploitation environments.

    [Clerk's note.--End of questions submitted by Mr. 
Ruppersberger. Questions submitted by Mr. Cuellar and the 
answers thereto follow:]

                    F/A-18 Service Life Modification

    Question. Admiral Richardson, the Navy has been focused on reducing 
the tactical aviation shortfall by both procuring new aircraft--F/A-18s 
and F-35Cs--and extending the service life of the existing Super Hornet 
fleet. In San Antonio, we are about to support the Navy's efforts 
through the Service Life Modification program that will take existing 
Super Hornets and modify them for additional service life and 
capabilities. Some of my constituents will be working to keep those 
Super Hornets relevant for the warfighter for decades to come.
    Can you talk about the importance of the SLM program to the Navy's 
tactical aviation inventory? And, how does SLM fit into the Navy's 
plans to achieve higher readiness for its tactical aviation fleet?
    Answer. The F/A-18E/F Service Life Modification (SLM) program is 
foundational to achieving the required capability and capacity of the 
Navy's Strike Fighter inventory. Initial SLM production will increase 
F/A-18E/F aircraft service life from 6,000 to 7,500 flight-hours. 
Starting in FY23, SLM is expected to reach full maturity. Once the 
material and standard work packages achieve this status, Super Hornet 
SLM will transition to a 12-month program designed to increase F/A-18E/
F service life from 6,000 to 10,000 flight hours and add Block III 
capability which includes:
          <bullet> Conformal fuel tanks for enhanced range,
          <bullet> Advanced cockpit displays,
          <bullet> Signature improvements, and
          <bullet> Advanced networking.
    SLM establishes a 10,000 flight-hour Block III Fleet for all F/A-
18E/F aircraft. These efforts coupled with F-35C procurement serves as 
the backbone to the capability and capacity mix of 4th and 5th 
generation aircraft in support of the National Defense Strategy (NDS).

    [Clerk's note.--End of questions submitted by Mr. Cuellar. 
Questions submitted by Mr. Aderholt and the answers thereto 
follow:]

                          Training and Safety

    Question. My understanding is that there is no formal training 
process for surface warfare officers like there is for aviators. In 
light of the recent fatal accidents what are you doing to formalize the 
surface warfare officer training process to provide for explicit 
milestones and uniform standards across the whole service, as opposed 
to every Captain having his/her own standard, including perhaps having 
multiple senior officers signing off on the training of each junior 
officer'?
    Answer. Navy has a formalized training process for Surface Warfare 
Officers (SWO). The revised SWO Career Path, is comprised of a rigorous 
training and assessment continuum that develops, assesses, and sustains 
proficiency across the milestones comprising a SWO's career. The 
requirements for qualification and designation as a SWO are published 
within CNSP/CNSLINST 1412.1A (SWO Qualification and Authority to Wear 
the Insignia). This instruction codifies the responsibilities of 
Commanding Officers regarding the eligibility, training, and 
qualification of Prospective SWOs (P-SWOs) under their supervision. 
Additionally, this instruction delineates all of the following:
          <bullet> SWO eligibility requirements
          <bullet> SWO qualification requirements, to include:
                  <ctr-circle> Schoolhouse training (achieved via the 
                Basic Division Officer Course (BDOC))
                  <ctr-circle> Personnel Qualification Standards (PQS) 
                (spanning Fundamentals, Systems, and Watchstations)
                  <ctr-circle> Requisite leadership skills and 
                proficiency in the performance of Division Officer 
                duties as well as Bridge, Combat, and Engineering 
                watchstations
                  <ctr-circle> Proficiency validation via completion of 
                an oral board chaired by the Commanding Officer.
          <bullet> Procedures to be followed by Commanding Officers 
        regarding the non-attainment or revocation of SWO qualification 
        by applicable officers under their supervision.
          <bullet> Summaries of the requirements, quotas, and funding 
        for the training courses and assessments that precede and 
        immediately follow SWO qualification during the First and 
        Second Division Officer Tours.
    Other relevant instructions that address explicit milestone 
requirements and ensure uniform standards across the Surface Warfare 
Community include:
          <bullet> CNSFINST 1412.4A (Surface Warfare Officer 
        Requirements Document (SWORD)), which defines SWO Competencies 
        during the career progression from Division Officer to Major 
        Commander.
          <bullet> CNSFINST 1412.5 (SWO Milestone Mariner Skills 
        Assessments, Evaluations, and Competency Checks), which 
        establishes required milestone events during the career 
        progression from Division Officer to Major Commander.
          <bullet> CNSFINST 1412.6 (SWO Watchstander Proficiency 
        Requirements), which establishes minimum requirements for 
        watchstanders to attain qualification and maintain proficiency 
        across seven specific shipboard watchstations.
          <bullet> CNSP/CNSLINST 1412.9 (SWO Mariner Skills Logbook 
        Requirements), which establishes guidance for the 
        implementation and use of the SWO Mariner Skills Logbook as an 
        experience tracking tool.
    Question. I am concerned that junior officers denied a continuance 
of their career don't have an appeals process which reflects the time 
and money the taxpayer has invested in their training. If a Captain 
reviews the record of a denied officer, and wanted to have that junior 
officer serve on his/her own ship, does it seem a worthwhile idea to 
you to allow that so that the junior officer might experience a useful 
course correction, you might say, under the second Captain?
    Answer. Junior officers are given opportunity to continue their 
career in the event of qualification non-attainment through the 
Probationary Officer Continuation and Re-designation (POCR) Board. The 
purpose of the POCR Board is to carefully consider, without prejudice 
or partiality, the military record of each eligible probationary 
officer (an officer with less than six years of commissioned service) 
and make a recommendation as to whether it is in the Navy's best 
interests to retain them in their current designator, transfer them 
into another community or separate them from active duty naval service. 
POCR board voting members also consider the desires of the probationary 
officer and the manning needs of other communities to best match talent 
to a potential new designator.
    Primary responsibility for evaluating junior officers prior to any 
re-designation process resides with the Commanding Officers (COs) who 
are responsible for monitoring the warfare qualification progress of 
their junior officers. In some cases a CO may make a decision when they 
recognize that an officer in training lacks the aptitude, 
comprehension, motivation, interest or application to attain a warfare 
qualification in their current community. If this is the case, a CO 
will submit a report containing the circumstances leading to this 
determination, discuss the officer's potential for service in another 
capacity, and provide a recommendation concerning retention in the 
naval service. Upon submission to the CO's chain of command the junior 
officer has the right to comment on the CO's report. If approved for 
qualification non-attainment and the junior officer desires to continue 
service in another community their record is reviewed by a POCR Board 
for a determination and possible selection and assignment to another 
community.

                          Zero-Based Budgeting

    Question. Secretary Spencer, it is my understanding that at a 
hearing earlier this year you discussed a transition to zero-based 
budgeting where all expenses must be justified for each new period. 
Would this effort result in the divestiture of programs specifically 
designated a formal requirement, and funded by this Committee?
    Answer. Zero-based budgeting (ZBB) effort will not divest programs 
specifically designated or funded by any Committee. To help further 
Policy Reform, the Department of the Navy (DON) implemented a ZBB 
review and Performance-to-Plan initiative to ensure alignment of goals 
and resources, increase transparency, and ensure analytical rigor in 
our resource allocation. The ZBB effort has commenced during the 
Projected Objective Memorandum-21 budget review and will consider all 
programs, activities, and contracts while identifying resources for 
reprioritization. Every program will be mapped to the National Defense 
Strategy (NDS) and assessed as whether Core or non-Core to meeting NDS 
Objectives. The intent is that a ZBB approach within the DON will 
identify savings and define how it will tighten the margins of our 
spending.

                         Additive Manufacturing

    Question. With additive manufacturing emerging as a way for our 
military to operate beyond the limits of traditional manufacturing 
constraints, what efforts are being implemented to partner with 
academic institutions to support research, development, and workforce 
training to overcome barriers to high-volume additive manufacturing of 
metals?
    Answer. The Department of the Navy has a broad portfolio of 
metallic additive manufacturing (AM) activities with academic 
institutions ranging from basic research to training curriculum 
development. Our university partners are funded through numerous 
methods including Multidisciplinary University Research Initiatives, 
Small Business Technology Transfer, and naval funding of projects 
through the National Center for Defense Manufacturing and Machining. 
Basic and applied research funding for universities covers current AM 
technology thrusts in rapid qualification, tailored materials and 
processes, AM repair, and digital logistics. Workforce development 
efforts include curriculum support for university students as well as 
external naval workforce training and AM metal machine operations 
journeyman/apprentice certification programs. We are also fostering 
technology transfer through cooperative research and development 
between small business and research institutions.

                   Expeditionary Fast Transport (EPF)

    Question. Based on the positive feedback from the Fleet on value of 
having EPFs to conduct a range of missions, what is the role of EPF in 
the upcoming Force Structure Assessment?
    Answer. The requirement for EPFs (formerly JHSVs) is to support 
multi-disciplinary teams doing humanitarian and security force 
assistance, and to provide economical transportation of Army and USMC 
units for exercises. In wartime, EPFs provide intra-theater lift for 
forces. The 2019 Force Structure Assessment (FSA), like each FSA since 
2005, will assess the need for these capabilities in order to comply 
with the National Defense Strategy.
    Question. What is being done to leverage this highly effective and 
economical (hot) production line to help achieve the mandated 355 ship 
Navy?
    Answer. With the delivery of the 10th hull (USNS Burlington) in 
November 2018, the objective number of Fast Transit ships within the 
mandated 355-ship Navy was achieved. EPF 11 and EPF 12 are under 
construction with deliveries planned in FY 2019 and FY 2020, 
respectively. The final two EPFs are planned for delivery in FY 2022. 
The Navy's FY20 Long Range Shipbuilding Plan meets or exceeds the 10-
ship requirement over the next 30 years.

   Guided Missile Frigate (FFG(X)) and Small Surface Combatant Ship 
                              Requirements

    Question. You still have a requirement for 52 Small Surface 
Combatants (SSCs). Since the path to a more expensive and larger ship 
means that it will take longer and cost more to meet the SSC 
requirement, what is being done to make sure that we get to that 
requirement in a timely way especially in view of the South China Sea 
challenges?
    Answer. The reemergence of Great Power Competition, as outlined in 
the 2018 National Defense Strategy, requires a more capable SSC than 
the Littoral Combat Ship (LCS) for operations in contested 
environments, to include potential challenges in the South China Sea. 
FFG(X) will meet the validated Navy and Joint Staff capability 
requirements to support those operations and is on an expedited 
acquisition timeline to deliver the first ship in FY26.
    FFG(X) is executing ahead of schedule with the draft request for 
proposal (RFP) released three months early and the final RFP planned 
for issuance this summer to support a FY20 award for the lead ship.
    The FY2020 Shipbuilding Plan added an additional ship in FY2021 
(two total FY2021), and a projected steady state of two per year 
thereafter and projects that the SSC requirement of 52 will be met in 
FY34. The Navy plans to procure at least 20 guided missile frigates as 
part of the PB20 Shipbuilding Plan.

                                Zumwalt

    Question. Has the Navy looked into buying an all-steel version of 
the ZUMWALT Class destroyer instead of the Block III ARLEIGH BURKE 
class? My understanding is that the ZUMWALT was designed from the 
ground-up for high electrical output ideal for directed energy weapons, 
while the ARLEIGH BURKE was essentially maxed out in the previous IIA 
version and that an all-steel ZUMWALT might overcome the cost barriers 
to continuing the ZUMWALT as much of the cost was due to the unique 
carbon superstructure.
    Answer. USS LYNDON B. JOHNSON (DDG 1002) was outfitted with a steel 
deckhouse, superstructure, and aft peripheral vertical launching system 
modules as a cost saving measure. Even with this, and other cost 
cutting measures, the DOG 1000 platform is not affordable compared to 
DOG 51 Flight III, which includes significant upgrades to the power 
system over its Flight IIA predecessor.
    Question. Why wasn't a cost effective round developed for the 
ZUMWALT Class's Advanced Gun System in the past decade since the 
decision to reduce the number of ships to three was made, and since 
these multi-billion dollar ships were essentially built around the 
guns?
    Answer. The 2008 decision to reduce the number of ZUMWALT Class 
destroyers down to three ships did not alter the program of record 
developmental plans for the ships Advanced Gun System (AGS) and its 
projectile, the Long Range Land Attack Projectile (LRLAP). In 2016, the 
decision to cancel the procurement of LRLAP was made due to a low 
quantity procurement driving high unit cost per round. In 2017, the 
Navy conducted a live fire demonstration to assess an alternate, 
affordable 155mm guided projectile. The demonstration confirmed three 
potential projectiles that could be integrated with varying degrees of 
risk for cost, schedule, and performance. However, none of the 
projectiles fully met the DDG 1000 Land Attack mission requirement. As 
a result, Navy decided not to pursue an alternate solution. In November 
2017, Navy changed the mission from Land Attack to the Offensive 
Surface Strike with the integration of existing program of record 
systems, SM-6 BLK 1A (IOC FY21) and Maritime Strike Tomahawk (IOC 
FY24).
    Question. What is the plan for that gun system?
    Answer. The Navy is currently examining possibilities for a new 
weapon system and does not have a final decision regarding a plan for 
the AGS.

      [Clerk's note.--End of questions submitted by Mr. Aderholt.]


                                            Wednesday, May 1, 2019.

         FISCAL YEAR 2020 DEPARTMENT OF DEFENSE BUDGET OVERVIEW

                               WITNESSES

HON. PATRICK M. SHANAHAN, ACTING SECRETARY OF DEFENSE
GENERAL JOSEPH F. DUNFORD, CHAIRMAN OF THE JOINT CHIEFS OF STAFF
DAVID L. NORQUIST, PERFORMING THE DUTIES OF DEPUTY SECRETARY OF DEFENSE

                Opening Statement of Chairman Visclosky

    Mr. Visclosky. The committee will come to order.
    Today we will hear from Acting Secretary of Defense Patrick 
Shanahan, and General Joseph Dunford, the Chairman of the Joint 
Chiefs of Staff, and David Norquist, performing the duties of 
the Deputy Secretary of Defense.
    Secretary Shanahan, although you are not a stranger to the 
subcommittee, this will be your first time testifying before 
us, so do welcome you.
    Welcome, Deputy Secretary Norquist, as well. Good to see 
you back in an appropriations room.
    General Dunford, I do believe that you have testified 
before the subcommittee annually since 2013 in three different 
roles, which must be some sort of record. I realize this will 
be your final time before us, and I would want to take this 
opportunity from the bottom of my heart, I think for all of us, 
just to thank you for just being a stellar human being and for 
your service to this country. You have just been terrific to 
deal with.
    Gentlemen, in your written testimonies and previous 
briefings for the fiscal year 2020 budget request, it is clear 
the Department is going to great lengths to tie most decisions 
to the priorities laid out in the National Defense Strategy. 
While I disagree with some of several aspects of the NDS, I do 
think the document provides an accurate assessment of the 
strategic environment and generally points the Department in 
the right direction.
    However, as with many ambitious plans, the question is how 
are we going to pay for it. The next two fiscal years, it is 
impossible to answer that question without discussing the 
Budget Control Act, also known as the BCA.
    The initial impact of the BCA caps was admittedly severe. 
However, the Department of Defense has received a total of $264 
billion in base budget relief from the caps since 2012. Most of 
that occurred in fiscal years 2017 through 2019, when the 
Department's budget increased by 13 percent in nominal terms.
    The fiscal year 2020 budget request proposes another 
increase of 4.9 percent, or $33 billion. Further, there are 
about $11 billion in unfunded requirements and priorities 
requested by the services and combatant commands for fiscal 
year 2020.
    Even the fiscal year 2020 budget request recognizes that 
the funding increases of this magnitude are unsustainable and 
slows the rate of growth across future years. In the outyears, 
the Department claims that it will be able to prioritize 
modernization by relying on savings, reforms, and efficiencies 
that have been notoriously difficult to achieve in the past.
    I do wish the administration could muster the same courage 
to attack the BCA caps with the same relish that it is using to 
implement the National Defense Strategy. Rather, the 
Department's budget request eschews the caps by using the 
overseas contingency operation accounts, which are exempt from 
the caps, to fund base activities.
    In both fiscal year 2020 and fiscal year 2021, the budget 
requests nearly $100 billion in OCO to base to support the 
National Defense Strategy. These OCO for-base funds are in 
addition to traditional OCO, which is projected to exceed $60 
billion in each of those years. Admittedly, OCO for base is not 
a new concept, but the amounts requested in the budget are 
staggeringly out of proportion with prior efforts to avoid the 
caps.
    However, in fiscal year 2022, after the BCA caps' sunset, 
OCO for base disappears, and traditional OCO miraculously 
shrinks to $20 billion. People's cynicism about this approach 
can be understood.
    I must also say that as a member of the legislative branch, 
I am grossly offended by the unconstitutional actions taken by 
the executive branch to fund the construction of an 
unauthorized wall on our southern border. Using funds that 
Congress declined to appropriate for that purpose, and over the 
denial of this committee and others, the Department of Defense 
is in the process of conveying billions to the Department of 
Homeland Security.
    There is no emergency at the border that requires the use 
of the United States Armed Forces. We are here to appropriate 
funds needed for the military, not to make good on a campaign 
promise.
    It is in that same vein last night that Congress was 
notified that OMB will be submitting a $377 million 
supplemental request for border security. A portion of that 
will be in support of military personnel deployed at the 
border. There will likely be questions on the cost and value of 
the troops deployed to the border, so I am going to ignore that 
for the time being.
    But I cannot ignore the fact that Congress is still waiting 
for OMB and the Department of Defense to send over a 
comprehensive supplemental request to address the extensive 
damage to key military installations for national disasters. 
Just yesterday, the commandant of the Marine Corps said one of 
his biggest challenges is getting assistance to rebuild Camp 
Lejeune. We heard similar comments from the Air Force 
leadership earlier this year about Tyndall Air Force Base. And 
I am baffled by the administration's decision not to prioritize 
the rebuilding of these very important installations.
    With that, I do thank you for appearing before the 
committee today. We will ask you to present your summarized 
testimony in a moment. But first, I would want to recognize my 
colleague, Mr. Calvert, for any opening remarks he has.

                     Opening Remarks of Mr. Calvert

    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Secretary, General Dunford, Mr. Norquist, welcome. We 
appreciate your appearance before this subcommittee.
    And, General, also, I want to congratulate you on a job 
well done. I know you are probably happy about this being your 
last time to come before Congress, but we certainly appreciate 
having you here. And I know that you have done fantastic 
service to this country, and we all appreciate it very much.
    As you prepare to depart, General, we certainly want to get 
your assessment of readiness, given your vantage point of 
seeing across the services for many years.
    The budget submitted by the Department dovetails with the 
National Defense Strategy, which calls for more of a focus on 
near-peer threats. However, the recent bombings in Sri Lanka 
show that there is still violent extremist groups willing to 
conduct suicide bombs to achieve their goals. It doesn't cost a 
lot of money to plan, coordinate, and carry out these attacks 
that can kill hundreds of innocent citizens in minutes.
    The Taliban has also announced its spring offensive. They 
killed four of our troops in Afghanistan just a few weeks ago. 
And despite nearly two decades of fighting, we clearly still 
face threats emanating from that region.
    While we have rightly been focused on the Middle East, our 
adversaries surged. We now need to redouble our efforts to 
ensure that the U.S. remains a beacon of strength around the 
world and can remain competitive across the spectrum of 
threats. We must build and enhance our technical superiority, 
strengthen our cyber capabilities, provide the best training 
and equipment for our men and women in uniform.
    I look forward to working with Chairman Visclosky and the 
rest of the members of the subcommittee to ensure the 
Department has the resources it needs.
    I do want to point out to my good friend, the chairman, 
that the wall is authorized. We did the Secure Fence Act in 
2006, and we partially appropriated funds for about 700 miles 
along the southern border. Our good friend Jerry Lewis was 
involved in that at that time, along with Chairman Rogers. But 
I know it is one of our meticulous subjects to talk about and 
we may have disagreements on, but we do have a problem along 
the southern border, and I hope we can address it in a 
meaningful way.
    But I am sure we will be having those discussions today, 
and I certainly thank our witnesses. Thank you all for your 
service to our country, and looking forward to hearing from 
you.
    Mr. Chairman, I yield back.
    Mr. Visclosky. Thank you very much. The full committee 
chair, Mrs. Lowey, for her opening remarks.

                     Opening Remarks of Mrs. Lowey

    Mrs. Lowey. Thank you, Mr. Chairman.
    It is a pleasure for me to welcome Acting Secretary 
Shanahan, General Dunford--and I too join our colleagues in 
wishing you the very, very best. It has been an honor for me to 
interact with you, to learn from you, to work with you, and our 
very best wishes--and, of course, Acting Secretary Norquist. 
Thank you all for your service.
    In the last 2 years, the world has become more dangerous 
with adversaries seeking to harm the United States and our 
interests around the world. The Department of Defense's ability 
to address an evolving threat landscape is of paramount 
importance, and the security of our Nation, as well as our 
allies, depends on your service.
    While I am pleased your budget focuses on readiness and 
further strengthening our military, I am concerned by the 
shortsightedness of shifting nearly $100 billion into OCO 
accounts. I know it has been said before, but maybe it has to 
be said again, so I will proceed. Your fiscal year 2020 budget 
for this subcommittee requests $697.263 billion, which includes 
a staggering $163.98 billion for OCO.
    The OCO request is further divided into two categories: OCO 
at $66.7 billion and OCO for base activities at $97.9 billion. 
Of the $97.9 billion for OCO for base, $85.2 billion is 
requested for the operation and maintenance account which funds 
readiness for all of DOD.
    We owe it to our servicemembers and their families to put 
forth serious spending proposals. The idea of using OCO 
spending for base requirements is a thinly veiled attempt to 
skirt budget caps and increase defense spending without a 
complementary increase for nondefense spending. Moreover, 
requesting OCO funds for base is fiscally irresponsible, as 
costs to increase end strength dovetail in future spending 
bills as servicemembers receive raises and eventual pensions. 
Our servicemembers deserve the stability and to know they will 
be taken care of in the future, and the administration's 
proposal makes that look less likely.
    Our national security apparatus does not exist in a vacuum. 
It relies on the health and stability of Americans and our 
economy, and this requires adequate budgeting and investments 
in both defense and nondefense priorities.
    So I thank you for your service, and I look forward to your 
testimony.
    Mr. Visclosky. I now recognize our former chair and the 
ranking member on the full committee, Ms. Granger.

                    Opening Remarks of Ms. Granger.

    Ms. Granger. Thank you, Chairman Visclosky. I would like to 
welcome today's witnesses, Acting Secretary of Defense 
Shanahan, General Dunford, and Mr. Norquist. Thank you for 
appearing before this subcommittee.
    I first would like to recognize General Dunford, who served 
with distinction as the Chair of the Joint Chiefs of Staff 
since 2015, and you will step down from this position in 
September. General Dunford, thank you for all that you have 
done, your many years of service, and we look forward to 
hearing your assessment of the military readiness today. Thank 
you for being here.
    For almost two decades, our military has focused on the 
threat of terrorism, and counterinsurgency efforts have 
dominated our military planning. We are now at a very important 
crossroads. The National Defense Strategy emphasizes a shift to 
deter and, if necessary, defeat more traditional adversaries 
such as Russia and China.
    Unfortunately, the recent Easter Sunday attacks in Sri 
Lanka showed we have to remain vigilant against violent 
extremists around the world. To guard against all of these 
threats, we have to work together to build on the gains we have 
made with our allies and our partners, develop more advanced 
weapon systems, and recruit and retain highly trained 
personnel.
    The Department of Defense is also being asked to play a 
supporting role at the southern border where law enforcement 
agents and officers are beyond overwhelmed. I have been to the 
border many times, and I can tell you this is indeed a crisis. 
We thank our soldiers and our military personnel for the work 
they are doing to keep our country's border secure, and we are 
going to have to do more.
    I know members of this committee agree that supporting our 
national defense is one of the most important roles we take on 
as Members of Congress. We have accomplished so much over the 
last 2 years, but we have work to do. We must avoid unnecessary 
delays in enacting next year's funding for the Department of 
Defense, and we need a budget agreement that prevents 
sequestration. Otherwise, the gains we have made together to 
rebuild our military will be reversed.
    Chairman Visclosky, thank you again for holding this 
important hearing. I look forward to hearing from our 
distinguished witnesses, and I thank them for their tireless 
service to our country. And I yield back.
    Mr. Visclosky. Thank you very much.
    Mr. Secretary, you can proceed, and then General Dunford. I 
would ask, for the sake of time, so members have a chance for a 
dialogue, if you could hold your summaries to about 5 minutes 
or so, that would be preferred. Thank you very much.

                Summary Statement of Secretary Shanahan

    Mr. Shanahan. Chairman Visclosky, Ranking Member Calvert, 
distinguished members of the committee, thank you for this 
opportunity to testify in support of the President's budget 
request for fiscal year 2020. I am joined by Chairman of the 
Joint Chiefs of Staff, General Joseph Dunford, and the 
Department's comptroller and chief financial officer, Mr. David 
Norquist.
    It has been a great privilege and honor to serve alongside 
the men and women of the Department of Defense. It was a 
pleasure to work with Secretary Mattis to craft the 2018 
National Defense Strategy. Released in January 2018, that 
strategy laid the foundation for restoring military readiness 
and modernizing our joint force for an era of great power 
competition. I now oversee the continued execution of that 
strategy, which is the undisputed driver of today's budget 
request.
    It was extremely helpful for the Department to receive 
authorization and appropriation bills on time at the requested 
top line last year, which marked the first time in a decade a 
defense appropriations has been enacted by the beginning of the 
fiscal year. The strategy you supported last year is the same 
strategy we are asking you to fund this year.
    The $750 billion top line for the national defense enables 
DOD to maintain regular--irregular warfare as a core 
competency, yet prioritizes modernization and readiness to 
compete, deter, and win in a high-end fight of the future. This 
budget is critical for the continued execution of our strategy, 
and it reflects difficult but necessary decisions that align 
finite resources with our strategic priorities.
    To highlight some of those decisions, this is the largest 
research, development, testing, and evaluation budget in 70 
years. The budget includes double-digit increases to our 
investments in both space and cyber, modernization of our 
nuclear triad and missile defense capabilities, and the largest 
shipbuilding request in 20 years when adjusted for inflation. 
It also increases our end strength by roughly 7,700 
servicemembers, and provides $3.1 percent pay increase to our 
military, the largest in a decade.
    Now to the specifics. The top line slates $718 billion for 
the Department of Defense. Of that total, the budget includes 
$545 billion for base funding and $164 billion for overseas 
contingency operations. Of the OCO funds, $66 billion will go 
to direct war and enduring requirements, and $98 billion will 
fund base requirements. To round out the numbers, $9.2 billion 
will fund emergency construction, including support for 
hurricane recovery and border barrier efforts.
    Here I must note the Department appreciates this 
committee's support for hurricane recovery. Thank you for 
approving the $600 million reprogramming which will help start 
our recovery efforts. I ask for your support for the hurricane 
supplemental to address the remaining $1.8 billion needed in 
fiscal year 2019, as well as the budget request of $3 billion 
in military construction and operation and maintenance to 
continue recovery efforts in fiscal year 2020.
    As this committee fully understands, no enemy in the field 
has done more damage to our military's combat readiness in 
years past than sequestration and budget instability. And there 
is no question today our adversaries are not relenting. In 
short, we cannot implement the NDS at sequestration levels. 
Sequestration would not only halt our progress in rebuilding 
readiness, growing our force, modernizing for the future, and 
investing in critical emerging capabilities like AI, 
hypersonics, and directed energy; it would force us to cut end 
strength and critical modernization efforts that ensure we 
outpace our competitors.
    A continuing resolution would also hamstring the 
Department. Under a CR, we cannot start new initiatives, 
including increased investments in cyberspace, nuclear 
modernization, and missile defense, I just mentioned. Second, 
our funding will be in the wrong accounts. And, third, we would 
lose buying power.
    We built this budget to implement our National Defense 
Strategy, and I look forward to working with you to ensure 
predictable funding so our military can remain the most lethal, 
adaptable, and resilient fighting force in the world. I 
appreciate the critical role Congress plays to ensure our 
warfighters can succeed on the battlefields of today and 
tomorrow, and I thank our servicemembers, their families, and 
all those in the Department of Defense for maintaining constant 
vigilance as they stand always ready to protect our freedoms.
    Thank you.
    [The written statement of Secretary Shanahan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Visclosky. Secretary.
    General.

                  Summary Statement of General Dunford

    General Dunford. Chairman Visclosky, Ranking Member 
Calvert, distinguished members of the committee, thanks for the 
opportunity to join Secretary Shanahan and Secretary Norquist 
here today. It remains my privilege to represent your soldiers, 
sailors, airmen, and marines.
    While much of our discussion this morning is going to focus 
on the challenges we face, it is important I begin by assuring 
you that your Armed Forces can deter a nuclear attack, defend 
the homeland, meet our alliance commitments, and effectively 
respond should deterrence fail.
    I believe we have a competitive advantage over any 
potential adversary defined as the ability to project power and 
win at the time and place of our choosing. But as members of 
this committee know, 17 years of continuous combat and fiscal 
instability have affected our readiness and eroded our 
competitive advantage.
    As the Secretary highlighted, China and Russia have 
capitalized on our distraction and restraints by investing in 
capabilities specifically designed to challenge our traditional 
sources of strength. After careful study, they have developed 
capabilities intended to contest our freedom of movement across 
all domains and disrupt our ability to project power.
    With the help of Congress, starting in 2017, we began to 
restore our competitive advantage. Recent budgets have allowed 
us to build readiness and invest in new capabilities while 
meeting our current operational requirements.
    We can't reverse decades of erosion in just a few years, 
and this committee knows that as well as any. This year's 
budget submission will allow us to continue restoring our 
competitive advantage by improving readiness and developing 
capabilities to enhance our lethality. It proposes investments 
in advanced capabilities across all domains: sea, air, land, 
space, and cyberspace. This year's budget also sustains 
investments in our nuclear enterprise to ensure a safe, secure, 
and effective strategic deterrent, the highest priority of the 
Department.
    We have also taken steps to more effectively employ the 
force we have and build the force we need tomorrow. We have 
implemented fundamental changes in our global force management 
process to prioritize and allocate resources in accordance with 
the Secretary's National Defense Strategy. We do all this while 
building readiness and a flexibility to respond to unforeseen 
contingencies.
    And because two members raised it early in their comments, 
I can assure you that as we have made these adjustments to our 
global force management posture, we are also addressing the 
sustained requirement against violent extremism.
    We have also redefined our process for developing and 
designing a future force that will enable us to pair emerging 
technologies with innovative operating concepts.
    In closing, I would like to thank the committee for all you 
have done to support our men and women in uniform and their 
families. Together we have honored our solemn obligation to 
never send our sons and daughters into a fair fight, and with 
your continued support, we never will.
    [The written statement of General Dunford follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Visclosky. Mr. Calvert.

                            BUDGET AGREEMENT

    Mr. Calvert. Thank you, Mr. Chairman.
    Before I get to my question, I just want to point out, I 
think everybody agrees here that we need to come to a budget 
agreement. Certainly, our collective national defense is at 
risk if we don't do that and do it on time. But, you know, as 
we all know here, it takes three to tango in the budget 
process, not just the White House, but the Senate and the 
House. And so all of us need to get together as soon as 
possible and come up with a top-line number, not just for this 
budget year, but I would hope for the next budget year, and 
then we can try to separate this appropriations process from 
the political world out there and that we can do the right 
thing and pass these bills on time. And I am sure we can all 
agree that that would be a great goal to have.

                               VENEZUELA

    Since all of you are here today, I thought I would ask a 
topical question about our own hemisphere and the resources we 
have--obviously, the Southern Command is not something we put a 
lot of resources in, but it is--all of a sudden, it seems to be 
more important with what is going on in Venezuela. Maybe you 
can give us a report on the latest in Venezuela as of this 
morning.
    General Dunford. Thank you, Ranking Member Calvert. You 
know, we are obviously watching the situation very closely in 
Venezuela. The President's made it clear that all options are 
on the table. To date, most of our actions have been diplomatic 
and economic. We certainly were prepared to support the life 
and safety of civilians, American citizens, when they were 
there. They were safely withdrawn some weeks ago.
    The situation's a little bit unclear today, from our 
perspective, between Maduro and Guaido, Guaido being the 
legitimate member of the government. We are doing what we can 
now to collect--to collect intelligence, to make sure we have 
good visibility on what is happening down in Venezuela, and 
also be prepared to support the President should he require 
more from the U.S. military.

                               SRI LANKA

    Mr. Calvert. Thank you. General, in our hearings, we have 
been talking obviously a lot about Russia and China for obvious 
reasons. However, what happened in Sri Lanka last week, which 
killed 290 people and injured at least 500 who were at 
churches, hotels, shows that we can't let our guard down when 
it comes to violent extremists.
    To that extent, can you tell us in this setting more about 
the attack, how sophisticated was it, and how was it funded?
    General Dunford. Ranking Member Calvert, we are still 
working with the Sri Lankans to get the exact details. I don't 
want to make news in front of the Sri Lankans in terms of what 
they know. My assessment was it was very sophisticated in terms 
of the simultaneity of the attack and the techniques that were 
used by the Sri Lankans.
    I think it exposes exactly what you talked about, which is 
the fight against ISIS is not over, and the underlying 
conditions that feed violent extremism still exist, and it 
highlights the need for us, even in the context of great power 
competition, to make sure that we have a politically, fiscally, 
and militarily sustainable approach to violent extremism. 
Because some people have called it a generational problem, and 
I wouldn't take issue with that characterization of how long we 
will be dealing with this.
    Mr. Calvert. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Mrs. Lowey.

                    DENUCLEARIZATION OF NORTH KOREA

    Mrs. Lowey. President Trump met with Kim Jong-un in June 
2018 and February 2019, to discuss the denuclearization and 
sanctions relief. However, intelligence suggests that North 
Korea has started rebuilding key missile test facilities, 
although there is no sign of an immediate launch. On April 
25th, Kim Jong-un met with Vladimir Putin in hopes of securing 
Putin's support for the North Korean regime, sanctions relief, 
and a gradual, not quick, disarmament plan.
    Mr. Secretary, have there been any discussions or 
negotiations between the United States and North Korean 
officials since the latest summit between President Trump and 
Kim Jong-un?
    Mr. Shanahan. The denuclearization of North Korea remains 
the primary objective. Diplomacy is the primary track. What I 
can tell you militarily is we have not changed our position, 
our operations, or our strength, and are continuing to conduct 
readiness exercises in the event diplomacy fails.
    Mrs. Lowey. To your knowledge, have the North Koreans 
resumed any nuclear enrichment activities or missile testing 
since the Vietnam summit?
    Mr. Shanahan. I am not aware of any.
    Mrs. Lowey. And can you share with us any information you 
may have on the recent Kim-Putin summit? And were there any 
agreements made that will impact life on the peninsula?
    Mr. Shanahan. What I would share is that the sanctions that 
we continue to impose will stay in place, and we will be 
vigilant in maintaining those sanctions.
    Mrs. Lowey. And following up on that, could you describe 
the relationship between North and South Korea? Has anything 
changed after the latest summit did not achieve any agreements?
    Mr. Shanahan. The relationship continues to evolve. There 
are ongoing activities in terms of coordination. I even asked 
General Dunford to talk about some of the recent exercises that 
we have had between North Korea and South Korea and ourselves.
    General Dunford. Chairwoman, in terms of North and South 
Korea, the basic question is, has the relationship changed, and 
I don't assess that it has. South Korea has not done any--taken 
any material steps different than the previous agreements with 
North Korea. What the Secretary's alluding to is our exercises. 
And what I can assure you is, working with the South Koreans, 
we are continuing to conduct exercises that maintain an 
appropriate level of readiness, not only for our forces on the 
peninsula, but for the combined forces command, which is both 
South Korea and the United States.
    Mrs. Lowey. Thank you.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Thank you.
    Ms. Granger.

                       ELECTRONIC HEALTH RECORDS

    Ms. Granger. Mr. Secretary, I don't ever recall being more 
outraged about an issue than I am about the electronic health 
records program. The hearing we had with the Defense health 
managers a few weeks ago was terrible. I can't believe that 
these program managers think that it is acceptable to wait 
another 4 years for a program to be implemented, when we have 
spent billions of dollars and worked on it for over a decade.
    There seems to be no sense of urgency, and our 
servicemembers and veterans are the ones who are suffering 
while they are waiting for the DOD and VA to get their act 
together.
    I recently heard a story from a Vietnam veteran about the 
problems he had with his medical records. He is dying today. He 
is dying. And they could never confirm or find his medical 
records for his treatment.
    I hope you realize how absolutely incensed and infuriated 
most of us are about this. We can't wait any later, and I want 
to know how you make it a priority and how you get it done.
    Mr. Shanahan. Well, first of all, I apologize for any lack 
of performance or the inability of the people that testified 
before you to characterize the work of the Department in this 
very vital area. I personally have spent quite a bit of time on 
the new DHA plan on how do we merge together our medical 
treatment facilities, how do we deploy the electronic health 
records.
    In particular, in the Northwest was the first deployment of 
the electronic health record. One at Madigan Army hospital, 
Bremerton Naval Base, Whidbey Island Naval Air Station, and 
then Fairchild Air Force Base. That rollout and implementation 
was successful this past fall. There has been a considerable 
amount of learning that has occurred from that.
    The next implementation of the--major implementation of the 
system--and this system is what is going to drive the benefits 
of the DHS--is scheduled for this coming September in 
California.
    I can give you the commitment that the corrective action 
and the lessons learned from the first implementation will be 
carried forward into that implementation in California. It is--
it is training, it is processes, it is not just the electronic 
health records.
    We recognize that we owe it to our servicemen and -women to 
take care of them. I mean, you have that commitment from me. 
This implementation is vital to getting the benefits of 
delivering higher level care, and the deputy and I will deliver 
on the commitment we have made to you and to our men and women.
    Ms. Granger. I certainly hope so. We got a feeling of, 
well, that we have made a change of direction and now it is 
going to take 4 more years, and that seemed to be fine with 
everyone on the panel. It was not fine with all of us.
    Mr. Shanahan. It is not fine here, and we will come back 
and brief you to make sure that what they communicated was 
truly accurate. Because we have been holding people's feet to 
the fire to get these MTFs integrated. But we owe you a better 
answer, and 4 years is unacceptable.

                              SPACE FORCE

    Ms. Granger. Thank you.
    On another issue--can I do another--still have some time?--
has to do with the--we talked earlier about space and the Space 
Force. I had a briefing recently that was astonishing to me, 
because I said, we don't really know enough of what we are 
doing. The case was made that it is a very, very important 
program. But I think it would be very helpful for us to have 
more information about it on the way forward so we can be 
supportive. I would hate to lose a program like that just 
because we don't really understand what is going on.
    Mr. Shanahan. We are thinking about organizing a space day 
up here on the Hill so we can brief members and their staff in 
a, I will say, less DOD-like vernacular, and really being 
succinct and clear on what the benefits and the resources 
required to implement the space agenda.
    Ms. Granger. Thank you. Thank you very much, Mr. Chairman.

                         MEDICAL HEALTH RECORDS

    Mr. Visclosky. I thank the gentlelady.
    And before I recognize Ms. McCollum, I would simply 
associate myself and my concerns with her question about 
medical records. But I think I speak for everyone, Mrs. Lowey, 
Mr. Rogers, Ms. Granger have been particularly active, and for 
some of us who have been on the committee for a period of time, 
we have basically had this same conversation with different 
iterations for 17 years. And we are concerned that people move 
this ahead.
    Ms. McCollum.

                             CLIMATE CHANGE

    Ms. McCollum. Thank you, Mr. Chair.
    General Dunford, I wish you all the best in your next 
mission, which will be retirement of some form, so all the 
best.
    Mr. Shanahan, thank you for the opportunity to visit with 
you and share some of the issues that concern both of us in the 
Department of Defense, which covers many, many aspects. But I 
am going to focus on what I consider--what I like to bring to 
the table on that is focusing on the health of our servicemen 
and women, as well as making sure that they have the equipment 
and protection to complete their mission and come back home to 
their families.
    So one of the areas in which I kind of feel like I have a 
little bit of dual capacity is climate change and dealing with 
public health issues of air and water. When it comes to climate 
change, we had a discussion about what is going on. We are an 
arctic Nation, we need to pay more attention to the fact that 
we are an arctic Nation, and I look forward to working with you 
and the chair for this committee to receive more briefings on 
how we can prepare our posture for up there, work with our 
allies on the issue, and also address some of the 
infrastructure needs that we are going to have and equipment in 
there.
    The other issue that we had an opportunity to talk about 
is, you know, an environmental issue. So I am going to ask you 
not only ahead to work with the chair, as you had said that you 
were planning on doing on briefings on the Arctic, but also to 
prepare for us as a committee the effects of climate change. It 
is a national security issue in other countries, we get that. 
The reports are out there, but it is also a national security 
issue from what it is going to cost taxpayers to build 
resiliency into our infrastructure here or infrastructure that 
we are going to have to move.
    And we are going to have to start, I think, really 
addressing that and holding that out in the budgets with what 
is going on. As the chair pointed out, it wasn't a foreign 
entity that caused the damage that Hurricane Michael and 
Florence did last year, and we are still struggling with 
getting those bases up and running. So I would look forward to 
working with you on those issues.

                                  PFAS

    I am going to ask you, we had this discussion a little bit, 
to allow you to clarify something on the record with what is 
going on with the EPA, what is going on with the Department of 
Defense, and some chemicals that are referred to as PFAS. And I 
hold up, and we talked about in the office, a New York Times 
article, and I quote from it: After pressure from the Defense 
Department, the Environmental Protection Agency significantly 
weakened the proposed standard for cleaning up groundwater 
pollution caused by toxic chemicals, contaminated drinking 
water consumed by millions of Americans, that have been 
commonly used also at military bases.
    So you had an explanation for what the Department of 
Defense is working on. So I would like you to, on the record, 
tell us what the Department of Defense is doing, what you see 
as an appropriate cleanup level, whether or not the Pentagon, 
in fact, is pushing for weaker standards, and what is your 
commitment to the health and well-being of the servicemen and -
women that get up and go to work every single day.
    Thank you, Mr. Chair.
    Mr. Shanahan. Absolutely, and thank you for the question. 
The health and well-being of our servicemembers is, besides 
national security, our number one priority. Just maybe to keep 
all the items on the record, no one is drinking contaminated 
water at the over 400 sites in question. In terms of the use of 
these chemicals, we no longer train with them, we no longer 
test with them. The only use of them is in the event of a fire.
    The real work here is on remediation, which is, I think, 
the line of questioning. And what has played out in the media 
is the DOD advocating for a lesser standard than the EPA. And 
what I would say is we have agreed with the EPA on a common 
standard, and it was their standard. I think if we--if we 
pulled apart where the discussions were occurring, it was on 
the processes to be used to implement the EPA standard. And we 
have been working to a set of super fund processes.
    Where we are right now in the harmonization of using the 
EPA standards is out for public comment, but I think in working 
with you and others, do we have the right standards is really 
now the question before us.
    Ms. McCollum. Thank you, Mr. Chair. And I appreciate the 
question that you put before us, do we have the right 
standards. We will continue to work on that. Thank you.
    Thank you, Mr. Chair.
    Mr. Visclosky. Mr. Rogers.

                         MEDICAL HEALTH RECORDS

    Mr. Rogers. Thank you, Mr. Chair.
    Gentlemen, welcome.
    General Dunford, congratulations on a brilliant career. We 
wish you the best in the next chapter.
    It has been 10 years at least since we have heard the same 
assurances before this subcommittee, and other committees of 
Congress, about the medical health records. It is incredible 
that we can't get this fixed. In the meantime, we have got 
young veterans die, going blind, suffering interminable illness 
because of bureaucratic crap. Each agency, Veterans and DOD, 
have had their own systems, refusing to build a link between 
the two, in order to give VA the medical information that it 
needs to help a veteran wounded during the fighting.
    My colleagues have heard me tell this story a thousand 
times. A young man from my district who was injured in Iraq 
from a bomb. One eye was destroyed, the other severely damaged. 
They brought him to Germany and operated to try to save this 
one eye, successfully. Not fully, but fairly well. Well, this 
eye then, as he becomes a veteran, becomes infected. So he goes 
to the Lexington VA Hospital. They can't get access to his 
records from Germany. There is no way to get it. They knew he 
had been operated on, but they could not operate because they 
didn't know what had been done before and they were afraid they 
would kill him. So they turned him away, and of course he went 
blind. That is inexcusable.
    And, Mr. Secretary, I have heard your predecessor say, hey, 
we got it on the way, it is going to be here, the fix is in. 
Well, that has been 10 years, and we have poured billions of 
dollars into this seemingly simple problem. Why can't we have 
the computers marry? Can you help me out here? Don't promise 
something you can't deliver. But deliver.
    Mr. Shanahan. Well, I am not going to promise you something 
I can't deliver, but I can maybe explain in part the difference 
between why these two computers can't talk to one another. 
There is a degree of interoperability. It has to do with, you 
know, information like, what is General Dunford's, you know, 
date of birth or where is his home address. The real issue has 
been on the passing of the actual records. I don't know--I 
can't explain to you the technical complexity of that, but that 
has been the crux of the problem.
    I owe it to you and this committee to deliver on 
capability. I promise, you know, to do my best. You know, I 
would love to be able to sit here today and say, let's draw a 
line in the sand, I can deliver this capability. We delivered 
on the first instantiation there in the Northwest.
    Mr. Rogers. We have had your staff people before the 
subcommittee on this question numerous times. It has been a 
constant barrage of questions from members of this subcommittee 
to you and your predecessors and your staffs. So you have known 
how strongly we all feel about this, and yet we are told it is 
going to take another 4 or 5 years. In the meantime, we are 
going to lose a lot of young soldiers who sacrificed their 
health in the defense of this country. I can't believe that we 
have not already solved this problem.
    General Dunford, do you have any thoughts about this?
    General Dunford. Congressman, the last time I touched it 
was in a previous assignment, so I don't have anything to 
update you on. In my current assignment, I don't touch this 
specific issue every day, so I don't have any details on where 
we are.
    Mr. Rogers. Well, we sit here waiting. And, Mr. Secretary, 
we are going to hold your feet to the fire on this. Get it 
done. It is time. It is past time. And you heard the chairman 
of this subcommittee and his strong feelings about this subject 
as well and what is more important than mine. But we are going 
to stay with this, again. And it is not going to take another 
10 years, or another 4 years. Get it done now. Stop the 
suffering.
    Thank you.
    Mr. Visclosky. Mr. Kilmer.

                            CHINA AND RUSSIA

    Mr. Kilmer. Thank you, Mr. Chair, and thanks to each of you 
for being with us and for your service.
    I used to work in economic development in Tacoma, 
Washington. We had a sign in my office that said, we are 
competing with everyone, everywhere, every day, forever, which 
I always found somewhat intimidating, but was a pretty good 
ethic, not just for folks who work in economic development, it 
is a pretty good ethic when we look at our national security 
challenges as well.
    I know part of the strategy is to focus on some of our 
near-peer competitors, the great power competition with Russia 
and China, and was hoping you could speak to that issue. 
Obviously, Russia and China have been modernizing while we have 
dealt with CRs and sequestration, which I think has certainly 
hindered your ability to engage to the level we need to.
    You have made clear that your top priorities are 
modernizing our Armed Forces to face these future threats. I 
was hoping you would just take a minute or two, because I want 
to touch on another subject as well, and talk about how your 
budget reflects that focus, and where your top priorities are 
in terms of our capacity to stay ahead of Russia and China.
    Mr. Shanahan. Well, let me just follow on with the 
electronic health record here in setting up this comment. The 
priority in the budget is China and Russia, in terms of the 
capability we have to address. We don't have a lower priority. 
And, sir, we are going to fix the electronic health record. We 
can walk and chew gum at the same time, but you have our 
commitment to--and I am sure you have been told this many 
times, but we are spinning a lot in place, but we won't drop 
the ball on our veterans and servicemembers.
    But in terms of the prioritizations and where are our 
investments, much of it is in modernization. We haven't 
modernized in 30 years. And there are--you know, if we went to 
the Army, you would see six different programs, but I would 
just say that at a top level, the emphasis is on space, cyber, 
and new missiles, like hypersonics.
    And what you would find in the budget, even though we have 
built it up with OCO for base, the way we constructed the 
budget last year is the same way we constructed it this year, 
and we are continuing to put greater and greater investment 
into modernization. I spoke to the fact that this is the 
biggest research and development budget in 70 years. Cyber is a 
significant investment because it is kind of, of all the 
threats that we face today, that is probably the fastest 
evolving one. It is also the one that is easiest for people to 
develop on their own.

                                SUICIDE

    Mr. Kilmer. The other issue--and this, to some degree, is 
germane to the concerns around healthcare. I think all of us 
are concerned about the rise of suicide among Active Duty 
servicemembers over the last few years. I worry that community 
stability has somehow become frayed. I know that that is a 
priority for each of you at that table, and I am hoping you can 
speak to some of the work that the Department is doing on this 
front to address issues around suicide, to hopefully rebuild 
the sense of community and relationships that hold 
servicemembers and their families together, and ensure that the 
Department is there for those who are serving when they most 
need our support.
    General Dunford. Congressman, I will start and express the 
same concern that you did about the rise in suicides. This is 
an issue that, in several assignments, I have been decisively 
engaged in it and looked hard at it. Probably the most 
promising thing I have seen is the multidisciplinary approach 
to healthcare. You can see that here in Washington, D.C., in 
the national capital area, at the National Intrepid Center of 
Excellence, and we have satellite National Intrepid Center of 
Excellence sites around at our military bases and 
installations, not--we don't have them everywhere, but we have 
them in those areas where there is the highest incident and the 
highest need, particularly for those returning from deployment.
    As you know, one of the perplexing challenges is that there 
is no common trend in terms of suicides amongst our Active Duty 
population. We can clearly see a correlation between deployment 
history and veterans. There is not a similar correlation 
between deployment history in the Active Duty population.
    But I guess to answer your question succinctly, I think it 
is the comprehensive approach to mental healthcare that 
includes leadership, the chaplain, the medical professionals, 
all in one place, having a common visibility about a soldier, 
sailor, airman, and marine, and make sure we are dealing with 
the whole individual and not a compartmentalized approach to 
their care.
    Mr. Kilmer. Thank you.
    Thank you, Mr. Chair. I yield back.
    Mr. Visclosky. Mr. Cole.

                              BUDGET CAPS

    Mr. Cole. Thank you very much, Mr. Chairman.
    Mr. Secretary, good to see you.
    General Dunford, let me just join everybody here, we are 
all very much in your debt and very appreciative for the 
service you have rendered our country.
    I am going to use this occasion, Mr. Secretary, to talk 
about something that you can't do much directly about, but 
maybe you can talk to a couple of people that can. And I am 
going to take the same opportunity to talk to the chairman of 
the full committee and my boss, the ranking member of the full 
committee.
    And I was asked earlier by another member, what are your 
top three priorities in the defense budget. And I said to avoid 
a shutdown, to avoid sequester, and to avoid a CR. Didn't have 
anything to do with the programs. I just wanted to do that. 
Because the budget looks pretty good to me, broadly speaking.
    But to do that, we have to have the President of the United 
States talk to the Speaker of the House, talk to the minority 
and majority--or the minority leader in the House and obviously 
the majority leader in the Senate and minority leader in the 
Senate, and get us a set of numbers. I mean, right now, we are 
going to mark up a bill at some point, and we are going to do 
it to notional numbers. They are not real numbers because we 
don't have an agreement. And until we get that agreement, 
everything we do is at risk.

                          INFRASTRUCTURE TALKS

    Now, I pick up this morning's paper, and I read that the 
President and the Speaker and the minority leader in the Senate 
were all talking about an infrastructure bill yesterday. 
Wonderful, great, $2 trillion. How about we focus on what 
matters, which is our, really, day-to-day budget. Let's get 
that deal first before we worry about the next one. Because we 
will stumble along this summer, and if we are not careful, we 
are going to put you guys right back where we have put you 
until last year for the first time in 10 years where we 
actually got you a budget on time, and you have had a year to 
implement it, and believe me, things are better. I see it in 
the facilities in my district at Ft. Sill. I see it at Tinker 
Air Force Base. Things are better because they had a budget, 
they could plan. They are moving well on their respective 
missions.

                              BUDGET DEAL

    So I just say that, you know, go back to the White House 
and ask them to sit down with the appropriate people and get a 
budget. They are the people responsible for running the 
country. You can't run it without a budget.
    And I also want to associate myself very much with our 
subcommittee chairman and committee of the full thing. This OCO 
thing is a gimmick, we all know it is a gimmick. I know you 
have to do--look, I know who you work for, and I know that OMB, 
you know, sets these things up. And I have been in enough 
budget negotiations to know that that is all a budget is, the 
opening round of a negotiation, and people try to position--but 
this is more unrealistic than most initial positions to 
negotiate from. You know, that is--it is not going to stand. 
And when each side starts off with, I am going to get 
everything I want and you are going to get nothing that you 
want, nobody's going to get anything. And to wait to the last 
minute, which I suspect is where we are headed, is a mistake 
and a disservice to you and the men and women that you lead.
    We are better, we should be better in governing than that. 
This is our problem, not yours. But it is an administration 
problem as well. They have to participate in this. And it is a 
leadership level, not at this committee. This committee, if you 
leave the appropriators to it, they will get you a deal. I 
always said, if I can put Nita Lowey and Kay Granger in the 
same room, I can solve the problem in about an hour. And they 
will come out, and they will put us all to work with our 
respective numbers and what we are supposed to do. And I would 
just suggest that the leadership of the Congress and the 
leadership of the administration needs to be as capable as our 
chairman and our ranking member are. We will get this done.
    Again, not your fault, but I hope you carry the message 
back. Because everything else we are doing here is futile until 
we have that deal, we have a number, you guys can plan, we can 
work with you to get to where we need to go. I do have a 
question real quickly if I may, and, Mr. Chairman, thank you 
for indulging me in my rant.

                      80 PERCENT READINESS TARGET

    But, Secretary Shanahan, you described an 80 percent 
readiness target for mission critical aviation platforms that 
you would like to achieve. I have Tinker Air Force Base in my 
district. They do wonderful work, great work there, big fan of 
General Kirkland, big fan of General Levy before him. But we 
ain't anywhere near 80 percent mission ready in the platforms 
they are dealing with, or anybody else that I know is dealing 
with.
    So, again, I am not--I want to achieve this goal. What do 
you need to achieve this goal, and where are we at in reaching 
that goal?
    Mr. Shanahan. The 80 percent target was for F-35s, F-22s, 
F-16s, and F-18s. The real emphasis was on F-35 and the F-18. 
So when we think about, you know, B-52s and B-1s, it is an 
unrealistic goal, so we didn't target those platforms. The F-35 
as being brand-new aircraft, that should be the baseline where 
we start. So the Navy has made significant progress with the F-
18s. I think they are on track to meet the goal in September. I 
can give you the number, but it is somewhere like they have 
recovered, you know, 50 to 60 more aircraft in the past 6 
months. It has been a tremendous amount of progress.
    The F-35 will come home. We are going to drive that home, 
but we wouldn't set that bar across the--all the platforms. The 
F-22 has struggled, and I think the F-16 is a bit of a high 
bar, but, you know, it is a lot of iron to, you know, keep on 
the ground. And given all the training missions and the 
productivity we can generate, I think holding that standard is 
smart for now.
    Mr. Cole. Well, I applaud you for the standard, and we will 
certainly do everything we can to work with you. Because we 
have got a lot of money invested in these platforms and we have 
got a lot of flyers that aren't getting the air time they need 
in terms of readiness as well. So, again, I just want you to 
know that is a very high priority for me. I am sure it is for 
everybody on the committee.
    Thank you, Mr. Chairman. I yield back.
    Mr. Visclosky. Thank you.
    Mr. Aguilar.

                            TROOPS AT BORDER

    Mr. Aguilar. Thank you, Mr. Chairman.
    Thank you, Mr. Acting Secretary, and, General, and Mr. 
Norquist.
    Mr. Acting Secretary, the DOD revealed that not only will 
the Pentagon be sending 320 more troops to the U.S.-Mexico 
border, bringing the total number to 3,200, but it has also 
been disclosed that the rules will also be loosened so that 
some troops can interact with migrants. This represents a 
significant amount of resources going toward a mission that has 
no end in sight.
    How will this perpetual deployment affect troop readiness? 
And describe how making such a deployment will not interfere 
with the multitude of missions that the Armed Forces are 
already engaged in.
    Mr. Shanahan. Thank you for that question. And this is an 
issue that General Dunford and I work on quite a bit, because 
the question that he and I really are trying to answer is how 
long will we be at the border. And so, you know, to date, if 
you go back in time, we received our first request a little 
over a year ago, in April. And it was--I think, you know, we 
have really been on this kind of a la carte approach where we 
have been asked to support DHS, we have. It is, you know, 
traditional that the Department supports civil authorities, 
whether it is, you know, hurricanes or what have you.
    Mr. Shanahan. We are now in a position where we need to ask 
the question, how long will we be there. And when we have gone 
through and looked at the conditions of the border and borders 
and CBP's ability to actually perform their duty, they are 
thousands of people short.
    And so we have initiated a set of actions to really 
understand kind of how many people are they short, because we 
need to get that into a sustained environment. We are driving 
buses, we are serving food, we are doing medical support, we 
are doing logistics support. For now, we haven't degraded any 
readiness, but we really need to get back to our, you know, 
primary missions and continue to generate readiness.

                             SECURE BORDER

    Mr. Aguilar. Yeah. Because the Department also presented 
this committee a list of unfunded requirements totaling $8.3 
billion, and the Department's estimated $9 billion in hurricane 
and storm damage that impacts troop readiness and morale as 
well. Yet the Department's overestimation for fiscal year 2019 
end strength resulted in $1 billion. And so you have these two 
buckets of unfunded requirements and potential disasters to be 
mitigated, and yet we choose to send $1 billion to a priority 
that has not been funded.
    So why, with all of this going on, do we need to send $1 
billion in military personnel funding for the President's 
border wall?
    Mr. Shanahan. Well, we need to secure the border. I mean, 
this is a----
    Mr. Aguilar. I understand that. All of us agree with that.
    Mr. Shanahan. Right. Right.
    Mr. Aguilar. So why is it your responsibility? Why isn't 
this not a DHS priority to be worked out with Congress?
    Mr. Shanahan. The simple version is I have a legal standing 
order from the Commander in Chief to deploy resources to 
support a national emergency.
    Mr. Aguilar. Do you feel that you also have a 
constitutional authority to follow the will of Congress?
    Mr. Shanahan. I have a legal standing order from the 
Chief--Commander in Chief.
    Mr. Aguilar. So does the Department intend to continue to 
ignore our responsibility for the power of the purse?
    Mr. Shanahan. We won't ignore----
    Mr. Aguilar. But you did.
    Mr. Shanahan. No. We are following the law. It is within 
the law for us to be able to utilize these funds. It is within 
the law. I wouldn't break the law.

                              SUPPLEMENTAL

    Mr. Aguilar. Okay. Can we expect anything else within the 
supplemental related to personnel, judges, lawyers, drivers, 
transport, that $377 billion supplemental that the chairman 
mentioned? What will be contained within that?
    Mr. Shanahan. Did you say billion or million?
    Mr. Aguilar. I am sorry. Million. I am sorry.
    Mr. Shanahan. Yeah, yeah. No, no, no. I think it is the----
    Mr. Aguilar. I don't want to make news there.
    Mr. Shanahan. Yeah. No, no. Yeah. Just to be clear, I 
believe--and I will let--ask David to clarify, but that is our 
estimate for this year.
    David.
    Mr. Norquist. Correct. That is the estimate for the year, 
but many of the functions that you talked about are those that 
are ones that we are performing in support of CBP, the bus 
driving, the food, the others. But the 377, I believe, or just 
under 400, is the cost associated with the support for the 
year.

                           CYBER SCHOLARSHIPS

    Mr. Aguilar. Yeah. I guess I am still struggling with the 
policy, Mr. Acting Secretary, on at what level you feel you 
need to continue to backfill CBP operations. But I will move on 
quickly.
    Could you give us an update on--there is a program of 
interest to me and a lot of us, the Information Assurance 
Scholarship Program that performs DOD cyber scholarships. How 
is it performing currently? Do you see--where do you see this 
going in the future? And how important is it to prepare future 
cyber warriors within the Department?
    Mr. Shanahan. Right. Well, the scholarship and the 
recruitment and the retainment of cyber professionals is 
probably the greatest skills challenge that we have in the 
Department. You know, there aren't enough software engineers in 
the world, and there probably never will be. The skills that we 
have developed inside the Department are world class, and the 
ability to recruit and retain is the--you know, within Cyber 
Command, within each of the services, within the NSA, is 
probably our biggest threat.
    The scholarship program, I don't know the particulars of 
its effectiveness. I know that every place where we have put a 
program in place, it has worked, and we should be doing more.
    Mr. Aguilar. This program is housed within the Chief 
Information Officer Budget within your office, but it is 
something that Congress has funded the past few years, and we 
look forward to working with you on that.
    Mr. Shanahan. Thank you for that. Yeah.
    Mr. Aguilar. Appreciate it.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Womack.

                       ELECTRONIC HEALTH RECORDS

    Mr. Womack. Thank you very much, Mr. Secretary, Mr. 
Norquist.
    General Dunford, thanks again for your service. I join my 
colleagues up here in congratulating you on a remarkable 
career.
    At the risk of beating a dead horse on her, but I join my 
colleague from Texas and my colleague from Kentucky in voicing 
some concerns about it. But to be fair, it is a shared 
responsibility. I mean, if you are going to marry platforms 
from two different Cabinet agencies, it is a shared 
responsibility.
    So can you enlighten me on what your conversations with 
Secretary Wilkie have been like in the marriage between these 
two systems? It seems to take such a long time at such 
extraordinary expense.
    Mr. Shanahan. The--before undertaking these duties and 
responsibilities, I spent quite a bit of time with Secretary 
Shulkin and then with Secretary Wilkie on putting a governance 
process in place, but more importantly, making sure that there 
was enough cross talk on the requirements in terms of the 
interfaces and how these--this data interchange would play.
    I haven't talked to Secretary Wilkie this year, given these 
responsibilities. I will accept responsibility of the fact we 
have to go deliver on these systems. I mean, it is--I own it. I 
own it now. But I don't have any other updates other than the 
ones in the previous where we put--the actions that--with David 
Shulkin and with Secretary Wilkie, we identified the critical 
deficiencies. That is where we spend our time, what are the 
critical efficiencies and when will they be corrected.

                           JEDI CLOUD PROGRAM

    Mr. Womack. Well, I don't know a lot about the IT 
community, but I do know this, former Secretary Shulkin made a 
decision. At least he was able to make a decision on an 
acceptable platform. And why we are now this far down the road 
without any action, as I said, I share the concerns of my 
colleagues.
    But I want to talk about another information technology 
issue, and that is--and with a simple question, why does your 
department continue with what I believe to be an ill-conceived 
strategy on a single-vendor JEDI Cloud program?
    There has been a down select to two organizations that, in 
my strong opinion, continues a disturbing pattern of limiting 
competition on a program that is potentially extremely 
expensive. We don't know just how expensive it is going to be, 
but--and I have strong concerns about how the approach by the 
Department of Defense in this arena seems to be geared toward, 
you know, producing a desired outcome with a specific vendor. 
So I will leave it there, but I am concerned about JEDI.
    Mr. Shanahan. Okay. Well, digital modernization is probably 
one of the most important undertakings the Department has. Of 
course, to be successful in cyber, we have to be able to 
protect ourselves, so the cloud is one element of 
infrastructure that we are modernizing.
    The fundamental premise on our approach to the JEDI 
implementation was to have competition. And this is an 
important underpinning of that competition, preclude vendor 
lock, okay. So we want to be locked into one supplier, just 
like in the situation we have with electronic health record, 
have flexibility if things aren't working out.
    Across the Department, there is a proliferation in terms of 
implementing clouds. Everyone was moving to their cloud. The 
JEDI competition is about creating a pathway so that we can 
move as a department on a small scale. This isn't wholesale. It 
sometimes gets advertised as this is winner take all. This is 
winner take all for a very small subset of the amount of cloud 
infrastructure we are going to have to build out over time.
    Besides creating competition, we are creating the standard 
processes so that the Department can migrate so that we don't 
have each and every department trying to figure out how to move 
to a cloud.
    Mr. Womack. What conversations did you have with the 
intelligence community? I mean, they have gone--they have the 
same issue, correct?
    Mr. Shanahan. Correct.
    Mr. Womack. And they have developed a strategy, correct?
    Mr. Shanahan. Uh-huh, yep.
    Mr. Womack. From single vendor now to multivendor. So was 
there not a--was there not an informed pathway established by 
the IC that has been working in this arena that is going in a 
totally separate direction than what the Pentagon is going?
    Mr. Shanahan. Actually, we worked very closely with the 
agency, and then the person who led that effort has come over 
to lead the effort in the Department, so that we could take 
what they--you know, the conversations we had with them was, if 
you could go back in time, what would you do differently? And 
so we are taking what they learned from their experience and 
translating it into what we are doing.
    Mr. Womack. Well, all I will say, and I will leave the 
subject, is that it is clear that multivendor cloud 
environments are widely used, widely used by large 
organizations, for a simple reason: They increase competition, 
they improve security and capability, and they provide cost 
savings. And in an environment like we are in right now, I 
would assume that that would be a key issue for our Department 
of Defense.
    Mr. Chairman, I will yield back.
    Mr. Visclosky. Thank you.
    Mrs. Bustos.

                            INDUSTRIAL BASE

    Mrs. Bustos. Thank you, Mr. Chairman.
    Before I get to a couple questions, first of all, thanks to 
the three of you for being here. And I did want to offer an 
invitation to visit the Rock Island Arsenal. It is literally on 
an island in the middle of the Mississippi River. And we would 
love for you to come, especially to see our new Center for 
Excellence in Advanced and Additive Manufacturing. But--so I 
just wanted to extend that if that would fit into your 
schedules.
    So just a couple questions. I am going to start with 
looking at the make-or-buy guidance. And it was in September of 
2018 that the Department released a report that is called 
``Assessing and Strengthening the Manufacturing and Defense 
Industrial Base and Supply Chain Resiliency.'' Just rolls off 
your tongue.
    Mr. Shanahan. Right.
    Mrs. Bustos. So the broad takeaway in that is that the 
report highlights the need to sustain our organic industrial 
base elements like depots, the ammo plants, arsenals, in a way 
to address the supply chain vulnerability and maintain some 
level of workforce that is needed to address the industrial 
base needs.
    So one of the great challenges is the predictability of the 
workload to maintain and sustain the workforce and make sure 
that we keep up capabilities. In the Army, this make-or-buy 
guidance, it is supposed to inform the procurement officers on 
their decision to use the private sector or some combination of 
the private sector and the arsenals.
    I have some concern about how that is working. And so what 
I would ask of you is, can you discuss how the Department is 
working with each of the services to ensure that their 
respective make or buy or equivalent guidance or regulations 
are addressing the needs and the challenges identified in the 
report from last September?
    Mr. Shanahan. Now, the report from last September talks 
about the investments we need in order to bring work back or to 
invest in critical capabilities, right?
    Mrs. Bustos. Correct.
    Mr. Shanahan. Yeah. So the--you know, the specifics of, you 
know, each service and the, you know, business case, if you 
will, I can't speak to, you know, case by case. I mean, I would 
be happy to make available the people that kind of talk 
through, you know, how that decision--how those decisions are 
made.

                          ROCK ISLAND ARSENAL

    Mrs. Bustos. Okay.
    Mr. Shanahan. I think in terms of the Rock Island Arsenal 
and arsenals in general, we kind of think about the National 
Defense Strategy and modernization there--and this report. 
There are, you know, two big opportunities right now. One is, 
if we are going to bring work back, and there are certain 
capabilities that are in China, so that would be like at the 
top of my list----
    Mrs. Bustos. Okay.
    Mr. Shanahan [continuing]. Why don't we make them, you 
know, organic, right. So, I mean, that is one.
    And then the second piece really is, as the, you know, Army 
in particular starts to modernize, we know the surge in 
industrial support to a lot of these suppliers is going to be 
quite high, back to this, you know, predictability. That is 
another opportunity.
    And I would just offer, we would be happy to work with Rock 
Island Arsenal to pursue what I think there are, you know, real 
opportunities in the future where we are not moving work from 
one place to another. It is really new work.
    Mrs. Bustos. All right. I don't know, Mr. Norquist, or, 
General, if you have anything to add, I would appreciate your 
thoughts on this as well.
    Mr. Norquist. Well, I just--I know that the Army is paying 
particular attention to this as it affects the Rock Island 
Arsenal with the up-armor of the heavy equipment, transporter, 
and other items. But you raise a good point, which is, part of 
what drives the cost of each one of these organizations is what 
level do I staff to. What is the level of workload that is 
coming through my organization?
    When I visited a number of depots, one of the questions I 
would ask them is I would say, look, we have these maintenance 
backlog issues. You know, what are you--are you hiring up? Are 
you addressing them? And part of their concern is, well, what 
is my funding going to look like next year? When am I going to 
receive it?
    And so when we talk about the point that Congressman 
Calvert raised about the budget on time, the CR, and so forth, 
those consequences are not just at our level. They are down at 
each of those organizations who is trying to plan a level of 
workload that minimizes the cost.
    And so I think the Army is working very carefully, 
particularly with Rock Island, to be able to address that. But 
as a department, the stability of that information for those 
organizations allows them to operate at a much more efficient 
level and at a better cost, and that helps protect the 
Department and the country.
    Mrs. Bustos. All right. General, anything to add?
    General Dunford. I don't have anything to add on that 
issue. Thanks, Congresswoman.

                             CYBER THREATS

    Mrs. Bustos. All right. Great. Thank you.
    Just one other question. Obviously, it has been well 
established at this point that foreign entities willfully 
engaged in and meddled in our elections during both the 2016 
and the 2018 elections. This is a clear threat to free and fair 
elections, a big concern, I think, to probably everybody 
sitting in front of you and certainly a big concern in our 
Nation. Regardless of party or political creed, this should be 
a basic position that we can all agree on that we need to make 
sure our elections are free and fair.
    It is my understanding that the U.S. Cyber Command has 
already established a track record of working to protect our 
elections, including disrupting internet access for Russian 
troll factories during the 2018 midterms. This budget requests 
$9.6 billion to support increased cyber warfare capacity, both 
offensive and defensive, to ensure we are protecting our 
country.
    Here is my question. Could you outline for our committee 
how this funding will grow capacity at the Department to 
protect our country from further cyber threats and hacks from 
foreign adversaries? And do you foresee this funding helping 
provide resources or capacity that could specifically help 
ensure free and fair elections?
    And maybe, General, if we start with you and then maybe to 
the Secretary.
    General Dunford. Congresswoman, I think what is a really 
important point is that probably prior to 2017, we viewed 
United States Cyber Command as a tool that was used for what we 
called an away game. A major policy shift that we made in 2017 
was to bring the full weight of the United States CYBERCOM to 
bear in defending the most important thing to our Nation, which 
is our democratic process.
    And so you can't separate what CYBERCOM does in protecting 
our elections. In other words, in 2018, that was absolutely 
General Nakasone and the team's number one priority in the fall 
of 2018, and as you have suggested even in this venue, we can 
say that they had some significant success. And the 
capabilities that they will continue to develop will be brought 
to bear in 2020 and beyond, just like there were in 2018, in 
support certainly of the primary organizations, domestic 
organizations responsible for elections.
    But I can assure you that under the Secretary's leadership 
and his predecessor, our approach was, what is the most 
important thing right now to our country? Defending our 
elections. What is United States CYBERCOM's number one 
priority? Defending our elections.
    Mrs. Bustos. All right. Mr. Secretary.
    Mr. Shanahan. Now, what--and I certainly echo what the 
chairman has said. If we like decompose the incremental $9.6 
billion in the budget and we were in a classified setting, I 
would walk you through program by program where that money is 
going.
    Last summer, a host of us met with General Nakasone. And 
over the course of 4 months, we went through and said, what are 
the future investments that need to be made to stay ahead of 
the threat, what are the capabilities so that we can get after 
new threats, and then where do we need more capacity so that we 
can grow this and address, you know, other areas in the 
Department? So that is the level of detail that is within the 
budget.
    But for a while, they were being not starved, but I think 
some of the attention being placed in recovering readiness had 
limited the growth. That is why this year, we have over ten--it 
is an over 10 percent increase in their funding.
    Mrs. Bustos. All right. Thank you, Mr. Chairman. I yield 
back.
    Mr. Visclosky. Mr. Aderholt.

                              BCA IMPACTS

    Mr. Aderholt. Thank you, Mr. Chairman.
    Let me--we have discussed a little bit--and I will pose 
this to anyone who wants to answer it at the table. But as you 
are well aware, there is a significant difference between the 
fiscal year 2020 defense requested funding and the BCA caps if 
a new deal is not reached.
    And can you just discuss a little bit about how you see 
this would impact the Department overall, and if there are any 
contingencies that you currently have in place to date would 
address the funding discrepancy that we would see at such a 
magnitude?
    Mr. Norquist. So I think the core of your question is what 
is the effect of a return to sequestration to the Department of 
Defense.
    Mr. Aderholt. Right.
    Mr. Norquist. And I think the clear point is it would be 
catastrophic. When you--first thing you would have is you would 
have undone a significant amount of the readiness gain that 
this Congress and this administration has spent so long 
investing in.
    When you realize that you would hire about 270,000 military 
personnel a year, reducing their training, that is a group that 
needs to go through, needs to get the same level at both 
advanced--the basic and the advanced training, when that is 
disrupted, there are consequences.
    We have seen improvement, you know, in the number of Army 
brigade combat teams that are ready going from 18 to 28, you 
would end up going backwards. Then you would also have the very 
point that the Congresswoman over here raised, which is the 
disruption to every depot, every installation, every 
organization that provides a service that counts on that level 
of stability to run Abram tanks or other things through 
maintenance, now all of a sudden getting a dramatically reduced 
order that they are still trying to manage with a workforce 
that was designed for a higher level.
    So I think it would be disruptive to readiness, it would be 
a major step back for our security, and it would introduce 
costs into the system that are unnecessary. And I leave it at 
that, unless the chairman or the Secretary want to add in.
    Mr. Shanahan. I would just make the point that it is a 25 
percent cut, and so it is, you know, not something you just do 
some belt-tightening exercise on. And, you know, at a macro 
level, you would either decide to invest in modernization and 
furlough quite a few people and take a lot of risk in terms of 
security, or maintain current force structure and then forego 
investment in modernization. But it would be a really, in 
essence, undoing of the National Defense Strategy.
    General Dunford. Congressman, as we have the debate, I 
think probably in simple terms we ought to look at it really in 
three categories. One is, it is about the support we provide 
for our men and women in harm's way. That is going to be 
impacted. Two is, it is our ability to deter potential 
adversaries. That is where we are going to see the impact. And 
three, it is our ability to respond if deterrence fails.
    So this is fundamental to our strategy. In other words, 
appropriate levels of resourcing in this budget, in the last 
two budgets have been directly and inextricably linked to our 
ability to execute the National Defense Strategy and sustain 
that competitive advantage I alluded to in my opening remarks.
    And I don't have any doubt that our competitive advantage 
will continue to erode and put at risk our ability to project 
power when and where necessary to advance our national 
interests in the future were we to go back to the BCA. There is 
absolutely no question in my mind about that.

                                BOOSTERS

    Mr. Aderholt. Thank you.
    Let me just shift gears just a second. It seems that after 
our meeting last December, each of the service branch now has 
its own hypersonic offensive weapons program, but we are 
waiting for new boosters to be developed. We have boosters 
already in production of a 50-inch size, my understanding.
    If there is a study that claims that these boosters are too 
expensive, could our office get some detailed information on 
that particular issue? And I think it--if possible, it would be 
best to field a limited number of weapons using what we have 
now. And my office has been in discussion with Dr. Mike Griffin 
with your office, and, of course, just encourage you to reach 
out to him because I think he has some real insight on that.
    Mr. Shanahan. We would be happy to do that. And as you 
know, Dr. Griffin is leading the effort to make sure that we 
leverage as much commonality between the three services in 
terms of bodies, boosters, energetics, you know, as many things 
as we can to be able to accelerate our deployment of 
hypersonics. But we would be happy to coordinate with your 
office.
    Mr. Aderholt. All right. Thank you. I yield back.
    Mr. Visclosky. Ms. Kaptur.

                              HYPERSONICS

    Ms. Kaptur. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary and Mr. Norquist.
    And, General Dunford, thank you for your lifetime of 
service to the Marine Corps and to our country and to your 
fealty to the oath that you have taken. We respect your service 
very much.
    Secretary Shanahan, thank you so very much for your 
openness to meeting with members of this committee. On the 
issue of hypersonics, could you please provide to us the future 
year defense plan for hypersonic test chamber funding and the 
sites associated with future funding; the factors that were 
weighed in the selection of the three test tunnels. And also, I 
understand that the Department is willing to consider other 
sites that would be less expensive that are fully equipped and 
prior to making final decisions. Is that my understanding?
    Mr. Shanahan. I believe so. Let me--I have done some 
homework since you and I have met, and the--you know, the basic 
selection criteria in determining where to do the hypersonic 
testing looks at, you know, existing capability, whether it is 
mothballed or not. Just what it is--you know, it would be like 
the size of a wind tunnel or, you know, basic performance. Then 
there is existing infrastructure and then realism of being able 
to, you know, have a representation of what a, you know, flight 
environment would look like.
    I know that our team is going to take a visit to Plum 
Brook, and I--maybe it is serendipity, but it was actually this 
week. So I know there has been some selections this year and 
then there is ongoing studies in 2020. The exact funding, I 
would have to get back to you with.
    Ms. Kaptur. All right. I just thank you for the dialogue 
and your interest. Thank you so much.
    Mr. Shanahan. You are welcome.

                                UKRAINE

    Ms. Kaptur. I wanted to ask, General Dunford, or any of the 
panelists, what more can the United States and our free-world 
allies do to gird Ukraine for the upcoming winter season 
against the possibility of Russia turning off the gas?
    General Dunford. Congresswoman, I can talk to what we are 
doing to help Ukraine defend itself, and I think you know we 
are providing defensive weapons and capability. We are also 
providing them cyber expertise. I don't have any details on 
exactly what we are doing or what we might do to help them with 
their fuel problem in the wintertime. We can take that for the 
record and get back to you.

                           FISHER FOUNDATION

    Ms. Kaptur. I would be very grateful for that. I would like 
to know if there is thinking anywhere along the lines regarding 
that.
    I also--General, in the budget that has been submitted, you 
specifically referred to the Intrepid Center, which I am so 
impressed with. My question is, are there additional funds in 
this budget to replicate that in other places in the country? 
And, again, I have to speak for my region where we don't have 
big bases. We have Guard and Reserve who also come home who are 
wounded warriors, including on the behavioral side. Is there 
any funding? How does one replicate some of the superb work 
that is being done at the Intrepid Center in other places in 
the country?
    General Dunford. I will take the first crack at it, 
Congresswoman. First, thanks to some help, those were privately 
funded by the Fisher Foundation. So the actual infrastructure 
was provided to the Department of Defense. What you will see in 
the budget, of course, is the funding for the medical support 
that goes into those facilities, and so we are always in a 
competition.
    The Secretary spoke earlier about human capital for cyber. 
We are in a fight for human capital for some of the medical 
specialties that are necessary to field these multidisciplinary 
medical facilities as well.
    And so in the budget, and we can get you the exact details, 
where you see requests for medical support, a piece of that 
will be to support not only--I used NICoE, but that is not the 
only multidisciplinary approach. Each of the services has been 
moving in that direction in a comprehensive way over the last 
couple of years, and that is part of the budget.

          SHORTAGE OF PSYCHIATRISTS AND BEHAVIORAL SPECIALISTS

    Ms. Kaptur. I would just point out that nationwide we have 
a severe shortage of psychiatrists, over 100,000. And in the 
behavioral arena among advanced practice nurses and behavioral 
specialists, probably five times that much. Our Chaplain Corps 
is burned out, in my opinion.
    And when we had the heads of West Point, Annapolis, Air 
Force Academy before our subcommittee, I was quite disappointed 
when I asked them the question, when you recruit for young 
people to come into the officer corps, do you have a level of 
physicians, the individuals who might be interested in medical 
careers. And I asked them how many each of them had graduated, 
and the number was generally five or under.
    I was actually shocked at their lack of connectivity on 
this particular issue, but also the responsibility that they 
might--you know, they might assist with as we try to help the 
military. So I just make you aware of that conversation.

                                 BORDER

    And finally, though none of my colleagues may agree with me 
on this, I just wanted to express an opinion about our border. 
I live way at the northern border. But in terms of the southern 
border, I think that what we are facing is a series of failed 
States and people who are fleeing for reasons that the United 
States is not responsible for.
    After World War II, we, through the military--and I am very 
uncomfortable with U.S. military deploying to our southern 
border, very, very--that is a slippery slope. But there is some 
experience in the military with displaced persons camps. And if 
one looks at resettlement and the proper care of individuals, 
the military really does have some remarkable history on that 
in Europe.
    And I think that the United Nations, through their 
resettlement programs--we need a diplomatic solution here, not 
just a policing solution. And I don't see that developing. And 
I think we could really do something remarkable working with 
our Canadian allies, with our Australian, Costa Rican, you name 
it. We could help people find safety.
    And I don't see that happening. I see a lot of political 
argument and all the rest. And the human side of this is 
getting lost. But maybe the military, based on its experience 
with large numbers of people who were displaced for reasons 
dealing with war, the world was transformed by that moment. And 
I think there is some history there that needs to be relearned.
    So I just wanted to state that, and I thank you for your 
testimony this morning.
    Mr. Visclosky. Judge Carter.

                            FUTURES COMMAND

    Mr. Carter. Thank you, Mr. Chairman.
    And, gentlemen, thank you very much for being here today. 
We appreciate the wisdom you bring to us and the information we 
are able to gather from you.
    General Dunford, it has truly been a pleasure and an honor 
to work with you, and wish you great success in the future.
    I would like to talk about the Futures Command, which just 
has been stood up in Austin, Texas, to the south of my district 
last August. It is designed to reorganize the Army's--the Army 
and address procurement requirements and warfighting concepts. 
Eight cross-functional teams are focusing on the Army's top 
priorities of long-range precision fires, next-generation 
combat vehicle, future vertical lift, networks, air and missile 
defense, and social lethality.
    These Army modernization efforts are the service's largest 
reorganization in 30 years and focus on both the unit structure 
and the equipment required to address both great power and 
nonstate actor threats.
    Now, as we put this together, we have got a lot of 
questions that we need to--at least I think need to be raised. 
And let me state from the outset, I am very excited about the 
Futures Command, and I think the modernization is long overdue 
in the procurement area, if no other place.
    But as you look at what we have done so far and what they 
are dealing with--I know they are having a--they are working 
extremely hard to stand up as quickly as possible their command 
down there, are you concerned that the Army may be moving too 
quickly? Are they putting speed ahead of thoughtful planning? 
Who in the Department is overseeing the Army's requirements 
process as well as their procurement activities?
    The Army is proposing to eliminate, delay, or cancel 186 
existing programs to shift funding to future modernization. 
What happens if Congress doesn't approve the plan? How do these 
decisions affect the overall Defense Industrial Base, 
particularly small businesses?
    The Army has a recent history of large and costly 
acquisition failures. Future Combat Systems, $21.4 billion 
invested from 2000 to 2009 and then canceled. The Comanche 
helicopter, $110 billion invested from 1988 to 2004 and then 
canceled. The Army is embarking on another round of heavy 
investment into future technology. What do you perceive to be 
the difference this time?
    Mr. Shanahan. I am assuming that is a question for me or 
many questions. First of all, and I have had a number of 
conversations with Chairman Visclosky on this subject, so maybe 
I will talk about kind of the three big challenges as I see 
them. Let's maybe start with giving--I will give the Army 
credit for the fact that they have a modernization plan. Let's 
just say----

                           ARMY MODERNIZATION

    Mr. Carter. I do.
    Mr. Shanahan [continuing]. That those six elements that you 
have identified are the right ones. And then I have a lot of 
confidence in General Murray and the team that he has been 
putting in place around him.
    The--there is--you know, when I just broadly look at what 
they are undertaking, it is more right now about execution than 
it is about strategy. And if I was going to--there is a 
thousand tasks that we have to undertake, but if there were 
three major tasks that I would undertake, the first one is how 
are they setting their requirements.
    So let's use long-range precision fires as an example. You 
know, when they determined both range and cost, you know, 
against, you know, the Russians or the Chinese, you know, are 
they making sure that we have got the right range and enough 
growth.
    And if we go all the way down through, you know, vertical 
lift, networks, whatever they choose as those requirements, 
they have to win. So if we get that part wrong on the front 
end, and that is where we have been putting in a lot of support 
around General Murray, because if you just go through the Army, 
no one is there that has done any development. It has been 30 
years.
    So your--and you left the Crusader out, but there is this 
whole list, a litany of these failed programs, and so that is 
why I worry about the execution piece. The programmatics is 
going to be the bread and butter, but if we get the 
requirements wrong, you know, it is, you know, game over.
    The part where we have spent time with Chairman Visclosky 
is if you are going to develop all this new capability, how do 
you transition out of the current industrial base, all the 
programs. That is the real work that has to be done now because 
you are making bets.
    If you take too much schedule risk, then you don't achieve 
that, and we have already told employees that we are going to, 
you know, change the industrial base, I mean, that is unfair to 
them. I mean, there is a whole bunch of, you know, complexities 
here. I think that is where the Army is right now.
    I have spent a lot of time with Dr. Esper, General Milley. 
But, I mean, this is--collectively, this is, you know, as big a 
program as you are going to find. This is where we all have to 
really help--we have to help the Army. I know we can shine a 
spotlight on things that they need to do, but we really need to 
help them because it is such a large undertaking. But that is 
how I have been, you know, really working with especially 
General Murray in the Army.
    Mr. Carter. And it is my understanding, and correct me if I 
am wrong, that you--part of the--part of what you plan to do is 
utilize knowledge both from industry and from academia as it 
relates to certain areas of the Futures Command.
    I agree absolutely General Murray is the right person in 
the right place. He is quite an effective man. And so I am very 
proud of him, and I think he is going to do a fantastic job. 
But it is--you have got to have big shoulders to bear this 
thing up because it is going to be a new concept.
    I am very hopeful, because if you look at industry versus 
government, industry is all about a bottom line and it all has 
to do with profit and loss, and so therefore, they are looking 
in detail about everything. And I think as we relook at how we 
procure things, and I know that we have been discussing this 
for a long time, I think we might actually become a more 
effective purchaser and a more effective warfighter by doing 
it.
    But it is a big job, and whatever resources that we can put 
to help, we need to know about those resources. And I know you 
have put a lot already into it, but I hope we will continue to 
inform this committee as to what resources you need so this can 
be a success. We don't want this to be a gigantic failure. We 
want it to be a gigantic success. So I love the great out-of-
the-box thinking, and I hope it rewards us very well.
    Thank you, Mr. Chairman.
    Mr. Visclosky. Thank you. I appreciate the gentleman 
raising the issue.
    And, Mr. Secretary, I do appreciate your comments. It is 
much easier to go down that new road, very exciting road, as 
programs get adjusted and dissipate. Those are very difficult 
problems to address, and I appreciate your serious approach to 
it and bringing that up today. I really do.
    Mr. Ruppersberger.

                                THREATS

    Mr. Ruppersberger. Okay. Thank you, Mr. Chairman.
    General Dunford, again, one of the key war heroes we have 
in this present time. These are some of the most dangerous 
times, and your leadership has been fantastic, and I just want 
to acknowledge that.
    Acting Secretary, I appreciate your candor, your direct 
answers to questions, and your reaching out to all of us. And, 
you know, I just hope that the theme, when it comes to national 
security, it is USA first. And if we could just live by that, 
you know, we will have our issues, but that is extremely 
important.
    And now, what I want to get into, over the last few years, 
our committee has discussed old and new threats facing our 
Nation, including nuclear weapons. In my opinion, if Russia, 
China, or the United States get into a nuclear war, the Earth 
is over as we know it. We can still, in my opinion, deal with 
what I know--deal with Iran and North Korea.
    Now, whether it is due to the development of lower-yield 
nuclear weapons, arms control treaties being broken, nuclear 
proliferation, or questioning what does and does not warrant 
nuclear response, I don't think there is any doubt that this 
threat, again, is severe.
    I also do not think the solution is for the United States 
to unilaterally disarm or not to develop certain type of 
weapons. If you look at world history, if you are weak, you can 
be taken and might be taken over. So I believe since World War 
II, we have not had a world war, and I just think we need to go 
in the course we are, and that is why this committee is trying 
to do what we can to help.

                             SEQUESTRATION

    And I do want to raise the issue too of sequestration. I 
have tried to answer the question of sequestration with every 
admiral and general. And each and every one, including you all 
today, has said sequestration is probably one of the most 
severe problems that we have had. It has made our military 
weaker. It has hurt us in many, many ways.
    Hypersonics, we are behind the eight ball in these areas to 
Russia and China because of sequestration. And shame on all of 
us, Republicans and Democrats, if we continue to allow that 
ever to kick in again. So that is just a good message and I am 
glad you are there.
    Now, the United States, again, must maintain that nuclear 
deterrent. However, what concerns me is the degraded ability of 
the United States and countries such as Russia and China or 
even North Korea to deescalate conflict before it leads to 
nuclear exchange.
    Now, while our military has effectively deconflicted 
situations in Syria with the Russian military, I worry that our 
civilian military leaders do not have the same level of 
communication and understanding with their counterparts. 
Misunderstood or unintended signals can have consequences, and 
there is no argument that our relations with certain countries, 
especially Russia, have frayed in recent years.

                     COMMUNICATE WITH COUNTERPARTS

    Now my questions. Can--Mr. Secretary or General, can you 
gauge your ability to effectively communicate with your 
Russian, Chinese, or even North Korean, or Iranian 
counterparts? Tensions have increased with these countries over 
the last few years. Has this reduced our ability to effectively 
communicate with our counterparts? And are there additional 
resources or authorities you need from Congress to ensure you 
can effectively communicate with your counterparts to 
deescalate a--in case a situation should arise?
    Mr. Shanahan. Maybe we will do a two-part answer. The 
formal channels to do communication with the Russians have been 
in place for quite sometime, and they are really on a military-
to-military basis. With the Chinese, we don't have that 
capability. And in a second, I will ask Chairman Dunford to 
speak to some of his recent activities and trips to China on 
how we are building that foundation.
    As to the North Koreans, it is through, you know, U.N. 
diplomatic channels that the communications take place.
    But maybe, Chairman, you can talk about your most recent 
visit to China.
    General Dunford. Congressman, maybe just compare and 
contrast. So since I have been in my assignment, I have met 
with my Russian counterpart four times on a full range of 
issues. We communicate very routinely, despite the difficulty 
in our political relationship. We have maintained our 
communication out of the political spotlight. And I am 
confident we have the ability to mitigate the risk of 
miscalculation and manage a crisis with Russia.
    With China, for more than a decade, we attempted to create 
a formal framework to do the same, with lessons learned from 
our Russian experience. When I went to China last year, they 
agreed to a Joint Staff mechanism where we would have direct 
communication between the Chinese and the United States. I am 
not confident that that is where it needs to be right now. It 
is a priority for us. We need to improve that.
    With some initial progress we had last fall, things have 
slowed down a little bit and we have reached back out to the 
Chinese to try to get--in fact, I wanted my Chinese counterpart 
to come to visit the United States this spring. It is their 
turn, if you will, to come and visit.
    So I think that is an area that we need to particularly 
work on. In the meantime, we would have to rely on diplomatic 
channels. We don't mirror image in terms of organizational 
construct or communications the Chinese, and we have to work 
our way through that as well.

                                 CHINA

    Mr. Ruppersberger. A lot of it has to do with kinetic. But 
one of the areas with China--and we know how much they--
aggressive they are in cyber. And have you looked or worked 
with maybe someone from NSA who might have a relationship in 
that regard also?
    General Dunford. Well, we have, Congressman, had 
conversations with them at every level. And, again, I think we 
are probably better than we were 2 or 3 years ago in terms of 
communications, but it moves very slowly. There is a lot of 
suspicion on both sides, and frankly, the Chinese system does 
not move as fast as maybe we would like.
    Mr. Ruppersberger. Thank you. I yield back.
    Mr. Visclosky. Mr. Diaz-Balart.

                                  F-15

    Mr. Diaz-Balart. Thank you very much, Mr. Chairman.
    Secretary and Deputy Secretary and General, privileged to 
be able to participate with you.
    And, General, again, I just want to add my words to what 
you have heard from my colleagues, words of just great 
admiration and gratitude. And I hope--because you know I 
represent Florida. It is a great place to spend time, so I am 
hoping that you are looking seriously at particularly certain 
parts of south Florida, which----
    Mr. Calvert. California is better.
    Mr. Ruppersberger. Florida in the winter.
    Mr. Diaz-Balart. All right. We have a disagreement among 
the committee members.
    Let me--the ranking member already mentioned the Space 
Force was just something that also--and I have spoken to the 
deputy about that and deputy secretary. Let me bring up the 
issue--another issue that concerns me, and that is for the 
first time since 2001, the Department has really pushed back--
pushed the Air Force what I believe is a step backwards to 
invest in this new fourth generation aircraft.
    The problems that--when I have looked at the numbers, they 
don't seem to add up. The aircraft will likely, from what I 
have seen, cost the same or more than the much more advanced F-
35. It doesn't align with the National Defense Strategy, and it 
clearly doesn't align with congressional intent to, again, 
recapitalize the Air Force's fighter fleet with fifth 
generation aircraft.
    And, in fact, I think it looks like this proposed shift in 
force structure has, again, I think, huge ramification for the 
future. And so as I have said before, the numbers don't add up.
    From what I can see, Lockheed Martin has the capacity to 
produce 42 additional airplanes by the time that the first two 
F-15s are in testing. The--by 2024, which is when the F-15 is 
supposed to be delivered, the cost per flying hours, from what 
I can see, is projected to be, frankly, less for the F-35.
    So in every measurement that I have been able to do apples 
to apples, cost, delivery, everything, not dimension, 
obviously, which to me is the overriding issue, survivability, 
there is no comparison.
    And so here is what I would like, if possible, Mr. 
Secretary, is--and, you know, not to do it today, but I would 
like somebody to kind of sit down with us and to really do a 
apples to apples--I know it is not an easy thing to do 
necessarily, but an apples-to-apples comparison on, obviously--
you know, the first question is, look, I said this to the 
deputy secretary, I have a 13-year-old son. My God, imagine the 
privilege if when he gets older, he would decide to do what, 
you know, these amazing human beings, which sacrifice and they 
join the U.S. military, right.
    If he was a pilot, do I want him to be in a fourth 
generation airplane or a fifth generation airplane? That is a 
no brainer. But on top of that, even disregarding that, the 
numbers seem to be much better for the F-35 than this new 
fourth generation plane.
    And so that is just point number one that I hope that 
somebody can get back to me. And so I don't need a comment now, 
I just do need someone to get back to me because, I mean, and I 
don't know if anybody does have a comment.
    Mr. Norquist. Absolutely, Congressman. We will get back to 
you with the information and walk you through at the detailed 
level.

                         LIGHT ATTACK AIRCRAFT

    Mr. Diaz-Balart. On the flip side, the light-attack 
aircraft, and so, you know, I have had some meetings--not the 
meeting that I had with the deputy secretary, who I think was 
highly productive, by the way, so thank you, sir, but I have 
had some meetings before, I won't mention with who, to try to 
get some answers as to what happened there.
    And since I have been in Congress, this is probably one of 
the--again, not the meeting that I have had with the gentleman 
here, but others--probably the worst meetings I have ever had. 
I am still waiting for some answers. I have not gotten answers 
on what happened there, the decision-making that took place 
there to, in essence, kind of pull back on what seemed to be 
something moving forward.
    And so I have expressed those concerns privately. I just 
wanted to, again, hopefully ask if I could get a response, a 
detailed response that we can look at it responsibly to figure 
out what happened there and what--how that decision was taking 
place.
    Mr. Norquist. Absolutely. We look forward to getting 
together with you.
    Mr. Diaz-Balart. And I appreciate that.
    I will go back to, again, the--I have some issues about 
some comments about the Space Force, but I don't want to abuse 
of my time, so I do look forward to getting some real answers.
    And, again, I will end this round by, again, General, 
thanking you for your service. Just our gratitude, as you can 
hear from all of us, is sincere, so thank you. Thank you, 
gentlemen.
    Thank you, Mr. Chairman. I yield back.
    Mr. Visclosky. Mr. Ryan.

                                CHINA 5G

    Mr. Ryan. Thank you, Mr. Chairman. Thank you, gentlemen.
    A couple questions. One, I want to kind of follow up on Mr. 
Ruppersberger's question with regard to China. Just following 
the belt-road initiative, following everything you are doing, 
and I think the defense strategy really captured the, you know, 
great power competition that we are all talking about now.
    One of the questions I want to talk about and ask is the 
proliferation of the 5G services. In March, Italy agreed to 29 
deals worth $2.8 billion related to the belt-road initiative. 
Just last weekend, the U.K. reportedly agreed to permit Huawei 
to build noncore parts of Britain's 5G network.
    Secretary Pompeo has been blunt that America may not be 
able to operate in certain environments if there is Huawei 
technology adjacent to it. General Dunford, in an article in 
Roll Call, cites you as saying that if London decides to 
proceed with Huawei's equipment, intelligence cooperation 
between the two countries could be undermined.
    Can you elaborate on those comments, specifically on the 
threat to U.S. national security by the expansion of Huawei 
building 5G networks at home or with our allies, and also if 
you can touch upon your comments with regard to the U.K.
    General Dunford. Sure. Congressman, you know, we start 
with, as you saw in our National Defense Strategy, we view 
allies and partners as a source of strength. It is critical to 
us. And I think we all agree on that.
    And one of the things that underlies an alliance is the 
ability to share information. And when we share information 
with allies and partners, we have to have common standards and 
information assurance. We have to be sure that our secrets are 
protected, whether it be intelligence or a technology transfer, 
those things have to be.
    And so in this venue, what I would say is that as we look 
forward, whatever decisions we make individually, whatever 
countries decide to do, it has to be informed by where we want 
to be on the backside of the new network. And if that network--
if we are not mutually assured that that network is secure and 
we can exchange information, it is going to impede our ability 
to be allies and to share information as freely as we have in 
the past.
    Mr. Ryan. I mean, that seems devastating with the U.K. if 
we can't have the deepest level of cooperation.
    General Dunford. Well, this is the argument that the 
Secretary has been quite vocal about in doing that. And, again, 
I just outline that this is less about an IT issue----
    Mr. Ryan. Right.
    General Dunford [continuing]. Than it is about the very 
connectivity between allies.
    Mr. Ryan. Yes. Mr. Secretary.
    Mr. Shanahan. Maybe just a comment here about the nature of 
competition with China. You know, what you see with Huawei is 
dumping, right. I mean, the integration of civil and military 
and the state-owned enterprises in China allow them to have 
price advantage in the marketplace, and so economic supersedes 
security, and that is what you are seeing in, you know, many of 
these countries as they make their decisions. The 
telecommunications industry has more influence in policymaking.
    And in our country as we start to look at, you know, and 
this is going to show up in rural infrastructure----
    Mr. Ryan. Yes.
    Mr. Shanahan [continuing]. How do we protect ourselves, 
because the--you know, the way I think about this is can you 
trust the network. There is a lot of technical, you know, 
language that goes along with Huawei and others and--but it is 
really can you trust the network.
    And if we are going to exchange information, you can see 
how much more. With 5G, we are going to have billions of 
devices connected to the internet, and if you can't trust what 
is on the network, and cyber is so important, we are really 
disadvantaging ourselves.
    It is easy to say what we are against. We have to put 
together a solution for our own country. In the past, we would, 
you know, with 4G we dominated because we could put together 
the ecosystem. I think that is what we need to be doing 
wholistically.
    We have got some programs going within the Department of 
Defense. I have had conversations with Chairman Pai of the FCC. 
But, you know, really collectively, we as a country need to 
have a whole-of-government effort here, and it plays into 6G. I 
mean, this just really is part of our future, but it is 
critical.

                         ADVANCED TECHNOLOGIES

    Mr. Ryan. That is my concern. I am sure it is, just from 
reading the defense strategy, the whole-of-government approach 
that China does. Now, when I started in Congress, and it still 
happens, they dump steel.
    Mr. Shanahan. Right.
    Mr. Ryan. You know, oil country, tubular products are 
coming in, and they are dumping it and putting our steel 
workers out of business. Now they are doing the same thing with 
the advanced technologies. And we have got to figure out how to 
use the whole-of-government approach, including our private 
sector, to start dealing with this. So we want to be partners 
with you as we walk down this road together.

                                SUICIDE

    Just a couple other questions. One, with regard to suicide 
prevention, we continue to see what is happening with our 
veterans. We have seen suicides 2 weeks ago, three veterans 
killed themselves at VA facilities, and just this weekend we 
had another vet in Ohio.
    And you are kind of the last sometimes--because most of 
these vets don't go to the VA, so you are kind of the last stop 
for them with any kind of connectivity. What are you doing to 
ensure these servicemembers receive the support they need for 
the mental health issues that many of them are dealing with?
    General Dunford. I could start, Congressman. And frankly, 
with your help and the interest of others, as you know, we have 
increased the access to mental healthcare significantly over 
the last few years, and you have been tracking this probably 8 
or 9 years now, reduced the stigma. And I really do believe 
that that particular issue is largely behind us, certainly much 
more so than it has been in the past where people are willing 
to----
    What I spoke about earlier was, you know, breaking down the 
barriers. And I am convinced each of the services is working 
towards doing this. But one of the things that I have seen in 
my own experience is that not everybody has a complete psych 
picture of an individual.
    So if they are seeing the chaplain for help or they are 
seeing a leader for help or they are going to seek mental 
healthcare, there isn't a way to see all elements of that 
individual's life. And that is one of the areas that I think 
the services have made significant progress is breaking down 
those barriers so we can see the indicators of mental health 
challenges and then intervene when those things are there.
    And I think the other significant area that we made 
progress in is alerting--you know, these individuals are never 
alone, and there is always somebody that knows something, and 
alerting peers to intervene as well and to alert leadership.
    And for the examples that you--the sad examples you raised, 
the suicides, I could give you many--many examples of where 
young marines, soldiers, sailors, or airmen have actually seen 
a change in the behavior of one of their buddies and never 
actually raised that to leadership and done what we call a 
save, and they have identified somebody who was suicidal and 
brought it to our attention.
    So despite all that progress, we are not satisfied with the 
overall outcome. But I would tell you, you know, I am closer to 
the end than the beginning, as has been alluded to here, when I 
look at where we were when I was assistant commandant of the 
Marine Corps in 2010 and where we are today in the Department 
in terms of dealing with mental health, our awareness of mental 
health, our efforts to try to improve the process, and more 
importantly, to elevate the issues so that people are 
comfortable talking about it and seeking help, I think we have 
made a lot of progress.
    I am by no means complacent or satisfied with where we are, 
but the trajectory that we have been on is, I think, the right 
trajectory. And with your continued help in resourcing these 
programs that we spoke about, we will continue to make 
progress.

                    East Coast Missile Defense Site

    Mr. Ryan. Great. Thank you. We have got a lot of work to 
do.
    Mr. Secretary, one last quick question, parochial issue. 
The Missile Defense Review that was released January 2019, at 
that time no decision was made on the third ground-based 
Continental U.S. Interceptor. We--Camp Garfield in my district 
is one of the top three choices for the East Coast missile 
defense site, and the site would create 2,300 jobs where we 
desperately need them in northeast Ohio.
    The environmental impact study was completed, and, as I 
understand it, there is no other impediments to making a 
decision on the third site. Has a decision been made on this at 
all, or can you update me?
    Mr. Shanahan. Yeah. No, I believe a decision has been made, 
and before I say what the decision is made, let me just check 
that I am current.
    Mr. Ryan. Let's break news right now.
    Mr. Shanahan. Yeah. No, I have done that before. It doesn't 
always go my way, so--but I will get you an answer today. How 
about that?
    Mr. Ryan. Okay. Terrific. Thank you.
    Mr. Shanahan. Yeah.
    Mr. Visclosky. I would simply want to support the 
gentleman's conversation about buy America, not exclusive to 
the issue of steel but products, and especially when you think 
about technology and our dependence, I do think it is an 
important issue.
    Mr. Cuellar.

                          BORDER--CARRIZO CANE

    Mr. Cuellar. Thank you, Mr. Chairman.
    Again, I want to thank all three of you all for your 
service.
    I want to talk about the border. I live at the border, and 
I appreciate folks like you all that come and visit us once in 
a while, but I want to make sure you don't take a 5-minute or a 
couple-hour visit and tend to know better than some of us who 
live on the border, and I say that very respectfully.
    Putting concertina wire on some of our international 
bridges, let's say Laredo, largest inland port, 16,000 trailers 
a day, safer, about three or four times safer than Washington, 
D.C., is a little insulting to us.
    But doing some of the work that I had spoke to the deputy 
secretary yesterday that would be very helpful that the 
military can help is addressing the carrizo cane--and I didn't 
bring any pictures, but I showed it to the deputy--that would 
be very helpful. That is an evasive plant that grows along the 
river in Texas on both sides, and I wish the Mexicans would do 
their part also.
    But that would be one area that you all can go and clear up 
whatever, 50 yards, whatever, you know, the CBP feels that we 
need to have, because otherwise, cameras, sensors, drones, 
aircraft, helicopters, whatever, they won't be able to 
penetrate because it is very thick and it grows very, very 
fast. So I would ask you to consider doing that. That would be 
extremely helpful for the line of sight for CBP. I would ask 
you to take a look at that.

                             LATIN AMERICA

    Mr. Cuellar. Changing subjects to Latin America, you know, 
I get concerned that in places like Mexico and Chile and other 
countries, when they poll, China and other countries are doing 
better than we are for various reasons. So we need to have a 
better presence there. I know last year, we did the Indo-
Pacific initiative, and one of the things I also spoke to 
Deputy Norquist yesterday is for y'all to consider whatever we 
want to call it, Plan Latin America, where we also do training 
and education, not militarize the border--I mean, Latin 
America, because there is a lot of sensitivities there, but 
there is a lot of things that we can do.
    And I believe I gave some information to the Secretary--to 
the Deputy Secretary, and I would ask you to take a look at 
that. We are working with the--you know, with the armed 
services, the NDAA, to look at that, but I would ask you to 
take a look at it.

                              SOLE SOURCE

    And, finally, my last question, and ask you to respond to 
all three of them, the Department of Defense Inspector General 
just found out that there is--DOD continues paying excessive 
profits on parts purchased from sole-source manufacturers and 
providers. And, again, I don't have a problem vendors making 
money, I am for that. But I do have a problem when, you know, 
46 out of 47 parts that they looked at had excessive profits, 
where they went from 17 to 4,451 percent, according to the IG, 
and I would ask you to take a look at it.
    I am a big supporter of what you all do, but when you have 
vendors losing parts, when you have all this excessive profits 
are made--and I am a capitalist--I just feel that the taxpayers 
are being taken advantage of.
    So, Mr. Chairman, I know, you know, this is my last series 
of questions, but I would ask you to look at those three items 
that I just mentioned. Border would be something that y'all, if 
you go to do that, clear the line of sight for it, and you can 
put a lot of technology in those areas and probably do a lot 
more.
    Mr. Shanahan. I am happy----
    Mr. Cuellar. One at a time.
    Mr. Shanahan. Yeah, okay, all right. No, no. Clearly, on, 
you know, making simple improvements to visibility is something 
we need to work with CBP with. You know, our role in concertina 
wire has been to support their requests. Obviously, we can 
provide input to them as to these are other things that can and 
should be done.
    Mr. Cuellar. Yes, the carrizo cane elimination in the river 
routes to provide access would be, in my opinion, in talking to 
the men and women there on a--literally on a weekly basis, 
because I live there, would be tremendous. So, I mean, I will 
be happy to follow up with Secretary Norquist and go into more 
details.
    Mr. Shanahan. Then in terms of South America, you know, the 
chairman and I spend a lot of time with Admiral Faller there in 
SOUTHCOM. And he looks at that region through a lot of 
different lenses, but one of the forums that we have now 
included him into is our China forum. Because, like you said, 
the Chinese are everywhere. I mean, they are practicing their 
predatory economics where--you know, they promise great things 
with infrastructure, and all of a sudden you can't pay for 
them, and they have done all the work and, you know, your debt 
levels are very high.
    Most of the investment in their countries is direct foreign 
investment by private companies. So as a country, we don't get, 
you know, the same kind of credit the Chinese do.
    Admiral Faller, as part of our National Defense Strategy, 
is working with allies and partners. So in working with the 
Colombians and the Brazilians, we can go down the list, how is 
it that we want to collaborate with them so that we can address 
some of these--you know, they really are threats. And then how 
do we counter the narrative where we are really a value-based 
society, and the type of--the way the Chinese, you know, the 
practices they bring are very much different than what we have 
to offer.
    And we would be happy to work with you on some of the 
language that you have been developing. The military to 
military and some of the other kind of programs we have 
established is invaluable in terms of how we, you know, 
strengthen those relationships.
    And then lastly, on the, you know, paying over market, wish 
it was a criminal offense, because we shouldn't. And I feel 
just as passionately about it as you do. We should pay fairly. 
People should make a profit because they earn it.
    Mr. Cuellar. Right.
    Mr. Shanahan. And we shouldn't be overcharged.
    Mr. Cuellar. Thank you.
    My time is up, but I want to thank all three of you all. 
And, General Dunford, thank you for your time. But all of you 
all, thank you. I want to be very supportive of what you all do 
and your men and women do. Thank you.
    Mr. Visclosky. Mr. Crist.

                               VENEZUELA

    Mr. Crist. Thank you, Mr. Chairman, and I thank the panel 
for being here. Appreciate your presence.
    Secretary Shanahan, I, along with a lot of people, have 
been following the recent developments in Venezuela, and I am 
concerned with how the situation has deteriorated and wondered 
if you could speak to your views as Acting Secretary what the 
situation is and what else we may know.
    Mr. Shanahan. We--you know, as you are tracking, it is 
extraordinarily fluid, and it is, you know, almost day to day. 
What I would tell you is that later today, Chairman Dunford and 
I will be over with Ambassador Bolton, Secretary Pompeo. We--
and Secretary Mnuchin's traveling. But we are working this as a 
whole of government, and when people say there are--you know, 
all options are on the table, they literally are. But we work 
it as much diplomatically and economically to impose pressure.
    You know, we have got the Cubans there, we have got the 
Russians, the Chinese, so many dimensions, and not all of them 
are visible through the media and other channels. We are really 
turning up the gate. This is not a timetable we control. And to 
the degree we can respond and alter our tactics and take 
advantage of the situation, we have been.
    I don't know, Chairman, if you want to add a comment or 
two. We are--we have done exhaustive planning, so there is not 
a situation or a scenario that we don't have a contingency for.
    I would also offer that we are in close partnership with 
Colombia and Brazil. We are taking a regional approach. This 
isn't just, you know, the United States showing up, but----
    Mr. Crist. Yes, sir.
    Mr. Shanahan [continuing]. Taking the security situation 
very seriously.
    Mr. Crist. Well, as I understand it, I think there is 50 
nations that are supporting Guaido?
    Mr. Shanahan. Fifty-four, yes.
    Mr. Crist. Fifty-four, Guaido.
    Mr. Shanahan. Yes, sir.
    Mr. Crist. General, did you have anything to add?
    General Dunford. The only point I was going to make, 
Congressman, the Secretary got at at the end, is that the one 
thing that Admiral Faller--and I am now speaking to the 
military dimension of the problem, as the Secretary said----
    Mr. Crist. Yes, sir.
    General Dunford [continuing]. It has been primarily 
diplomatic and economic with planning militarily. And then, as 
you know, we moved humanitarian assistance down there, and 
obviously we have intelligence capabilities.
    But the one thing that Admiral Faller has really led, I 
think, well in this regard is a multilateral approach. And so 
our communications with others in the region--I think it really 
is very, very important that we work with others in the region 
to solve this problem.
    Someone before you mentioned U.S. influence in the region. 
And what I have seen, in unclassified surveys that have been 
done lately, is actually U.S. influence in the region and the 
perception of U.S.--United States in the region is actually 
moving in the right direction. The trends are in the right 
direction. And I think as we manage the crisis in Venezuela, we 
need to manage it in a way that continues that trend as well. 
And that is, I think, what we have done to date and certainly 
what the direction and the guidance from the President has been 
to us.
    Mr. Crist. Well, thank you very much.
    Mr. Calvert. Will the gentleman yield just for--follow on 
that.
    Mr. Crist. Of course, of course, certainly.

                       MEXICO AND SUPPORT MADURO

    Mr. Calvert. Has Mexico changed their position yet as far 
as their continued support of Maduro?
    Mr. Shanahan. I don't believe so.
    Mr. Calvert. That is disappointing.
    Thank you. Thank you.
    Mr. Crist. Thank you very much. I appreciate your service 
to the country and being on top of the situation.
    Thank you, Mr. Chairman.

                             SEXUAL ASSAULT

    Mr. Visclosky. Secretary, I have three items I would like 
to touch on, and then for the members who are here, to give 
them a second opportunity.
    The Department will be releasing its annual report on 
sexual assault at some point in time in the near future. But I 
would note that sexual assault reports have spiked to an all-
time high in 2017, and only 3 percent resulted in convictions. 
Not knowing about any one of those instances, 3 percent may be 
exactly right, but it makes me wonder.
    In 2015, the Pentagon survey indicated 40 percent of the 
victims reported that their command encouraged them to drop 
their complaint. With a report to do soon--and I appreciate 
that you gentlemen are committed to dealing with this issue 
that is societal, but it is a problem at the Department--could 
you just very briefly touch on that? And are there any 
additional efforts or conversations that are taking place to 
deal with this issue?
    Mr. Shanahan. I would be happy to address, and then my 
counterparts can, you know, weigh in.
    So, first of all, any sexual assault is one too many, no 
matter what the, you know, the number is. The only number that 
matters is zero. And in this world where we are in a 
competition for talent, if that is the kind of treatment you 
get, it makes it really hard to compete for talent. So the 
numbers aren't in a place that is acceptable.
    The two areas of focus for us are, one, the system itself. 
Is it--is it--you know, think of it as due process. Is there 
sufficient resources? Is there accountability? Is the threat of 
retaliation mitigated? There is a number of these things. And I 
think what you will find shortly--and Mr. Ryan's gone, but this 
would be news-breaking. We are going to criminalize certain 
activities in this next year to, you know, reflect the 
seriousness that we are going to take on certain behaviors.
    So there is an element of how do we make the system that we 
have--and our system is broad, because, you know, we do--you 
know, we are responsible for every dimension of our servicemen 
and -women's behavior.
    The third piece, which is really, when you break down the 
numbers, you do--whether you want to do a heat map or the 
detailed analytics, is the behavior of certain populations. And 
we know--and when you see the sexual assault report, you will 
see that there is a targeted--there is an opportunity to really 
work the behavior, and that comes from leadership teaching 
certain age groups what is acceptable and what is not. And I 
think that is a real opportunity for us.

                     DAYCARE--NAVY AND MARINE CORPS

    Mr. Visclosky. I appreciate--I mean, that would satisfy--I 
appreciate the initiative, because I am very concerned about 
the issue of retaliation. I think everybody on the committee 
is.
    The second item, and it is not really a question, but it 
just literally was a topic of conversation when the Navy 
testified yesterday. Between the United States Navy and the 
Marine Corps, there is a waiting list for daycare of over 8,000 
sailors and marines. And what was distressing is that the 
Department of the Navy would increase spending by $7 million 
this year but ask for no new capacity.
    The Marine Corps, in their budget, would be spending less 
than they did 2 years ago on the issue with no new capacity. We 
are going to be marking up in 2 weeks from today, in 
subcommittee--and simply indicated to the Secretary Chief--and 
I don't have the Air Force and Army figures in front of me--
that--there is no way of telling if I am going to be on this 
planet tomorrow morning, let alone next year when we have a 
hearing. And just want, in fiscal year 2020, for the sake of 
these people who are desperate for daycare, to somehow work 
with your department and get something done, despite what the 
pending budget request is.

                              SPACE FORCE

    The third item I have, and it is a very serious concern to 
me, is budget justifications. And I would just give a couple of 
examples and ask for a response.
    Obviously, we have a new proposal from the Department for 
the Space Force that is about $72.4 million; Space Development 
Agency, $149.8 million; and the Space Command, $83.8 million. 
The Space Force gives an estimate for the cost over the next 5 
years. But of the three, it is the only one that gives us that 
extended estimate. It is $2 billion.
    The details for the actual implementation of the Space 
Force are yet to be developed, as I understand it, as evidenced 
by the request for transfer authority for funding for a 5-year 
period, with an additional 2-year option as part of a 
legislative proposal. And again, it is easy to spend money this 
year, and then we are stuck.

              REORGANIZATION OF MILITARY HEALTH PERSONNEL

    We have the issue of a $250 million request for the 
implementations for the reorganization of military health 
personnel. Details are to be submitted later this summer. Our 
bill is going to be done on May 15, and, of course, then we 
have the process ahead of us.

                             BUDGET DETAIL

    I would indicate that during our hearing in March for one 
of the agencies, there was a one-page justification for an 
expenditure of some significant sum of money. And when I asked 
the witness when the supporting documentation for the one page 
of justification would be presented to the committee, we were 
told mid-April, which was a completely unsatisfactory answer.
    I have in front of me a paragraph that is a request for a 
new program for $242 million. I have another paragraph for a 
program for $250 million. And I appreciate that there are 
changes, and I appreciate that there is a sense of urgency at 
the Department that I have not seen in my tenure here. But we 
have a responsibility, from a budget standpoint, to see 
details.
    And whether, Secretary or Mr. Norquist, I am not happy. 
Some departments, agencies have been very fulsome, very 
cooperative, but it is uneven and, from my perspective, 
incomplete.
    And looking ahead, we are where we are today in 2020. What 
should I expect for 2021? To put it as my good friend and 
former Chairman Frelinghuysen would say, I think it has been 
lacking.
    Mr. Norquist. So if you are unhappy, then, on the budget 
justification, Chairman, then clearly I will be unhappy with 
the level that you have been receiving. I invite you to the 
summer meeting, but to those who aren't, my answer is let me 
know and I will follow up.
    Our concern is always that you need to have the same level 
of information to do the oversight that the OSD would over the 
services over the others: What is it for, what is the needs, 
what are the requirements, what are the alternatives, those 
types of things.
    We tend to produce, you know, 116 volumes worth of budget 
data. It fills entire bookshelves. Much of that is routine. But 
there are certain areas that become a particular focus. And 
making sure that you have the adequate level and the 
appropriate level of justification for those is essential.
    I appreciate your point about the balancing with the speed, 
but even with speed, we still need to get you the data. So we 
look forward to working with you on any of the examples you 
brought up to be able to make sure that we can address those 
questions. But that is an essential function that both of our 
organizations have to be able to adequately address, so you can 
have confidence in where your assigning taxpayers' money and 
you can have confidence in what you are investing in and what 
the long-term implications of that are.
    Mr. Visclosky. Again, in some instances, it has been very 
good. In others, it has been very lacking. And I would point 
out, for the record, that we were on time. This was the first 
year in some time we were on time.
    And, in fact, not anyone's fault in this room, there was a 
delay in another 5 weeks for this mission of the budget. So 
there was plenty of time this year. There was predictability. 
So that is why I, again, find it particularly upsetting in some 
instances.
    Mr. Calvert.

                              SPACE FORCE

    Mr. Calvert. Mr. Chairman, I will just have one line of 
questioning about the--you brought up the Space Force. And I 
recognize we have had these discussions. I talked to Mike 
Griffin this morning about the space development portion of it. 
And it is true that this new dimension is something that we 
need to move on as quickly as possible.
    I really don't have a real problem, other than how this 
Space Force is put together and how we pay for it, as far as 
the Space Force part of it. And the combatant commander is 
necessary, and I understand that portion of it. I am following 
very closely--I had a very good discussion with Mike this 
morning, the space development part of it and that that is done 
properly and that we have transparency on how we do that. That 
improved today, and I--and I appreciate that. So we will be 
keeping track of that.
    As the chairman pointed out, I thought it was a secret we 
were marking up on May 15. It is not a secret anymore, Mr. 
Chairman, right?
    Mr. Visclosky. Oh, forget I said anything.

                                 GOOGLE

    Mr. Calvert. But we have a very short timeline, so any 
information that we need to have, we need to get as soon as 
possible where we can put that together.
    The other issue I would like just to bring up is Google--I 
am hearing a lot about that being from California--assisting 
China but not wanting to assist the United States military, 
which I find troubling. And I suspect that you find it 
troubling also.
    But to have a U.S. corporation that would, in effect, 
contribute to the erosion of U.S. military superiority is 
troubling. And I would hope that the military would have a 
memory of that. So that is just a point I want to bring up, Mr. 
Chairman.
    Mr. Visclosky. Mr. Calvert is an example of what I wish 
would go on in all committees in Congress, and of course, it 
also refers to our former chair of this subcommittee, as 
someone to keep me in line, correct me when I am wrong, and 
draw my attention to detail. I would point out, however, Mr. 
Calvert asked that we be as transparent as possible.
    Mr. Calvert. That is true. Thank you, Mr. Chairman.
    Mr. Visclosky. Mr. Crist.
    Mr. Crist. Thank you, Mr. Chairman.

                      SOUTH KOREA JOINT EXERCISES

    I wanted to explore North Korea a little bit. In early 
March, it was first reported that the military would end major 
U.S.-South Korea joint exercises, joint military exercises. I 
was curious who made the decision to end these exercises, and 
what is the military doing instead to maintain readiness 
against an adversary that remains one of our most dangerous 
threats.
    General Dunford. Congressman, I am glad you asked the 
question. For clarity, we didn't end exercises. We rescoped the 
exercises. And the one thing I will start by saying is that I 
am absolutely confident that we have mission-essential tasks 
for our U.S. forces and then our combined forces, and that the 
exercise construct that we have in place right now will allow 
them to continue to do what they say they need to do, and that 
is to fight tonight. I am confident of that.
    What exercises have traditionally been on the peninsula 
really were twofold. One was for deterrence, and so we 
advertised them quite a bit. And they were large and they were 
visible and they were designed to send a message. And then, of 
course, inside of those exercises was also the need to develop 
combat readiness.
    We have not compromised on the latter. We have adjusted on 
the former as we have supported the military--the diplomatic 
effort against North Korea.
    So we have worked very closely. The Secretary's provided 
oversight with General Abrams, Admiral Davis in the Pacific, 
and our Korean counterparts, which we speak with--speak to 
routinely, to make sure that the exercises that we have in 
place right now will allow us to get after that readiness issue 
that I spoke about, even as the profile of the exercises meets 
the diplomatic environment and contributes to the path that the 
President and Secretary are on.
    Mr. Crist. Thank you. I am pleased to hear that.
    Thank you very much. I yield back, Mr. Chair.
    Mr. Visclosky. Ms. Granger.

                         WORKING WITH COMMITTEE

    Ms. Granger. Thank you. I just have an observation and a 
brief question.
    Congress doesn't enjoy a great deal of admiration from the 
public, and I think one of the reasons is--has to do with 
issues like we discussed today, the JEDI situation and the 
medical records lack of success.
    An observation, there is a complete lack of urgency from 
the panel that appeared before us. Instead, there was really an 
amazing complacency. I think we all walked away very angry--not 
just disappointed, but very angry with that panel that appeared 
before us for the medical records.
    I would suggest to you, Mr. Secretary, that it is going to 
be very difficult to do what we are asking you to do with the 
persons who appeared on that panel. There was no urgency 
whatsoever.
    Next to you is Mr. Norquist. I don't know if you know this, 
Mr. Norquist, but I quote you very often, because when I 
chaired Defense, we had a problem. We made the problem. We put 
together a great bill, great funding, very specific. Secretary 
Mattis worked very carefully, closely with us, to say what we 
need.
    When it was over, we gave that secretary 5 months to spend 
the money that we just passed. I went to Mr. Norquist and said, 
this is our fault, we did it. Is there an answer to this? And 
he gave an answer. He says, yes, there is some things you can 
do with flexibility.
    And we need to look for answers and ways to be--
particularly with something as urgent as our defense, we need 
to do the very best job. We need to have an urgency and an 
understanding of how important this really is.
    Mr. Norquist, I know that we talked about, because we gave 
that little bit of time, you can either make mistakes or you 
can lose the money. We are still getting money that is returned 
to the Treasury. Can you tell us where that comes from and what 
are the--like the three major problems that cause that?
    Mr. Norquist. Sure. So there is a couple of things. When 
Congress appropriate funds, in order to maintain the power of 
the purse, there are certain controls around them that 
generally extend to how long we are able to put that money 
under contract. So operation and maintenance funding is 
available for a year.
    Usually at the end of the year, most organizations have 
obligated 99, 99-1/2 percent. We don't want necessarily to get 
to 100 percent. We want people to recognize there are certain 
things where you are better off not putting the money on a 
contract if it is not valuable enough.
    Once they have put it on contract, then you can either have 
the service comes in at less than you thought or you could have 
other items that--you decide to cancel the service because you 
are unhappy with the contract performance. Those funds are 
deobligated. So that is when you see reports that say the 
Department didn't use a certain amount of money; it stayed in 
the Treasury. Because at the end of the day, the Department 
generally did something right in terms of didn't spend it, held 
a contractor accountable.
    There are certain places in the budget where we have issues 
that come up. For example, General Accounting Office has ruled 
that when we do PCS moves, the time we obligate the money isn't 
when the PCS occurs or the contract is signed, it is when we 
notify the family. So now you are 6 months away from having any 
idea of what the actual bill is.
    Those types of things create places where the uncertainty 
level is much higher. And so one of the things we look for is, 
working with the committee as well as with internal controls, 
how do we get better controls around those use of the funds to 
be able to be better in predicting.
    So those are the types of the things we look at. We work 
with the committee in terms of ways of adjusting that, but it 
is both--I don't want to say it is just the committee. 
Internally to the Department, there are things we do to try and 
track the predictions around how much funding is required for 
an item. So we leave as--we use it for the highest priority 
items and ensure it gets properly executed.
    Ms. Granger. Thank you. On the billions that we have spent 
in the last, what we determined 17 years--17 years on this 
program, we can't get that back. And it doesn't go to Treasury. 
It is just gone. Let's stop that. And Mr. Norquist could be a 
great help.
    Thank you.
    Mr. Visclosky. In a way, I would like to follow up with Ms. 
Granger's line of questioning. And that is the issue of unspent 
funds, and we will hear from Mr. Norquist. In 2018, the 
Department undertook a root cause analysis and essentially 
determined that there were about $17 billion almost, 
approximating the State of Indiana's budget, of expired or 
canceled funds at the end of fiscal year 2017. My understanding 
is it had to be a cumulative figure.
    In the budget submission, there is several requests for 
additional flexibility on behalf of the Department. One is a 
provision that would extend the use of funds to cover 
contingent liabilities on three programs that are brought 
forward. Could you walk me through that $17 billion in the 
sense you talked to Ms. Granger about it----
    Mr. Norquist. Sure.

                           CONTROL OVER FUNDS

    Mr. Visclosky [continuing]. And somewhat addressed that?
    You also mentioned in your answer better control, which I 
am more interested in, to be very frank with you, than more 
flexibility right now. Could you address that?
    Mr. Norquist. Certainly. So let me explain the $17 billion. 
So we take the life of the money, 1 year for O&M and so forth, 
and then there is 5 years after which the contract has been 
awarded but till it is paid out.
    So when you get to the end of all of that, the question is 
how much of the money did you receive was actually paid out 
from the Treasury to a soldier in salary or to a vendor for a 
service. The answer is about 98 percent. So you--at the end of 
a year, you may have obligated 99\1/2\. But by 5 or 6 years 
later, when you got to final payments, you are at 98 percent.
    Now, with the Defense Department's size, 2 percent is about 
$17 billion. That is a missed opportunity, but it is not in and 
of itself a bad thing. Many of those reasons those money aren't 
being spent is when somebody stops a contract, you got delivery 
for less, people did a good job on negotiations. So I don't 
want to imply--you know, taxpayer money not being spent is not 
a problem, right? That is often a good and virtuous thing.
    What we did in the analysis----
    Mr. Visclosky. It is always a virtuous thing.
    Mr. Norquist. What?
    Mr. Visclosky. That is always a virtuous thing.
    Mr. Norquist. Always a virtuous thing.
    The issue that we looked at is why, right? Is there reasons 
that we are putting money on things that don't end up paying 
out that are not related to holding a contractor accountable?
    One of the ones you talked about were those three 
contracts. And what happens is, when we put money on a 
contract, we have to set aside funds for contingent liability. 
What if the contract is terminated? This is part of our full 
funding requirement. Should the program end, do we have the 
money to close it? That money is only, again, available for the 
5 years. So if the program lasts long enough, when we go to 
close the contract, the money that was set aside to close that 
contract is no longer available for the very purpose we 
originally set it up for.
    So some of these programs are getting to that point, and 
the question is how do we avoid needing to use current-year 
money to pay a bill for which we did, in fact, set aside the 
right amount of money in the past but it is reaching the end of 
its life.
    There are other ways of dealing with contingent liability. 
I would be happy to talk to the committee about those. But the 
idea is, you don't want to have to pay--I don't want to say pay 
twice. The money doesn't actually--it just stays in the 
Treasury. But the Congress gave us money for that, and then we 
had to later come back and either reprogram or ask again for 
the very same thing again, because we have exceeded that 5-year 
period.
    You asked about what we look at internally. So one of the 
side effects of the work we have been doing on the audit and 
others is to be able to produce extensive datas on transaction-
level activity. And we would find places where people were 
concerned that money was being ordered, put on contract, and 
then deobligated later.
    Well, now we can run analyses that determines where exactly 
were those. And if they occurred very short periods across from 
each other, right, one occurred right before the end of the 
fiscal year and soon thereafter, then you get to dive in and 
look at why that is happening.
    The Army found, for example, that in some cases, units that 
had deployed canceled the orders for the supplies that they 
needed. And then a unit came in, and the next unit who needed 
to fall in on that equipment then replaced the order. For the 
units, that didn't seem to be an issue. But for the Department, 
we had crossed fiscal years. So the contracts that had been 
placed were then canceled, those funds deobligated, and new 
funds had to be used.
    Now, in that case, you can often fix it with a process 
change up front. But what we are trying to do in general is 
make sure that when Congress gives us money for a purpose, we 
soundly use it for that purpose; we don't leave it to be 
unobligated. The Congress didn't give us extra money with the 
idea we are not going to use it. They gave us money with the 
expectation that we would use it for readiness. And building 
these controls and working with the committee on areas where 
there is a legislative potential fix is very important. And 
some of these create secondary effects, and we want to make 
sure we work through those with the committee so that there are 
solutions, not a new round of challenges.
    Mr. Visclosky. I appreciate it, and do want to work through 
with you, because as you point out, it could be the payment of 
a new person who has enlisted in the military, or did not, and 
you have not expended those moneys, or a very sophisticated 
contract.
    Also, do appreciate--it is not wrong--in fact, a virtue--if 
you have set aside moneys to make sure you can meet that 
contract and you come in under that and have saved people's 
money. That is not bad.
    Mr. Norquist. Okay.

                           FUNDING DECISIONS

    Mr. Visclosky. I would tell you that the question in my 
mind is relative to the national debt. I am not going to have a 
conversation about that today.
    But if we borrow money, I make one set of decisions if I 
spend $1; I make another decision if I spend $1.10. I just--I 
have a different timeframe.
    On this annualized basis, as far as prioritization of 
programs, if in the recesses of somebody's mind they know we 
can take moneys from the past, and, if you would, enhance the 
budget we have asked for, those prospective requests could 
potentially be different than they would if we know there is a 
fixed amount of money and we can't go back in the past and 
recapture those funds, if you follow my----
    Mr. Norquist. So I think, if I understand you, Mr. 
Chairman, is there is a risk, if one does this incorrectly, 
that somebody will bet on being able to receive the past money 
and therefore not act for the correct amount. That is a 
problem. That is what you do not----
    Mr. Visclosky. Or assume we have----
    Mr. Norquist. Or assume they have it, right. So what we 
would be looking for are solutions where funds were made 
available for the service.
    So you think about, you open up ships to do maintenance and 
repair on the ships. Some of those ships have fewer problems 
inside than you thought, and therefore the cost of doing 
maintenance is much lower. Others, the costs are higher. You 
would not want to--you would want to be able to rationalize 
across that. What you didn't want to do is set up an incentive 
where people intentionally underestimated the requirement under 
the theory that they were going to get covered for something 
else.
    So I understand your--the point you are bringing is there 
are some risks of secondary effects, and I think we always have 
to be intentive into the budget rules to creating the right set 
of incentives that people use money wisely and don't either 
feel the need to hit a high obligation rate or feel the belief 
that somebody will always come and rescue them if they don't 
have enough. And that is a tight challenge.
    Mr. Visclosky. I understand you have those two requests. I 
would not express an opinion on them one way or the other, but 
do, again, harken back to your conversation with Ms. Granger 
where you talked about controls. I think that is the place to 
start.
    Since you mentioned shipbuilding, I will simply conclude by 
understanding--I understand there is a change in the Truman 
that would have an immediate impact on 2020, in the great 
scheme of the budget, not significant, but $17 million and then 
the outyears. Obviously, that is a new item and would enter 
into discussions with you relative to that.
    Mr. Calvert. Oh, I am sorry. Mr. Diaz-Balart. I apologize.

                               VENEZUELA

    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    I realize that it is getting late, so I will be brief. Just 
two questions. First, about Venezuela. The reality of the 
Maduro's dictatorship is that you have, you know, Cuban intel 
and military folks there; you have got Russian presence; you 
have got Chinese presence; you have got Iranian presence; you 
have got terrorist organizations like Hezbollah and the like.
    I have been saying that, to me, that is a national security 
threat to the United States. Am I wrong?
    General Dunford. I think what you said is exactly 
consistent with what the President has said, Congressman.

                            F-35 AND TURKEY

    Mr. Diaz-Balart. By the way, I would also say that that is, 
in essence, the same situation as Cuba. But speaking about 
Venezuela, I just wanted to get that for the record, because I 
think this is a potential serious national security threat 
right here in this hemisphere.
    And second question is going back to the F-35 and the issue 
about Turkey. Do the Turks understand that if, in fact, they go 
ahead--and I fear that they probably will--but go ahead with 
these, you know, Russian missiles, that it is impossible for 
them to receive the F-35? Has that message been sent clear 
enough or are they still--is there any possibility that they 
haven't understood the message?
    Mr. Shanahan. I think there is very little possibility that 
they have a misunderstanding.
    Mr. Diaz-Balart. And there is--I don't have that 
misunderstanding. And it is one or the other. They cannot have 
the F-35 in the same----
    Mr. Shanahan. Yes, there is no confusion on our part.
    Mr. Diaz-Balart. Right. I just wanted to make sure.
    Thank you, gentlemen.
    Thank you, Mr. Chairman. I yield back.
    Mr. Visclosky. Gentlemen, thank you very much.
    We are adjourned. Thanks.

    [Clerk's note.--Questions submitted by Mr. Crist and the 
answers thereto follow:]

                    Banks on Military Installations

    Question. Secretary Shanahan, during consideration of the House's 
version of the FY 19 NDAA, an amendment was adopted that would have 
allowed banks to operate on military installations, utilizing non-
excess property, free of charge. Or, in the case of banks already 
operating on military installations, the amendment would allow those 
banks to renegotiate lease terms. While the amendment was ultimately 
stripped from the final bill, I believe this amendment would have 
dangerous consequences in a time where defense budgets are stretched 
thin, particularly in terms of installation operating accounts. An 
amendment like this would open the floodgate for current for-profit 
businesses that already operate on bases like restaurants and various 
retail outlets to push for a similar status, resulting in untold 
millions in lost revenue DoD-wide. During debate on the amendment, 
certain House Armed Services Committee Members stated that DoD opposed 
a policy to allow banks to operate on military installations free of 
charge. Can you please clarify that this is indeed the position of the 
Department of Defense and why? Further, do individual installations 
currently have the ability to enter into lease agreements where such 
individual installation may cover all fees, services and utility costs 
assessed with regard to the leased property?
    Answer. a) During debate on the amendment, certain House Armed 
Services Committee Members stated that DoD opposed a policy to allow 
banks to operate on military installations free of charge. Can you 
please clarify that this is indeed the position of the Department of 
Defense and why? The Department opposes a policy to allow banks to 
operate on military installations free of charge because 10 U.S.C. 
Sec. 2667 requires the Department to receive fair market value (FMV) 
for leased space. Therefore, the Department opposes any effort to 
undermine the requirement that commercial entities pay FMV for DoD 
property leased pursuant to the authority of 10 U.S.C. Sec. 2667, as 
doing so would amount to a federal subsidy of the commercial 
enterprise. Unlike local schools, for which 10 U.S.C. Sec. 2667(k) 
provides an exception to the requirement to pay FMV, private banks are 
commercial entities seeking to locate on military installations for 
corporate profit motives--a circumstance where a federal subsidy would 
be inappropriate. In addition to being an inappropriate practice, it 
would cost DoD the use of needed appropriated funds to directly 
subsidize a private entity by providing ``services and utilities'' 
without charging for them. DoD charges other commercial entities 
located on the installation for services and utilities. Eliminating 
these charges would be a direct drain on DoD's appropriated funds at 
the expense of mission readiness. b) Further, do individual 
installations currently have the ability to enter into lease agreements 
where such individual installation may cover all fees, services and 
utility costs assessed with regard to the leased property? Current law 
requires the Department to seek FMV for lease agreements unless 
excepted elsewhere in the law. In receiving payment of FMV in 
consideration of the lease agreement, individual installation lease 
agreements may accept appropriate goods and services received by the 
Department, when properly valued, as in-kind consideration in lieu of 
cash lease payments not to exceed the total value of the lease.

    [Clerk's note.--End of questions submitted by Mr. Crist.]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
</pre></body></html>
